<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
CHARLES H. TAYLOR, North Carolina  DAVID E. SKAGGS, Colorado
RALPH REGULA, Ohio                 JULIAN C. DIXON, California
MICHAEL P. FORBES, New York        
TOM LATHAM, Iowa                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Jim Kulikowski, Therese McAuliffe, Jennifer Miller,
                     Mike Ringler, and Cordia Strom,
                           Subcommittee Staff
                                ________

                                 PART 6

                          DEPARTMENT OF JUSTICE
                                                                   Page
 Attorney General.................................................    1
 Federal Bureau of Investigation..................................  295
 Drug Enforcement Programs........................................  387
 State and Local Law Enforcement..................................  507
 Immigration and Naturalization Service...........................  585
 Prisons and Related Issues.......................................  691

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
49-212                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director
















DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                       Thursday, February 26, 1998.

                         DEPARTMENT OF JUSTICE

                                WITNESS

ATTORNEY GENERAL JANET RENO

                              Introduction

    Mr. Rogers. The committee will come to order.
    This morning we would like to welcome Attorney General 
Janet Reno to appear before the Committee on behalf of the 
Department of Justice's 1999 budget request.
    You are seeking $18.3 billion from this Committee for the 
Department, which represents an increase of $800 million, or 
4.5 percent, over fiscal year 1998.
    This subcommittee and I personally continue to be among the 
strongest supporters of the Department of Justice and its law 
enforcement agencies. We have provided increases totaling over 
$5 billion since 1995, 42 percent, to give Federal, State and 
local law enforcement agencies the tools they critically need 
to fight crime at a time when we are also trying to balance the 
budget.
    I am pleased to see that some of this investment is paying 
off. Serious crime fell 3 percent last year and has dropped for 
the fifth consecutive year. But our work is far from done; we 
still have serious crime problems that paint a dark cloud over 
that success.
    We have fallen critically behind in the drug war over the 
last 5 years. While some applaud that drug use by eighth 
graders is leveling off, cocaine use by eighth graders is still 
57 percent higher than 5 years ago. Marijuana use by this group 
is 175 percent higher than 1992. Drug abuse crime among 
juveniles is rising to unprecedented levels.
    Madam Attorney General, we can't wait 10 years for these 
changes to happen, as the Administration has set out to do. We 
need aggressive and creative initiatives to turn this around. 
We are doing our part by providing the resources in 
unprecedented amounts, and we need your leadership if we are 
going to win that war.
    While we still will continue to support law enforcement, we 
will also hold you accountable. There are still some serious 
mismanagement problems that need to be addressed if the 
taxpayers are going to get the most out of their investment in 
the Department of Justice. We can no longer continue to provide 
resources to the Immigration and Naturalization Service without 
fundamental change in its structure. It can't handle its 
responsibilities. I have waited 15 years to say that on this 
subcommittee, and I have finally, sadly concluded that INS has 
got to go. It has botched its mission over the past years; it 
can't continue.
    Your challenges for managing the largest law enforcement 
agency in the country are great and come at a time when the 
Department finds itself simultaneously conducting a number of 
investigations of Administration officials and at the same time 
defending the Administration's position in court. That is a hot 
seat, but I have to say that it has been created. We will be 
watching closely how the Department walks that very fine line.
    Madam Attorney General, as always, this committee will 
continue to work with you to ensure that law enforcement has 
what it needs to fight crime. We appreciate your being here 
today.
    We will insert your written testimony in the record, and we 
are willing to hear your statement at this time.

               attorney general reno's opening statement

    Attorney General Reno. Thank you very much, Mr. Chairman, 
Congressman Mollohan, and members of the subcommittee. I am 
very happy to be back with you once again to present the budget 
request for the Department of Justice. I have enjoyed the 
opportunity to work with you, to consult with you, to consider 
the issues that you have raised, Mr. Chairman, and to work 
together with you and the subcommittee as we address them 
together. For fiscal year 1999, including fees, we are 
requesting $20.9 billion, an $877 million, or 4.4 percent, 
increase in funding over last year.
    Since I became Attorney General in 1993, funding for the 
Justice Department has increased more than 87 percent, due in 
large part to the efforts of this subcommittee, and we are very 
appreciative not just of the funding, but of the thoughtfulness 
that you have devoted to the very issues that we face in the 
Department.
    I believe our investment is paying off, as you have 
indicated, Mr. Chairman. Over the past several years we have 
witnessed a decrease in violent crime, and juvenile crime 
appears to be on the decline. We are continuing our fight 
against drug trafficking and abuse, and I think we have seen 
successes as indicated by the reduction in violent drug 
organizations that have spread violence across this land.
    We have added Border Patrol agents in record numbers and we 
have seen results as those agents have gone into place along 
the California border; and we are spreading this effort 
throughout the entire Southwest border. We have removed 
criminal aliens at a record pace. We are continuing a concerted 
effort to combat computer crime, and have taken critical steps 
to protect our Nation from the threat of terrorist attack. Yes, 
I think we have had some successes, but I couldn't agree more 
with you, Mr. Chairman, there is a lot more to be done.
    The budget I present to you today does just that. It builds 
on past successes and helps to prepare us for the law 
enforcement challenges of the 21st century.

                              cops program

    One of our top tasks is to do everything in our power to 
see that crime continues to fall. At the cornerstone of this 
effort is our commitment to place 100,000 community police 
officers on the streets of America by the year 2000. The budget 
before you seeks $1.4 billion for the community oriented 
policing services, or COPS program, to fund an estimated 16,000 
officers in fiscal year 1999, bringing the total to 99,000 
funded officers one full year before our pledge to fund 
100,000.

                             youth violence

    But, to sustain our success in fighting crime, we must also 
continue our efforts aimed specifically at youth violence. For 
the second year in a row, juvenile arrest rates for violent 
crime and homicides have fallen. While this is encouraging 
news, youth violence is still far too prevalent in far too many 
of our communities, and we need to increase our resources in 
the immediate future in significant proportion. So I think this 
is an area that requires our continued focus.
    Consistent with the Administration's Anti-gang and Youth 
Violence bill proposed last year, the Department's fiscal year 
1999 budget seeks to focus additional resources on three youth 
violence grant programs and restructure current juvenile 
justice programs. Our request includes nearly $500 million in 
targeted program enhancement and restructuring aimed at 
preventing and fighting juvenile crime and youth violence. 
These initiatives include $100 million in grants to State and 
local prosecutors' offices to fight youth drug gang and 
violence problems through earlier intervention and the 
identification and rapid prosecution of these offenders; $50 
million for innovative court programs to better handle and hold 
accountable young violent offenders within the justice system; 
and $95 million to fight truancy, school violence and 
strengthen anticrime after-school programs.

                              prosecutors

    Our request also seeks to change the way that prosecutors 
across America serve their communities by providing $50 million 
to increase the number of local prosecutors interacting 
directly with police officers and community residents to 
identify and solve crime problems in their neighborhoods. 
Around the country--for example, in places like Portland, 
Oregon; Austin, Texas; and Indianapolis, Indiana--earlier 
efforts at community prosecution are being deployed, and this 
program appears to work. With this funding you will provide us 
with an opportunity to fund and test this very promising 
strategy.

                         violence against women

    To combat violence against women, we are requesting $271 
million, and following your lead, we have included targeted 
set-asides for civil legal assistance programs, research 
concerning violence against women and the United States 
Attorney's Domestic Violence Unit in the District of Columbia.

                         cybercrime initiative

    Another central focus of our request and one of the 
greatest challenges of the next century is to address 
cybercrime before it can become an epidemic within the United 
States or around the world. Every day the United States relies 
more heavily upon its interconnected telecommunications and 
automated information systems for basic services, such as 
energy, banking and finance, transportation and defense. As 
such, we must be certain that they are safe and secure.
    For fiscal year 1999, the Department is seeking $64 million 
in increased funding to expand efforts to protect the Nation's 
critical infrastructures from cyber-attacks and to combat 
cybercrime. These additional resources will support 75 new FBI 
agents and 24 Assistant United States Attorneys to track down 
and prosecute cyber-criminals. The FBI will focus its new 
resources on the formation of six additional new computer 
investigation and threat assessment squads in cities around the 
country.
    Also included in the initiative is $10 million for the 
FBI's Computer Investigations and Infrastructure Threat 
Assessment Center which is being restructured and renamed the 
National Infrastructure Protection Center. These funds will be 
used to expand operations, develop an early warning system, and 
conduct infrastructure vulnerability assessments. For the 
Counterterrorism Fund, the cybercrime initiative includes $33.6 
million for activities related to the protection of the 
Nation's critical infrastructures. Most of these funds will be 
needed for the National Infrastructure Protection Center, but 
some could be used to reimburse other agencies.

                            drug initiative

    To continue the fight against drug trafficking and abuse, 
the budget before you seeks $167 million in increased resources 
in fiscal year 1999, allowing us to hire more drug enforcement 
agents and prosecutors and increase drug testing and 
intervention programs. This balanced investment will decrease 
drug use and help stem the violence it brings into our 
communities.
    Funding for the Drug Enforcement Administration will grow 
by 4.6 percent to $1.25 billion, with program enhancements 
totaling $64 million. Included within these additional 
resources are funds to support 100 more DEA agents, to attack 
methamphetamine production, trafficking and abuse; 54 more 
agents for the Caribbean corridor strategy, and 95 more agents 
to intensify efforts against heroin traffickers. Our drug 
initiative will also support the hiring of 64 Assistant United 
States Attorneys and five Criminal Division attorneys to pursue 
and prosecute drug traffickers and to implement our national 
strategy against methamphetamines.
    We also want to help State and local agencies conduct vital 
drug testing and intervention programs and have included $94 
million in additional grants to State and local agencies to 
implement comprehensive systems of drug testing, drug 
treatment, and graduated sanctions.

                         immigration initiative

    For the Immigration and Naturalization Service, we are 
requesting $4.2 billion, or 10.2 percent more than last year, 
to strengthen and improve existing programs and to implement 
new measures that will guard against illegal immigration and 
promote legal entry into the United States. With the support 
and leadership of this Committee, the INS has nearly doubled 
the Border Patrol agent work force since 1993 and has 
introduced innovative deterrent and advanced technologies to 
address illegal immigration at all borders of the United 
States.
    For fiscal year 1999, the Department requests $272.5 
million in increased funding for "force-multiplying" 
technologies and 1,000 new Border Patrol agents. Funding will 
also be dedicated to programs to detain and remove illegal 
aliens, including criminal aliens, to address the proliferation 
of alien smuggling by strategically placing INS personnel along 
major smuggling transportation corridors and to ensure the 
integrity of the naturalization process.
    Clearly, we have not resolved all of the problems that face 
this country in deterring illegal entry, nor have we completely 
resolved the problems to ensure adjudication and naturalization 
for legally admitted aliens eligible for benefits under the 
Immigration and Nationality Act. I recognize the management 
issues that you raise, Mr. Chairman, and I continue to focus on 
these, and in the course of this hearing, will discuss with you 
steps that we have taken. But as we recognized in 1994 when we 
launched our comprehensive Southwest border strategy, the 
investment necessary would be multiyear and multifaceted. This 
budget request continues the measured, prudent growth required 
to allow a reengineered Immigration and Naturalization Service 
to cope with the challenges it will face in the 21st century.

                          infrastructure needs

    The budget before you also seeks some new initiatives and 
program enhancements to address critical infrastructure needs 
fundamental to the effective enforcement of our Nation's laws. 
Rebuilding continues to be a personal focus of mine, and while 
we are making progress, our automation and communication 
capabilities are still outdated. As I have stated in earlier 
appearances before this Committee, without the proper tools to 
get the job done, current, let alone additional, attorneys, 
agents and inspectors will be less efficient and less effective 
in performing their duties.

                              other issues

    For fiscal year 1999 we are asking for more than $20 
billion because we face many challenges. We are seeking funding 
to launch a comprehensive national hate crimes initiative, 
reduce violent crime on Indian lands, address the burgeoning 
defensive civil litigation caseload and build additional 
capacity in the Federal Prison System.
    The budget I present to you today will help us address our 
ongoing challenges and prepare for new ones, and I look forward 
to working with you in this effort.
    [The information follows:]


[Pages 5 - 208--The official Committee record contains additional material here.]



                                 calea

    Mr. Rogers. I thank you, Madam Attorney General, for that 
statement.
    We have a number of members that will be asking questions. 
I suggest at the outset here that we go on a 10-minute cycle 
per member so that all members will have a chance on a first 
round.
    Madam Attorney General, over 3 years ago on behalf of law 
enforcement and to ensure public safety, the Congress passed 
and the President signed the Communications Assistance for Law 
Enforcement Act, CALEA, the method by which you would be able 
to continue court-ordered wiretaps and other surveillances with 
a new technology that is coming into play. Both you and 
Director Freeh have testified to this committee and others of 
the vital importance of that initiative, and of course, that 
goes without saying.
    We responded by providing funding and legislative 
provisions to establish a funding mechanism to pay for those 
switch changes, $500 million. We have also tried to move the 
process of defining law enforcement requirements by including 
legislative provisions that address disclosure of capability 
and capacity needs. We have convened meetings of industry and 
law enforcement to facilitate resolution of outstanding issues. 
We have required progress reports.
    Unfortunately, I think I can say now, with certainty, we 
are no closer today than we were 3 years ago in implementing 
this law, and time is running out. Can you tell us the current 
status of your efforts to resolve the outstanding issues with 
the telephone industry?
    Attorney General Reno. Mr. Chairman, I appreciate all that 
you have done in this effort. As you know, this is a technical 
and a very difficult issue, and we have undertaken it on behalf 
not just of Federal law enforcement, but of all law 
enforcement. We are essentially dealing with an issue that 
requires the development of significant new technology in order 
to maintain law enforcement's capacity to pursue electronic 
surveillance.
    This task turned out to be far more significant and 
difficult than we had originally anticipated, with many 
different technological as well as implementation issues that 
we have had to understand and address. We were probably 
somewhat remiss early on in our deliberations by taking too 
strict an interpretation of the law and its requirements. 
However, when it became apparent that this program was not 
progressing as it should, Director Freeh and I both felt that 
it was important to reach out to the industry, and the industry 
reached out to us. We needed to set aside the arguments, the 
verbal arguments that had started as people tried to address 
these hard issues.
    I had the opportunity to begin initially a meeting with the 
Vice Chairman of Bell Atlantic. He indicated a willingness to 
engage leaders in the industry to participate in discussions. 
We agreed to assign senior personnel to this effort, and we 
have had considerable discussion as we have tried to move this 
process forward.
    After the initial discussions that were necessary to 
clarify just what the issues were, we began in earnest in 
October to itemize the industry's very specific concerns, and 
through negotiation in the past 5 months, we have put forth 
compromised positions in each of the following areas to address 
their concerns:
    First, with respect to capacity, we have developed 
application language within the final notice of capacity which 
allows the telecommunications carriers and manufacturers to 
determine the impact on the switching systems. The Department 
undertook an extensive legal review of the law enforcement 
requirements under section 103 of the act and provided the 
industry its legal opinion relative to the requirements that 
law enforcement needed that were not part of the industry's 
proposed technical solution. The results of this review 
provided greater flexibility as to how industry would meet the 
law enforcement requirements and also provided for a phased 
implementation to reduce the impact on the carriers. We also 
eliminated the most difficult requirement to perform, which 
also would have been very expensive.
    In addressing industry's concerns about the October 1998 
compliance date, a proposal was submitted to industry that 
would allow flexibility and enforcement. We provided industry 
an approach that would waive our ability to take enforcement 
action against them if they had in good faith developed and 
implemented on schedule a technical solution that met law 
enforcement needs.
    We approached our negotiations with the goal of providing 
maximum coverage to the industry realizing, though, that we are 
limited to a reimbursement of $500 million, but with the goal, 
wherever possible, to provide the broadest possible coverage by 
reimbursement to the industry. Our goal was to approach 
development of the software solution on an across-the-board 
basis.
    What this means is that we were still willing to purchase a 
manufacturer's software solution for all of its currently 
deployed switches if they were available pre-January 1, 1995. 
This would provide greater coverage and assist those carriers 
who deployed equipment after the January 1, 1995, cutoff date.
    Although there has been quite a bit of effort, both on 
behalf of industry as well as government, it now appears, based 
on discussions as recent as Wednesday, February 25th, that we 
may be at an impasse. Let me explain to you what I understand 
to be the industry's proposal.
    Simply said, the industry's proposal is that all equipment, 
services and facilities installed or deployed as of October 
1998 would be deemed in compliance forever with section 103 of 
CALEA, unless the government agrees to pay to modify or to 
upgrade it. Only if the government accepted this cost 
reimbursement scenario will industry incorporate the full 
technical functionality required by law enforcement under 
section 103 into the industry's technical standard and build a 
technical solution to meet law enforcement's requirements.
    The condition that we provide reimbursement now for a 
greater period of time, extending the date from January 1 of 
1995 to October 1 of 1998, will significantly increase the 
costs that the government would have to reimburse the 
telecommunications industry. It is our expectation that the 
cost would exceed the $500 million that has been authorized.
    Given the fact that we cannot exceed the amount provided 
for reimbursement authorized by Congress, I believe that we 
will be at an impasse. It is my expectation that if this 
impasse cannot be resolved shortly, we will have to file a 
petition before the FCC on behalf of all law enforcement 
stating that the proposed industry technical solution is 
deficient and will not meet the fundamental evidentiary legal 
law enforcement requirements necessary for successful 
prosecution of cases. If this becomes necessary, we willfile 
our petition by March 13 of 1998.
    Unfortunately, if we are pressed to take this step, we will 
avail ourselves of all lawful mechanisms available. I hope that 
this process can be avoided.
    Mr. Rogers. Well, so you're saying that by Friday the 13th 
of March, if you and the industry have not been able to work 
out successfully what the standards, the technical capacities 
and requirements are to be, and the other issues--that is, the 
dates and the compliance issues--that unless those are worked 
out amicably by March the 13th, you plan to file your petition 
with the FCC to have it decided by the FCC?
    Attorney General Reno. That is correct, sir. At the same 
time, I will make myself personally available on any occasion 
to address the issues with leaders of the industry, because we 
have had, up until now, a very frank and very thoughtful and 
positive discussion.
    Mr. Rogers. Well, I have been a party to some of those 
discussions and, in fact, have tried to play midwife to a deal, 
but it is becoming frustrating and it looks to me like perhaps 
it is at an impasse and will have to be decided by the FCC and/
or by the courts.
    And I just want to reiterate again here today that I have 
told you and all of the Justice Department and the industry 
that $500 million is it; and we expect to see this matter 
resolved before we appropriate any more funding.
    As you have stated, the value of having the ability to 
electronically surveil in criminal cases is absolutely vital, 
particularly in organized crime, and particularly in the drug 
fight, and I will not stand by and see that capacity wane away. 
So I expect you to live up to that commitment. If it can't be 
resolved peacefully by Friday the 13th, I expect to see the FCC 
waiting at their door with bated breath for your petition.
    Attorney General Reno. Mr. Chairman, I personally asked 
that the date be checked to make sure we could do it.
    Mr. Rogers. I will buy your cab fare down there to file the 
papers.
    Now, looking back over the last 3 years, I have to say that 
the FBI contributed to this impasse. I am an FBI supporter, but 
I have to say that they contributed to their own problems here. 
What do you think about that?
    Attorney General Reno. As I indicated, Mr. Chairman, I 
think that we were perhaps a little too rigid in the beginning 
as we tried to address the FBI's requirements, but I think with 
Director Freeh's leadership in joining with the Department, we 
have been able to work through those issues--through the 
technical issues, through the legal issues--and I think it 
basically comes down to cost now.
    Mr. Rogers. Well, the FBI contributed to the problem, did 
they not, by just simply refusing to move on this thing for 
better than 2 years?
    Attorney General Reno. I think there is something to be 
said for that, but I think that with the effort that we have 
undertaken and with what Director Freeh has done, we have 
gotten substantially beyond that.
    Mr. Rogers. Now, you have asked $100 million for CALEA in 
your 1999 request. Given the impact if it does develop and you 
end up petitioning the FCC for a ruling, is it likely that you 
will need that $100 million in 1999?
    Attorney General Reno. As you know, I am hopeful that our 
petition can be reviewed on an expedited basis by the FCC. Our 
CALEA reimbursement account is a no-year account, and the 
funding deposited in that account is available regardless of 
the fiscal year. I am concerned that once we resolve these 
issues, given the fact that I believe the industry has already 
done a significant amount of work in that area, that their 
request for reimbursement may actually exceed the revenue 
stream available. If the 1999 request is not approved, then I 
would urge you to provide that requested funding.
    Mr. Rogers. Well, we will wait and see.
    Let me ask you briefly now, when do we--when can we expect 
that the Department's capability to electronically surveil will 
become limited unless changes are made? How long do we have?
    Attorney General Reno. I think we are there.
    Mr. Rogers. You think we are there now?
    Attorney General Reno. Yes.
    Mr. Rogers. How long do you anticipate that the FCC might 
take on a ruling?
    Attorney General Reno. My hope is that they would move very 
expeditiously with respect to the issue. I think the issue has 
been framed by the constructive discussions that we have had.
    Mr. Rogers. And the minimum time that they can move, I 
understand, is six months; is that correct?
    Attorney General Reno. I am told by Mr. Colgate that that 
is correct.
    Mr. Rogers. Now, even after the FCC rules and they decide 
what the standards are for the new equipment, only then can the 
companies and the manufacturers begin to design and build the 
equipment that has to be installed; is that correct?
    Attorney General Reno. That is correct. But I think that 
they have done some considerable work on that.
    Mr. Rogers. Do we know how long it might take for that 
process to take place before the equipment can be installed?
    Attorney General Reno. Mr. Colgate indicates--and I always 
welcome him; as you know, he is a person I rely a great deal 
on.
    Mr. Rogers. As do we. He is a valuable asset to you and to 
us all.
    Attorney General Reno. He indicates that as long as 18 
months, but it would depend on different circumstances and 
depend on the carrier.
    Mr. Rogers. Well, even at best then, before the new 
equipment could be installed and operating to allow the 
Department to continue electronic surveillance, we are looking 
at at least six months' FCC time, assuming they rule the first 
minute they can; and then another year to 18 months thereafter 
to design and build the equipment to be installed. So we are 
looking at upwards of 2 years-plus, are we not, before the 
matter could conceivably be resolved?
    Attorney General Reno. It looks like that.
    Mr. Rogers. Is there any way to shorten that time, without 
an amicable settlement on the matter?
    Attorney General Reno. As Mr. Colgate points out and as I 
mentioned earlier, there are some manufacturers that have done 
some considerable work, so for some it may be shorter in time.
    Mr. Rogers. Okay. Well, my time has expired for the moment. 
I have other questions, and I will return.
    Attorney General Reno. Mr. Chairman, let me just reiterate 
that we will pursue this with all possibledispatch, and I will 
give personal attention to it; and we will do everything we can to get 
an expedited resolution of this matter before the FCC. I would appeal 
to everybody concerned, though, that what is at stake here is America's 
law enforcement interests, not just of the Federal Government, but of 
State and local. What is at stake here is this Nation's interest, and I 
think the industry--and I know a number in the industry have reflected 
concern for these issues. I would hope that we could come to the table 
and get this resolved quickly in America's interest.
    Mr. Rogers. Well, not only hope; it is going to happen. I 
am going to make it happen or you won't get any money. I don't 
know how more bluntly I can put it. You have dragged your feet 
for 3 years.
    There are a lot of people at fault here. I am not just 
blaming the Department. I think the industry has dragged their 
feet. I think it is a plague on both houses. But the only house 
that I have any pull with, if that is what it is, is the 
government's part; and I am not going to let the government sit 
here and not do its part to resolve this absolutely vital, 
critical, national interest, security matter. So I am going to 
be checking with you every 15 minutes the rest of this year.
    Attorney General Reno. I will be waiting for your phone 
call.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Welcome, Madam Attorney General. We appreciate your being 
here this morning, and we appreciate your good work at Justice. 
You have a tough job, and you do it well.
    The Department of Justice has enjoyed unprecedented 
increases in the last few years. Since fiscal year 1995, I note 
that the Department's budget has increased by 42 percent. Such 
a dramatic infusion of resources results in significant 
management issues and challenges.
    I want to take this opportunity, Madam Attorney General, to 
compliment you on how you have handled these additional funds 
and the new challenges that you have undertaken. I believe that 
we are seeing an era of unprecedented cooperation among our law 
enforcement agencies, and I know that this subcommittee, in 
particular, wants that to continue and to continue strongly.
    I note that the Department, under your leadership, has had 
a number of accomplishments over the last year. For example, in 
the area of illicit drugs, the Department has pursued a number 
of programs which lowered the demand for drugs, reduced the 
supply and availability of illicit drugs, and dealt with the 
devastating impact that drugs have on our communities and on 
our families. This has been accomplished through programs like 
DARE, the Southwest Border Initiative, the COPS program, which 
I think is proving to be particularly successful, and many 
Justice Department grant programs.
    I also wish to compliment the work of the organized crime 
drug enforcement task forces.
    In the area of counterterrorism, we all applaud the efforts 
of the Department and its work with other agencies in bringing 
back to the United States the terrorists associated with the 
mortar attack on the U.S. embassy in Jakarta and the murder and 
wounding of CIA employees in Virginia. These are all major, 
difficult accomplishments.
    Lastly, in the growing area of cybercrime, we note that the 
FBI has made a number of arrests of computer hackers who 
jeopardize the integrity of telephone companies, credit 
reporting agencies, our armed forces, the World Bank, and on 
and on.
    As mentioned in your statement, you are requesting a 4.4 
percent increase in the Department's budget for fiscal year 
1999, and I join the Chairman in looking forward to reviewing 
that request carefully.
    Madam Attorney General, as you know, the FBI has spent 
considerable time and funds developing a premier fingerprint 
identification system known as IAFIS. I want to compliment you 
and Director Freeh on putting in place a very strong management 
team to bring IAFIS on line. It has not been an easy task. You 
have adjusted to the challenges, and to the setbacks. I am 
impressed by the way you have accomplished this task, and with 
the quality of the system that you are bringing on line, and 
its potential for serving our law enforcement community.

                        ident/iafis integration

    Similarly, the INS is in the process of developing its own 
separate fingerprint system known as IDENT. INS and the FBI are 
under your jurisdiction. I am concerned that the IDENT 
procurement activity in INS is not being carefully examined and 
that millions upon millions of taxpayer dollars are being 
wasted developing INS' own automated fingerprint system when 
the FBI already has an automated fingerprint identification 
system. Not only does the FBI have one, they have an integrated 
IAFIS.
    If we were to build on IAFIS, you would have an integrated 
system, a system that is developed with a superior technology 
to IDENT. You would have a system that could be adapted to 
other customers' needs at a relatively low cost. You would have 
a system with the immediate advantage of interface 
compatibility on a universal scale, not only with INS, not only 
with law enforcement, but with the whole world.
    In summary, I am concerned, Madam Attorney General, that 
you are spending millions of dollars developing an inferior 
system based on similar matching technologies, when you have in 
hand this superior, less costly solution that is adaptable to 
many purposes.
    While millions of scarce dollars are at stake here, I am 
concerned that the Justice Department has not been serious in 
addressing this issue, has not been rigorous in overcoming 
parochial agency interests and has not had a competent, 
independent overview. I am also concerned that the Department 
has not established the appropriate process, or at least one 
appropriate process, to address this concern.
    It certainly has not established an integrated product and 
process development, which is a common procurement system. This 
concern has been expressed repeatedly by the Committee, and we 
have asked that this matter be investigated for several years 
now.
    Madam Attorney General, could you start out your answers by 
giving the Committee a status report on your overview of this 
concern?
    Attorney General Reno. Yes, because I think this is one of 
the great challenges that any manager faces in this day and 
time, how we use the extraordinary resources and the 
extraordinary benefits that technology can provide us in the 
wisest way possible without duplication and redundancy, without 
fragmentation.
    It is an extraordinary challenge, because I think one ofthe 
great issues that we face in government, and in the private sector as 
well, is where do we find the people with the expertise that understand 
both the government processes and the processes of technology. And this 
is something that I have focused on, and I appreciate your concern on 
this issue.
    To briefly summarize the issue, the FBI wants all 
apprehended illegal border crossers to be ten-printed, 
believing that some illegal aliens have committed crimes in the 
United States or may commit future crimes, which is clearly 
correct. The rolled set of ten prints would be used for 
searching latent fingerprints at crime scenes and for helping 
State and local authorities who request fingerprints.
    This would cause several problems, including significant 
disruption of operations at the border because of the time it 
would take to ten-print large volumes of apprehended aliens who 
are not guilty of serious crimes. Those who are suspected of 
serious crimes or who have exceeded the local threshold for 
repeat crossers where it is determined by the United States 
Attorney in that district are already ten-printed.
    I would just put a caveat on that, because we are also 
reviewing other issues with respect to IDENT to make sure that 
in terms of training, in terms of usage and the like, that 
there has been or will be appropriate follow-through.
    While there are some similarities between IDENT and IAFIS, 
there appear to be differences in the system which serve to 
meet the INS's and FBI's respective, unique operational 
requirements. We are reviewing the issues now to determine 
whether the systems are complementary and where they are 
redundant. I would like to report our findings to you by June 
1st to assure you that DOJ has taken the steps necessary to 
avoid duplication without jeopardizing operational 
requirements.
    As part of the review, I have tasked the FBI and INS 
through Steve Colgate, the Assistant Attorney General for 
Administration, with several items. First, INS and FBI will 
report on the feasibilities of conducting a ten-print pilot at 
one or more appropriate sites. If successful, the pilot will 
demonstrate the extent of the operational burden which INS 
would bear by taking ten-prints for all aliens apprehended.
    Secondly, the FBI has been tasked with developing an 
assessment of benefits which would accrue by INS's adoption of 
a procedure which takes ten prints from illegal border crossers 
who are held only briefly before their voluntary return. 
Simultaneously, INS will report on the cost attendant to 10-
digit printing for all INS arrests and describe the operational 
burden that ten-printing brings.
    In addition, the FBI will visit INS Southwest border sites 
to observe firsthand the operational requirements incumbent on 
the Border Patrol and inspections as INS processes apprehend 
aliens through the IDENT system. This will help clarify the 
similarities and dissimilarities of the two systems and 
highlight the areas where improvements may be made. The FBI 
will provide a cost estimate for furnishing a dedicated 
database and 10-print system for INS use.
    If such a course of action is feasible, response times from 
the FBI's IAFIS could be reduced to a level that meets INS 
operational requirements. Alternatively, the FBI will provide 
an outline of the capability of the CJIS-wide area network, 
reporting whether there is sufficient bandwidth to support INS 
in the transmittal of 10-prints.
    INS and the FBI will collaborate on a report of cost, 
feasibility, and the components' willingness to adopt 
procedures by which the FBI, upon receipt of 10 prints from 
State and local authorities, seals off and transmits to INS the 
two matched fingerprints against IDENT. This would satisfy the 
FBI's concerns that State and local authorities be able to 
match against an INS database of illegal entrants.
    I would like also to point out again something that I had 
mentioned. Our IG has also looked at issues with respect to 
IDENT, and we will be--I will be asking Mr. Colgate to form a 
working group to analyze the report and to see what needs to be 
done in terms of remedies and processes to achieve the ultimate 
best use of this automation.
    Mr. Mollohan. I am not going to be able to get through 
these series of questions during my time, so I am going to ask 
you a couple of general questions here, and then I will get 
back to it in a second round, if I might.
    With regard to your goal, when you look at this whole issue 
of being able to establish a system or systems whereby you can 
identify criminals, is not the first thing that comes to your 
mind integration? That is the first word in the IAFIS system. 
Don't you want the ability to have universality? Don't you want 
to be able to incorporate all of these identification systems 
or link all of these identification systems in a seamless way 
so that you have one repository or one controlling entity or 
clearinghouse entity which would be used by local, State, and 
eventually, international law enforcement? It seems to me that 
adhering to that principle of integration would be tremendous 
leadership on the part of the Department, and in the long term, 
would help develop a system that would incorporate a principle 
of universality.
    When you think about establishing this very important 
system, what importance do you give to integration and 
universality?
    Attorney General Reno. A very great deal of importance.
    Mr. Mollohan. I would think.
    Attorney General Reno. What we have got to try to do is to 
make sure that we have the system integrated, that we avoid 
redundancy and duplication or fragmentation; and whether it be 
in the check of State and local law enforcement records, we 
also have got to focus on the unique problems that someone 
faces in, for example----
    Mr. Mollohan. Okay. INS, for example, has its own unique 
problems?
    Attorney General Reno [continuing]. INS. And I think 
through this process that Mr. Colgate will oversee that we will 
be able to address these issues.
    We have been through other issues with the IAFIS itself. We 
are now beginning to see great results from the system that can 
immediately match prints and identify perpetrators; and I think 
through this process and through the report that you will 
receive on June 1st that we will do everything we can to ensure 
integration, to ensure the systems working together, while at 
the same time meeting specific needs without costly 
duplication.
    Mr. Mollohan. Well, in the meantime, you are going to be 
spending an awful lot of money on the continued development of 
this IDENT system.
    Attorney General Reno. What I am asking Mr. Colgate to do 
is to make sure we don't spend money unnecessarily until we 
have the right answers.
    Mr. Mollohan. So what does that mean?
    Attorney General Reno. That means, I don't want to waste 
money between now and June 1st.
    Mr. Mollohan. Well, I don't want to either, but 
operationally what does that mean? Does that mean that you are 
stopping the expenditures of money in regard to the IDENT 
development at this time until this report comes out?
    Attorney General Reno. What I am asking Mr. Colgate to do 
is to see what can be done to avoid the expenditure of any 
money that would not contribute to a long-term solution and the 
maximum integration possible, consistent with the mission of 
the different agencies involved.
    Mr. Mollohan. Okay. I imagine my time is up, and I don't 
want to start a line without being able to finish it, Madam 
Attorney General. Thank you for your answers to my questions.
    Mr. Rogers. Mr. Taylor.

                          independent counsel

    Mr. Taylor. Mr. Chairman, Madam Attorney General, you 
recently appointed an Independent Counsel to probe the 
activities of Interior Secretary Bruce Babbitt regarding the 
rejection of an application by an Indian tribe for a casino 
permit.
    Can you tell us what the scope of that investigation will 
entail? And I understand it is quite limited, but could you 
give me some information about that?
    Attorney General Reno. I will be happy to provide you with 
the exact language, so that it is accurate and I do not 
misquote it. I do not have it with me.
    Mr. Taylor. How would you interpret that? Is it limited or 
broader, the investigation?
    Attorney General Reno. I would not interpret it, other than 
to refer you to the precise language so that you might 
interpret it for yourself.
    Mr. Taylor. Well, the public has to live with that year 
after year in this administration.

                          Independent Counsel

    The request for appointment of an independent counsel 
involving Interior Secretary Babbitt was limited to the issue 
of whether Secretary Babbitt testified falsely before Congress 
in a manner that warrants criminal prosecution. The order 
appointing the Independent Counsel charged the counsel to 
investigate whether Secretary Babbitt may have violated federal 
criminal law, including but not limited to 18 U.S.C. 1621 and 
1001, in connection with sworn testimony on October 30, 1997, 
before the Senate Governmental Affairs Committee, and to 
determine whether prosecution is warranted.
    The order conveyed to the Independent Counsel the 
jurisdiction and authority to investigate to the maximum extent 
authorized by the Independent Counsel Reauthorization Act of 
1994 whether Secretary Babbitt committed a violation of any 
federal criminal law, other than a Class B or C misdemeanor or 
infraction, by making false statement during the course of 
congressional testimony concerning a decision by the Department 
of the Interior to deny an application by three Indian tribes 
to take land into trust in Hudson, Wisconsin, for an off-
reservation gambling casino, or conspiring with others to do 
so.
    Jurisdiction and authority was also conveyed to the 
Independent Counsel to investigatge the decision itself, any 
violation of 28 U.S.C. 1826, any obstruction of the due 
administration of justice, any material false testimony or 
statement in violation of federal law, any related allegations 
and evidence of any violation of federal criminal law by any 
individual or organization as necessary to resolve this matter 
including persons or entities who have engaged in an unlawful 
conspiracy or who have aided and abetted any of the subject 
federal offenses.
    Within this scope--the investigation on the decision itself 
and the testimony given on October 30, 1997--the Independent 
Counsel has prosecutorial jurisdiction to fully investigate and 
prosecute all matters and individuals whose acts may be 
related, inclusive of authority to investigate federal crimes 
that may arise, including perjury, obstruction of justice, 
destruction of evidence, and intimidation of witnesses.
                       immigration investigation

    Now, how about the immigration investigation? Perhaps we 
can look into that. Do you remember at last year's hearing that 
the committee asked a number of questions regarding the 
naturalization of a number of immigrants prior to the 1996 
presidential election, and reports were later released 
confirming that a number of naturalizations were made to 
immigrants with criminal records.
    Can you give us a report or some indication of the 
investigation and the correction of those mistakes, and an idea 
of what has been spent or going to be spent to correct those 
mistakes?

                          ins accomplishments

    Attorney General Reno. As you are aware, we established a 
new Office of Naturalization Operations in June of 1997. The 
first task that this new office undertook was the development 
of naturalization quality procedures known as our NQP program. 
With the development of this process, INS undertook an 
extensive training effort, training personnel from all of its 
naturalization field offices in simple and easy to understand 
procedures. These new procedures were reviewed by KPMG to 
ensure that they met the quality control and integrity 
requirements necessary, which they did.
    After the training was complete, we had KPMG go out to the 
field to ensure that the information was properly disseminated 
and available to the field, which it was. To ensure that the 
procedures were being followed and that the past process 
failures had been corrected, we had KPMG perform an audit of 
cases in offices performing 85 percent of the naturalization 
workload. You will recall that KPMG issued its report in 
December of last year.
    It is my view that INS has moved in a period of months from 
having a failing report card to a solid A-minus. The NQP 
process has demonstrated that INS can effectively deploy a 
naturalization process that works and meets the integrity 
requirements that we should expect.

              integration of fingerprint processing system

    The next major effort that we have undertaken is the 
establishment of an effective and secure fingerprinting process 
system. As you will recall, the integrity of the fingerprint 
process system was the major systemic problem within the prior 
naturalization process. INS has undertaken a massive effort to 
establish a network of nationwide application support centers. 
These centers allow INS to supervise the selection of 
fingerprints while maintaining quality control and providing 
adequate coverage to the applicants.
    This effort consists of four tiers:
    First, 75 application support centers established within 
storefront operations across the country; these centers take 
the majority of fingerprints for INS benefits.
    Fifty-one INS district sub-offices established one- and 
two-person fingerprint operations in small offices where there 
isn't a support center within 100 miles.
    Thirty-nine law enforcement agencies will provide 
additional coverage in areas where either an INS sub-office or 
support center is over 100 miles away.
    Forty-four mobile routes were established with over 84 
service points to serve clients in remote locations.
    We believe that by the end of March we will be functioning 
at full capacity and we can provide a detailed listing by type 
of center to you for the record.
    Building on this success, I have asked the director of the 
naturalization office to expand these reforms and lessons 
learned to other INS benefits programs.

             long-range improvement plan for naturalization

    Finally, we have received the long-range improvement plan 
for naturalization from Cooper and Lybrand, and with the 
significant funding you provided in the fiscal year 1998 
Appropriations Act, we can begin implementing the long-range 
improvements for this entire process.
    I want to thank the committee for its support in this 
effort.
    Mr. Taylor. Madam Attorney General, perhaps I misstated. I 
appreciate the efforts that have been made toward the future, 
and hopefully, in future relations nothing this shameful will 
happen again.

                       immigration investigation

    But it was my understanding, Mr. Chairman, we are going to 
have to go back and look at what has happened in the past, go 
back and investigate those felons that may have been declared 
citizens without benefit of proper scrutiny; and that costs 
money and also has to have a plan. That is why I wondered what 
has been done in that area and what might be the cost for this 
Congress and the taxpayer.
    Attorney General Reno. As part of the effort to ensure that 
past naturalization cases were adjudicated correctly, the 
Department engaged KPMG Peat Marwick to oversee and validate 
several INS reviews of cases of persons who were naturalized 
between August of 1995 and September of 1996. In particular, 
two reviews sought to identify cases where citizenship was 
granted despite potentially disqualifying criminal histories or 
exclusion proceedings. A third review was conducted on a random 
sample of cases in order to determine the extent to which other 
internal processing problems existed in the naturalization 
program during that period.
    Between August 31, 1995, and September 30, 1996, INS 
naturalized 1,049,867 individuals. INS, with the aid of the 
FBI, attempted to determine the number of these persons that 
had FBI records. Based on what we know today, 767,366 persons 
have been identified as having no FBI criminal history records; 
76,678 persons have been identified as having FBI records, 
which include INS administrative actions, misdemeanor and 
felony arrests and convictions. 124,711 persons have not had 
definitive criminal history checks conducted because their 
fingerprint cards were rejected by the FBI because their poor 
quality rendered them unclassifiable.
    Of 61,366 persons for whom it cannot be determined whether 
or not FBI record checks were ever conducted; 19,746 were 
elders and minors for whom INS policy does not require FBI 
record checks.
    The FBI produced 76,382 rap sheets for the individuals 
identified as having FBI records; 32,929 individuals were 
arrested only for administrative violations, 26,196 individuals 
were arrested for 1 or more misdemeanors, but no felonies or 
crimes involving moral turpitude, and 17,257 individuals were 
arrested for one or more felonies or crimes involving moral 
turpitude.
    INS assembled a naturalization review team consisting of 
adjudicators to review the files in Lincoln, Nebraska, and 
Charleston, South Carolina, and independently determine whether 
the applicants were eligible to be naturalized based on 
statutorily defined residency and good moral character 
criteria. KPMG provided quality control and validation during 
the entire review process.
    The Department's Executive Office for Immigration Review 
also assisted in this process by providing an independent 
validation of the NRT decision. A total of 16,858 case files 
were reviewed; 369 case files could not be located for the 
review, 10,535 cases were proper. The NRT adjudicators found 
that the statutorily defined residency and good moral character 
criteria were met.
    The 369 were presumptively ineligible; the NRT adjudicators 
found that the statutorily defined residency and good moral 
character criteria were presumptively not met. 5,954 cases 
require further action; the adjudicators found that they could 
not validate that statutorily defined residency and good moral 
character criteria were met based on the information contained 
in the case files.
    Of the 6,323 cases that were presumptively ineligible or 
require further attention, 5,634 reveal a failure to reveal an 
arrest. All 6,323 cases were referred to the INS revocation 
team for possible revocation. The review was conducted--the 
deportation exclusion case review was conducted to identify 
individuals who were naturalized while they were subject to 
deportation proceedings or pending an order of deportation or 
exclusion. The period under review was August of 1995 to 
September of 1996.
    KPMG compared the INS database of individuals naturalized 
during the subject period with an EOIR database containing 
records of deportation or exclusion actions; a total of 716 
individuals were listed on both. A total of 600 of the 716 
cases were reviewed. INS could not locate 33 files, and 83 
others were not reviewed because the files were found to 
contain no evidence that the affected individuals had ever been 
subject to deportation or exclusion proceedings, or had been 
naturalized. The latter findings are being pursued to identify 
possible data systems or file documentation problems.
    Thirty-eight cases, or six percent of all cases reviewed, 
revealed evidence of improper naturalization; of these, 23 
cases involved deportation and 15 cases involved exclusion. 
Five hundred sixty-two cases showed no evidence indicating an 
improper naturalization. The 38 cases were referred to the INS 
revocation team for possible revocation.
    We then did a sample case review. This effort did a 
sampling approach to perform a review of the universe of cases 
naturalized between August of 1995 and September of 1996.
    Mr. Taylor. Madam, could I dare take my time now to give an 
aside? Could I ask one simple question? Has a single person 
been decitizenized based on this atrocious situation nearly 2 
years ago?
    Attorney General Reno. The final administrative action on 
naturalization revocation shows that of the total cases, 31 
cases have been finalized, six affirmed a grant of 
naturalization, 19 terminated administrative--terminate 
administrative proceedings and referred to the United States 
Attorney--terminated administrative proceedings. For revocation 
of naturalization, the appeal time expired without appeal on 
six; and I think that would be indicated that of the final 
actions, six have been revoked because they did not appeal.
    Mr. Taylor. Do we know where they are?
    Attorney General Reno. What they are?
    Mr. Taylor. Where they are. Were they deported or are they 
wandering around?
    Attorney General Reno. I would have to check and let you 
know, sir.
    [The information follows:]


[Page 224--The official Committee record contains additional material here.]



    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Quickly, do I understand that of the 6,000 
revocation cases that have been developed so far out of this 
disaster, Citizenship USA--out of the 6,000 possible, you have 
only denaturalized six?
    Attorney General Reno. The total cases reviewed to date are 
2,100----
    Mr. Rogers. Just answer my question. Out of 6,000 possible 
cases, you have only denaturalized six. Right or wrong, correct 
or incorrect?
    Attorney General Reno. That is what I understand, yes, sir.
    Mr. Rogers. The answer is yes?
    Attorney General Reno. Yes, sir.
    Mr. Rogers. Okay.
    Mr. Skaggs.

                           encryption policy

    Mr. Skaggs. Thank you, Mr. Chairman.
    Madam Attorney General, Mr. Dixon and I both serve on the 
Intelligence Committee and were siezed last fall by the issue 
of encryption policy in this country, and I think confounded by 
the lack of agreement among different elements of the executive 
branch as to exactly how we should proceed.
    My request is that you use your good offices to help 
reconcile and consolidate a single Administration policy in 
this area so that we might have the benefit of one voice coming 
from the executive branch as to what we in Congress should do.
    Attorney General Reno. I think we have made very 
substantial progress, and I think there will be one voice.
    Mr. Skaggs. Do you know when it will be expressed?
    Attorney General Reno. Hopefully, shortly.
    Mr. Skaggs. Before the Vernal Equinox?
    Attorney General Reno. I forget when the Vernal Equinox is.

                 antitrust division increase for fy1999

    Mr. Skaggs. A few weeks away. Well, good.
    On a statistical or accounting matter, the numbers for the 
Antitrust Division have an enormous increase in the tables I 
was just looking at for this year. I assume that that is just a 
function of different accounting for fees and arrangements of 
numbers. It doesn't reflect a huge increase in FTE in the 
Antitrust Division; is that correct?
    Attorney General Reno. Mr. Colgate indicates that that is 
correct, but with your permission, I will let him address that.
    Mr. Skaggs. If that is correct, we will let it go at that 
since I don't have much time.

                              cops program

    As I recall, the first set of hires in the COPS program 
will be exhausting the grant period shortly, and I am just 
wondering if we are starting to get any data as to the extent 
to which local law enforcement authorities are in fact 
interested in and able to have continued employment?
    Attorney General Reno. They are--the word I am getting back 
is that they are very anxious to continue the employment. 
Cities are looking for monies, because when the COPS program 
was established, it was clear; and the clear terms of the COPS 
program was that it was designed to provide a transition to 
community policing to give departments an opportunity to 
transfer the system from just patrol-oriented policing to 
community policing in the truest sense, and that cities would 
be expected to sustain the hires after the grants expired.
    We are in the process of looking at this to determine just 
what we can get in terms of hard data, and we will be happy to 
share with you just what the cities and towns and counties are 
telling us.
    Mr. Skaggs. Well, I think the subcommittee would appreciate 
whatever data, hard or soft, with appropriate footnotes you are 
able to provide for the record on this, since there was a good 
deal of concern about whether we were setting ourselves up for 
a temporary improvement, but an unsustainable one, given fiscal 
pressures on local departments.
    [The information follows:]


[Page 227--The official Committee record contains additional material here.]



    Attorney General Reno. The word that we are getting back 
from the reaction of the International Association of Chiefs of 
Police, when I visit with them, and the National Sheriffs 
Association, is that there will be a lasting impact on the part 
of these police officers, that it has helped change the whole 
orientation of policing so that it involves the community, the 
processes through technical assistance for these new hires, and 
enhanced an officer's ability and knowledge and skill in 
relating to the community and involving the community in 
developing the answers to the problems, and identifying 
priorities and identifying problems.

                            drugs initiative

    Mr. Skaggs. I was encouraged to see that in the initiative 
regarding drugs, somewhat more than half of the total new 
amount requested would be going toward treatment and 
discouraging use, I guess. The term escapes me at the moment, 
which certainly is consistent with the advice I have received 
time and time again from law enforcement in the field, who say, 
as much as we would love to have additional monies for law 
enforcement interdiction, whatever it may be, we see the real 
tracks in the effort against drugs on the treatment and 
prevention side. So I am glad to see the ratios as they are.
    But it really raises the question, I think, of whether, as 
we continue year-by-year to struggle with this issue, the 
Department has undertaken or could undertake a kind of zero-
based review of national drug policy. I know there is a Drug 
Czar, butyou are aware of where the action is in many respects. 
Perhaps the Department could start from scratch and see whether our 
overall strategies really constitute a coherent and effective whole, or 
whether some major shifting of priorities might get us further down the 
road to the goal that we are trying to reach.
    Attorney General Reno. We are constantly reviewing what we 
are doing to make sure that it makes sense and that we are on 
the right track. There has clearly been a shift towards 
providing additional treatment and prevention initiatives that 
we think can work.
    With the effort of this committee last year, for example, 
we have embarked on the development of a very sound juvenile 
justice prevention program in terms of preventing the use of 
drugs, and we would be happy to share that with you. But there 
is also a recognition, as you point out, on the part of police 
officers, and General McCaffrey is one of the great proponents 
of additional treatment, that it makes no sense to prosecute 
and convict somebody for the use of drugs, knowing that they 
have a drug problem, and send them to jail or put them on 
probation without providing sound treatment.
    [The information follows:]


[Page 229--The official Committee record contains additional material here.]



    Obviously, one of the big initiatives in this area has been 
the development of drug courts, and they have spread as people 
have come to understand that the combination of the criminal 
justice system, with appropriate treatment programs, can have a 
real impact by using a carrot-and-stick approach on nonviolent 
first offenders or others.
    For the person who is in the prison, who has had a drug 
problem, and somebody has said, well, how can they get drugs in 
prison, in the Federal Bureau of Prisons we have taken 
significant steps to avoid that. But the problem that caused 
this situation in the first place is still there, and unless it 
is addressed while in prison, they are going back to the 
streets with the chance of recurring all over again.
    One of the big dollar arguments that I hear about drug 
treatment is that we have no place to treat them. In the 
criminal justice system, for those people in prison, we have a 
place to treat them and we can make it effective, so it makes 
awfully good sense, both from the prevention and the treatment 
and intervention point of view.
    At the same time, we are constantly reviewing our drug 
strategy. For example, when I first came into office, the focus 
was on Colombia and then, as the pattern shifted, we shifted to 
the Southwest border with Mexico. As we put pressure on the 
Southwest border, it starts to shift to the Caribbean. So we 
have looked at it more from the point of view of the ``southern 
frontier,'' constantly trying to be prepared to move ahead of 
the game as pressures produce shifts in one direction or the 
other. Those are just examples, Congressman.
    Mr. Skaggs. I appreciate that. I think, in addition, it 
doesn't make any sense--the example that you gave, it also 
doesn't make any sense to be spending several hundred thousand 
dollars on the typical arrest, prosecution and incarceration of 
someone with a drug problem, when earlier intervention and 
prevention would have done us some good.

                      the independent counsel act

    One final question, and then we are all going to race to 
vote. The Independent Counsel Act is going to be coming up for 
reauthorization in a little while. From a good management and 
justice point of view, would you encourage the Congress to 
introduce some budget control and accountability in the future?
    Attorney General Reno. I have tried to avoid commenting on 
what the law should be with respect to that, and I had written 
Senator Hatch saying that there should be some provision. 
Everybody in public service should be operating under a budget 
and some budget controls, and I think it would be appropriate.
    Mr. Skaggs. Thank you.
    Mr. Rogers. Thank you, Mr. Chairman.
    Madam Attorney General, we have a vote on the floor. It 
will be just a few minutes and we shall return.
    Attorney General Reno. I have plenty of time, Mr. Chairman. 
Thank you.
    Mr. Rogers. You get a deserved rest.
    [Recess.]
    Mr. Rogers. The Committee will come back to order, and the 
gentleman from Iowa is recognized.
    Mr. Latham. Thank you very much, Mr. Chairman.
    Welcome, Madam Attorney General. It is a real pleasure for 
me to have you here, and I just want to tell you I continue to 
have the highest personal regard for you, and the job that you 
do. And I think, unfortunately, you are put in a very awkward 
position because of some of the conduct in the Administration, 
but no one should ever question your integrity or what you do. 
It is very much appreciated, and I have the greatest respect 
and admiration for you.
    I would like to echo the concerns that Mr. Taylor had as 
far as the granting of citizenship to convicted felons, and I 
think it really undermines the value of U.S. citizenship. I 
think it is one of the darkest hours as far as what this 
government can do in relationship to the most prized possession 
we have here as U.S. citizens, and I continue to have grave 
concerns about that.
    I would also like to personally thank you for coming last 
fall and visiting the people from my district, taking your time 
for that little event we had. It was most appreciated, and I 
want to publicly thank you.

                              cops program

    In last year's appropriations bill, I had some language in 
that to create a new initiative in the COPS program to help 
local law enforcement fight the problem with massproduction 
trafficking in the tri-state area--in Iowa, South Dakota and Nebraska. 
The local law enforcement and Sioux City police who are going to 
coordinate this effort are still awaiting direction from the COPS 
office here in Washington.
    We are almost halfway through the year, and the COPS office 
has yet to assign someone to draft the program's criteria, and 
obviously, we are unable to implement the program. And just to 
give you an idea of the gravity of the situation, you know, 
Iowa has about 1 percent of the Nation's population, and I 
think last year we had 9 percent of the meth arrests. It is a 
huge problem for us, and we need to move on this very quickly 
to have a coordinated effort throughout the region.
    Would you be able to tell me what is causing the delay as 
far as the criteria in Sioux City and when we can expect to be 
able to move forward?
    Attorney General Reno. COPS is working now with DEA and the 
other agencies that are involved in this effort to make sure 
that the grant is useful and effective and not just duplicative 
of existing training efforts.
    The area that you point out is really extraordinarily 
important. I have had a chance to talk with officers from that 
area and understand just what the whole problem of 
methamphetamine has done there. This is a problem that is very 
important for us.
    What I would like to do is continue to keep you advised. I 
will let you know as soon as they come up with what they think 
could be effective criteria. I will ask them for a time 
deadline and see if I can't get back to you and to the chief 
and to make sure that we do it right.
    One of the concerns that I have, I want to make sure that 
we use it as wisely as possible, because I think a grant like 
this can be very, very useful and quite innovative in its 
impact. So I would like to follow up with you on that.
    Mr. Latham. Obviously, my concern is, there hasn't even 
been an assignment or a person responsible to even begin the 
process yet, and that is quite frustrating, because we do have 
a situation where the tri-state area has worked very closely 
together and really tried to work on a coordinated basis; and 
from my understanding, there isn't even anybody trying to 
initiate what was in the law last year.
    Attorney General Reno. Somebody is about it, and I will 
find out who, because somebody is talking with DEA and with the 
other agencies to see just what is being done on training. Let 
me find out specifics for you, call you back. If we don't have 
somebody that is assigned to it, I will get that corrected.
    Mr. Latham. Okay. Very good. I would appreciate that very 
much.
    [The information follows:]


[Page 233--The official Committee record contains additional material here.]



                      assets forfeiture authority

    On a different subject, under the farm bill in 1996, the 
FAIR Act, the Inspector General at USDA was given augmented 
forfeiture authority, and it is my understanding that the IG 
has negotiated a memorandum of understanding with the Justice 
Department regarding this matter of forfeiture. It is also my 
understanding that the Justice Department has been dragging its 
heels and has yet to sign the memorandum of understanding.
    Why is this the case, and when is the Justice Department 
expected to act on this critical issue? There is about $11 
million, that is sitting in Justice apparently, that should be 
over in the USDA.
    Attorney General Reno. I had occasion just recently to 
speak to the combined group of Inspectors General, and the 
issue of asset forfeiture was raised; and with respect to the 
particular matter that you talk about, it was presented as if 
it is a fait accompli--why don't you sign it? I was told that 
proposals had been made and we were trying to work through 
them.
    As you know, this Congress has expressed concerns, as 
others have, about the appropriate use and standards for asset 
forfeiture. I asked when I heard, well, if it hasn't been 
worked through, then let's get, I think his name is Mr. Viadero 
in and let's get it worked out. So I will follow that one up as 
well.
    Mr. Latham. I also serve on the Agriculture Appropriations 
Subcommittee, and we had the IG in there and he obviously 
expressed real concerns about this, and wanted to get moving, 
and to get it resolved. They would like to have the $11 
million, and they say it is sitting over in Justice; and if you 
could look into that, I would appreciate it.
    [The information follows:]


[Page 235--The official Committee record contains additional material here.]



    With that, again, I appreciate the chance to have you here, 
and I am not going to get into, like last year, whether we have 
laws on the books as far as campaign contributions on 
government property or those things. But thank you.
    Attorney General Reno. Let me just point out something to 
you and to the Chairman. The Chairman, I think, knows this from 
our extensive conversations, but nothing upsets me more, makes 
me feel worse, than to see something like the naturalization 
process gone awry. My father came to this country when he was 
12 years old with his parents from Denmark, and that process is 
sacred to me.
    Mr. Rogers. Mr. Dixon.
    Mr. Dixon. Thank you very much, Mr. Chairman. And Madam 
Attorney General, I join in a bipartisan tribute to your 
personal integrity. I know that it is very difficult when there 
are some who think that you are doing too much and are too 
aggressive; there are others who think that you are not 
aggressive enough, and that suggests to me that you are 
probably handling it just right.

                      community relations service

    I would like to ask you about two small agencies within 
your department and get your evaluation of them. The first is 
the Community Relations Service. I notice that you have 
requested a $1.2 million increase. It is an organization, I 
think, that has worked very effectively, at least in 
California, and I would like to receive your assessment of it.
    Attorney General Reno. My assessment is derived from direct 
observation as the State attorney in Miami for 15 years during 
some very turbulent times. The Community Relations Service was 
one of the most effective agencies at reducing conflict, easing 
tensions, bringing people together, and doing it in not a big, 
programmatic sort of way; but every time you turned around, 
when there was a crisis, the representatives of the CRS would 
be there, not talking a lot, but moving quietly, working 
carefully with people, doing it in a hands-on, direct sort of 
way that was very refreshing for government from Washington. As 
State attorney I had a chance to see them in action any number 
of times.
    Now, for the last 5 years, even with their budget 
significantly reduced, I have watched them in action, and 
again, chiefs of police, community advocates, others across the 
country are telling me what I see firsthand. They are doing an 
extraordinary job with small resources at easing tension and 
bringing people together, and preventing problems from 
escalating into major disturbances. I think for more than 30 
years attorneys general of both parties have supported the 
Community Relations Service, and daily, as we watch them in 
action, I support it 100 percent. I think it has been one of 
the most effective agencies that I have seen.

                           inspector general

    Mr. Dixon. The second agency is the Inspector General. As 
you are probably aware, I have had some direct contact with the 
Inspector General from time to time over the past 2 or 3 
months, and in the course of conversation, I--and with 
correspondence, he had asked for a modest increase in his 
allotment. I think it was $5 million. As a matter of fact, he 
has been very aggressive in the Citizenship USA investigation 
and the prisons investigation. I understand thoroughly that 
there is only so much money, but can you evaluate his job and 
whether you think an adjustment in his allocation is 
appropriate?
    Attorney General Reno. I think he has done an excellent 
job, and I feel very comfortable, and I think I have the best 
working relationship with an Inspector General you could have. 
He can be arm's length, but he is constructive and positive 
when he takes the results of his investigations and puts them 
to work.
    Last year we asked for an increase and he received an 
increase of about 10 percent of the base, and what I would like 
to do is see how that works out, and what we need--what we need 
in terms of ongoing investigations and address it for the 
future.

                       legal services corporation

    Mr. Dixon. Yesterday we had the Legal Services Corporation 
before us, and the Chairman and I engaged in some conversation 
with the Chairman of the Board and the President about what 
they intended to do with the increase in funding that they were 
requesting. They indicated that 70 percent of that increase 
would go for domestic violence programs. The Chairman pointed 
out that in the 1997 budget for your department we had provided 
a substantial amount of money.
    I was really not clear as to what their response was, but 
in general I thought it was that they could not look forward in 
1997 to much of that money. And so, is there some impediment to 
them receiving money? Can you tell me how much they have 
received, if any, and what your view of that situation is?
    Attorney General Reno. May I consult with Mr. Colgate?
    Mr. Dixon. Certainly. I realize that this wasn't your 
forethought.
    Attorney General Reno. I think it is 1998 that you're 
referring to, rather than fiscal year 1997.
    Mr. Dixon. You are correct.
    Attorney General Reno. Chairman Rogers, as I recall, made 
sure that $12 million was provided to augment civil legal 
assistance in this whole area. Our budget request this year 
would continue this program. The Violence Against Women Office 
is in the process of developing the grant solicitation for this 
year. It has held meetings with the Legal Services Corporation, 
and I hope that this grant will be available very shortly. I 
will ask that we check the time for you, so that you will know 
precisely.
    Mr. Dixon. Does the staff know exactly how much money was 
in that category last year?
    Attorney General Reno. $12 million, I believe.
    Mr. Rogers. It was $12 million that was earmarked just for 
legal aid, but there was $271 million in Violence Against Women 
appropriations, which is an unprecedented number, a good 
portion of which could be used for that purpose, in fact.
    Mr. Dixon. Well, that is the reason I raised it, Mr. 
Chairman.
    On the one hand, the Chairman feels that probably more than 
$12 million could go toward that. And Madam Attorney General, 
as I hear you, you are thinking that they are only eligible for 
$12 million, or they would only receive $12 million. So I would 
just like to----
    Attorney General Reno. Well, let me clarify for you.
    I think what the Chairman is indicating, under the grants 
to theStates, the act provides for grants to all of the States 
based on the criteria. They have got to develop a plan. Part of that 
plan and part of that grant can be used for legal aid in this context, 
and there is no prohibition from the Federal point of view. There might 
be some different priority established by a State, but that is 
available; and I think what the Chairman is trying to do is to jump 
start it, if you will, and get people to understand how beneficial 
civil legal assistance can be in these situations.
    Mr. Chairman, I don't want to put words in your mouth.
    Mr. Rogers. Please do.
    If the gentleman will yield, the Attorney General is 
correct. We substantially increased the Violence Against Women 
Act funding last year. In fact, I think we provided several 
millions of dollars more than the Administration requested 
even, but I am chagrined that the money is not being spent. 
Whether it is because people don't know it is available on the 
State and local levels, or what, I don't yet know, but the 
money is there and it is lying there waiting.
    A good portion of that money could be used by Legal 
Services grantees, because I think 60 percent of the work that 
they do is representing abused women and children, and this 
money would be able to augment what is already available for 
Legal Services grantees.
    Attorney General Reno. But again the money is out in terms 
of the grants to the States and, Mr. Chairman, it may well be 
being used by the States for reasons other than Legal Services. 
We will get you a report on that.
    What is of concern, though, is that for the $12 million 
specifically designated, we want to make sure we get that out 
as fast as possible.
    Mr. Dixon. If I understand you, Madam Attorney General, the 
$12 million is earmarked for them, and then they are eligible 
under State programs to receive additional monies if the States 
so desire?
    Attorney General Reno. That is correct.



[Page 239--The official Committee record contains additional material here.]




                              2000 census

    Mr. Dixon. That is kind of a fair summary.
    And last, I know that you are aware that there is a 
difference of opinion in Congress as to how we proceed to take 
the year 2000 census, and I noticed in the budget request, in 
the Civil Rights Division, you have requested $383,000; and not 
to create any confusion, I wonder if you would tell us what 
that money would be used for.
    Attorney General Reno. That fiscal year 1999 program 
increase request for the Civil Rights Division has nothing to 
do with the likely litigation the Commerce Department might 
become involved in regarding the census. That is a totally 
separate issue. The Civil Division would handle that; no 
additional monies are being asked for for handling that 
litigation.
    The Civil Rights monies are focused on the litigation that 
has developed from Shaw v. Reno, and with the census, leaving 
aside how it is done, with the census coming up, State and 
local, as well as Federal districts, are being addressed anew 
and in a prospective fashion, so that we have seen an increase 
in cases; and we expect more and want to be prepared to handle 
it.
    Mr. Dixon. Thank you very much, Mr. Chairman.
    Mr. Rogers. Mr. Regula.

                             indian country

    Mr. Regula. Thank you, Mr. Chairman.
    Madam Attorney General, I want to ask a few questions on 
the Indian country law enforcement initiative. As I understand 
it, there is to be additional funding for this, and the White 
House presently has under review how would be the better way to 
ensure that these law enforcement programs are done with the 
best possible assistance and training.
    In your opinion, would the Department of Justice or the 
Bureau of Indian Affairs be in a better position to administer 
and oversee the significant increase in law enforcement 
resources being proposed for Indian country law enforcement?
    Attorney General Reno. In this instance, the President has 
recognized the dual responsibility when he directed both the 
Secretary of Interior and myself to address it, because I don't 
think anybody disputes that there is a critical concern about 
law enforcement in Indian country.
    We agree that at this point neither department could 
address the issue alone; we are working together. We are asking 
for funds for three reasons in the Department of Justice. We 
already have an existing grant structure. We have considerable 
expertise in the types of programs that are necessary in Indian 
country, such as corrections and juvenile justice, and there 
are serious needs to be addressed now.
    I think the DOJ grants will jump-start the necessary 
improvements, and we have the structure and the law enforcement 
expertise necessary to do it. So at this point I think as the 
budget request reflects, we can best address it.
    Mr. Regula. So you think the Justice Department really 
needs to take the lead on this expansion and a more intensive 
effort in law enforcement in Indian country?
    Attorney General Reno. I think to jump-start it and to get 
it on its way, and then I think we have to ultimately resolve 
it.
    Mr. Regula. I am concerned also that this program relies 
heavily on the COPS grant program, and as you know, that is a 
3-year cycle. What happens when that funding ends? Are there 
some plans? You need continuity, obviously.
    Attorney General Reno. I think, again, from what I have 
seen--and I first addressed this issue in May of 1994 at a 
listening conference in Albuquerque; and again and againtribal 
leaders from all over the country stood up and told me what needed to 
be done in terms of law enforcement, and I have heard it ever since.
    This is an effort on the part of the Administration to try 
to use what is available and the expertise in the Department of 
Justice to get it jump-started and on its way and to develop a 
sound framework for law enforcement; and then ultimately, I 
think it would have to be funded by the BIA or whoever is 
responsible for managing Indian country programs.
    Mr. Regula. So you see your role as getting it moving and 
then eventually BIA taking over?
    Attorney General Reno. Or whoever is responsible.
    Mr. Regula. Right. It envisions 15 more prisons. How do you 
see this being handled, the building, operations and 
maintenance of these prisons? Would it be BIA or would it be 
Bureau of Prisons?
    Attorney General Reno. I think we would have to look at 
that and how it is organized, and how the tribes organize it as 
well. When we are talking about prisons, we are talking about 
detention facilities, too, and correctional facilities. In 
terms of a major prison for violent offenders, I think that the 
regular prison system would be more appropriate.
    What we are trying to design is to recognize that they are 
not jailed, they are not detention facilities that are tribally 
oriented, and so we are going to have to work with tribes. And 
this is just a suggestion, because we are trying to work 
through these issues. For example, the Sioux Nation involves a 
number of tribes, and they might work together to develop the 
detention facility for a certain area.
    Mr. Regula. So you see the BIA dealing with the lesser 
criminal types, and if it is more of a severe hard-core, if you 
will, then that would be probably best done through the Bureau 
of Prisons?
    Attorney General Reno. That is what I envision.

                          industrial espionage

    Mr. Regula. Industrial espionage, I think this is going to 
be a growing problem because of the competitiveness that exists 
in the world today and the availability of sophisticated 
communications programs. We have had that happen in an instance 
in my own area, and--my question is, what resources would the 
Department be currently providing for investigation and 
prosecution of the theft of technology and intellectual 
property? A: Are you involved; and B: Does the Department 
envision increases to combat this type of industrial espionage 
in the fiscal year 1999 budget?
    Attorney General Reno. The FBI does not, I have discovered, 
track resources for economic espionage, and I am going to be 
talking with Director Freeh about this, because he is one of 
the major proponents of initiatives in this area for just the 
reasons that you discuss; and I agree with him completely. I 
think this reflects the fact that we are building now a 
capacity, and I think we will need to look at this and see how 
we can properly identify the resources.
    The number of FBI investigations is classified, but I think 
recent press coverage indicates some of the initiatives that 
are being taken. With respect to increases, there are none. But 
at this point, I am satisfied, based on what Director Freeh has 
told me to date and looking at the resources that are available 
in the FBI, that we can address this current caseload 
adequately, just looking at the classified----
    Mr. Regula. So you are saying you are very sensitive to the 
problem and the growing magnitude of it; am I correct?
    Attorney General Reno. That is correct. And again just for, 
if you will, accounting purposes, it has just never been broken 
out of white collar crime, and it will vary from white collar 
crime to infrastructure protection. I mean, we have to look at 
all of the resources that can focus on this as well.

                            false claims act

    Mr. Regula. My last question or issue is the use of the 
False Claims Act to investigate medicare billing practices by 
hospitals. It has come to my attention that they make errors. 
There are 200,000 Medicare claims, 200,000 daily, 72 million 
every year, and it is an enormous paperwork burden on 
hospitals, and they do make some mistakes.
    It seems to me there ought to be a de minimis threshold in 
terms of enforcing the False Claims Act, and I think what we 
have is a concern in our area is that sometimes this is used to 
gain elaborate settlements from hospitals, which are really 
unfair, because the billing practice was an honest mistake, and 
yet enforcement people say, pay up or else.
    Attorney General Reno. I am very--I know a little bit about 
this issue, because I spoke recently with the American Hospital 
Association----
    Mr. Regula. Okay.
    Attorney General Reno [continuing]. And I explained to them 
that I don't want to be after anybody for an honest billing 
mistake.
    The statute says, and I think it is a good standard, that 
if there is a reckless disregard of the truth or indifference--
there has got to be that recklessness to it. And I think we 
should pursue those situations.
    What I told them is, if anybody is pursuing an honest 
billing mistake, we have a process in the Department for making 
sure that people are heard and that we take steps to avert 
problems like that. I pledged to them open and continuous 
dialogue with the Association, and I want to do everything I 
can to make sure that people understand we are not after the 
honest billing error; but if somebody has all of the facts 
there, and they just turn a blind eye, I want no part of that.
    This is very important to me, because I think health care 
fraud is one of the major issues that we face, and people have 
got to have confidence in the process. So if you have any 
specifics, I would welcome the opportunity to follow up on 
them.
    Mr. Regula. Well, I think you are clearly saying you are 
sensitive to the problem.
    Attorney General Reno. I would like to be just more than 
sensitive to the problem. The Chairman would say, she sometimes 
says she is sensitive to the problem, and then what does she do 
about it?
    Mr. Regula. But you are trying to make sure that it is not 
unfairly enforced?
    Attorney General Reno. The important thing for me is to get 
the word out. If you think it is being unfairly enforced, let 
us know. If you get stonewalled by a U.S. Attorney, let me 
know, so that we can follow up and address the problem, sit 
down with the industry and look at it.
    They may say, look, it looks to you like it is a reckless 
disregard, but here are accounting procedures that confuse the 
issue. There may be explanations. We have to have an open 
dialogue so that it can be considered.
    Mr. Regula. Thank you.
    Mr. Rogers. Madam Attorney General, it is approachingthe 
noon hour. I have a number of matters I need to take up with you, and I 
will try to do it as briefly as we can. Is that agreeable?
    Attorney General Reno. I am here for as long as you want 
me, Mr. Chairman.

                       immigration investigation

    Mr. Rogers. Well, I want you here as long as we can keep 
you, but I want to get you out of here at a reasonable hour. I 
want to quickly, if we can, as quickly as we can do this, 
discuss with you the Citizenship USA and INS.
    You and I share, I think, along with a lot of other people, 
the conviction that we need to be sure that the granting of 
U.S. citizenship, the most valuable thing this country can give 
someone, is protected as much as can be possible. Now, the 
Citizenship USA in 1996 was an absolute--``disaster'' is not 
the word for it.
    Attorney General Reno. ``Catastrophe.''
    Mr. Rogers. ``Catastrophe.'' And I hate to go back and stir 
in the barnyard about this, but we have to, because there are a 
number of problems that are still on board resulting from that.
    The audit that KPMG Peat Marwick did drew the following 
conclusions: INS did not have enough information to determine 
whether they were naturalizing people with criminal histories 
to bar their citizenship. They did not even review whether 
certain statutory requirements for naturalization were met in 
these cases, including permanent residency in the U.S. for 5 
years; passage of history, civics, English tests and the like. 
Their procedures were inconsistent regarding other 
naturalization criteria pending deportation orders or 
proceedings and, quote, ``good moral character requirements.''
    In April of 1997 a second audit report by that agency found 
that INS was not following its new naturalization quality 
procedures, which the Attorney General and the director of the 
agency put in place; they still wouldn't do it, concluding that 
it was probable that criminals were continuing to be 
naturalized. Twenty-three out of 24 INS field offices were not 
in compliance with the procedures after we hammered you and you 
hammered them. At that point, you then took over the 
naturalization program and you installed Bob Bratt, a career 
official, as the head of naturalization operations.
    A followup report in December of 1997, they had made 
significant improvements in internal controls, but still four 
out of 24 failed a review of field offices.
    Three weeks ago, KPMG issued its findings on a sample of 
case reviews that it conducted to determine the extent to which 
naturalization applications were correctly processed during the 
Citizenship USA period. They found, Madam Attorney General, the 
auditors found that 90.8 percent of the cases they sampled 
contained at least 1 error, most prevalent of which was the 
lack of evidence that a fingerprint card was sent to the FBI, 
nine out of ten. That is an adequate sample to project the 
processing errors for the total of 1.05 million cases. It can 
be assumed that 920,733 cases had insufficient documentation to 
support a naturalization decision under the law and under 
procedures of the Department.
    They also found that 38,845 cases can be projected to have 
been, quote, ``presumptively ineligible to receive 
naturalization''; that is, they did not fulfill their residency 
requirement, didn't pass the tests they have to pass, had 
criminal records, didn't have good moral character, what have 
you. That doesn't even factor in the fraudulent testing that 
was later found just a few weeks ago. It is abysmal.
    As you know, I have been on this subcommittee 15 years as a 
member of the Minority, as Ranking Minority member and now as 
Chairman. I have wrestled with INS and the problems they have 
had, as have the Justice Department and tons of other people 
for all of these years. I have come to the conclusion that with 
all of these things that keep piling on top of themselves and 
the money we throw at this agency--we have absolutely flooded 
them with money and personnel to no avail; it just seems to get 
worse and worse as time goes on.
    I am convinced now that the agency is unmanageable, which I 
tend to believe, because I think the missions of the INS are 
contradictory. On the one hand, they are supposed to grant 
privileges and rights to immigrants, and on the other hand, 
they are supposed to punish immigrants. I don't see how they 
can--anyone can administer that kind of a conflicting mission. 
Either it is unmanageable or we have never had anybody who can 
manage that agency, and I doubt that there ever can be. 
Consequently, I have concluded that we must do something 
drastic.
    And I know the Attorney General is concerned about this and 
has been ever since she has been the Attorney General, and 
rightfully so, as has all of the Department. We will probably 
differ on how we look at a remedy to the INS problem, but I, 
after 15 years, have concluded that it is unsalvageable, that 
we may as well start afresh.
    I have looked over the Barbara Jordan Commission on 
Immigration Reform report in some detail. I have conferred with 
several Members here who have expertise in this field, and I 
have concluded that the Barbara Jordan Commission is 99 percent 
on track. It is not a perfect answer, but it seems to me that 
it is the best that we have.
    Let me ask you what you think about the Barbara Jordan 
Commission findings? And I know you are due us a report in 
April on how you think we should reorganize INS, but could I 
ask you what you think about the Barbara Jordan findings?
    Attorney General Reno. I have reviewed the report, and I 
have met with representatives from the Commission. I have 
talked to people, talked to people at INS, talked to people 
who--such as you and other Members of Congress, trying to keep 
an open mind, because the one thing I did when I came to 
Washington was promise myself I didn't want to worry about 
turf. If there was a part of the Justice Department that could 
be more effective someplace else, so be it. If there was 
something that we should do, we would do it, but we wouldn't do 
it because we wanted somebody else's turf. So I started looking 
at it and went into it with an open mind.
    I have concluded--because the questions I asked of people 
were, how would the other agencies do it better? And basically, 
Mr. Chairman, I come down to the conclusion--and you have just 
given me some hope, because I think I have been here almost 5 
years and I sometimes think, well, I haven't seen enough 
changes, but if you tell me that for the 10 years before I got 
here there was a big problem, then I will tell you that I sure 
inherited a big problem.
    I inherited an agency that didn't have either the personnel 
or the management infrastructure to do the job, an agency that 
didn't have the automation and the technology. I saw an agency 
grow tremendously. I watched it face a peso crisis that it had 
no control over. I watched it become responsible for a new law 
and implementing a new law.
    And in many instances, it has done a remarkable job. In 
other situations--and I have shared my feelings about this 
situation with you--there is more to do. But my--the 
Administration, through the Domestic Policy Council, has 
brought the agencies that are affected together and basically 
concluded that it doesn't solve any problem to split something 
up. The problem is to fix it, and we are in the process of 
trying to fix it and trying to present to you a thoughtful 
report.
    Wait just a minute, Mr. Chairman. Hear me out just a little 
bit, please, sir.
    One of the things that has impressed me, you have--I mean, 
from almost the first time I came to talk to you, you talked 
about the need for accountability and for responsibility, and 
it has been very frustrating to me to see a situation coming 
from Washington out to a regional office down to a district 
commander to a Border Patrol chief, with the Border Patrol 
chief up here in Washington.
    What we are trying to do as we focus on this is to remember 
your words and create something that has a direct line of 
authority in enforcement. As you point out, there are two roles 
here; there is enforcement and there is service, and a direct 
line of authority and accountability in the service function, 
but with the recognition that there are tie-ins to the two--
that the two, in terms of information exchange and the like, 
could benefit from a well-constructed system of automation, and 
that is one of our challenges.
    We, as you know, retained Booz Allen, we are looking at it 
and trying to explore all the aspects of it, but I look forward 
to presenting you a report and to discussing with you something 
that--you were one of the first people to point out to me the 
need for accountability in the two lines of responsibility of 
this service.
    Mr. Rogers. Well, you have had 6 years.
    Attorney General Reno. Five.
    Mr. Rogers. Five.
    Attorney General Reno. I am not going to be here for ten, 
so let's just see how we work this one out.
    Mr. Rogers. Well, you have had 5 years to wrestle with this 
thing--I mean--and you have wrestled.
    Attorney General Reno. You didn't do it in 10 years before, 
Mr. Chairman.
    Mr. Rogers. I didn't have Attorneys General who were as 
dedicated to cleaning up INS as you are.
    But the problem certainly existed before you got here; I am 
not blaming you for the problem. I think we can begin to assign 
some degree of responsibility, now that you have been here 5 
years, for getting it cleaned up; and let me just cite you some 
facts and figures.
    We have thrown money at the agency since 1995. As I have 
sat in this chair, the INS budget has grown by 84 percent. We 
have given them $1.7 billion more than they had before. We have 
provided increases to INS of over $500 million each year in 
1996, 1997 and 1998. Most of the positive changes that have 
occurred there, in fact, over the last 4 years, are largely a 
product of its growth in resources, not a result of any better 
management. So they can't say that they don't have the money.
    Regardless of those funding increases, we have seen no 
evidence that they can handle the responsibilities. There are 
still 5 million illegal immigrants now living in the U.S.--the 
same peak level we saw 3 years ago, 2 years ago--growing at the 
same rate each year, regardless of the number of resources we 
throw at them, regardless of the number of Border Patrol and 
better technology we throw at the agency. We can't be assured 
that the border is any more under control now than it was 4 
years ago, despite the fact that we have added 2,700 more 
Border Patrol agents--an increase of 60 percent, and no 
improvement.
    Then we have Citizenship USA, corrupting America's 
naturalization process, giving away American citizenship for 
whatever reason, giving it away in a corrupt way. Mission 
overload, lack of management oversight, even you admit that you 
had to take over the agency, and you did, rightfully so; Steve 
Colgate taking over management of the naturalization process, 
installing Bob Bratt to fix problems resulting from that. But 
for that, I think you would still be floundering, trying to 
make the changes to the naturalization process that got us in 
the fix before. Little, if any, accountability.
    And I cite you the deception of a congressional task force, 
itself, during a visit to Miami during that Citizenship USA 
program, that were purposefully misled by agency employees with 
very little punishment meted out by the agency. I could go on. 
I mean, there are, as you know, dozens of examples that we 
could rehash here about the failure of that agency.
    Of all of the agencies that we appropriate on this 
subcommittee in three major departments of the government, plus 
most of the independent agencies, plus the international 
organizations that we appropriate for--U.N., OAS, and so on, 
hundreds of those--of all of the agencies that we have to deal 
with, including the dozens in the Department of Justice, and 
the Department of Commerce, no agency that we deal with is as 
inept and unmanaged and out of control and not carrying out 
their responsibility, valuable though it is, as is INS. I do 
not intend to let that continue on my watch.
    Now, you and the White House and the Administration can do 
what you want, but I am going to try to get the Congress to 
make a drastic change, admitting that INS cannot do the job and 
following the lead of the Barbara Jordan Commission, which 
spent 2 years with experts focusing just on this question in an 
unbiased, unfettered way. No one attempted to influence their 
opinion. I don't agree with the philosophy of a good number of 
those Commission members, but I do agree that they focused 
intently and that they came up with a sensible recommendation.
    Out here on the border of our country we have eight or ten 
agencies. The Department of Labor is out there checking for 
violations of illegal aliens coming to work. The Department of 
Justice, of course, is there, the Border Patrol, INS, to 
protect us against illegals getting in the country. The DEA is 
there protecting against drugs. The FBI is there protecting 
against criminals. The Department of Agriculture is there to 
look after, that we are not getting improper agricultural 
products in.
    One can look under the hood, but they can't look in the 
back seat. One can look in the trunk, but not under the hood. 
One can look in the car, but not over the top of the trailer or 
whatever. It is absolutely ridiculous.
    Not only are we wasting money, we are wasting the time of 
the people trying to come and go in a legitimate fashion.
    There should be one border agency, in my opinion. I would 
like to see it under the Department of Justice, where it should 
be, and that is what I intend to see. But there should be one 
agency with one person who can look under thehood, in the trunk 
and under the car and on the roof and everything else without having to 
call in somebody else from afar. I think it is absolutely ludicrous, it 
is silly, it is funny, it is tragic.
    Because it is not working, drug importations are on the 
increase out of Mexico. Illegal aliens continue to flood the 
country and live here. We are not deporting people who have 
been improperly naturalized. It is in a mess, and the people 
know it is in a mess, and they want something done.
    We have given you 5-plus years. You have not done it. You 
have tried. And I am saying to you, I don't think anybody could 
have done it. I am not blaming you for that. I think it is an 
impossible job for one agency to do. So I would hope that you 
would consider that as you consider your recommendations, 
knowing that on the Hill there is deep sentiment about getting 
something done, whatever it takes.
    Attorney General Reno. I know how strongly you feel, and I 
feel just as strongly. This has probably taken as much of my 
time as anything else.
    Mr. Rogers. I know it has.
    Attorney General Reno. You know that I care a great deal 
about it. But I have also watched an agency face tremendous 
challenges. Not just the peso crisis, but I watched an agency 
come to grips with the fact that right as it was facing so many 
other challenges--Colombian transportation chains from other 
parts of the country to come through Mexico; and the Border 
Patrol that does an extraordinary job for this Nation, Mr. 
Chairman, day in and day out, faced new responsibilities.
    As they put the pressure on the border and at the ports of 
entry, alien smugglers, who were mean, vicious thugs, started 
smuggling people as well as drugs, and they faced that; and 
they faced more danger than they have faced in previous years 
because of these pressures, because of their successes.
    When we came into office, there was nothing--I remember 
being down on the border in August of 1993 in San Diego. There 
was no organization, there was nothing. I watched an agency get 
organized with Operation Gatekeeper and make that California 
border become a different place. I watched fences being 
strategically placed. But I have also been down the lengths of 
that border from the Pacific to the Gulf of Mexico, and I know 
how long and lonely it is. And it is not something that can be 
done overnight, but I have watched success in El Paso, and we 
have to do more.
    There is so much that we must do along the border, not just 
with respect to additional resources in those areas that have 
not yet had their share of resources allocated, but in the 
sense of the Assistant United States Attorneys to prosecute 
cases that local prosecutors are throwing up their hands at 
because the situation is difficult.
    I listened to you, and I haven't taken over INS. Doris 
Meissner does one great job under the most difficult 
circumstances, one good thing even with me and with you and 
working with us.
    Mr. Rogers. I admit that.
    Attorney General Reno. I don't know whether you have had 
the chance to meet her new deputy commissioner, but I think we 
should all come talk to you, not to persuade you, but you have 
new leadership on board, fresh leadership. You have some great, 
strong people there and you have a cadre of people that have 
been working hard, day in and day out. You and I may not agree 
on what ultimately should be done, but I think we both agree on 
the basic principle that there needs to be accountability.
    And I wrote something out in long hand the other day. 
Accountability that is based on listening to people in the 
field who are involved in the direct problem day in and day 
out, developing policy and process in Washington that takes 
into account what people in the field think, disseminating the 
policy and the process to the field in ways that they can 
easily understand, following it up with compliance procedures 
to make sure it is happening. If it is not working, finding out 
what and how. It takes a long change, but you have fresh new 
leadership in there, these are people that Doris picked. I 
think you will be impressed with them, and I think we should 
talk and work together.
    You may decide you want to try to split it up. I think we 
should keep it together, because the two pieces are too 
important together, and they share too many common issues. But 
I think we can clearly address the problem that you have 
focused on for so long, which are the direct lines of authority 
and accountability in enforcement and direct lines of 
responsibility and accountability in service.
    Mr. Rogers. Well, of course, I will be happy to visit with 
you any time about this or anything else. But you have a lot of 
convincing to do----
    Attorney General Reno. I know, Mr. Chairman.
    Mr. Rogers [continuing]. On that one.
    Well, let me change subjects quickly here and try to cover 
a couple more things.

                      independent counsel funding

    Independent Counsel funding. Now, in 1998 you estimate you 
will spend $13.9 million and use 130 FBI and U.S. Attorneys and 
Criminal Division staff for the campaign finance investigation. 
In addition, Justice has investigated allegations of criminal 
activity by Administration officials in the following cases, 
some of which have Independent Counsel appointments now: of 
course, Independent Counsel Starr on Whitewater, Travelgate--I 
will use the popular acronyms--Filegate, and perjury and 
obstruction of justice in the Jones case; Independent Counsel 
Smaltz on Agriculture Secretary Espy; Independent Counsel 
Barrett on Housing Secretary Cisneros; and Independent Counsel 
Pierson on Commerce Secretary Ron Brown; Independent Counsel on 
Interior Secretary Babbitt, investigation of the President's 
role in the Indian casino case, investigation of Vice President 
Gore and former Energy Secretary O'Leary, investigation of 
Labor Secretary Herman, investigation of Magaziner on the 
Health Care Task Force.
    Why haven't you requested increased resources to handle 
that increase and workload? That is a substantial increase.
    Attorney General Reno. For Mr. Starr, Mr. Smaltz, Mr. 
Barrett, Mr. Pierson, and the other instances in which we have 
sought Independent Counsel, there is a separate appropriation 
that is not part of the Justice Department appropriation that I 
control, and they draw directly from that. With respect to the 
other matters, we address this as we do all investigations and 
build with what we have; and then as we identify needs, we fill 
those needs, and if at any point we need to address additional 
resources, we shall do so.
    Mr. Rogers. Well, I was really addressing the expenditures 
before it got to Independent Counsel status. You had to do your 
preliminary investigations. Those expenses are bound to be 
piling up.
    Are you diverting monies from other accounts, I guess is 
what I am trying to get at, or are you--will you be seeking a 
reprogramming for that purpose?
    Attorney General Reno. At this point, I don't envision the 
need for a reprogramming. Most of those matters that you refer 
to, any preliminary investigation was done some time ago.
    Mr. Rogers. All right. So you have sufficient resources?
    Attorney General Reno. Mr. Chairman, one of the things I 
keep asking when I meet with them on a regular basis is, do you 
have enough resources? And if they tell me they don't, then I 
make sure they do.

                      CAMPAIGN FINANCE TASK FORCE

    Mr. Rogers. Now, with respect to the work of the Campaign 
Finance Task Force, and in particular, the decision to not seek 
an Independent Counsel to investigate the fund-raising 
activities of the President and the Vice President, what 
assurances can you give us that the standards used in that 
decision will be applied equally to all activities under review 
and without regard to any party affiliation?
    Attorney General Reno. Without regard to what?
    Mr. Rogers. Any party affiliation.
    Attorney General Reno. Well, I am not quite sure what you 
mean, because I wouldn't have--I can't think of a covered 
person in terms of the party affiliation.
    Mr. Rogers. That is a good point.
    Attorney General Reno. Mr. Cohen, Secretary Cohen, he is 
not subject to any investigation.
    Mr. Rogers. Now, have you or the Department received any 
communications from anyone, including the White House, 
suggesting or encouraging that you focus on the activities of 
any one group or party?
    Attorney General Reno. No, sir.

                              WAR ON DRUGS

    Mr. Rogers. Now, let me ask you quickly on the war on 
drugs, since 1992, total drug war funding in the Department of 
Justice has increased from $11.9 billion to $15.9 billion, 33 
percent increase. I am sorry, in Justice alone--that is the 
overall war--in Justice alone, the funding has increased over 
74 percent; and we have had bipartisan support, as you know, on 
the Hill, especially on this subcommittee, for that purpose, 
but we have lost some ground.
    I understand that the National Drug Control Strategy will 
include specific performance goals, and I am asking, what 
specific outcomes will you be looking for to measure your 
success in the drug war during the next 2 years?
    Attorney General Reno. Pursuant to Congress' direction, the 
Department of Justice is preparing the--its drug control 
strategy, which is due, as I recall, March 30th, and we are 
addressing those issues specifically in that proposal--I mean, 
that strategy that is due and it should be there to you on 
time. With respect to the National Drug Control Strategy issued 
by the office of ONDCP, I would refer you to page 23 of that 
report, because I think that states the overall key of both 
performance measures.
    Mr. Rogers. Yes. Maybe you could do this for the record. 
What I am going to be looking for is what you expect.
    Attorney General Reno. And what I would like to--we are in 
the process of preparing that and addressing that, and I would 
like to present that to you as part of the overall strategy 
that we are required to present March 30.
    Mr. Rogers. That will be fine.

                      drug treatment for prisoners

    Now, you request a new initiative, $85 million, which 
puzzles me. You are asking for the money for drug treatment of 
prisoners, drug treatment for prisoners; and also you propose 
to allow the States to use any or all of their State prison 
grant funds that we gave them for prison construction, you want 
that money freed up for drug treatment of prisoners.
    Help me out here. I am puzzled why you would want to do 
that?
    Attorney General Reno. I will tell you why. For 15 years I 
was directly responsible for prosecuting thousands of people 
that committed a crime because they had a drug habit or 
committed a crime to get cash to sustain their drug habit, and 
I watched these people go into probation and not get treatment 
that was worth anything. I watched them go to prison and come 
out and start using again because nobody addressed the ultimate 
problem that caused the drug abuse in the first place.
    And I used to think, why do we do this? I would then go to 
the State legislature and hear somebody asking for money to 
build a treatment facility, and I thought why do we have to 
build a treatment facility when the people who are most causing 
us the drug problems are those who are in prison or those who 
are on probation?
    Why do not we develop something that is sensible that 
addresses the problem while we have got them where we want 
them?
    One of the initiatives was the drug court aimed at 
nonviolent first offenders who wouldn't go to prison but kept a 
hammer on them and made sure that there were treatment programs 
that worked. That program had tremendous success, and Congress 
has approved it and it has spread across the country. But then 
I looked at the prisoners and somebody said, ``Why would you 
treat prisoners? How can they get the drugs in the first 
place?'' I do not think they are getting drugs in the Federal 
Bureau of Prisons, but I can never be too sure of things like 
that. So I keep checking on it. But I think we have a good 
control. And I see what happens in the Federal Bureau of 
Prisons in terms of recidivism rates for people who get the 
treatment and go out with the chance of success.
    In many instances, that is not happening in the State court 
system. They do not get the treatment in prison, they do not 
get after-care or follow-up and we watch them go right back in 
the system. I am suggesting that this is a great way to 
interrupt the merry-go-round that has existed in the criminal 
justice system for too long.
    Because when I first became a prosecutor in 1978, people 
didn't believe that treatment worked. I suspect every American 
now knows somebody who has benefitted from treatment. It can 
work and it can make a difference, and I think it is a great 
investment.

            ELIMINATION OF LOCAL LAW ENFORCEMENT BLOCK GRANT

    Mr. Rogers. Once again, this year your budget request 
eliminates the Local Law Enforcement Block Grant, which, as you 
said, this Subcommittee put in place a few years ago as a 
counterweight to the COPS program. And that puts this 
Subcommittee in the position of having to find monies for that 
program from some other programs for which we have jurisdiction 
in order to support that much needed program. It invites us to 
scrap your budget request because it is a large item.
    I would also point out that the Congress has been fair 
about supporting the COPS program for the last 2 years even 
though the Administration continues to eliminate the block 
grant program, which was a congressional initiative.
    Did your budget request to OMB include funding for the 
Local Law Enforcement Block Grant?
    Attorney General Reno. Yes, it did.
    Mr. Rogers. So the OMB knocked it out. Why?
    Attorney General Reno. I think there is a feeling when you 
look at the use of funds, for last year alone, 53 percent went 
to the purchase of equipment, 12 percent went to overtime, 13 
percent went to hiring officers; and I think there is a feeling 
that local law enforcement should not rely, and our Federal 
system, on continuing revenue sharing, if you will, for local 
law enforcement. It is inconsistent with principles of 
federalism. And the Federal Government, in partnership with 
State and local law enforcement, should be in the process of 
looking at a balanced criminal justice system and providing 
monies that will be a spur, that will be an incentive, to 
developing comprehensive programs, such as community policing 
across the country, but that we should retain a balance between 
the State and Federal systems.

                       JUVENILE CRIME BLOCK GRANT

    Mr. Rogers. Now, your request also eliminates a new $250 
million block grant program provided by the Congress in fiscal 
'98, monies aimed at juvenile crime. Those monies can be used 
by States for juvenile prosecutors, juvenile courts, juvenile 
detention facilities, even some juvenile prevention programs. 
Your budget request proposes to replace that block grant with 
$200 million in discretionary grant programs for the same 
people. What evidence do we have that the block grant program 
won't meet the need?
    Attorney General Reno. What we are trying to do there is 
again look at a balanced system. I recognize local law 
enforcement would like to spend the money or local government 
would like to spend the money the way it wants to. But I think 
there has got to be some understanding of the whole of the 
justice system.
    There is a tendency for corrections and policing, as we 
have seen to date, to get the great bulk of it. Courts and 
prosecutors and prevention programs are often left out. To make 
the system work, I think you have got to do it in a balanced 
way, you have got to ensure that there are correctional 
facilities that provide sanctions that fit the delinquent act 
and let the kid know that the law means what it says. But you 
need courts who have the time, who have the resources to begin 
to devise something that can let the kid know what he is 
talking about. And I have seen too many courts with calendars 
as long as your arm who do not have the time to fashion the 
disposition that can give that kid a chance of success. This 
would give the courts the opportunity to design programs to do 
that. And then I see us add police and the prosecutors across 
the country say, you have given the police more money but you 
haven't done anything for us and they are bringing in more 
cases. And then I hear from the police chiefs and the sheriffs 
themselves who say, we are never going to work our way out of 
it just in the criminal justice system; we have got to do more 
in terms of prevention, in terms of prevention of drug use, 
prevention programs that can make a difference, and so that 
tends to provide a balanced approach on the part of the Federal 
Government to this effort.
    Mr. Rogers. Well, I think we just differ on the philosophy. 
We think that the block grant monies which goes to the States 
to allow them to spend it as they see fit as opposed to your 
concept of doing the grants here by bureaucrats in Washington, 
we think ours is the best way. We think that the local boards, 
the local prosecutors, the local State governments and local 
governments know best what their needs are; and, therefore, we 
are willing to trust them with this money to spend for this 
broad purpose. But I do not think we are going to agree on----
    Attorney General Reno. One thing I would, if that is the 
way it goes, I would really like to address a concern. My 
understanding, and I am still not quite sure of how it all 
works, but a small community that qualifies with the violent 
crime rate based on its size may only get about $10,000 and 
that $10,000 just isn't as well spent as if you took the 50 
communities in the same general area and used the monies more 
wisely. If we could somehow or another give communities, if we 
could address this issue if that is the way it goes, I think it 
could be helpful and I would offer to do that.
    Mr. Rogers. Well, we will have a chance to talk about that 
before the time comes.
    Mr. Mollohan, do you have any questions?
    Mr. Mollohan. I have a few, Mr. Chairman. Thank you.

                            FALSE CLAIMS ACT

    Madam Attorney General, I understand that in your speech 
before the American Hospital Association you said your door is 
open to hear the concerns of health care providers. You said 
that you are dedicated to working together with hospitals in 
every way possible to make sure that the law is not abused.
    You further stated that it is not the policy of the 
Department of Justice to punish honest billing mistakes, nor do 
we prosecute doctors or hospitals for mere negligence. Under 
the False Claims Act, such honest mistakes of simple negligence 
do not attach to a ``false claim.''
    I couldn't agree with you more. That sounds perfectly 
reasonable and sensible. There are a number of concerns about 
use of the False Claims Act which have been expressed by other 
Members of Congress, such as Congressman Edwards of Texas. 
There is a lot of consternation in some parts of the country, 
including Texas, about the way this is being implemented. I 
understand that some believe that the Department of Justice 
plans to target what has been represented to me a large number 
of hospitals. Four thousand seven hundred hospitals is the 
number before me. Could you give some additional reassurance 
alongthe lines that you gave in your recent remarks. I can't 
imagine this being a Department of Justice policy. But reassure us of 
your policy.
    I also heard you talk about the course of redress cases in 
which people felt they were experiencing this kind of 
targeting.
    Attorney General Reno. What I have asked is that the staff 
of the Justice Department, and it is being coordinated--this 
effort is being coordinated from the deputy's office, make sure 
that we contact each Congressman or Congresswoman who has 
expressed concern so that we can follow up on their concerns 
and if they have some specifics let us he know.
    I also asked that we develop a liaison with the American 
Hospital Association to make sure that again we have an avenue 
so that if it cannot be worked out through the U.S. Attorney's 
Office, if there continues to be misunderstanding or a claimed 
misunderstanding or error, that we review it. And I have gotten 
good feedback from the American Hospital Association, and I 
think we will be able to address it. But I am dedicated to 
trying to do so.
    Mr. Mollohan. Thank you.

                                 calea

    The Chairman talked with you about CALEA. We have received 
a number of concerns from industry about the way the FBI has 
played out their role in this process. I am not going to ask 
you to respond here at the hearing to these concerns, so you do 
not have to think about that. But what I would like to do is 
just read them into the record and allow you to respond to them 
for the record.
    First of all, industry has expressed the concern that the 
FBI has failed to issue its capacity notice so industry can 
properly size and develop CALEA complaint technology.
    Secondly, the FBI has delayed the issuance of industry 
standards by demanding that it include capabilities outside the 
scope of CALEA. The FBI can address standards at the FCC but 
has failed or refused to do that.
    Three, the FBI has improperly shifted cost to industry 
through its cost reimbursement regulations.
    Four, the FBI has tried to turn implementation of CALEA 
into government procurement through the cooperative agreement 
process.
    Five, that it has threatened enforcement actions against 
industry unless it develops and deploys the features the FBI 
specifies in the punch list.
    Six, the FBI has attempted to direct the choice of a 
particular technology through its cost reimbursement authority.
    And seven, that it has failed to develop an appropriate 
implementation plan for the expenditure of the $500 million.
    If you would respond to those for the record, I'd 
appreciate it.
    [The information follows:]


[Pages 255 - 259--The official Committee record contains additional material here.]



    Attorney General Reno. I will be happy to respond for the 
record of what I have indicated. I would just like to 
summarize, and we will make it a clear part of the record. But 
I have had some really good meetings with industry, and I think 
that it is positive. I think it is on its way or was on its 
way. And I just want to do everything--I mean, I have looked at 
everything. We have addressed issues. We have, I think both the 
industry and the FBI have moved to accord. And we are going to 
be preparing it and file something by March 13th. Again, I 
think it is in every American's interest that this gets worked 
out, and I look forward to trying to do that. But we are going 
to file by March 13th if we do not.
    Mr. Mollohan. Thank you.

                         iafis and ident system

    Madam Attorney General, you embrace the principles of 
integration and universality as fundamental to IAFIS systems. I 
would submit that in regard to the first opportunity that there 
is, acknowledging that you have to develop the IAFIS and the 
IDENT systems, the achievement of those goals have fallen 
short. These two separate systems have not achieved integration 
or universality or gone down the path toward universality, and 
there will be consequences for that.
    And the first consequence that occurs to me and is 
particularly of interest to this subcommittee, is that these 
areexpensive developments. The IAFIS system has a price tag on 
it, in rough numbers, of $640 million. And the price tag on the IDENT 
system, as I understand it, approaches $189 million.
    Not every one of those dollars is for development. A lot of 
it is for procurement. A lot of it is for things that are 
outside the development area. But, nevertheless, they are very 
expensive. Once you develop two diverging systems, then the 
cost of procuring equipment does lead you in this divergent 
direction. In order to bring them back together, you have got 
to consider all of those integration factors. It is not only a 
software issue, it is also a hardware issue as well as an 
operational question. All of these issues costs money and 
should be incorporated into this $189 million IDENT system 
development.
    So if down the road you want to integrate these systems, at 
some point you are going to have to fix all the problems that 
are being created by the divergent development of the systems. 
They are fundamentally philosophically different. One is a 10-
print standard system, the other is a 2-print system. I think 
that has very serious consequences.
    Have you considered all the ramifications of the costs 
involved with developing two divergent systems? I am concerned 
about the hidden costs that may be forthcoming when we get down 
the road and find that these two systems do not talk to each 
other, and that one doesn't even fulfill a function. What will 
be the additional cost that is going to be incurred in order to 
bring them back in concert?
    Attorney General Reno. What I have requested Mr. Colgate to 
do is to consider the cost question, the integration question, 
if money can be prevented from being wasted, take steps to do 
that; if it is a matter of constructing or adding to one to 
make sure that it is compatible with the needs of the other, 
how we do it in the most cost effective manner possible.
    I do not have all the answers, and I am not technologically 
sophisticated enough to describe it in detail. But I think the 
process that we have in place for review of this can address 
those issues. And what I would ask Mr. Colgate to do is to 
report to you on a regular basis in advance of June 1st as to 
the developments and to make sure that we have the benefit of 
your thoughts.
    Mr. Mollohan. Okay. I am not going to let you off the hook 
with that.
    Attorney General Reno. I am not asking you to let me off. I 
am asking you to hold me accountable and keep my feet to the 
fire.
    Mr. Mollohan. The second real consequence is that in 
processing the systems that are being developed, a 2-print 
system for INS and a 10-print system for the rest of the world, 
there will be a lot of crimes that fall through the cracks--a 
lot of criminals who are caught in the net.
    Let me go through a bit. I am not going to be so 
presumptuous as to lead you, but if you might let me.
    Attorney General Reno. Go ahead.
    Mr. Mollohan. Okay. Say we have an illegal alien that is 
apprehended for the first time at the border. The INS goes in 
and does a 2-print fingerprint--a fingerprint using two index 
fingers. After that the person is sent back south across the 
border. They got caught the first night and got printed. Say 
this is a bad person who likes to commit crimes, and the second 
night this person gets across the border and commits a serious 
crime leaving 8 fingerprints at the crime scene. However, none 
of those fingerprints include the forefingers. Say they then go 
back across the border undetected with whatever they stole. 
Then the next night they sneak back across the border and they 
get caught again. INS checks their two fingerprints, their 
index fingers, and there is no way to pick up that this was the 
same hand but not the same fingers that were involved in the 
crime the night before. So the person is sent back. They have 
committed a crime in the United States, there is no way of 
cross-checking, and they are sent back across the Border.
    The next night they come in undetected again and commit 
another crime, leaving behind the same 8 fingerprints, but 
again not the two index fingers such that their prints are 
nowhere in the system. They get back across the border. The 
next night they are caught again. INS checks the fingerprints 
the same time. They can do that 13 times. I understand that 
scenario can play out for 13 times, Madam Attorney General, and 
never be picked up in the system.
    If you had a 10-fingerprint system and it were in the IAFIS 
system or if it were in a subset, an INS subset system, then 
they would immediately be picked up as a criminal. Does that 
concern resonate with you?
    Attorney General Reno. Yes.
    Mr. Mollohan. We are making progress. Good answer to a good 
leading question.
    In Los Angeles in May of 1990, 11 percent of the released 
prisoners were deportable. In June of 1995, 16 percent of the 
released prisoners, 2,416 out of14,446, were illegal deportable 
aliens, 16 percent of the people released. That is 29,000 who were 
caught in some way were, put into prison, and then released. But it is 
a very large number of people that were caught.
    Just imagine the thousands if you extrapolate. That in some 
reasonable conservative way suggests that there are thousands 
of people who are illegal aliens coming across the border in 
the same manner and imagine how many of them are not being 
picked up because these systems aren't adequate and they do not 
speak to each other.
    Why then does the INS want to procure four of its own 
independent subsystems, for fingerprint matching instead of a 
single system which can perform on multiple databases? And that 
is really an issue.
    Attorney General Reno. That is the issue. And I have asked 
Mr. Colgate to review it. One of the things I have asked Mr. 
Colgate, if INS says that it would disrupt operations at the 
border to have to do 10 prints, I have been on the border 
enough to know they bring in one and two and they could easily 
do 10 prints, that there might be a situation that develops 
where the chief, the person in charge that night, waives it for 
a specific reason. And we identify the person as much as 
possible. I mean, there are so many things that can be done.
    One of the things that I have learned a long time ago, 
particularly with these issues and particularly with 
automation, is it does not serve me well to rush into it. I 
want to make sure that we look at it carefully, that we report 
back to you, and that we give you our best judgment. I would 
agree with you, but I want to make sure that I have heard and I 
have looked at the situation and that we make the best judgment 
possible.
    Mr. Mollohan. My response to that is such a that concern by 
INS doesn't resonate, for a number of reasons. We all have to 
work hard and we all have to be more efficient, and that is 
just the way it is.

                               ins agents

    Secondly, this Chairman, with his leadership and support, 
has put incredible amounts of money toward increases in the 
number of INS agents. And it would seem that this, being core 
to good law enforcement, would be a priority and that some of 
these additional aliens could be assigned and this task could 
be performed.
    Mr. Chairman, just one final thought.
    Attorney General Reno. Let me just point out to you, I do 
not know whether you have ever been out to that border. I have 
been up to the mango groves in Florida, and I thought it was 
the biggest border to have to worry about. But that is a long, 
lonely border. I tend to agree with you. But let us not jump to 
conclusions. We will keep you posted. The Chairman is going to 
call me every 15 minutes about CALEA, and you can call me the 
other 15 minutes about this. But we will try to keep you both 
posted so you won't have to call.
    Mr. Mollohan. I will let the Chairman ask you this as an 
aside when he calls you. But I am not jumping to conclusions. 
We have been raising this issue for 3 years in this hearing and 
it has not been addressed.

                          ncic 2000 initiative

    One final thought here. You are processing an NCIC 2000 
initiative and you are working the kinks out of it and you are 
trying to make it work. The whole premise of that, or one of 
the most important premises here, is to achieve a networking of 
a system that is integrated and is on the way to becoming 
universal. NCIC 2000 is your initiative for State and local 
government. INS is not setting a very good example to achieve 
that end by developing a completely different system. It is 
completely different, with the only similarity being the word 
``fingerprint.''
    As I have looked at this and tried to be fair about it, 
there are no compelling reasons for developing 2 separate 
systems. The fact that it takes a little more time to do 10-
roll fingerprints, seems to be the real argument. It is just as 
easy to establish a subset in the IAFIS system. If you put that 
same INS fingerprint subset in a smaller subset, you can search 
them quicker on a 10-fingerprint system than you can a 2-
fingerprint system.
    Thank you, Mr. Chairman.
    Mr. Rogers. I think the gentleman has made his point very 
well. I can only hope the staff was listening. I certainly hope 
so.
    Attorney General Reno, we thank you very much for your 
testimony today. We apologize for taking you through the lunch 
hour here. And we will not do that again. I apologize, too, for 
the size of this room. I do not like this hearing room. It is 
too big.
    Attorney General Reno. I am used to this room, Mr. 
Chairman.
    Mr. Rogers. I know you are. But it is too big for our 
purposes. I would like to get closer to you. Up here it makes 
you feel too much like a controlling legal authority, and I do 
not want to do that.
    Attorney General Reno. Mr. Chairman, may I just say 
something? I found this hearing to be probably one of the best 
that I have participated in these 5 years. I think it reflects 
the wonderful balance, the checks and balances, the thoughtful 
bipartisanship that should go into so many of these issues of 
law enforcement and the like. And it has been a good three 
hours for me.
    Mr. Rogers. Thank you very much. I agree, I think it has 
been one the most useful hearings that we have held with you, 
or with anyone else for that matter.
    In closing, let me say I do not know of any Attorney 
General in our history who has been faced with more tedious, 
technical, ethical even, quandaries than you have, and they do 
not seem to be easing up. I mean, there is just an inordinate 
number of tough decisions that you are having to make.
    So we wish you personally well. And we know that you will 
make the right decision on all the things that you are trying 
to do because you bring them to heart here. We will work with 
you on the matters we have discussed. This will not be the end 
of the conversation. Your staff and our staff will keep in 
touch.
    Mr. Mollohan. I second that, Mr. Chairman.
    Mr. Rogers. And we want to help you with your job. Thank 
you.
    Attorney General Reno. Thank you.


[Pages 264 - 294--The official Committee record contains additional material here.]



                                           Thursday, March 5, 1998.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

LOUIS J. FREEH, DIRECTOR

                 Congressman Rogers' Opening Statement

    Mr. Rogers. The committee will come to order.
    Mr. Director, I apologize for being late. At one of the 
other subcommittees we had the Commandant of the Coast Guard 
and we were talking behind closed doors on drug interdiction, 
which is, of course, your interest, as well.
    This morning, we would like to welcome the Director of the 
FBI, Louis Freeh, on behalf of the budget request for Fiscal 
Year 1999.
    You are seeking $3.014 billion for the FBI, which 
represents an increase of $40 million, or 1.4 percent over 
1998. We have tried to respond to your resource needs so that 
the United States is better protected, better prepared to 
respond and better informed on the threat of terrorism, violent 
crime and other violations of Federal criminal law.
    The FBI's mission is to perform these responsibilities in a 
manner that is responsive to the needs of the public and 
faithful to the Constitution of the United States.
    In 1999, law enforcement all over the country will have new 
tools to fight crime as we will finally witness our large 
investments in IAFIS and NCIC 2000 come to completion, 
investments in a new crime laboratory, DNA identification 
systems, command and control centers, and training, which will 
allow for a better response to the crime problems that the 
nation faces.
    But the FBI has been on a bumpy road the last few years and 
the agency's image has suffered in the wake of a variety of 
controversies. You have declared that the agency is in great 
shape despite these problems, and you say the Bureau is willing 
to acknowledge its mistakes and reform itself. Only your 
management and the actions by the Bureau from this point on 
will convince us that the troubles of the past are over.
    As we attempt to keep the budget in balance, the FBI will 
be given no exception to having to justify every dime that it 
needs and to demonstrate to us that the resources will make a 
difference. Hopefully, this hearing will provide you the 
opportunity to do that today.
    We appreciate your being with us today and we will insert 
your written testimony in the record and you are invited to 
proceed with an opening statement.

                    FBI Director's Opening Statement

    Mr. Freeh. Thank you, Mr. Chairman, Members of the 
Committee. Let me extend my thanks to the Committee and the 
Congress for its support of the FBI mission which is a public 
safety, counterintelligence mission; and we particularly 
appreciate the counterterrorism resources that you have given 
us which we believe have been put to immediate good use, both 
by this agency and the State and local agencies, who have 
benefited from those resources.
    We also are greatly appreciative of the infrastructure and 
technology enhancements that you have provided. You have cited 
many of them in your opening statement. These are, indeed, the 
bricks and mortar as well as the fiber, physical and optic, so 
to speak, which will allow the FBI to function into the 21st 
century as a competent agency able to perform missions in 
changing environments.

                       challenges facing the fbi

    The FBI will celebrate its 90th anniversary later this year 
and the changes in the agency, not just from 1908 but even from 
1975, when I was a young Special Agent in New York, have been 
phenomenal. We face many of the same threats in a somewhat 
different context. We also face many new threats of which this 
Committee is acutely aware and which your resources and support 
have enabled us to address.
    Just very, very briefly, with respect to espionage and 
intelligence activities, although the Cold War is over and we 
have a world of one superpower, we still experience, to a high 
degree, a counterintelligence mission necessity here in the 
United States. The espionage with which we are dealing is both 
traditional and also new.
    We know that there are 23 countries, for instance, who use 
their clandestine intelligence services in the United States to 
acquire and steal not blueprints of F-15s, but biotechnical 
information and trade secrets. And the Congress has responded 
to that new threat not only with substantive legislation but 
also with some of the forensic tools as well as the 
infrastructure necessary to deal with those. But we continue to 
experience both the traditional as well as the new form of 
those particular threats.
    With respect to terrorism, both internationally and 
domestically, the number of incidents remains fairly constant. 
The threat is even greater in some degree, as experienced 
several weeks ago by the threat in Las Vegas. The country, at 
one single time was dealing with both the threat of weapons of 
mass destruction from a foreign power and, also, the threat, 
which turned out to be benign, of someone using a biological 
agent to create devastation within the United States.
    Part of the 1997 and 1998 counterterrorism funding which 
you have provided for us was, in my view, essential in the 
preparedness--the coordination between those agencies in Las 
Vegas, the new Hazardous Materials Response Unit of our 
laboratory, the coordination which was preestablished with the 
Department of Defense--which allowed a timely and safe response 
to what would have been a most dangerous situation had that 
agent been, in fact, a live agent.
    We had approximately 100 of those type cases last year. 
Most of them turned out to be non-credible, but unfortunately 
in that particular realm only one of these threats needs to be 
real to have a devastating impact, potentially and the loss of 
many, many lives.
    We are taking advantage of the funding you have providedin 
the Nunn-Lugar-Domenici domestic preparedness program which, as you 
know, not only prepares and equips this agency to deal with those 
threats, but the Department has been able in 1998, and has asked in 
1999, for continued funding to train the State and local first 
responders. These are the police officers, the rescue squads, and the 
fire departments who would have the burden of responding to these 
threats immediately. And that has been very productive and I think that 
is a wise investment for the country.
    We are dealing both with traditional criminal enterprises, 
both drug enterprises and organized crime enterprises. We have 
new players in some of these areas, particularly in the Russian 
and Asian criminal enterprise areas.
    We continue to work very hard with respect to the 
technology issues which challenge law enforcement. Both the 
ability of this agency and your State and local departments 
around the country to conduct court authorized wiretaps to deal 
with the new threats of encryption which, as you know, pose 
brand new and very difficult threats to the enforcement of 
Federal search warrants as well as electronic surveillance 
orders.
    Aldrich Ames, Ramzi Yousef and drug dealers in California 
are regularly using and beginning to proliferate encrypted 
channels of communication both in stored data and communicated 
data to commit their crimes and we are working very hard with 
the industry to try to meet those challenges.
    The 1999 budget, of course, is the first budget submitted 
in compliance with the Results Act and we have worked very hard 
in the integration of the strategic planning and budget process 
to prepare for that.

                          1999 budget overview

    A brief overview of the 1999 budget. As you noted, Mr. 
Chairman, we ask for $3 billion approximately in direct budget 
authority. This will buy both permanent and reimbursable 
positions, fund 26,000-plus FBI Agents and support personnel, 
including 11,677 agents, which will be more FBI agents than we 
have had in complement in our history.
    We have asked in the 1999 budget for enhancements in four 
primary areas. One is the counterterrorism and cyber crime 
area, which I will talk about very briefly; information 
sharing, which is the technology component of everything that 
we do. We have asked for enhancement of Indian Country law 
enforcement where we have not been able to do, in my view, an 
adequate job given the problems and the sky-rocketing violent 
crime rate, particularly the homicide rate in Indian Country.
    We have a number of other items which I will detail very 
briefly. It represents a $94 million direct budget authority 
enhancement and 340 direct and reimbursable positions, as you 
noted. We have also, additionally, in the amounts proposed for 
the Department's General Administration programs, asked for 
$213.6 million which would support new and continuing FBI and 
Departmental-wide initiatives regarding counterterrorism, cyber 
crime, narrowband radio communications, the ability not just of 
the FBI, but the State and local police, fire and rescue units 
to speak to each other effectively and immediately, and also 
continued funding of the CALEA project which you, Mr. Chairman, 
have been personally very active and, in my view, critical in 
moving that solution to a final resolution.

                    counterterrorism and cybercrime

    With respect to the counterterrorism and cyber crime 
enhancement area, again, these are new crimes, new threats, and 
new places where the FBI has to be able to work. Last week in 
New York, as you know, a defendant named Levin was sentenced to 
36 months for a crime which he committed using a laptop 
computer in St. Petersburg, Russia, in a scheme to steal $10 
million out of Citibank accounts without leaving his living 
room or his laptop computer.
    Those types of crimes, have risen phenomenally. In the 1998 
fiscal year to date, approximately 458 computer-related cyber 
crime investigations, which is four times the amount in 1996.
    The increased funding that we will present to you, in terms 
of the request, will give us basically two capacities. One is a 
field-based computer competent capacity. We now have 
approximately six computer squads, as we call them, set up in 
various divisions, New York, Washington, and San Francisco. The 
requested funding would give us the facility to institute six 
more computer squads.
    These squads are very different from what we have 
traditionally had in our field offices. Most of our work 
traditionally has been programmatic. As an example, we have a 
bank robbery squad, and a fugitive squad. These types of squads 
are charged with two responsibilities. One is to investigate 
cyber crimes, intrusion cases, and sabotage cases. Second, they 
are also a facility for the other agents in the office to use 
their forensic abilities. The agents go out on a search warrant 
now and instead of seizing a box of records, as I would do back 
in 1975, they seize hard drives and disks. We need to have the 
forensic capability to know what we are looking for and then to 
understand and to report it back to the court.
    So, the field ability here will be very critical, in 
performing these functions. I think I can predict with some 
safety that within the next five to 10 years every division in 
the FBI will have to have some forensic computer capability, 
not only to deal with the number of crimes that are 
proliferating, but the difficulty of examining evidence and 
acquiring evidence.
    There was a report yesterday in USA Today with respect to 
an industry-based survey which shows cyber crime rising last 
year by about 22 percent. And I think that is indicative of 
where this is going.
    In many ways, the use of computers and modems by criminals, 
by terrorists, and by spies is very akin to what happened in 
the 1930s when the automobile and the telephone began to become 
tools of criminals as well as law-abiding citizens. The Federal 
Government's law enforcement response had to deal with the 
automobile moving interstate and communications moving every 
which way.
    In many ways, that is an analogy for what is happening 
today with computers, modems and telecommunications. We are not 
just a global economy but a global criminal environment where 
pedophiles as well as terrorists or bank robbers can easily 
move and attack. We need to be prepared to meet such threats.
    So, this is a request which we think will be very important 
to enhance our ability to protect the people and carry out our 
mission.
    The other part of that proposal goes to a centralized 
headquarters-based enterprise called a National Infrastructure 
Protection Center which we ask for funding for the FBI but also 
for the Department of Justice. As you know, Mr. Chairman, you 
have given the Attorney General the responsibility of putting 
together recommendations in that report that report.
    This particular center will have 40 representatives from 
different Federal agencies as well as the private sector. And 
it will be the Government's central responsibility to deal with 
both cyber crime as well as threats to the information 
structure and to other networks which both government and 
industry depend upon.

                          information sharing

    With respect to the Information Sharing Initiative, one of 
the key infrastructure issues for the FBI in all of our 
programs is our ability to acquire, analyze, disseminate, as 
well as communicate the information that we have. We have some 
very solid data base capabilities, for instance, in the 
Organized Crime Information System (OCIS) with which you are 
familiar, and in many of the other criminal as well as foreign 
counterintelligence and counterterrorism systems.
    The problem is that these are stove-pipe operations. They 
are all in their own field of expertise and they serve up the 
information that they acquire. However, the ability to 
integrate those data bases, the ability to analyze on an 
enterprise basis, beyond a particular individual or company in 
one program, is a necessity of great importance.
    And as I travel around the Bureau visiting all our offices, 
the number one issue that is raised by both our agents and 
support staff is the ability to be investigators in the 
information age, to have the technology and the infrastructure 
which will allow us to analyze and quickly and competently 
disseminate and be aware of the information that we have. So, 
we ask your support for that initiative.

                     INDIAN COUNTRY LAW ENFORCEMENT

    With respect to the Indian Country law enforcement 
initiative, although homicides have declined about 20 percent 
around the country, they have risen about 87 percent in Indian 
Country.
    We have asked for an enhancement in that area to allow the 
FBI to deal with the crime situation in conjunction with the 
Bureau of Indian Affairs, and the other Federal and State 
agencies who work there. We have asked in that initiative both 
for agents and for crime victim/witness counselors who are a 
very important part of dealing with those crimes, particularly 
the violent crimes involving children.

                              HATE CRIMES

    With respect to hate crimes and civil rights enforcement, 
we have asked for some additional funding to put together a 
civil rights analytical capability at headquarters to see if we 
can deal with some of the trends and changes in that program 
area to be more effective.
    As we have seen recently, the cases that we were 
responsible for in Los Angeles in the corrections situation, 
the recent charges in New York in a police civil rights case, 
the hate crimes in terms of numbers are increasing--11,000 last 
year--and we would like to get some analytical capability to be 
able to anticipate and channel some of our training resources, 
particularly as we train with State and local authorities to 
deal with the hate crimes issue, particularly the color of law 
type of crimes.

                        FBI ACADEMY IMPROVEMENTS

    We have asked for some additional improvements for the FBI 
Academy to complete the revamping and reconstruction of the 
firearms ranges, which until last year's budget had really not 
been enhanced since the 1960s, and to give us some ability to 
update our master plan which, as you know, will now incorporate 
in Quantico both the new FBI laboratory, and the new DEA 
training center. We need an update, we believe, on the master 
plan to be able to forecast the use of all those facilities and 
the additional requirements on administration and support that 
they will require.

                                 CALEA

    With respect to telecommunications carrier compliance, we 
request $100 million to provide payments to the 
telecommunications industry for costs incurred in modifying 
equipment and facilities to comply with CALEA.
    And, Mr. Chairman, I know you are very familiar with that 
issue. There is approximately $102 million which has not been 
spent in the Telecommunications Carrier Compliance Fund. And we 
believe that the final impasse with the industry, with respect 
to the final requirements, will be broken. As it is broken, 
obviously, we will need some of the additional funding to begin 
the reimbursement process and we ask for that continued support 
in 1999.

                            NARROWBAND RADIO

    With respect to the last item that I would highlight, the 
narrowband radio communications issue, as you know, the FBI 
operates the largest civilian land-based mobile radio system in 
the country. And we are required, as are all the other Federal 
agencies, particularly the law enforcement agencies, to migrate 
by 2005 from 25 to 12.5 kilohertz technology.
    That will require some very significant expenditures. We 
cannot enhance or retool the current equipment. That equipment 
has to be replaced. And we want to replace it in a manner which 
makes it more interoperable not just with other Federal 
agencies but with our State and local counterparts, both 
police, fire, and rescue.
    And we have proposed, in conjunction with the Department of 
Justice, a request for $64.1 million which would be for the 
Department's narrowband radio communication fund. This would 
begin a five-year effort to plan, design and implement a new 
nationwide communications system and one which will be 
necessary for us to carry out our responsibilities.
    Again, those are the highlights of the 1999 budget. Let me 
just, once again, thank you, Mr. Chairman, Members of the 
Committee, for the support that you have shown the FBI and 
certainly in all of the budgets, as I have been here since 
1993, in addressing the critical areas, particularly 
counterterrorism and infrastructure.
    [The statement of Director Freeh follows:]


[Pages 302 - 323--The official Committee record contains additional material here.]



    Mr. Rogers. I thank you, Mr. Director, for your statement 
and before we proceed further, on behalf of all of our members, 
let me congratulate you and your wife on the new addition to 
your family a few weeks ago.
    Mr. Freeh. Yes, sir, three weeks ago, thank you very much.
    Mr. Rogers. Your sixth?
    Mr. Freeh. Number six.
    Mr. Rogers. Son?
    Mr. Freeh. Six sons.
    Mr. Rogers. No daughters, six boys?
    Mr. Freeh. Six boys.
    Mr. Taylor. After seven, then it changes. [Laughter.]
    Mr. Freeh. I will be aware of that.
    Mr. Rogers. Congratulations to you.
    Mr. Freeh. Thank you very much.
    Mr. Rogers. I am going to yield to the full Chairman, Mr. 
Livingston, who is here with us.

                          MISUSE OF FBI FILES

    Mr. Livingston. Mr. Chairman, thank you very much.
    Welcome, Mr. Director and congratulations on your child.
    Mr. Freeh. Thank you, sir.
    Mr. Livingston. We wish you well and look forward to seeing 
you next year when Mr. Taylor can congratulate you on your 
seventh. [Laughter.]
    Mr. Director, we appreciate the job you are doing. You have 
a tough job and I think you know that this Subcommittee, this 
Committee in general, has been supportive of your efforts to 
combat the criminal element and to combat terrorism and we wish 
you well in that endeavor.
    And the prosecutor in me, as one who has dealt with the 
FBI, is proud of the FBI. I want to say that at the outset.
    Last time we talked I did elaborate on a number of my 
concerns and I am not going to repeat those. That is totally 
unnecessary. And I have to say that my concerns have been 
largely relieved in the last year.
    But one issue does continue to concern me and only because 
it continues to arise in the papers involving some of the same 
people, time and time again. And I think that the problem is 
not one that you can do much about but only that I ask you to 
be aware of. And there will be others that will testify before 
this Subcommittee and other subcommittees in the coming days 
which I intend to pursue this with, but I will lay it before 
you for your consideration.
    We went through that episode known as ``Filegate'' in which 
the FBI files were sent over to the White House, my words, for 
the purposes of political perusal by a fellow by the name of 
Craig Livingstone, with an ``e'', and his friends. And we still 
do not know who hired him.
    But the fact is that Chuck Colson went to jail for 
unauthorized use of one FBI file. In this case we have 
somewhere between 400 and 1,000 files. To this day, I think 
that the public has not acquired the listing of all the people 
whose files were perused by those, and again in my words, 
political hacks.
    And we know that the--in fact, I have talked to 
representatives of the press and they have acquired the listing 
of all of the people from alphabetically listing of A through 
G, and they have not gotten any more. They do not know who the 
files are.
    And I think that is incumbent upon the White House and your 
agency to, at least, advise those people who are affected that 
their files were mishandled in such a way and that their rights 
may have been violated. And I think that the press really 
should be entitled to know who those people are.
    But that was then. That was a couple of years ago. And as 
you and I have spoken over the last year or two, the then FBI 
counsel, Howard Shapiro, was acting, at least, in concert with 
the distribution of those files and then he investigated the 
whole thing and wrote the only report that I know of that you 
were kind and good enough to give me, dated June 14, 1996.
    And I still wonder if we ought not to get an independent 
review other than one by Mr. Shapiro, under whose authority 
these files were apparently disseminated.
    But he is gone now and I am pleased about that. But then I 
look in the paper in the last couple of weeks and I see in the 
Washington Times of February 27th, the listing of people 
involved in what is described by, in a column by Dick Morris, 
in the Washington Hill newspaper, that--and this is Morris' 
words--``Bill Clinton now has Terry Linzer, Jack Paladino and a 
rag-tag band of private eyes acting as a secret police without 
public accountability.''
    And when you look into what they are doing, they are 
basically looking into the backgrounds and lives of ostensible 
political enemies of this White House and this Administration 
and then you look in the article in the Washington Times at who 
has cooperated in this effort and you find that Howard 
Shapiro's name appears again.
    In fact, it is more than that. The group, Investigative 
Group International, known as IGI, first worked closely with 
the Clinton Campaign starting back in 1991 when they were hired 
to dig up dirt on Governor Cuomo and now working for the 
President to discredit Judge Starr according to the Washington 
Times and Dick Morris.
    The IGI received Federal dollars on a no-bid contract for 
hundreds of thousands of dollars by the State Department to 
train Haitian police and supervise the international police 
monitoring the democratic process in Haiti.
    The State Department claimed it awarded IGI the money 
without competitive bidding because it was urgent to get a top 
law man into Haiti. They also have received Federal campaign 
funds according to Dick Morris. The IGI is made up of--this is 
where we are really getting concerned. We have a collection of 
hard-ball players with ``A List'' connections to the White 
House, according to the Washington Times.
    First, Terry Linzer is an IGI founder and chairman. He 
served as Assistant Chief Counsel on the Senate Watergate 
Committee. He was criticized last year for co-authoring a 
proposal to dig up dirt on Senator Don Nickles and his wife in 
an effort to return Interior lands to the Cheyenne-Arapaho 
Indians, according to the Washington Times and he made a number 
of visits to the White House.
    Larry Potts, formerly of the FBI, of the investigation 
involving Mr. Weaver, is currently working for the IGI. He runs 
the IGI's New York office and he was forced out of the FBI 
because of his role in Ruby Ridge.
    Howard Shapiro, currently working as Terry Linzer's 
attorney, the head of IGI. And he resigned from the FBI after 
an internal probe found he exercised poor judgment in the FBI 
files scandal. He says there is no investigation going on about 
the private lives of the people at issue inthe Washington 
Times, but the Times article, of course, seems to refute that.
    Ricky Siden, who is now currently at the Justice Department 
and was a former IGI senior investigator who played key roles 
in efforts to derail Supreme Court nominations of Robert Bork 
and Clarence Thomas. In fact, she was the one who, as a Senate 
investigator, found Anita Hill and helped to persuade her to 
lodge last-minute sexual harassment charges against, who is 
now, Justice Thomas. She later became and serves, as we speak I 
believe--oh, no, maybe she is no longer there--as Deputy White 
House Communications Director. She may still be there. I am not 
sure about that. That is according to the Washington Times.
    Steven Green, who is an IGI employee and former Deputy 
Director of the DEA, co-authored a controversial memo with 
Terry Linzer proposing to dig up dirt on Senator Nickles and 
his wife in an effort to return Interior Department lands to 
the Cheyenne-Arapaho Indians, the Washington Times.
    And Raymond Kelly, a former IGI president who is now 
Treasury Under Secretary. And Brooke Sherer, former IGI 
employee, who served as an aide to Hillary Clinton in the 1992 
Campaign and at the election she was appointed Director of the 
White House Fellows Program. She is currently a senior advisor 
at the Department of Interior and is married to Secretary 
Strobe Talbot, the Deputy Secretary of State.
    Cody Sherer, Brooke Sherer's twin brother, came under fire 
for referring the Cheyenne-Arapaho Indians to Mr. Linzer and he 
claims to be a free-lance journalist with back channel 
connections to the White House. His other brother, Derrick, was 
named Ambassador to Finland in 1994. And Ann Luzatto, a former 
IGI employee, is now a spokeswoman for the National Security 
Council.
    Now, Dick Morris, who knows folks in the Administration far 
better than I do, characterizes this interrelationship of 
current Administration employees who go to IGI and former IGI 
employees who go back to the Administration as a potential--in 
his words--secret police.
    Mr. Director, I cannot stress strongly enough that this 
frightens me. The American people do not want their tax dollars 
paying for some secret organization at the behest of the 
President to investigate his political enemies. And I urge you 
and the FBI to do everything you can to make sure that if any 
of these people have violated the law that they are dealt with 
through the courts. If they are using taxpayer's dollars 
improperly, that that cease and desist and that if there is any 
relationship to the DEA, the National Security Council, to the 
FBI, to the CIA or to any other Federal organization that those 
ties be severed.
    We cannot afford this type of relationship and that is not 
criticism of the FBI. That is criticism of the White House and 
I intend to reiterate it in other hearings in the next few 
days.
    Thank you.

              fbi director on indpendent counsel staffing

    Mr. Freeh. May I respond briefly?
    Mr. Livingston. Please.
    Mr. Freeh. I take your comments and your concerns very, 
very seriously. Let me just make a couple of points. All of the 
Independent Counsels, including Judge Starr, are staffed, as 
you know by, FBI agents. In fact, that has been the tradition 
that every Independent Counsel who has been appointed has asked 
for FBI agents precisely because the FBI has the reputation 
and, I believe, the reality of conducting hard and impartial 
investigations.
    With respect to the former FBI agents or General Counsels, 
when they leave, obviously, we do not have any control over 
where they go. I know when I was Assistant U.S. Attorney in New 
York for 10 years, as you were in Louisiana, we saw a parade of 
our colleagues leave and suddenly appear in the well of the 
courtroom representing somebody who may have been investigated 
prior by the office. And that is an issue and a problem.
    I have taken some steps to try to deal with that both 
orally and in writing. I have communicated to all of our agents 
and particularly our managers that they are to be very alert to 
avoid any contacts or communications with any former employees, 
particularly in the area of the Special Counsel investigations. 
And I will endeavor to make sure that this is enforced.
    Also, with respect to the ``Filegate'' matter that you 
mentioned, there is an independent investigation going on. In 
fact, one of Judge Starr's court assignments is the whole FBI 
files issue. We have cooperated with him in that investigation. 
I do not know where he and his investigators are with respect 
to that. I expect he will make a full report when he finishes 
that and we have supported that 100 percent.
    Mr. Livingston. Thank you very much.

                    fbi-ins fingerprint coordination

    Mr. Rogers. Thank you, Mr. Chairman and Mr. Director.
    Now, let me quickly ask you some questions. We have a vote 
on the floor that we will have to recess briefly for in a few 
minutes.
    The Citizenship USA debacle, a catastrophe at INS, 
highlighted the problems in the INS/FBI coordination in 
processing of fingerprint background checks of alien applicants 
for citizenship.
    INS is establishing fingerprinting centers all over the 
country to take digital fingerprints and transmit them 
electronically to the FBI, at this Subcommittee's insistence, 
frankly. The Committee has provided funding for that equipment, 
the personnel and the general operations of those 
fingerprinting centers so that INS will no longer contract out 
fingerprinting to places like Pookie's Bar and Grill in L.A. to 
do the fingerprinting for them.
    And we have also provided you funding for automation of 
your fingerprint operations. Are those improvements that INS is 
making to their fingerprint process being coordinated with FBI?
    Mr. Freeh. Yes, sir, they are. In the four regional 
centers, and I believe, several dozen of their field offices, 
the capacity to electronically transmit the prints is either 
on-line or will be on-line in the next few months and I am very 
satisfied with that progress.
    We have also, as you know, substantially reduced the 
backlog, particularly the INS turn-around time. It is now down 
to 19 days with respect to the civil print checks.
    Mr. Rogers. Well, is the INS now submitting to you and 
getting from the FBI criminal checks before they grant 
citizenship?
    Mr. Freeh. Yes, they are, sir.
    Mr. Rogers. Are you training INS fingerprint personnel?
    Mr. Freeh. We are not only training them, we are going out 
to the field. In fact, we have a team going out to the 
Southwest border area, I believe next, week to not only study 
their protocols but to implement the necessary techniques toget 
fingerprints submissions electronically sent to us correctly.
    Mr. Rogers. So, are you now ready to receive electronic 
fingerprints?
    Mr. Freeh. Not from all their centers. But they told us 
that they will be on-line to do so over the next few months. We 
are doing it with some of their centers but not 100 percent.
    Mr. Rogers. When can you be 100 percent?
    Mr. Freeh. I have to ask the INS for their timetable, sir, 
it is really their schedule but I will get an answer for you.
    Mr. Rogers. What improvements in response time can we 
expect when this is installed?
    Mr. Freeh. I think they will be fairly dramatic. Between 
1994 and 1997 the increase in INS submissions was about 240 
percent, which was astronomical. With the new electronic 
submission, as well as the IAFIS maturity next year, we will be 
able to turn around all their criminal as well as civil 
inquiries, within 24 hours and Criminal inquiries of priority 
within two hours. And as I said, the delays have been cut down 
now to 19 days, I believe, for civil and 60 days for criminal. 
And that is a marked improvement from where we were a year ago.

    FBI Capability To Accept INS Electronic Fingerprint Submissions

    The FBI's Electronic Fingerprint Image Print Server (EFIPS) 
systems has been operational since June 1995. The current EFIPS 
capacity is 10,000 images per day. In July 1999, when the 
Integrated Automatic Fingerprint Identification System (IAFIS) 
becomes operational, the FBI will have the capacity to accept 
62,500 fingerprint card images per day. The FBI presently 
receives approximately 1,200 images per day from law 
enforcement. The Immigration and Naturalization Service (INS) 
estimates that it will submit approximately 11,230 fingerprint 
card images per day, or approximately 4,100,000 annually, once 
it achieves 100 percent electronic submission capacity. In the 
event INS electronic fingerprint card submissions reach the 
estimated daily average of 11,230 prior to the start-up of 
IAFIS, the FBI can upgrade the EFIPS system capacity.
    Assuming all hardware, software and cabling are installed 
at each Immigration and Naturalization Service site, the INS 
advised the FBI that it plans to submit approximately 8,000 
images per day by October 1.

                                 calea

    Mr. Rogers. Now, I want to quickly try to cover CALEA.
    At the hearing last week, the Attorney General said that 
negotiations with industry on CALEA were at an impasse. She 
said she was going to attempt to break the impasse and if 
unsuccessful she would file a petition with the FCC next Friday 
with regard to the deficiency of the industry standard.
    Any progress since she testified last week?
    Mr. Freeh. We have scheduled Mr. Chairman, a meeting 
tomorrow between the Attorney General and about 15 of the CEOs 
of both the telecommunications companies, as well as the 
manufacturers, and I am confident that the Attorney General 
will break through this impasse. The impasse, basically is a 
dollars disagreement. We believe that the technology exists to 
fix the problems and industry has told us that they can fix 
those problems. It is a question of how much money the 
Government is able or willing to pay and what their economies 
will be when they produce this.
    The other point is that there is nothing in these requests, 
particularly the nine final items of disagreement, which in any 
way enlarges our capacities or the capabilities of all the law 
enforcement agencies in the country who use court orders. We 
are simply maintaining what we have.
    Mr. Rogers. Well, I just want to repeat two things. One is 
I expect if the matter is not dealt with agreeably, I expect 
that FCC filing to take place on Friday, the 13th. And number 
two, we have allocated $500 million, the Congress has 
authorized that, we have had it ready to pay, we are not going 
to pay any more. So, you and the phone companies will have to 
live with it.
    And I think both of you are at fault for being where we 
are. I think the FBI dragged their heels for two years on 
coming up with a specific standard that you expected the phone 
companies to adhere to in modifying their equipment to 
accommodate wire taps. And number two, the phone companies have 
dragged their feet, wanting more money and refusing to agree.
    Well, a plague on both your houses. As I told the phone 
companies recently, we expect this to be done. The public 
interest demands that you and the law enforcement agencies 
around the country be able in the proper cases to get a court 
order to wire tap to catch crooks and people who are bombing 
and committing national security violations.
    And I do not want any more quibbling by anybody. I do not 
know how much stronger to put these things. We are going to 
act. And if you people cannot get your act together, we will 
see about that and I will say the same thing and have said so 
to the phone companies. This is a matter of national security 
and we will not tolerate any further delays by the FBI, by the 
Department of Justice, by the Attorney General, by the White 
House or by the phone companies.
    This will be resolved. And if you cannot do it, we are 
going to ask the FCC to do it, and it they cannot do it, the 
Congress will do it for you. But the money is there, enough to 
do the job, but not a penny more and we expect it to be done 
forthwith. And if you cannot agree by the 13th of this month, 
next Friday, then I expect the Attorney General to follow 
through with her promise to turn this over to the FCC, let them 
resolve the standards question and the other questions they can 
legally resolve and let us proceed.
    Do you have any comments?
    Mr. Freeh. I 100 percent support that sentiment and that 
statement. Your leadership has been, as I said, critical. We 
have been at fault on our side. We think the phone companies 
and we can solve this problem, we can fix it. The money is 
there and it is enough in our view and we will work as hard as 
we can to get it solved.
    [The information follows:]

       Communications Assistance for Law Enforcement Act (CALEA)

    On March 27, 1998, the Department of Justice and the FBI 
filed a petition with the Federal Communications Commission 
opposing the interim standard adopted by the telecommunications 
industry. The interim standard is considered deficient by the 
law enforcement community because law enforcement believes it 
fails to meet all the capability requirements mandated by CALEA 
and the underlying federal electronic surveillance statutes. It 
is hoped that the FCC will rule on the technical standard in an 
expedited manner.

    Mr. Rogers. We are going to take a brief recess to go vote 
on the flood and we shall return. So, relax.
    [Recess.]

                          calea ``punch list''

    Mr. Rogers. Are additional systems advancing into the new 
technologies? Are the additional requirements, which are above 
the industry standard, referred to as the punch list, are those 
that you are requesting within the scope of the law we passed, 
CALEA?
    Mr. Freeh. Yes, sir. They very clearly are. They have been 
not only in our view, but in the view of the lawyers at the 
Department of Justice who researched this issue specifically 
over the last year and have reported back to us and the 
industry. We believe they are clearly within the scope of 
CALEA. There was one item on the original punch list which the 
Department of Justice lawyers advised was probably not within 
the authority of either CALEA or the Title III statutes and we 
withdrew that.
    But as to the nine remaining ones at issue, we believe they 
are very clearly within the statute.
    Mr. Rogers. And how critical are those additional items to 
law enforcement?
    Mr. Freeh. They are absolutely critical. Just by way of an 
example, we are asking for the capability to conduct court-
authorized surveillance on conference calling. For example, we 
may be enforcing a court order on a drug dealer using a 
conference call feature on his phone. The drug dealer calls two 
other accomplices and begins to speak to them on the 
conference. We are listening to the call pursuant to court 
order with an authority to monitor his telephone when the 
conference call feature allows him and one of the other 
speakers to break off into a separate conference. We do not 
have access to that separate conversation.
    That is one of the examples of clear necessity and 
certainly within the scope of our authority to intercept that 
individual talking about crimes.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Director, I would like to join the chairman in 
welcoming you to the hearing this morning. I also want to join 
the Chairman in congratulating you on the birth of your son.
    Mr. Freeh. Thank you.
    Mr. Mollohan. Six boys in a row. I do not know what you are 
doing with statistics here. Our last child was a girl. We have 
five and our last was a girl and that was a good thing. 
[Laughter.]
    Mr. Freeh. I am going to bring that up at home that the 
last one could be a girl.
    Mr. Mollohan. Yes. [Laughter.]
    Mr. Freeh. Thank you.
    Mr. Mollohan. Mr. Taylor said, maybe the odds change here.
    I want to congratulate you on doing what I consider to be a 
really excellent job managing a lot of change in an unstable 
world. You are up-sizing an organization and that is not always 
easy. It is a nice thing to have additional resources but it 
also presents a difficult management problem. I think you are 
doing an excellent job with that.
    I also want to compliment you on diversifying the 
capabilities of the agency in a way that allows you to meet the 
new threats that are presenting themselves in this country and 
otherwise. It is extremely important and I think you are doing 
a good job with that.
    Mr. Freeh. Thank you.

                    fbi-iafis-ins ident duplication

    Mr. Mollohan. I also want to compliment you on procuring 
information systems. You do have one of the biggest ones in 
your IAFIS program.
    And while there have been some bumps along the way, I think 
that you have addressed those. You have brought in new 
management talent, brought in the private sector where needed 
and have really developed a premier identification system which 
is going to serve law enforcement and to put the FBI in a 
wheel-horse position in law enforcement not only in this 
country but around the world. So, I want to compliment you for 
that.
    At the same time, an agency within the Department of 
Justice, the INS, is developing its own identification system. 
I have looked at it and it appears that it has very similar 
requirements to IAFIS, although somewhat down-scaled.
    It is disconcerting to me that over the last three years 
this Committee has raised the issue of duplication between 
these two systems. The FBI has pursued the IAFIS contract, 
selected to the best proposal, and has built the best system. 
INS then came along with its own identification system.
    I would like very much for you to speak to the issue of two 
different identification systems being developed in the same 
Department of Justice. First of all, how does that affect law 
enforcement capability? Also, please discuss the differences 
between the two systems, the usefulness of the IDENT-2-Print 
system to crime fighting generally, and the technological 
problems in developing these two systems with regard to the 
issue of them being able to communicate effectively with each 
other.
    Mr. Freeh. Yes, sir.
    I know the Attorney General is reporting to the Committee, 
I think, in June on the efforts by Mr. Colgate, not just to 
review but to see what recommendations can be made to solve 
this issue. This is a significant issue.
    The 2-Print Ident system is not communicative to the 10-
print IAFIS system. Now, the two agencies have somewhat 
different operational needs. The INS, for instance, tells us, 
and I take them at their word, they would have operational as 
well as resource difficulties. For instance, 10-printing all of 
the illegal aliens that they apprehend.
    Although we think that since many of those individuals 
could be responsible, either past or future, for criminal 
activities, it would be good to have that in the IAFIS system. 
Mr. Colgate has looked at this. We have some joint teams 
studying the matter. We would very much like to move to an 
interoperability and perhaps there needs to be some software 
written.
    I do not know the scope of the technological burden that 
would be required or the cost. That is what Mr. Colgate is 
apparently reviewing and going to report back to you.
    They utilize the Ident system in an operational environment 
which is a little bit different from what we do precisely 
because they are more concerned with the border entries.
    Mr. Mollohan. I hear that. It is an operational environment 
different than yours. How is it different and how is it 
different than any local law enforcement agency that is 
developing a sub-data base because it has repeat requirements, 
requirements to look at the same data base on a frequent basis? 
Why is that different? It is simply creating, is it not, a 
separate subfile which has a more limited number than the whole 
IAFIS data base. It has a far limited number, and why could you 
not service it as a sub-base of your overall data base?
    Mr. Freeh. That is exactly what we proposed. It would be 
akin to having the New York Police Department on a different 
IAFIS or Ident system and we need to bridge that. I am 
confident that that could be done and will be done.
    Mr. Mollohan. But your opinion with regard to this, if you 
want to express it before the Attorney General's report comes 
out?
    Mr. Freeh. I think the interoperability would be a premium. 
I think the identification of criminals, past, current and 
future really would be benefitted by exploiting the IAFIS 
capability. As you know, just with the first three builds of 
IAFIS, A, B, and C, we have about 500,000 prints in an IAFIS 
base. And we have made 82 cold hit identifications.
    That is an old case we take out of a file, as we took a 
1992 bank robbery in New York where we had an unidentified 
print, on a wrapper which the bank robber used as a hoax 
bombing device. We put that into the IAFIS system and it 
knocked out the identification.
    That is a capability that you should have whether you are 
dealing with an illegal alien or an undetected bank robber.
    Mr. Mollohan. I would just hope that to the extent that you 
feel it is appropriate, that you would advocate strongly within 
the Department of Justice to create this commonality in our 
identification systems.
    Mr. Freeh. Yes, sir.
    Mr. Mollohan. Obviously, it is good for the FBI but I think 
it is good for law enforcement around the country.
    Mr. Freeh. No, I agree.

                     national instant check system

    Mr. Mollohan. I want to ask you a couple of questions about 
the Brady Act and the National Instant Check System. Director 
Freeh, can you tell the Committee that the National Instant 
Check System will be on-line and on time?
    Mr. Freeh. Yes, sir, I can. Based on, you know, my 
briefings and my review of it, we should get the full delivery 
capacity in August, actually of this year. I know it is 
required by November 30, 1998.
    SAIC, who is the contractor, has been developing the 
software in six different stages. And we should realize the 
full capability in August, a delivery of August 1998. It is 
within budget of $37.4 million. It will access all of the 
pertinent files, NCIC, and then, of course, when the NCIC 2000 
comes on-line, it will benefit from additional sub-files.
    So, we are, at this point, very optimistic about it.
    Mr. Mollohan. There are some delicate privacy and other 
statutory requirement issues involved. How are you ensuring 
that they are being taken into consideration?
    Mr. Freeh. The advisory board that we use, the CJIS 
Advisory Policy Board, as well as the individuals who are 
responsible for the program management and the implementation, 
have constructed this system with a full recognition of the 
Privacy Act requirements. And it will be protected as the NCIC 
2000 is similarly protected along the privacy lines with fail-
safe mechanisms and passageways through which the information 
will be secured.
    It has worked very well in NCIC, so the technology is 
available to establish it with respect to NICS.
    [The information follows:]

                  National Instant Check System (NICS)

    The NICS contractor, SAIC, is scheduled to deliver software 
release 3.0 in August 1998. This release provides full 
operational capability. After receipt of release 3.0, the FBI 
will perform system integration tests. Full NCIS operating 
capabilities will be available in November 1998.

                  explosives research and development

    Mr. Mollohan. Okay. One more question, Mr. Director, before 
my time runs out. In the conference report for 1998, the 
Committee required--and let me just read this, ``That, in 
addition, the conferees note the importance and usefulness of 
the development of explosives detection technology in assisting 
law enforcement personnel in the detection of explosive 
materials before a bombing incident.''
    I recognize that identification taggants come into play 
after the incident, and after the damage is done. Please 
discuss death, the usefulness of that as an investigative tool 
versus the usefulness of detection taggants as a preventive 
tool.
    And the Committee report went on to say that ``within the 
amount provided, the conferees expect the FBI to pursue 
research and development of explosives detection technology.'' 
That is a serious request by the Committee to look at that. I 
know that there are jurisdictional issues with BATF in 
association with this. But I think speaking through this 
report, this Committee feels that if we could develop a 
detection taggant capability--and there are some technologies 
out there that are moving pretty quickly in that direction--
that we would be far better ahead than the identification 
taggant solution or the approach of tagging explosives.
    Can you speak to that issue generally and also specifically 
what is the FBI doing to follow up with regard to this 
directive?
    Mr. Freeh. Yes.
    With respect to the followup, the FBI laboratory has 
identified several active research projects in that area. They 
are pursuing them, again, with the objective, as you note, for 
post-blast residue detection and forensic collection as opposed 
to prevention. And I can submit a much more detailed 
description of those projects. But we are pursuing them and 
hopefully they will be very beneficial to us.
    Mr. Mollohan. If you would, I would appreciate that.
    Thank you. One more, do you have a budget request in 
associated with looking at detection taggants?

                Explosives Detection Taggant Capability

    The 1998 Attorney General's Counterterrorism (CT) Fund 
includes $11.5 million for research and development (R&D) in 
the areas of engineering, communications, forensic sciences, 
and tactical disciplines. The FBI is seeking funding from the 
CT Fund to pursue R&D involving field portable explosives 
detection technology.
    The new technology will identify traces of explosive 
residue on suspect items during threat assessments, 
investigations, or in the examination of suspected packages. 
The technology can also be used to screen post-blast 
evidentiary items. R&D areas being considered include: Portal 
Monitoring for Explosives; Suspicious Package 3-D X-Ray 
Tomography; Detection of Post-Blast Explosive Residue on 
Surfaces; Improved Bomb Handling Robots; Vehicle Bomb 
Disablement System.

    Mr. Freeh. I do not believe there is a request directly 
specified to that. We do have an appropriation from last year 
with respect to, as you know, counterterrorism research and I 
will check to see whether, within that protocol, there will be 
any contemplated research into the areas.

          Funding for Explosives Detection Taggant Capability

    Funding to initiate explosives detection research and 
development is being sought from the Attorney General's 
Counterterrorism Fund. In 1998, Congress appropriated $11.5 
million for research and development. There is no request for 
research and development funding in the 1999 Counterterrorism 
Fund.

    Mr. Mollohan. I would like to know if you have room within 
your current budget and your current Fiscal Year funding to 
pursue this as a research item? You would be a very big hero 
out there in the community if you were successful.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman.
    I want to welcome you here, Director Freeh and as the 
youngest of five boys and no sisters, I can tell you, we had a 
basketball team. And you are either looking at a team with one 
sub or you are well on your way to a football team.
    Mr. Freeh. That is great. Thank you.
    Mr. Latham. Congratulations.
    Mr. Freeh. Thank you.

                      southwest border initiative

    Mr. Latham. Last year, Congress provided significant 
resources for the FBI's Southwest Border initiative to 
investigate major drug organizations and public corruption on 
the U.S./Mexico border.
    As you are well aware, my home State of Iowa has been just 
swamped with meth from the Mexican narcotic syndicates. It 
concerns me somewhat that in your opening remarks any reference 
to this initiative really was absent. Can you give us an update 
as to what is happening on the Southwest border?
    Mr. Freeh. Yes. Certainly with respect to the Southwest 
border resources, all of those resources have been implemented. 
The Drug Enforcement Administration, I think you are going to 
hear from them next week, has a special and separate 
appropriation request for 1999 with respect to methamphetamine 
enforcement particularly as it affects the non-border States 
because of the proliferation from Mexican labs as well as now 
the portable labs.
    We have worked and will work very closely with the DEA with 
respect to the national methamphetamine strategy. We have had 
several conferences sponsored by the DEA around the country, 
particularly with the State and local areas affected and I know 
when you hear from Administrator Constantine he will mention it 
in his opening statement. He is specifically asking for 
enhancement in that area.
    Mr. Latham. There is a report, I think, due this month. Do 
you know where that is as far as the initiative in the 
Southwest border?
    Mr. Freeh. I will find out. Let me just check my notes 
right here, if you will permit me.
    [Pause.]
    Mr. Freeh. I am told there is a Department of Justice drug 
strategy report due at the end of March and we are certainly 
collaborating in that along with the DEA.
    Mr. Latham. You are involved in that?
    Mr. Freeh. Yes, sir.

                          mexico certification

    Mr. Latham. Okay. Also in regards to the narcotics 
production, trafficking situation in Mexico, I was curious, did 
you have any input in the Administration's decision to 
recertify Mexico?
    Mr. Freeh. No, I did not.
    Mr. Latham. If not, what is your opinion as far as 
recertification?
    Mr. Freeh. We have not----
    Mr. Latham. That puts you in an awkward position, I am 
sure.
    Mr. Freeh. The certification is done way above my pay 
grade.
    Mr. Latham. Well, I would think you would be involved 
somehow.
    Mr. Freeh. We are involved to the extent that we have 
provided information with respect to our Southwest border 
operations, the trans-border task forces that we are trying to 
operate. The Drug Enforcement Administration has a dedicated 
role in the certification process. The FBI does not, and we 
were not consulted on it.
    Mr. Latham. Do you have an opinion on it?
    Are you seeing cooperation?
    Mr. Freeh. My view is that the cooperation is mixed. It 
depends on the particular case involved. And we have had 
successes. We brought Abrego back to the United States from 
Mexico to be tried and convicted. We have other instances where 
we have not been successful. It is really a mixed and very 
complicated situation.
    Mr. Latham. From my understanding the certification really 
says that there is full cooperation. You are saying that that 
may not be entirely the case or there is mixed results or?
    Mr. Freeh. We have seen mixed results on our part, yes, 
sir.

              coordination with the department of defense

    Mr. Latham. Okay. As you know, the Department of Defense is 
developing special National Guard response teams and I see in 
your opening statement talking about coordinating with States 
and local law enforcement. As far as the Department of Defense 
efforts, how much are you involved in coordinating with 
Department of Defense?
    Mr. Freeh. In the Southwest border area there is very close 
cooperation, not just between us and the Department of Defense 
but the DEA, and other civilian law enforcement agencies. We 
work very closely with the Coast Guard and they have become a 
integral part of the counter drug operations, particularly in 
the Dominican Republic, and San Juan area.
    Mr. Latham. How about in the area of weapons of mass 
destruction, chemical and biological?
    Mr. Freeh. Yes, sir. We have worked very closely with the 
military under the Nunn-Domenici-Lugar funds. We are now 
actively training first responders, State and local officers. 
This is a Department of Defense-funded program but the FBI 
participates in terms of the actual training and the protocols. 
We work a number of exercises, table-top exercises, around the 
country with the military.
    The military is present in our Counterterrorism Center. 
They will be present in the National Infrastructure Protection 
Center. There is very, very close cooperation and we work with 
them on a routine basis now.

                  outreach to the technology industry

    Mr. Latham. Okay. Relative to the Bureau's cyber crime 
efforts, in what way does the FBI work together with computer 
software and hardware industries, as well as other related 
technology-based corporations to combat the increasing threats 
to our national information infrastructure?
    Mr. Freeh. We have----
    Mr. Latham. Also, is the FBI Year 2000 compatible?
    Mr. Freeh. They tell me we are.
    Mr. Latham. Okay.
    Mr. Freeh. With respect to the cooperation, we have a 
program and it is actually part of the CITAC program which this 
Committee has generously funded, where all of our divisions, 
all of our 56 field divisions are required and tasked to go out 
into the community identifying, first of all, the key 
infrastructure industries, banks, laboratories, energy, 
transportation, communications facilities.
    One example is in our Cleveland office, we call it 
Infraguard, where the FBI meets on a regular basis with the 
CEOs, as well as the individuals responsible for cyber security 
from all the major industries. They have protocols, training 
exercises and prepare to defend against an intrusion attack in 
order to harden some of the infrastructure.
    This is a process which is underway in all of the 
divisions. The National Infrastructure Protection Center, if it 
is funded--will have in our headquarters 40 other Government 
agencies, and private industry representatives. We work very 
closely with the software companies on a lot of the 
investigative as well as preventive areas.
    Mr. Latham. You know, if you are in compliance with the 
Year 2000 maybe you can go to the Internal Revenue Service and 
lend them a hand or something over there.
    But the Full Committee Chairman made a brief reference to 
it today and spoke in a lot more detail a year ago about this 
issue but with the emphasis last year that we put on talking 
about the FBI files, have you found out who hired Craig 
Livingstone yet?
    Mr. Freeh. No, but I think that is precisely because we 
have not investigated it. The Independent Counsel has done 
that. We have stood down from that case. We are not supposed to 
be investigating that. But I am confident that Judge Starr is 
going to get to the bottom of it.
    Mr. Latham. We still do not know, then, right?
    Mr. Freeh. I do not know, no, sir.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Good morning. I will give you a respite from 
congratulations about your family situation.
    Mr. Freeh. Thank you.

                             fbi laboratory

    Mr. Skaggs. How is the lab?
    Mr. Freeh. I think the lab is in very good shape. We have 
benefitted much from the Inspector General's recommendations, 
which have all been implemented. We have a new Assistant 
Director running the lab, who, as you may know, used to run Los 
Alamos National Laboratory. We have put into the laboratory, in 
addition to the recommendations of the Inspector General, new 
quality assurance procedures, new peer reviews. We are working 
with George Washington University with respect to part of the 
standardization process. We submitted our accreditation 
application in December. We arehoping that we will be 
accredited by the end of this year.
    We have, on our own, gone beyond the three sections that 
the Inspector General has looked at. We reviewed all the other 
sectors using the same protocol and outside experts to examine 
what is going on in those sections. We have done some merging.
    We are very confident that the cases that the FBI is 
responsible for, both the FBI cases as well as State and local 
cases, have not been jeopardized by the problems that we have 
had and we point to the Oklahoma case, the World Trade bombing 
case and many other cases where these issues have been raised 
and not found by the jury.
    Mr. Skaggs. And you have asked for, in your budget, the 
resources you need to continue whatever improvements are 
required there?
    Mr. Freeh. Yes, sir, and we also, as you know, have begun 
the construction of the new laboratory which, just by its 
physical plant, will improve the ability and the integrity of 
the evidence there.

                         encryption technology

    Mr. Skaggs. I wanted to ask you a few questions about 
encryption issues and the Administration's policies, plural, on 
that. When the Attorney General was before us a few days ago, 
she stated that there would be produced an administration 
policy, singular, on encryption legislation shortly. I pressed 
her for greater specificity and she demurred on that. But I 
just wanted to invite your comment on the current state of 
play, the Bureau's equities in the development of an 
Administration policy, and how you sketch out what our 
objectives need to be.
    Mr. Freeh. Our objectives are consistent with what has been 
our position for several years now, that we want a robust 
encryption industry led by United States businesses to continue 
to dominate, not just this market but the international market. 
We are strong proponents of encryption. We use it ourselves. It 
is a necessity for law enforcement and counterintelligence.
    What we asked for, and what we think public safety 
requires, however, is some ability to use a recovery system 
when we are enforcing a court order or a search warrant to find 
conversations or evidence that would otherwise be denied to us 
by encryption without any recovery capability. So we have taken 
the position that a voluntary solution to this problem between 
the Government and the software and hardware industries is 
preferable.
    However, if they cannot agree or will not agree to it, then 
we believe that stronger legislation would be necessary and we 
are hoping that in the coming weeks, the Administration will 
lead a new initiative to work out a voluntary market-based 
solution to the problem. We are hopeful that that will work. If 
it does not work, we will go back to a much different position, 
speaking for the FBI.
    Mr. Skaggs. I think you are aware that today's Washington 
Post reported a decision by the administration not to seek 
domestic controls, which implies that the strategy is going to 
be entirely on the export side. Is that an accurate report? 
Were you appropriately involved in developing at least that 
piece of----
    Mr. Freeh. Yes. We were directly involved. We were directly 
involved and then consulted and we support the initiative.
    Mr. Skaggs. As you are aware, the House Intelligence 
Committee, I think it is fair to say, established as much of a 
bulwark as any entity around here on behalf of the objectives 
that you identify as important. I expect we are going to want 
to revisit this again. Mr. Dixon also serves on that committee. 
I wanted to ask if you would be available to participate in a 
more informal discussion of these issues in that setting, 
rather than our usual one at a time sequence of witnesses. I 
think we really need to get all of the, especially the 
governmental stakeholders in this together at one time to help 
inform the committee.
    Mr. Freeh. Yes. I would be happy to do that and we very 
much appreciate the leadership and support of that committee, 
Chairman Solomon, many of the other people who have worked very 
hard to bring us to the point where we had some ability to 
negotiate effectively.
    Mr. Skaggs. Do you have, internal to the Bureau, the kind 
of expertise and resources in the encryption area that you need 
to meet your purposes?
    Mr. Freeh. Yes, we do, but we are relying and will continue 
to rely heavily, for instance, on the Department of Defense, on 
the NSA in particular, and even outside consultants. We have 
good, strong people on board. We do not want to relegate 
ourselves, however, to just internal resources. These are very 
complex and rapidly changing technology areas.
    Mr. Skaggs. Have you yet had a chance to review the 
legislation that was announced, I guess yesterday, by Senators 
McCain and Kerry?
    Mr. Freeh. No, sir. I am aware of it. I have not read it 
myself.
    Mr. Skaggs. I would appreciate it if we could have your 
views on that as soon as you are able.
    I also wanted to just ask you to tell us the story of the 
success, and how serendipitous or deliberate the success was, 
in dealing with the latest attack on DoD computers that 
resulted, relatively promptly, in some arrests. I was not sure, 
from reading the news accounts, how much of that was good luck 
and how much of it was good police work and what we can learn 
from that.
    Mr. Freeh. I think a lot of it was just very good police 
work. The Deputy Secretary, John Hamre, specifically noted 
that. There was a prearranged set of relationships, protocols, 
and technology which gave us the ability, particularly with 
Department of Defense assets, to quickly identify the source of 
that. I would be happy to go into that with you. I would 
request it be in a more informal session because some of the 
techniques involved are fairly sensitive.
    Mr. Skaggs. I understand that. I just wanted to get a 
flavor of what this demonstrated with regard to our enforcement 
capabilities and how much we should read into it in that regard 
versus, as I say, the good fortune that we had a cooperative 
Internet provider that helped you all out.
    Mr. Freeh. The other good fortune there was that the target 
was the Department of Defense. If it was a stock exchange or an 
energy company or something else, it might be more complicated, 
which is one of the reasons that the National Infrastructure 
Protection Center, which brings in private industry, would give 
us some enhanced capability.

                                 calea

    Mr. Skaggs. One final question, Mr. Chairman. This is on 
the CALEA side of things. I am told, and I do not know whether 
it is accurate, that one of the capabilities that you are 
seeking in the digital tap area would include an ability, after 
the subject of a warrant intercept had gone off of a conference 
call, to continue to intercept the remainingparties to the 
call, even though they may not have been the subject of the court order 
warranting the intercept. That seemed to me unlikely to be the case but 
it had been raised with me by credible people and I just wanted to get 
your reaction.
    Mr. Freeh. One of the capabilities that we have requested 
and which is at issue now with the common carriers is the 
ability to continue on what would be a good faith and 
predicated initiation of a conference conversation, for 
instance, on John Doe's phone because we had predicated 
probable cause to believe he is involved in narcotics. He calls 
two individuals. The monitoring agent believes that they are 
talking, even cryptically, about a narcotics deal. John Doe 
then hangs up the phone or John Doe and the first individual or 
John Doe and the second individual or break off on a separate 
conference feature.
    We are asking for the technical capability to monitor that 
conference, but as I mentioned before, there is nothing new 
about that. Right now, under current authorities and 
authorities since 1968, if we listen to a telephone 
conversation and there are multiple parties on it, not on a 
conference, and one of them goes off, even the subject, we are 
authorized to continue listening to that with minimization 
requirements in place to determine whether or not a criminal 
conversation is continuing. So although the access to the 
conference feature is new, the principle, the Fourth Amendment 
principle, as well as the statutory authority, is not enhanced.
    Mr. Skaggs. And I infer that this must have been fully 
litigated and the Fourth Amendment issue has been resolved?
    Mr. Freeh. Yes. In my view, it has been completely resolved 
for many, many years.
    Mr. Skaggs. It is just not my area of practice.
    Thank you, Mr. Chairman.

         IMPACT OF STAFFING INDEPENDENT COUNSEL INVESTIGATIONS

    Mr. Rogers. Mr. Director, the campaign finance 
investigation, as I am told, is requiring 101 FBI personnel and 
$9.8 million during this fiscal year. In addition, the FBI has 
also participated in other investigations of allegations of 
criminal activity by Administration officials in such things as 
Whitewater, Travelgate, Filegate, perjury in the Jones case, 
Independent Counsel Smaltz for Secretary Espy, Independent 
Counsel Barrett on Secretary Cisneros, Independent Counsel 
Pearson on Secretary Brown, an independent counsel for 
Secretary Babbitt, the investigation of the President's role in 
the Indian casino case, the investigations of Vice President 
Gore and former Energy Secretary O'Leary, the investigation of 
Secretary Herman, the investigation of the Magaziner health 
care task force matter, and so forth.
    Do you have adequate resources to thoroughly conduct, 
number one, the campaign finance organization?
    Mr. Freeh. Yes, sir. I believe we do.
    Mr. Rogers. Do you have adequate resources to share FBI 
personnel on all these other investigations?
    Mr. Freeh. We have dedicated all the resources required. 
When any of the Independent Counsels, including recently, have 
asked us for enhancements, we have without question furnished 
them. They do drain, obviously, from many of our other 
investigations, particularly since many of these agents 
assigned are accountants and white-collar crime experts. So 
they do impact on our program, but we fully staffed them and we 
have enough resources to staff them.
    Mr. Rogers. Where are you getting the money and resources 
to do that with? That is quite a heavy load, is it not?
    Mr. Freeh. It is a heavy load. They are programmed out of 
our white-collar allotments, for the most part, and support 
people, too, because many of the Independent Counsels have 
computer analysts and personnel other than special agents.
    Mr. Rogers. So you are diverting agents and other personnel 
from other programs to this purpose?
    Mr. Freeh. Yes, sir, particularly to the Independent 
Counsel.
    Mr. Rogers. What is the impact on the programs you are 
diverting these people from?
    Mr. Freeh. We have less resources to work other cases.
    Mr. Rogers. Which indicates that you could get by with less 
in the first place?
    Mr. Freeh. Well, we may not be----
    Mr. Rogers. You do not need all the personnel.
    Mr. Freeh [continuing]. Doing all the cases and responding 
proactively as we should be to all the cases with that 
diminution in resources. The resources also fluctuate. At one 
point, there may be several dozen agents. At another point, 
there may be only four or five. So it is not a continuous 
number.
    Mr. Rogers. But you are diverting 101 just for the campaign 
finance investigation, correct?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. That is a hefty slice of people. Did you ask 
Justice or the OMB for more monies to make up the difference?
    Mr. Freeh. I do not think specifically with respect to 
those resources, no.
    Mr. Rogers. Why not?
    Mr. Freeh. Well, we have a number of requests that we made 
to OMB, as is the case every year, with respect to resources. 
We do not receive them all. We did not make a specific request 
to make up for the agents assigned to independent counsels.
    Mr. Rogers. Or any of the other investigations?
    Mr. Freeh. Or any of the other investigations. Now, whether 
we ask for enhancements with respect to agents in white-collar 
crime programs and crimes against children programs as we did, 
I can itemize those for you.
    [The information follows:]


[Page 342--The official Committee record contains additional material here.]



    Mr. Rogers. In next year's budget, you are asking, for 
example, for a new initiative, the Indian Country Law 
Enforcement Initiative, $8 million. You could fund a whole new 
initiative if you were not doing campaign finance, could you 
not, plus some?
    Mr. Freeh. We could in terms of an exchange for those 
resources, but as you know, the white-collar program is our 
largest single program and one which includes the cyber crime 
as well as other matters that we have a mission to perform.
    Mr. Rogers. What is the cost of all of these investigations 
I have mentioned from your budget?
    Mr. Freeh. Well, the Independent Counsels and the CAMPCON, 
I would have to itemize that for you. I do not know offhand.
    Mr. Rogers. Get that for me.
    Mr. Freeh. Yes, sir.

       ESTIMATED COSTS FOR INDEPENDENT COUNSEL AND CAMPCON INVESTIGATIONS--FEDERAL BUREAU OF INVESTIGATION      
                                                  [Fiscal Year]                                                 
----------------------------------------------------------------------------------------------------------------
                                                                      1993-96          1997        1998 Estimate
----------------------------------------------------------------------------------------------------------------
Independent Counsel Barrett.....................................        $410,464        $710,989        $450,000
Independent Counsel Smaltz......................................         921,971         553,294         350,000
Independent Counsel Starr.......................................      15,071,186         977,421       1,000,000
CAMPCON.........................................................          10,092       4,718,636      11,105,321
                                                                 -----------------------------------------------
    Total.......................................................      16,413,713       6,960,340      12,905,321
----------------------------------------------------------------------------------------------------------------

    Mr. Rogers. It is substantial, though, is it not?
    Mr. Freeh. Yes, it is.
    Mr. Rogers. Would you say in the neighborhood of $20, $25 
million?
    Mr. Freeh. I would say over the course of the years, yes, 
that we committed to those.
    Mr. Rogers. And you did not ask us for any reprogramming or 
any more money for that purpose? I am puzzled.
    Mr. Freeh. Well, some of the Independent Counsels have 
required only two or three Special Agents on a temporary basis. 
But I will certainly consider asking for more resources now 
that you have mentioned it.
    Mr. Rogers. I am not begging for a plea for more money. I 
am absolutely puzzled, since you ask for money for everything 
else, why you did not ask for money for these investigations? 
Is it correct that the White House will not let you ask for 
more money for these investigations?
    Mr. Freeh. No. We have not, as I said, made a specific 
request for either replacements or enhancements for Independent 
Counsel detailees. Those are not things that we have asked for, 
so they have not been specifically denied. We serviced 
Independent Counsels, actually throughout the life of the 
statute, going back several decades, and we have supplied----
    Mr. Rogers. I am absolutely puzzled that you have not asked 
for more money on all of these myriad of investigations that 
are worldwide in scope. I am puzzled you have not asked for the 
money to hire the personnel with which to conduct those 
investigations and you are taking from regular FBI activities, 
the money and personnel to do that. Again, I ask you, is that 
because of some communication between you or anybody on your 
staff from the White House or anybody on the White House staff 
not to ask for more money to investigate the White House?
    Mr. Freeh. No, no such communication whatsoever. I mean, 
let me just give you an example. On the CAMPCON investigation 
which you mentioned, we have 108 onboard employees. The costs 
for fiscal year 1997 were $4.7 million and $11.1 million for 
fiscal year 1998. Now, that is not an Independent Counsel 
investigation, that is an FBI investigation right now.
    Mr. Rogers. Those are white-collar personnel, people that 
you are transferring over there, correct?
    Mr. Freeh. Well, we are not really transferring them. They 
work for me. They are still FBI agents.
    Mr. Rogers. What I am driving at is, we are dedicating 108 
personnel out of your white-collar crime program for the 
campaign finance investigation. Does that mean that some other 
white-collar criminals are going free as a result of that?
    Mr. Freeh. I hope not. It certainly means that those 
resources are not being used to investigate other cases.
    Mr. Rogers. And it could be that we are not convicting some 
other white-collar criminals, correct?
    Mr. Freeh. Derivatively, that could certainly be a 
possibility.
    Mr. Rogers. And you have not seen fit to ask for more 
funds----
    Mr. Freeh. Well, again, with respect to that, if I ask for 
new agents for every major investigation, when we had several 
hundred agents assigned to the TWA investigation, which turned 
out not even to be a criminal incident, major white-collar 
crime cases all over the country, if I took each one of those 
and asked to duplicate those resources, you probably would not 
give me them, but maybe I will try. I will get a separate 
itemization of the Independent Counsel agents, too, because 
those are actually outside of my purview. They are not working 
on any FBI-related cases.
    Mr. Rogers. I am interested in knowing what drain you are 
suffering because of agents being siphoned off to these various 
investigations and what impact, if any, that has on your main 
business.
    Mr. Freeh. I will give you an estimate of that.
    [The information follows:]


[Page 345--The official Committee record contains additional material here.]



                     information sharing initiative

    Mr. Rogers. You are asking $50 million in 1999 for the 
multi-year project to improve the automation systems that you 
use for your case management and investigative databases.
    Mr. Freeh. Yes, sir.
    Mr. Rogers. You also say that over the next four years, 
that that is going to take about $400 million. What 
capabilities will that system give you that you do not 
currently have with your existing automation system?
    Mr. Freeh. I think it will give us the capability, which 
will be new to coordinate and integrate information. If we are 
working on a drug case or a cyber case in California in the 
organized crime program and we are working on a separate case 
in another division on an entirely different program, maybe a 
bank fraud program, this system would give us the ability to 
integrate, simple things such as names of individuals and 
corporations. We could store and retrieve evidence and 
information, including interviews, images.
    We do not really have that capacity now. We have good 
capacities in various program areas, such as the Organized 
Crime Information System (OCIS). But we need to have an 
integration which we do not have. This integration is going to 
require hardware, and training to get past this stovepipe 
infrastructure which has served us well in the past but is just 
not going to be very well suited for the next 20 years.
    Mr. Rogers. Pardon me for asking detailed questions, but 
your track record on delivering critical information systems is 
extremely poor: NCIC 2000 and IAFIS, both plagued by 
significant overruns and schedule delays; and CALEA, a major 
technology initiative, at a standstill, an impasse, three years 
after the law passed. And, frankly, the FBI dragged its feet 
for two or more of those years.
    Given that track record, I am skeptical, to be frank with 
you, on whether or not you are capable of carrying out another 
huge electronic technological feat. Assure us, please.
    Mr. Freeh. Yes. You certainly have the right to be 
skeptical. What we are doing in this area is distinctly 
different, I would submit, than what we were doing in IAFIS and 
NCIC 2000. In those two systems, which have been plagued but 
are now on schedule and on budget, we were trying to home grow 
our own technology and write our own code. We were not buying 
and dealing with off-the-shelf technology.
    With this Information Sharing Initiative, we are not going 
to be reinventing the wheel and writing code and doing all the 
things that challenged us in those other programs. In the first 
phase, for instance, we are relying on off-the-shelf technology 
and computers and contracting services to put together this 
initiative. We have established some monitoring programs, both 
within the Bureau and the Department of Justice, which were not 
in place for IAFIS and NCIC 2000. We are going to be very hard 
on ourselves and expect everyone else, including the Committee 
here, to regularly review this initiative and we will update 
you on our progress. We think that the initiative is a valid 
one and we have learned a lot from the problems with our past 
systems.
    Mr. Rogers. Have you developed a comprehensive system 
requirements plan for this initiative?
    Mr. Freeh. Yes, sir. We have a plan which deals with the 
systems development, not the implementation, at least beyond 
the first phase.
    Mr. Rogers. Well, we need to see the plan.
    Mr. Freeh. Yes, sir.
    [The information follows:]

                  Information Sharing Initiative Plan

    A copy of the Information Sharing Initiative Plan is being 
provided to the Committee.

    Mr. Rogers. I do not want to start down this road to spend 
$400 million-plus. I guarantee you, before it is over with, you 
will be back for more than the $400 million that you now say 
you need if it is true to form, and I do not want to start down 
that road until we know that, one, you can do it, two, it is 
necessary, and three, it is going to come in on time and within 
the cost figures.
    Mr. Freeh. I agree.
    Mr. Rogers. We are not going to do another overrun 
business. I want to get that straight at the outset.
    Mr. Freeh. Yes, sir. I agree and I do not want to go down 
that road, either.
    Mr. Rogers. Now, will the new system be compatible with the 
systems we funded for DEA, such as their Firebird and Merlin 
systems?
    Mr. Freeh. Yes. There will be interoperability for all 
those systems, as with the Drug X system, that being the 
template of how this can work between the two agencies.

                       NCIC 2000 and IAFIS status

    Mr. Rogers. Are NCIC 2000 and IAFIS still on schedule for 
completion in July of 1999?
    Mr. Freeh. Yes, sir, they are.
    Mr. Rogers. Still within the current cost estimates?
    Mr. Freeh. Yes, sir, $183.2 million for NCIC 2000 and $640 
million for IAFIS. The builds that have been delivered have not 
only been successfully tested but utilized. In fact, we have 
been solving some cases with the IAFIS builds, so we are very 
confident it is going to work.
    Mr. Rogers. Good. It is about time.

                          FBI personnel system

    Last year, you expressed the critical need for an exemption 
to the Federal pay system for recruitment of personnel for 
certain highly specialized and technical positions in the FBI. 
We provided that authority for up to 3,000 FBI positions, but 
also requested that you provide to the Committee by the end of 
February an outline of the proposed personnel system and a 
description of the problematic provisions of Title 5. What is 
the status of that report? When can we have it?
    Mr. Freeh. I expect we can have it, Mr. Chairman, I am 
told, within several months. The problem has been a direction 
we received from the President which told us that we were not 
to proceed without first working with OMB and OPM to construct 
a plan with their approval. We are doing that now, but that has 
caused unforseen delays in submitting the plan to the 
Committee. We expect to have it here as quickly as we can. In 
several months, I am told, it will be ready.
    And just to add--excuse me--it was not only when it was 
proposed and authorized, but more and more as we talk about 
these technology areas, it is an absolutely critical waiver, 
and we will put it to good use and get the people on board who 
can do some of these systems blindfolded as opposed to trying 
to reinvent them ourselves.
    Mr. Rogers. Well, given that hiring of FBI support 
personnel appears to be now on track, does that mean the FBI 
may no longer need this new pay system after all?
    Mr. Freeh. No, sir, not at all, because with respect to our 
technical areas, particularly linguists, computer specialists, 
we have a turnover rate in those specialized categories 
sometimes higher than the other support rates. I can break that 
down for you in some detail. To get the computer specialists, 
the scientists, the technicians that we are going to need for 
the infrastructure center and some of the other key forensic 
areas, I believe we need that waiver and we will use it very 
prudently.
    [The information follows:]


[Pages 349 - 350--The official Committee record contains additional material here.]



                       counterterrorism strategy

    Mr. Rogers. Over the last three years, we have provided 
huge increases totaling over $625 million and over 1,850 new 
FBI personnel for counterterrorism activities. Is there an 
overall strategy that the Administration is operating under to 
combat terrorism, and if so, what is FBI's responsibility in 
that system?
    Mr. Freeh. Our responsibility under Presidential Decision 
Directive-39 [PDD-39] is to be the lead counterterrorism agency 
in the United States and to be responsible to support the 
Department of State with respect to extraterritorial matters. 
We have formed, as you know, the Counterterrorism Center, which 
is up and running, which has representatives of all the key 
enforcement as well as intelligence agencies. The National 
Infrastructure Protection Center will supplement that. We have 
been conducting training, tabletop exercises. We have used that 
money to buy needed equipment, both helicopters and gear to 
deal with WMD situations.
    We have the lead responsibility for counterterrorism and I 
believe that those critical resources, as well as the PDD-39 
authority and the Attorney General's leadership now with 
respect to submitting to the Congress the counterterrorism 
plan. The research and development plan put us in much better 
shape than where we were a few years ago.
    Mr. Rogers. Are there areas where we still have problems 
getting agencies to work together?
    Mr. Freeh. Actually, with respect to the counterterrorism 
initiatives, we are working extremely well with our partners, 
both domestically as well as international assistance where we 
need it. The CIA and the FBI in particular, and you can hear 
this from the DCI as well as me, the relationship is stronger 
than it has ever been in the history of the country. Operations 
that we do here and overseas, including bringing Kasi back to 
the United States, who was convicted in Fairfax County for 
murdering CIA employees later last year, those are the kinds of 
FBI-CIA-Department of State operations which are really doing 
what we have never been able to do before in terms of 
coordination.
    Mr. Rogers. Since the Oklahoma City bombing, we have 
provided that $625 million to you. Are you satisfied we are 
better prepared today to prevent that type of incident from 
occurring again than we were?
    Mr. Freeh. With respect to that type of incident, I would 
say probably not. That was an incident, unfortunately, that 
was, as you know by the evidence, not carried out or planned by 
a group, particularly a group where some law enforcement agency 
would have information or coverage. It was an act, by the 
finding of the jury, of two individuals really acting secretly 
and clandestinely over several years.
    So I think there is a sector of these types of threats for 
which we can have a very good response capability, but 
unfortunately and tragically, little preemptive 
capabilityunless we have the information from an informant, a co-
defendant, a supplier of a component, unless that person comes to us 
beforehand. When we are operating against single individuals or 
leaderless conspiracies, it is very hard to prevent them. But we are in 
100 percent better shape in responding to and dealing with those 
incidents, including weapons of mass destruction issues.

                             legal attaches

    Mr. Rogers. In last year's conference report, we required 
the FBI to revise its overseas office planning process to 
include a threat-based, outcome-oriented assessment before 
offices could be opened or expanded overseas. How far along is 
that revised planning process and when can we expect to see 
your overseas plan?
    Mr. Freeh. We expect to have the plan in several weeks. We 
have used it to review and plan out all of the proposed 
expansions and enhancements. We have hired a contractor to help 
perform the threat-based assessment. I have seen some of the 
proposals in draft, including one for the Dominican Republic.
    We are incorporating the recommendations of the S&I review, 
as we know them and understand them. We have created a new 
International Operations Branch which will give us a better 
management capability. We are doing better training in 
preparation for our legats and their families. We need to make 
some other improvements. This has been an area that has grown 
very quickly, but we are confident that the threat-based 
assessments and the recommendations which are being made will 
put us in good shape.
    Mr. Rogers. For the three locations in which specific 
approval was given last year, Mexico City, Moscow, and Nigeria, 
what is the status of those openings or expansions?
    Mr. Freeh. They are all being filled. We have temporary 
agents in Moscow, three agents, one permanent, two on a 
temporary basis. We are now selecting two permanent 
replacements. With respect to Lagos, we are going to assign an 
agent there on a temporary basis, who has not yet been 
selected. With respect to Mexico City, I believe--I will check 
on this for sure, but I believe all the agents have been 
selected and are there.
    [The information follows:]
                          Mexico City Staffing
    With respect to Mexico City, both agents and one support person 
have reported for duty. The remaining support employee will report 
during May. In addition, two Resolution Six agents authorized for 1998 
are on-board. The remaining four Resolution Six agents will be on-board 
in the near future.

    Mr. Rogers. And you say you have established an 
International Operations Branch?
    Mr. Freeh. Yes, sir, we have.
    Mr. Rogers. One person in charge?
    Mr. Freeh. One person overall and a staff now of people who 
will help him carry out that assignment. But we are looking at 
and are considering, particularly based on the conversations we 
have had with your S&I staff, the establishment of actually a 
new International Operations Branch which would bring the 
leadership, the management, the resources, and the coordination 
not just within our FBI but also with Department of State and 
other agencies in a much more coherent manner.
    Mr. Rogers. Well, I would assume that as time flows that 
the threat to us from a given point on the earth changes. I 
mean, one year it may be one place. The next year, it may shift 
to another place and so forth. Is that generally correct?
    Mr. Freeh. Yes, sir. It changes very quickly.
    Mr. Rogers. So you need to have some flexibility in moving 
forces around?
    Mr. Freeh. Yes, which is why the threat assessment is going 
to be a renewed process, not just a one-time process.
    Mr. Rogers. So you have a formal evaluation system for your 
overseas offices to determine the contribution each is making 
and whether that existence is necessary to be continued?
    Mr. Freeh. Yes.
    Mr. Rogers. You have a system for that?
    Mr. Freeh. Yes, we do.

                         international training

    Mr. Rogers. Do you have any new international training 
facilities?
    Mr. Freeh. No. We cooperate in the Budapest facility. We 
have supplied some instructors to the Central American academy 
that the Department of Treasury is running and we will help 
support and staff that, as well as some other ones which the 
Committees have contemplated. But that is all, the 
international institutional participation is in the Budapest 
Academy. We have many training programs in many countries which 
we do under the auspices and the authority of the Department of 
State.
    Mr. Rogers. Are you planning any new international 
training?
    Mr. Freeh. New academies? No, sir, we are not.
    Mr. Rogers. Or training programs?
    Mr. Freeh. No. We have a list of 1998 programs and we 
evaluate those on a year-to-year basis, depending on the 
country that is required. But we do not propose to run or 
manage any other academies overseas.
    Mr. Rogers. Mr. Director, I apologize for taking a good 
part of the lunch hour of you and your staff, but we did get a 
late start because of unplanned activities. Thank you for your 
testimony and the material you will be furnishing us in the 
future.
    There has probably not been a time in the country's history 
when the Justice Department, including the FBI, have been 
called upon to investigate so many white-collar or public 
corruption cases, particularly Federal corruption cases. It is 
an unprecedented demand that we are making on you and the rest 
of the Justice Department and the Independent Counsels, as 
well, and I know this causes strains within the Bureau and 
within the Department and within the whole Government. But I 
want to commend you for standing forthright and for the right 
thing when the pressures must be intense. But know that the 
silent majority out there in the country wants and demands and 
deserves absolute independence by you and the Attorney General 
and the agencies that are charged with these horrendous 
investigations.
    So good luck to you and godspeed to you and know that we 
are here to help you in any way that we can within the 
wherewithal that we have. So we thank you for your dedication 
and your public spiritedness and your public service.
    Mr. Freeh. Thank you, Mr. Chairman. It is a pleasure to 
appear before you.
    Mr. Rogers. Thank you.


[Pages 355 - 386--The official Committee record contains additional material here.]



                                           Thursday March 19, 1998.

                     U.S. DRUG ENFORCEMENT PROGRAMS

                               WITNESSES

THOMAS A. CONSTANTINE, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION
DONNA A. BUCELLA, DIRECTOR, EXECUTIVE OFFICE FOR U.S. ATTORNEYS
MARY LEE WARREN, DEPUTY ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION

                            Opening Remarks

    Mr. Rogers.  The Committee will come to order.
    We are pleased to welcome this morning Thomas Constantine, 
the Administrator of the Drug Enforcement Administration, Donna 
Bucella, the Director of the Executive Office of U.S. 
Attorneys, and Mary Lee Warren, the Deputy Assistant Attorney 
General for the Criminal Division, to discuss the Department of 
Justice's law enforcement efforts in the War on Drugs.
    Our nation is being weakened by the prevalence of drugs and 
drug-related crime in our communities. This Subcommittee has 
increased drug law enforcement efforts of the Department of 
Justice by over 70 percent over the last six years from $4.3 
billion in 1992 to $7.3 billion in 1998.
    The question is do we have an aggressive and coordinated 
plan to put an end to the flood of drugs entering our country? 
Without that, our investments in law enforcement to take down 
and punish drug traffickers and add prevention programs that 
are aimed at stopping children from using drugs cannot and will 
not succeed.
    Cocaine and heroine are cheaper and more plentiful than 
ever on the streets of this country. Methamphetamine, which can 
be produced fairly simply in any kitchen in any community, is 
spreading quickly to all areas of our country. Unfortunately, 
we have been waiving a white flag in the drug war for the last 
few years.
    As a result, we are seeing casual drug use grow, not only 
with our teenagers, but with our pre-teen children. That was 
unheard of ten years ago and should not be the case now.
    It seems that we are preoccupied in the Administration with 
the dangers of smoking cigarettes and tobacco and seem to have 
waived the white flag of surrender to cocaine, heroin, 
marijuana, and other drugs.
    We need to work together in a bi-partisan way to reverse 
the trends we have seen and to fight this drug war on a united 
front. Law enforcement is a vital component. This Committee 
will seek to ensure that adequate resources are provided to 
address this problem, even though they may not be requested by 
the White House.
    The Administration, when it came to power, decided 
apparently that the battle could best be won by fighting the 
war on the home front though prevention, reduction of the 
demand for drugs. This Administration fairly well abandoned the 
interdiction effort to try to stop the flow of drugs into the 
country, and source country eradication.
    As the result of that change in policy, drugs are flooding 
the country. They are cheaper on the streets, higher quality, 
available because of the low price to even those of very little 
income, including teenagers. I think it was a severe, sad, and 
tragic mistake when they took down the eradication effort 
between source countries and the U.S. We are trying to restore 
that interdiction effort.
    We are trying to beef up the Coast Guard, for example, and 
to beef up the DEA's efforts, and FBI, and the other law 
enforcement agencies engaged in the interdiction effort with 
much of our naval forces redeployed from the drug trafficking 
lanes to the Gulf area.
    The military has been withdrawn from the West Coast of 
Mexico, for example, where we are going completely unprotected 
now. The Coast Guard cannot do it. It does not have the money. 
Their money has been withdrawn.
    The military cannot do it; because they have gone to the 
Gulf. You cannot do it, because you do not have the kinds of 
forces to do that. The Caribbean is being guarded to some 
point.
    We provided forward-looking radars to the Coast Guard, 
C130s, last year despite the White House's objections. Now they 
have the radars. The White House cut their funds to fly the 
planes.
    I wonder what in the dickens is going on sometimes down 
there. Well, we will include your written statements in the 
record, Mr. Administrator.
    At this point, you can proceed with your opening remarks. 
Just summarize them and then we will hear from the others.

               Opening Statement of the DEA Administrator

    Mr. Constantine.  Chairman Rogers and Congressman Mollohan, 
I first want to thank you for the opportunity to be here this 
morning.
    I also want to express the deep appreciation to both of you 
from the men and women of the Drug Enforcement Administration. 
In my four years here in Washington, you have been very, very 
supportive and understanding of the issues and the needs of our 
agency.
    The drug problem in our country is reported in any number 
of publications, in any numbers of reports. If you spend any 
time talking with mothers, fathers, people in the education 
system from the biggest city to the smallest town, you see that 
the drug problem is having an extremely negative effect on the 
quality of life for virtually every citizen in the United 
States.
    One thing we should understand about drug trafficking, a 
fact which really defines the role of DEA, is that all of the 
importation, and virtually all of the major distribution, plus 
the collection of the profits that accrue from drug trafficking 
are really being conducted by very powerful organized crime 
syndicates, somewhat similar to the Mafia of the United States 
in 1930.
    However, these two large criminal syndicates in operation 
work out of Colombia and out of Mexico. As a result, our 
strategy in DEA, and the cornerstone of what we do is focus on 
attacking the command and controlfunctions of the organized 
criminal syndicates that are responsible for virtually all of the 
cocaine, heroin, and methamphetamine trafficking within the United 
States.
    However, in addition to building cases against these 
leaders in their home countries, or against their surrogates 
that have been sent to operate within the United States, we 
have a responsibility to protect the citizens of the United 
States from the incredible levels of violence that are 
attendant, and still are to a great degree, to the drug trade.
    An additional objective of DEA is to lend support to 
cities, counties, and towns that lack the resources to address 
these sophisticated and powerful groups. I am going to give you 
just one example because sometimes I think concrete evidence is 
as important as any statistical or governmental report.
    There was an investigation that began much like many of 
these cases with the small series of incidents, which were then 
later followed up by the DEA, the FBI, Customs, and the Justice 
Department.
    It starts with highway stops by two troopers in Tyler, 
Texas who provide critical information, one on the seizure of 
several million dollars in cash, and a second seizure by these 
same two troopers, not more than two months later, of almost 
two tons of marijuana. They, along with officers of Tuscon, 
Arizona, provide substantial information about how these drug 
trafficking organizations operate.
    These are then followed with an investigation that went not 
only nationwide, from one coast to the other and to virtually 
every major city in between, but also to Mexico where these 
organizations were being commanded and controlled from.
    This case consisted largely of Title III wiretap 
investigations to gain the evidence. At the culmination, we 
arrested 88 major figures of these organizations who were 
working within the United States.
    There was $18 million in cash seized, seven tons of 
marijuana, and six tons of cocaine. But that is really only the 
tip of the iceburg because the key transporter for this one 
cell has now advised us that in two years he brought 30 tons of 
cocaine into the United States and took $100 million in cash 
out of the United States.
    We have had many successes in criminal investigations. We 
have arrested over 100,000 serious drug felons in the last four 
years, either because of the level of their distribution or 
their violence.

                             budget request

    Our budget this year supports many of those same 
philosophies and strategies. The total budget request is for 
257 new agents and 508 total positions. The first part, the 
smaller aspect of it is 17 additional agents and support 
personnel to be housed in our international operations, most of 
them in offices in the Caribbean, strengthening our operations 
in Puerto Rico, St. Thomas, St. Croix, Curacao, Jamaica, Haiti, 
the Dominican Republic. We also are asking for positions for 
Manila and Vietnam.
    The larger number of positions that we ask for deals with 
the international organized crime systems as they operate 
within the United States. This would be for 240 special agents 
and supplemental support personnel to go after the 
organizations that are based out of the Caribbean, but are 
operating up and down the Eastern seaboard of the United States 
in a very dramatic and violent fashion.
    Forty-two of the 240 agents will be housed in our domestic 
offices primarily on the East Coast where the organizations are 
operating from. The second part of the request is for 95 
special agents and attendant support personnel to combat the 
heroin trafficking and production operating within the United 
States.

                          heroin distribution

    I would like to give you a sense of the dramatic change in 
the heroin distribution system in our country. In 1994, 32 
percent of the heroin samples seized in the United States were 
coming from South America, which is primarily Colombia.
    In 1995, that figure reached 62 percent. In this last year, 
since 1996, we have seen the amount of heroin from Mexico go 
from 5 percent to 20 percent. So, about 70 percent to 75 
percent of all of the heroin now that is bring brought into the 
country and used in the country is coming from either Colombia 
or in Mexico.
    Again, to give a sense of what happens to citizens of the 
United States when heroin trafficking occurs, we can look at 
Plano, Texas, which is a very nice community just outside Fort 
Worth/Dallas. The Chief of Police, Bruce Glasscock is one of 
the great professionals in this business and he is a Vice 
President of the International Association of Chiefs of Police.
    That little community was visited with a horrendous 
problem. Young people, many of them children of opportunity, 
children of great potential, were dying rapidly from heroin 
overdoses.
    Fourteen young people died in a fairly brief period of 
time, and one adult. We were asked by the Chief to assist. We 
were able to determine that the primary suppliers were from 
Guerrero in Mexico.
    A whole series of arrests were made with, Federal law 
enforcement and State and local law enforcement. The 
individuals involved in the distribution knew full well that 
the purity of the heroin they were selling created great risks 
for those who would use it. But the profit margin was more 
important to them than the safety of these young people.

                        methamphetamine problem

    The third part of our priorities deals with the 
methamphetamine trafficking, which has exploded throughout the 
United States. From 1990 to 1995, there was over a 200 percent 
increase in citizens who checked into hospitals which are part 
of the Drug Abuse Warning Network indicating that they had 
serious problems from using methamphetamine.
    There was a brief drop in methamphetamine in the first half 
of 1996. However, unfortunately, that skyrocketed an additional 
71 percent during the second half of that year. We are making 
more methamphetamine arrests and seizing more methamphetamine 
laboratories than we ever believed possible.
    The numbers of laboratories go from the single digits to 
virtually the thousands. You have two separate distribution 
systems: one, extremely sophisticated organizations out of 
Mexico who are controlling the smuggling, manufacture, and 
distribution of methamphetamine all the way from California to 
Iowa, to North Carolina, to Georgia, to Florida.
    They account for about 80 percent to 90 percent of all of 
the methamphetamine in the United States. The remaining 10 
percent or 20 percent is from a whole series of small homemade 
laboratories that started in the mid west, but seem to be 
affecting many areas, including areas like Kentucky or 
Arkansas, Missouri and Kansas.
    Although they produce a small amount of methamphetamine,the 
sheer numbers of laboratories are so large. They represent a danger for 
the citizens who live in that area, especially clean-up costs. There 
also are problems for local law enforcement with violence and suspects 
who refuse to abide by the rule of law. It is a very difficult 
situation.
    We are asking not only for additional agents, but again, we 
are seeking continuing assistance for training local police 
officers in how to handle these dangerous situations, for 
equipping centralized cites, and being there to help them with 
the clean-up of those operations.
    As you know, much more information is contained in more 
depth in our formal report. I thank both you and Congressman 
Mollohan for providing me, and primarily the DEA, with the 
opportunity to update you on these drug efforts, and to detail 
the reasons for our 1999 request. Thank you very much.
    [The statement of Mr. Constantine follows:]


[Pages 392 - 421--The official Committee record contains additional material here.]



                           usa introductions

    Mr. Rogers.  Ms. Bucella.
    Ms. Bucella.  Chairman Rogers, Congressman Mollohan, 
Congressman Dixon, I am pleased to be here today with my 
distinguished panel members. I am also joined by Joe Famularo, 
the United States Attorney from the Eastern District of 
Kentucky, Bill Wilmouth, the United States Attorney for the 
Northern District of West Virginia, and Michael Troop, the 
United States Attorney from the Western District of Kentucky.
    Mr. Rogers.  You are accompanied by some very powerful, 
strong people and friends of mine also.
    Ms. Bucella.  With them, I represent the 10,000 men and 
women of the 94 United States Attorneys Offices throughout this 
nation. I thank you on their behalf for your ongoing support of 
our critical law enforcement mission.

                             budget request

    To carry out our mission, we are requesting a total of 236 
new positions; a $23.4 million increase for the following 
initiatives: targeting drug organizations that attack our 
neighborhoods and victimize our children; violent crime on 
Indian reservations; computer crime, including telemarketing 
fraud, child pornography, and computer intrusions; and 
increased civil defensive litigation.
    I address these issues in my written statement submitted 
for the record. I will focus my testimony on our work at 
combating drug trafficking.

                         opening statement--usa

    As a career prosecutor, I know the problems presented by 
narcotics trafficking. We cannot underestimate it. The United 
States Attorneys Offices have spent an enormous amount of 
resources and effort in fighting this problem.
    In fiscal year 1997, 28 percent of all criminal attorney 
work years were devoted to drug prosecutions. In that year 
alone, 11,935 cases were filed against 23,542 defendants; a 14-
percent increase in cases filed over the previous year.
    An additional 502 drug cases involving 991 defendants 
classified primarily under our Violent Crime Program were also 
filed. Not only are the United States Attorneys Offices doing 
more, our Assistant United States Attorneys are doing more 
individually.
    The average number of drug defendants handled per attorney 
work year increased from 54 in fiscal year 1993 to 65 in fiscal 
year 1997. The average number of drug cases handled per 
attorney work year increased from 26 to 33 during the same 
period.
    That represents a 20-percent and 27-percent increase in 
productivity respectively in four years. The significance of 
the drug problem and the range of drugs we are fighting demand 
that we do much more.
    We have seen a remarkable influx of methamphetamine and 
heroin along the Southwest Border. The methamphetamine enters 
this country through Mexico. It is distributed from Texas 
through California, to Oregon, and north to Washington State, 
and curves across the rest of the United States.
    We see heroin and cocaine from Colombia distributed through 
Puerto Rico, the Caribbean, and then it comes through Florida 
up I-95 all the way to the State of Maine. Narcotics 
prosecutions are resource-intensive. One of our most effective 
tools against drug conspiracy is the use of the court-ordered 
wire tap.
    However, wire-taps are also labor-intensive. It is a round-
the-clock effort, often involving simultaneous translations of 
multiple languages, complicated by the practice of telephone 
switching and cell phone use.

                             drug strategy

    Our prosecutors must prepare and file numerous papers with 
the court, reporting every ten days and seeking renewals as 
required every 30 days. In response to the directive from this 
subcommittee, the United States Attorneys currently are moving 
forward in developing cohesive, coordinated, counter-drug 
strategies to ensure that prosecutive energies remain focused 
on drug priorities.
    The United States Attorneys are setting forth methods to 
ensure the effective use of counter-drug resources provided by 
Congress. Finally, the United States Attorneys Offices must 
keep up with increased resources provided to investigators.
    Our request for 64 additional attorney positions and 32 
support staff will support both resources received and 
enhancement requests by the DEA and FBI in fiscal years 1998 
and 1999.
    Although the United States Attorneys received additional 
resources from this subcommittee in fiscal year 1998, and we 
are very grateful and we thank you for that, we need more to 
handle new cases and to put more of the most serious drug 
offenders behind bars.

                       defensive civil resources

    Our efforts against narcotics, violent crime, fraud, and 
other criminal offenses must be ongoing. But a similar 
commitment and effort must be made to our civil work. I ask 
that you give special consideration to our request for 
defensive civil resources.
    We have not received resources in this area in over 15 
years. Our cases are piling up. We can neither delegate nor 
decline these cases because we are the only game in town.
    Any increases that you give us will be used wisely and 
well. We in the Executive Office will do all that we can to 
ensure that our U.S. Attorneys Offices have the tools they need 
to get the job done.
    In this era of tight budgets, finding the resources to keep 
up with the drug traffickers is a continuing challenge. Once 
again, I appreciate all of the support you have given us over 
the years. I will be happy to answer any questions.
    [The statement of Ms. Bucella follows:]


[Pages 424 - 440--The official Committee record contains additional material here.]



                  opening statement--criminal division

    Mr. Rogers.  Ms. Warren.
    Ms. Warren.  Chairman Rogers, Congressmen Mollohan and 
Dixon, I want to thank you for the opportunity to testify in 
support of the fiscal year 1999 budget request for the 
Organized Crime Drug Enforcement Task Force Program and for the 
Criminal Division account.
    I, too, would like to express the Department's appreciation 
to this committee for the increased drug fighting resources you 
have provided us over the past several years.
    We will continue to take best advantage of the funding that 
is allocated for our purposes. Last month's release of the 1998 
National Drug Control Strategy highlights the coordinated 
federal effort that addresses drug abuse in our country today.
    The 1998 National Strategy and the resources requested in 
our 1999 budget are aimed at improving our ability to 
coordinate and facilitate national and international narcotics 
law enforcement, to build upon past successes, respond to new 
and emerging drug threats and maximize coordination between and 
among our law enforcement agencies and the intelligence 
community.

                    doj drug control strategic plan

    Pursuant to this Committee's direction, the Department of 
Justice itself is in the process of developing a drug control 
strategic plan that addresses problems relating to drug 
trafficking and use and their consequences in this country. 
That sets the frame work to implement concrete action plan 
items to combat such problems.
    My remarks today will reflect many of the fundamental 
programs discussed in the upcoming DOJ Drug Control Strategic 
Plan. The DOJ plan adopts a comprehensive balanced attack and 
draws upon the expertise, experience, and resources of its 
numerous counter-drug components.
    The DOJ plan fits within the Attorney General's over-
arching vision that with insightful intelligence and analysis, 
we will identify and target the major trafficking organizations 
causing the greatest harm.
    We will work nationally, regionally, and locally against 
them. The Criminal Division and other Justice components 
achieved the Department's counter-drug purposes set out in the 
strategic plan in five primary ways.
    First, we aim to disrupt and dismantle drug trafficking 
organizations through a coordinated inter-agency approach. We 
believe that a coordinated task force type approach is the best 
method for attacking sophisticated multi-jurisdictional drug 
trafficking organizations.
    For instance, the Organized Crime Drug Enforcement Task 
Force, the OCDETF Program, targets the highest level 
traffickers by coordinating the collaborative efforts of nine 
law enforcement authorities working in conjunction with state 
and local agencies. As another example, the Special Operations 
Division, DEA, FBI, the Custom Service, the Criminal Division, 
Narcotics and Dangerous Drug Section work together to provide 
direction, intelligence analysis and coordination to the field, 
primarily in the Southwest Border Initiative.
    Our coordinated inter-agency approach has been applied in 
geographic regions, the Southwest Border Initiative, the 
Caribbean Basin Initiative, and as well for particular drug 
types, the National Methamphetamine Strategy.
    Based upon the experience and success of the 
methamphetamine strategy, we are now designing action plans to 
implement as part of a proposed National Heroin Strategy.
    Second, we combat the counter-drug problems of local 
communities and neighborhoods. Director Bucella's presentation 
addresses the many types of cases prosecuted and the strength 
and enthusiasms of the U.S. Attorneys.
    Third, we aim to reduce drug-related violence. The 
Department's Anti-Violent Crime Initiative, ongoing since 1994 
recognizes that the full array of U.S. law enforcement 
agencies, federal, state, and local, are needed to address the 
root causes of voilent crime in this country.
    Fourth, we attack drug trafficking through a financial 
sector approach. Working with the Treasury Department, we have 
made significant strides by targeting particular sectors of the 
U.S. financial system in order to reduce their potential for 
abuse from money launderers.
    In a similar vein, the Department will make greater 
strategic use of asset forfeiture as an offensive weapon to 
disrupt the operations and dismantle the economic structures of 
drug trafficking organizations.
    Fifth, we will work cooperatively with foreign governments 
to develop counter-drug relations. The Department of Justice 
working with the Department of State is actively involved in 
negotiating new extradition treaties with countries we did not 
have a relationship with before and modernizing some that are 
now out of date.
    We, in this effort, vigorously promote the need for 
treaties to permit the extradition of nationals. We anticipate 
that the DOJ Drug Control Strategic Plan will be useful in 
providing the Department's leadership, Congress, and the 
American public with a measuring stick to gauge the 
Department's progress, and hold it accountable for results 
achieved with the resources provided.
    In addition, we look forward to working with Chairman 
Rogers and the Members of this subcommittee and others as this 
process evolves to continue developing the best, most effective 
counter-drug strategy for DOJ. Let me take just a brief moment 
to highlight the role of the OCDETF Program and the Criminal 
Division in the National Drug Strategy and outline our fiscal 
year 1999 budget request. OCDETF remains our premiere inter-
agency anti-drug coordinating mechanism bringing together the 
U.S. Attorneys and eight federal investigative agencies, and 
their state and local counterparts against the most 
sophisticated, those large multi-jurisdictional drug 
trafficking organizations.

                           the ocdetf program

    The OCDETF model works in every district of this country, 
integrating investigators at the federal, state, and local 
level, and involving prosecutors at the inception of major 
investigations.
    I think the effectiveness of OCDETF can be seen in the 
increased number of investigations opened in the last fiscal 
year, a rise of 22 percent over fiscal year 1996. The giant 
successes mentioned by Administrator Constantine against the 
major Mexican trafficking organization and then in the 
methamphetamine area were both OCDETF cases.
    We will continue to highlight this exceptional inter-agency 
cooperation that is fostered by the OCDETF Program. The high 
level work of OCDETF will continue. In addition, we will work 
with the HIDTAs, the high intensity drug trafficking area 
groups, around the country in order to combine and complement 
the expertise and resources of both OCDETF and HIDTA in our 
common purpose.
    The President's fiscal year 1999 budget requests $304 
million for the Inter-Agency Crime and Drug 
EnforcementAppropriation account providing program resources for DOJ's 
agencies that participate in OCDETF. It will support 3,015 permanent 
positions and 2,960 work years.

                      criminal division resources

    For the Criminal Division, first the Narcotics and 
Dangerous Drug Section, the 1999 budget request seeks an 
increase in the Division's Narcotics and Organized Crime 
account of $465,000 for five additional attorney positions in 
the Criminal Division.
    These will help to coordinate and facilitate those national 
narcotics efforts, to address increasing narcotics trafficking 
in the Caribbean Basis and along the Southwest Border, to 
develop and coordinate the Department's Heroin Strategy, to 
enhance bilateral cooperation with the U.S. and Mexico, and to 
improve coordination among intelligence and law enforcement 
agencies in narcotics efforts.
    We are also seeking an increase in our computer crimes and 
high tech crime area. Let me conclude by expressing the 
appreciation of the OCDETF Program and the Criminal Division 
for the strong support this committee has demonstrated.
    Stemming the level of drug trafficking and the abuse in 
this country remains the top priority for the Administration. 
The Department will continue to follow a comprehensive, 
coordinated, inter-agency approach to fight drug trafficking 
and illicit drug abuse and their consequences in an effort to 
protect our nation's youth.
    We believe the National Drug Control Strategy, DOJ's 
evolving Drug Control Strategic Plan, and our fiscal year 1999 
budget request provide an opportunity to strengthen and expand 
our efforts in this area. Thank you.
    [The statement of Ms. Warren follows:]


[Pages 444 - 475--The official Committee record contains additional material here.]



                            the drug problem

    Mr. Rogers.  Thank you. I thank all of you for your 
statements. We have two votes on the Floor; a 15-minute vote 
followed by a 5-minute vote. I think we can proceed here for a 
short period before we are required to go vote temporarily and 
come back.
    Now, as I alluded to earlier, when this Administration took 
office, and I am not intending to be political here, I am 
critical of the Administration's policy, they have changed the 
policy which had been going on for a number of years, even 
decades, of attempting to interdict the flow of narcotics and 
drugs into the country, and also at the same time trying as 
best we could to prevent the use of drugs in the country.
    With respect to the effort at eradication in source 
countries, the Administration made a shift. They seriously cut 
back on the interdiction resources. They cut the interdiction 
monies by 35 percent. They cut the international drug control 
programs by 55 percent.
    They increased the treatment programs here at home, 
treating the wounded. They increased that by 23 percent. It is 
as if we have simply declared a truce in the war against drugs, 
brought our money home to treat the wounded, and let the war 
continue almost unchecked.
    That shift from interdiction has been costly. The 
availability of drugs in this country has increased. The drug 
purity has increased and prices have fallen. The price of a 
gram of cocaine has dropped 11 percent. The price of a gram of 
heroin is down 34 percent, purity is up 21 percent.
    We hear about progress in the leveling off of drug use by 
eighth graders over the past year, but cocaine use by eighth 
graders is up 57 percent in this period of time. Marijuana use 
by eighth graders is up 175 percent in this same period.
    Experimentation with harder drugs among seniors, such as 
heroin and cocaine is again up 75 percent during this period of 
time. It validates what many health practitioners, social 
scientists, and most of us have feared that the increase in 
marijuana use we saw over the past years is the gateway, the 
precursor to harder drugs.
    Juvenile arrests for drug abuse violations have increased 
138 percent during the period of time when we have been cutting 
back on the interdiction effort. We have increased the funding 
for DEA, U.S. Attorneys, Justice. In total, in the War on 
Drugs, we have increased funds like no one has ever seen 
before, over the objections of the Administration and many 
times over the vetos out of the White House.
    Then to see the Administration get on television and claim 
we are fighting this War Against Drugs sickens one at the 
hypocrisy that we see down there. As I say, I am not talking 
politics. If Reagan had done this, I would have been harder on 
him than on Clinton and Bush. I do not care who it is. They are 
dismantling the War Against Drugs and letting this sickening 
influence take over this country, in spite of the best efforts 
of people like yourselves.
    I told General McCaffrey jus the other day face-to-face the 
same thing, except in stronger words. He is a nice man. He is 
just absolutely powerless. He has no authority or power. He 
does not command any troops. He has got no budget.
    All he can do is write papers and talk well. He is good at 
that. We have no coordinated fight against drugs apparently; 
all the while we increase treatment of juveniles and treatment 
of drug addicts in the country.
    We give money to try to make them feel better. Thank God we 
can do that. I want to see that that continues. We are 
absolutely ruining the nation's young people by declaring a 
cease-fire on the War Against Drugs coming into the country.
    I do know whose idea was it to cut interdiction and shift 
all of the monies to treatment. Do you know, Mr. Director?
    Mr. Constantine.  No, sir.
    Mr. Rogers.  Does anybody here know?
    Ms. Bucella.  No, sir.
    Ms. Warren.  I think the decision was a combined inter-
agency decision that our money was not being best used, sort of 
indiscriminate interdiction in the transit zone. Intelligence 
queued interdiction was a lot different. We were a whole lot 
more successful there.

                          mexican extraditions

    Mr. Rogers.  Well, let us get right to the chase here. Have 
you extradited a single person from Mexico on drug charges 
since you and I talked here last year?
    Ms. Warren.  Yes; not Mexican nationals, though, and I know 
that is your question.
    Mr. Rogers.  Yes.
    Ms. Warren.  No. There has not been a single Mexican 
national extradited on drug charges. We have had other 
nationals and we have Mexican nationals not on drug charges.
    Mr. Rogers.  Well, have you sought extradition?
    Ms. Warren.  We have provisional arrest warrant requests 
for maybe 120 individuals. About a third of those are probably 
for narcotics. The Government of Mexico has ordered 
extraditable ten individuals, five for drug trafficking pending 
their completion of sentences or appeals down there. They have 
not been surrendered to us.
    Mr. Rogers.  What are they wanted for? What are the arrest 
warrants for in general?
    Ms. Warren.  In general, narcotics conspiracies, 
maintaining continuing criminal enterprises, often homicides in 
relation to the narcotics trafficking, enormous violence. There 
are prime targets.
    Mr. Rogers.  Director Constantine, tell us about the kinds 
of people that we are seeking to extradite from Mexico.
    Mr. Constantine. We are able to determine who is 
responsible for the command and control of drug trafficking 
within the United States. There are a number of principals from 
these organizations. They are primarily from the Arellano-Felix 
organization; one of whom, is Ramon, one of our top ten 
fugitives. Others include the Amado Carillo Fuentes 
Organization that operated out of Juarrez, Miguel Caro Quintero 
and a new individual named Taliveres, who was very much 
involved in the same types of trafficking.
    These are the leading organized crime figures probably in 
the world today. They have been indicted in jurisdictions 
within the United States. Warrants have been issued with the 
cooperation from the Justice Department. Provisional arrest 
warrants have been issued.
    There are two major difficulties with our enforcement 
strategies. The Government of Mexico has been unable to locate 
and to arrest many of the primary figures. Those that have been 
arrested have not yet been extradited to the United States.
    Mr. Rogers.  Those are the major drug cartel figures in the 
world.
    Mr. Constantine. These are the primary players in the 
world, yes.
    Mr. Rogers. But the ones that impact us most severely are 
the Mexican nationals that you have mentioned.
    Mr. Constantine. The two major organizations are from 
Mexico and Colombia. I would say given the nature of the 
methamphetamine, heroin, cocaine trafficking combined probably 
the figures from Mexico are those most dangerous to the 
citizens of the United States.
    Mr. Rogers. Mexico refuses to send them to us for trial?
    Ms. Warren. They have not refused.
    Mr. Rogers. Well, why did you say it?
    Ms. Warren. Either they are serving out their sentences, or 
on appeals, or they have not arrested them yet. We are very 
anxious to get those individuals here.
    Mr. Rogers. They have arrested a great number of them.
    Ms. Warren. At least ten that we are seeking now.
    Mr. Rogers. And they have not extradited those to you.
    Ms. Warren. That is correct. Those individuals are 
appealing their extradition orders.
    Mr. Rogers. Is there a more egregious violation of 
international societal behavior than the refusal of Mexico to 
arrest or extradite for trial those accused of the most heinous 
drug crimes? Do you know of anything in the world more heinous 
than this?
    Ms. Warren. We consider this a top priority.

                          mexico certification

    Mr. Rogers. Then why in the devil did you certify Mexico as 
cooperating with us on drug wars?
    Ms. Warren. The Department of Justice does not certify 
them. The Administration certifies.
    Mr. Rogers. You recommended.
    Ms. Warren. I would prefer not to comment on any particular 
recommendation.
    Mr. Rogers. Did you recommend that they certify Mexico as 
being cooperating in the drug war? Did the Attorney General 
recommend?
    Ms. Warren. I believe that is an internal----
    Mr. Rogers. I believe it is not. The Attorney General, in 
fact in her hearing herself, publicly swore that she 
recommended it. Now, who is right, you or the Attorney General, 
about whether or not it is public.
    Ms. Warren. The Attorney General is my boss.
    Mr. Rogers. Yes. And she recommended it. What did you do 
about it, Director?
    Mr. Constantine. Well, I have always taken a position, and 
I think it is the appropriate one. It is not the responsibility 
of the head of the law enforcement agency to decide what 
countries should be certified.
    Mr. Rogers. Did you recommend it or not?
    Mr. Constantine. No, I----
    Mr. Rogers. You recommended against it?
    Mr. Constantine. No, I did not, Congressman. I did not do 
that.
    Mr. Rogers. You did not do what?
    Mr. Constantine. I did not recommend against it. I did not 
recommend for it. All I do is----
    Mr. Rogers. What did you do?
    Mr. Constantine. I provide all of the information on the 
drug trafficking to other people who are in policy positions.
    Mr. Rogers. Then you sat there without saying a word about 
whether or not we ought to certify Mexico?
    Mr. Constantine. That is true; yes.
    Mr. Rogers. The Committee stands in recess; we will be 
back.
    [Recess.]
    Mr. Rogers. The Committee will come to order.
    Mr. Constantine, what about Mexico. Did you have any 
statements to make about the Mexico certification?
    Mr. Constantine. No, Congressman. Maybe I can make myself 
clear. I have never seen my role as a law enforcement official, 
public policy issues or something like certification, to 
recommend certify or de-certify.
    What I do is I go over every piece of information I have 
about the criminal organizations, the quality of law 
enforcement, and the results. I just provide that information 
in a very candid fashion to policy makers. They use it for 
their decisions. I have always felt more comfortable with that 
role.
    Mr. Rogers. Well, but your assessment of Mexico's 
cooperation did not support certification; correct?
    Mr. Constantine. Well, that would be for others to decide.
    Mr. Rogers. In your opinion.
    Mr. Constantine. I have avoided saying that, Congressman, 
because I do not think it is appropriate for a law enforcement 
official to even render an opinion on something like that.
    I give full, candid, honest information on what the 
criminal organizations look like, what the response looks like. 
I leave it to others to evaluate that in the context of, I 
guess, other things that they look at. I have always been given 
an honest opportunity to do that.
    Mr. Rogers. Well, you provided a secret intelligence report 
about Mexico to the White House; did you not?
    Mr. Constantine. No, sir. This idea of a secret 
intelligence report to the White House on the issue, or a 
secret intelligence report that was indicated in some 
publications, there is no such secret intelligence report that 
I know of.
    Mr. Rogers. Well, you provided a report to the White House.
    Mr. Constantine. No, sir. I report all of my information on 
a continuing basis to the Attorney General.
    Mr. Rogers. Were these statements made and whatever 
communications were made to the White House, ``During the past 
year, the Government of Mexico has not accomplished its 
counternarcotics goals or succeeded in cooperation with the 
United States Government?''
    Mr. Constantine. That would never be in a report of mine, 
Congressman.
    Mr. Rogers. So, in the press accounts that quoted that 
language, those quotes are not yours?
    Mr. Constantine. I am not sure where they got that from. I 
know of no such secret intelligence report that was indicated. 
I saw the same things in the press. There were some issues in 
there that I knew were not reported correctly.
    In fact, I called the reporters on one of the issues and 
made sure that they knew what the facts were. There was an 
allegation supposedly that General McCaffrey and I had a 
shouting match over the issue. That never happened.

                           mexican government

    Mr. Rogers. The question is, is that statement correct? 
During the past year, did the Government of Mexico accomplish 
its counternarcotics goals or succeed in cooperation with the 
United States Government?
    Mr. Constantine. No. I do not think they reached the goals 
that were set out. The goals of arresting many of the major 
figures of these organizations has not occurred.
    I think these goals were set out last year, I believe by 
the Senate, perhaps in conjunction with the Executive Branch. 
The extradition of major narcotics figures and a number of 
other issues--no, those have not occurred, Congressman.
    Mr. Rogers. Tell me whether this is true or not. The 
Mexican Government's prospects for success are low because of 
endemic corruption, violence and the unabated growth of the 
drug trafficking syndicates in Mexico.
    Mr. Constantine. Those are not my words, but they are very 
close to what the situation is. You have very powerful wealthy 
criminal organizations and you have civilian law enforcement 
organizations in the narcotics arena, which were totally 
dismantled in the spring of 1997.
    They are just now being rebuilt. You have the military 
having the primary counter-narcotics responsibility for 
civilian law enforcement. This fact was reported to us in 
investigations that we looked at. The reason for dismantling 
all of their civilian organizations was corruption that they 
had uncovered.
    Mr. Rogers. Is it true that the Mexican Government has 
arrested and prosecuted few individuals, despite the fact that 
the leaders of the main Mexican drug trafficking organizations 
are fully identified?
    Mr. Constantine. As I mentioned before, individuals and 
criminal organizations that we are aware of only a few of them 
have been arrested. That is correct.
    Mr. Rogers. But not many.
    Mr. Constantine. No, sir.
    Mr. Rogers. Is it true that every major investigation in 
Mexico uncovers significant corruption of law enforcement 
officials that continually frustrates your efforts in building 
cases and apprehending the most significant drug traffickers? 
Is the primary reason because there has been no meaningful 
progress in drug law enforcement in Mexico?
    Mr. Constantine. That is very close to the situation on the 
major investigations and the relationship between corruption 
and the inability to reach the objectives. Those are not my 
words exactly, but that is fairly close to the way I see it.
    Mr. Rogers. Most of the narcotics and drugs coming into the 
country are coming by way of Mexico.
    Mr. Constantine. I figure it fluctuates, Congressman. The 
two areas of vulnerability are the Caribbean and the Southwest 
Border. The Southwest Border is where the majority of cocaine 
is entering the United States. The estimates we have from the 
various intelligence services vary between 60 percent to 75 
percent of the cocaine.
    I think that total probably fluctuates depending upon the 
circumstances of a month or a week. Virtually all of the 
methamphetamine that we have in the United States can be 
attributed to those organizations out of Mexico. About 20 
percent of the heroin that is now being seized in the United 
States comes out of Mexico.
    The other area of vulnerability as I said is the Caribbean. 
For the most part Colombian organizations bringing massive 
amounts of cocaine, and lesser amounts of heroin into the 
Caribbean region with the goal of getting into Puerto Rico so 
that they can then trans-ship it into the major cities on the 
East Coast.

                        bi-national task forces

    Mr. Rogers. We have the bi-national task forces with Mexico 
and yet I gather there is no sharing of intelligence between 
the task forces, correct?
    Mr. Constantine. At the present stage, the bi-national task 
forces have not been put together in the structure they were 
intended to be. So far, they have been ineffective. The plan 
was for a co-location of agents from the DEA, the FBI and 
Customs in three cities on the other side of the border in 
Mexico along with a substantial contingent of law enforcement 
officials from Mexico.
    Two issues have disrupted that plan. One was in the 
beginning, a lack of funding, a lack of assignment of qualified 
personnel on the part of officials in the Government of Mexico, 
which really culminated with the arrest of General Gutierrez 
Rebollo in February, 1997.
    His position allowed him access to all of the intelligence 
and all of the investigations that had been conducted by these 
bi-national task forces. His arrest for major corruption with 
the Carillo Fuentes organization, in our opinion, compromised 
every investigation up until February 1997.
    There is presently a process, and we are optimistic on this 
particular program, that began last spring in which the 
Government of Mexico has imposed rigorous standards in a double 
vetting process for selected law enforcement officials from 
Mexico to be in those bi-national task forces.
    However, because of security issues and problems that 
affect U.S. agents, there are no DEA, FBI, or Customs agents 
co-located with those particular units.
    Mr. Rogers. Well, I can see why. I mean you do not dare 
share any meaningful information with those task forces because 
since last year, at least five senior Mexican officers involved 
in the task forces were arrested on suspicion of everything 
from taking bribes from traffickers to stealing and selling 
cocaine confiscated by the task forces, which was later found 
being sold in the U.S., to kidnapping key witnesses, right?
    Mr. Constantine. That is accurate. That is true.
    Mr. Rogers. Yet, our government certified that Mexico was 
fully cooperating on the War on Drugs. How can you justify 
that? Can you rationalize that?
    Mr. Constantine. Well, as I said before, that is not my 
decision.
    Mr. Rogers. I understand that. What is your opinion?
    Mr. Constantine. Clearly, I have to say that key law 
enforcement officials, their Attorney General, and two of their 
major anti-drug civilian law enforcement institutions are 
making substantial efforts to bring into their service honest, 
earnest, people who will be narcotics enforcement agents.
    The problem is that the number is in the low hundreds 
presently. Really, the situation with their adversaries are 
these huge powerful organizations with this tremendous amount 
of wealth and an incredible willingness to use violence against 
any honest police official. It is really a mismatch at this 
stage of the game.
    Unlike last year when I testified here and in the Senate, 
there are specific units now that we do share information with, 
Congressman, on a limited basis.

                          dea agents in mexico

    Mr. Rogers. Your agents are not allowed to carry a gun in 
Mexico.
    Mr. Constantine.  I have always asked that any discussion 
involving the security of our agents, not only in Mexico but 
anyplace else, should be discussed in a private rather than a 
public forum because any discussions about their security or 
lack of security could make them vulnerable. I would be more 
than willing to discuss that privately with you and the other 
Congressmen.
    Mr. Rogers.  Do you have agents there now?
    Mr. Constantine.  Yes, sir. There are approximately 45 DEA 
agents stationed in various places, or attached to the embassy 
or consular offices throughout Mexico.
    Mr. Rogers.  Are you satisfied with their security?
    Mr. Constantine.  Well, at present, I am. We still have 
some very serious concerns about their security. Security 
arrangements of a number of high level officials of the State 
Department and other places are trying to work with the 
Government of Mexico to ensure that our people will be safe 
because there are a number of threats that have been made 
against DEA agents, both in country and against agents 
traveling into the country.
    Our highest priority is to make sure that these kids come 
home safe every night in return for what they do for us.
    Mr. Rogers.  Well, I will talk to you privately about that.
    Mr. Constantine.  Yes, sir.

                        colombia decertification

    Mr. Rogers.  I will wind up this phase of the questioning 
and let someone else have it for awhile. I just want the 
Administration to know that a lot of people, including this 
Member, think it is horrendous that they certified that Mexico 
is fully cooperating with us in the Drug War when most of the 
drugs are coming through Mexico and through the corruption of 
Mexican government officials, among other people.
    At the same time, we decertified Colombia. I am glad for 
that. However I cannot understand how Colombia gets decertified 
because they are not cooperating and Mexico is certified as 
being fully cooperative. Can you find a difference between 
Colombia and Mexico in that respect?
    Mr. Constantine.  Well, one of the key things in Colombia, 
you have to recognize is the professionalism of law 
enforcement. I am a personal friend of General Serrano who is 
the head of the national police. I think he has done an 
outstanding job in cleaning up an agency that had problems and 
being effective in doing proactive investigations.
    One of the issues in Colombia is the significant reports 
everywhere about corruption involving high ranking elected 
officials up to and including the President. The eventual 
sentencing of the former Minister of Defense, who had 
responsibility for the law enforcement for issues involving 
substantial pay-offs, from the traffickers that has been 
reported again and again.
    If I recall properly, the President of Colombia had his 
visa held by virtue of corruption involving narcotics issues. I 
think that is probably a key factor in many of the decisions.
    Mr. Rogers.  Mr. Mollohan.

               measuring the success of the war on drugs

    Mr. Mollohan.  Thank you, Mr. Chairman. Administrator 
Constantine, Director Bucella, and Ms. Warren, I join the 
Chairman in welcoming you here this morning.
    I would also like to join the Chairman in welcoming some 
fine U.S. Attorneys from West Virginia and Kentucky. Bill 
Wilmouth, we are pleased to see you here.
    I join the Chairman in welcoming Mr. Famularo and Mr. 
Troop.
    You all have a really difficult job. Obviously, the 
Chairman is focusing on the problems that are associated with 
performing that job and achieving success. I notice, Ms. 
Warren, in your testimony you allude to standards, 
measurements, or a matrix for measuring success as one of your 
goals. Could you talk to us a little bit about that? How should 
we measure success on the War on Drugs? To what extent are we 
being successful? Where, as the Chairman points out, are we 
coming up short?
    First, I would like to know if we do have some standard, 
some indices that we can do a quantitative discussion of the 
issue?
    Ms. Warren.  In the course of trying to develop the DOJ 
Drug Control Strategic Plan really the hardest part is 
providing those measurable indicators so that we can be 
accountable to you, the public, and to everyone.
    In the course of our work in developing the strategic plan 
working with all of the components of DOJ, we have looked to 
the particular programs that we believe need to continue or 
need to be initiated and tried to develop under each one of 
those measurable standards.
    They vary in the present version from one to another. 
Sometimes they are more qualitative in nature. Sometimes 
quantitative and will have absolute numbers, or percentages or 
increases over what we have done in the past. It is very 
difficult.
    The raw statistics of numbers of arrests, I do not believe 
will give you a meaningful indicator of how well we are doing 
if we do not show you the importance of those arrests, the 
level of the trafficker that the organization was dismantled.
    If it is just a number, it could be a street level dealer 
or it could be one of the leaders of the Mexican federation 
that we would like to have here to pursue.
    Mr. Mollohan.  Right. Are you developing such a matrix?
    Ms. Warren.  Yes, we are. As I say, it will be a mix of 
qualitative and quantitative instruments.
    Mr. Mollohan.  How far along are you on that. We get books 
with statistics in it; arrests and all of that. What are you 
doing that goes beyond that and when will it be available?
    Ms. Warren.  Our strategic plan was due to you on March 
31st. It may be just a little late, but we hope to have it here 
shortly after that. It will include the performance indicators 
that we are proposing.
    Mr. Mollohan.  What do you consider to be the major 
successes? Could you talk about these indices that you are 
going to develop? Would you talk with us about your successes 
and where you think you are falling short?
    Ms. Warren.  In terms of successes, I think we are doing 
quite well in our Southwest Border Initiative, particularly 
working through the OCDETF Program--Criminal Division and U.S. 
Attorneys working on those giant multi-district cases against 
the major trafficking organizations.
    Those wire-tap investigations take months, take enormous 
amounts of attorney and agent time. In the end, I think we have 
been able to take out particular cells of the distribution network that 
have had a tremendous impact on the country.
    We have to keep working against the additional cells that 
spring up. I think we have been successful in that area. I 
think we are having some success in the methamphetamine area, 
which is good after such bad news after so many years.
    There is emerging threat on the prosecution side. As well, 
DEA has enormous amounts of laboratory cleanups. There are 
hazardous materials that are left. It has trained innumerable 
state and local officers to handle that difficult task.
    We work at it a different way, as well, trying to convince 
sellers of the precursors like the Walmart stores not to sell 
their precursors. They have voluntarily stepped back. We have 
also gone against rogue chemical corporations to prosecute them 
so that they know that they cannot sell the precursors with 
impunity.
    Mr. Mollohan.  If you want to cite some statistics to make 
the point that you are achieving successes, what statistics 
would you cite?
    Ms. Warren.  I think for individual programs, first of all, 
I would look at those. I would look at the numbers of 
organizations that we believe we have dismantled. To show you 
the relative power of those organizations and therefore how 
important those prosecutions were, I think we would show you 
their financial worth, the number of individuals involved, the 
scope of their operation; how many states they affected, as 
well as the volume of drugs.

                          drugs and our youth

    Mr. Mollohan.  The Chairman has expressed considerable 
concern over the last couple of years about youth drug use. I 
think it is probably the one area with which we are all 
concerned.
    How are you targeting that? How are we doing in that part 
of the war on drugs?
    Ms. Warren.  Those are the disappointing statistics when 
you see increases in drug use by young people. We are working 
in our juvenile justice program trying to work with other 
departments, HHS, Department of Education in an education 
campaign, as well as mentoring work.
    One of the most important efforts we have to break the 
cycle of early introduction of a young person into the criminal 
justice system is to either work through a drug court or 
through some other coerced abstinence program to force them to 
be drug free in order to stay out of jail.
    We feel that we are more successful if we do it earlier on 
and not later on and follow it with counseling and after care.
    Mr. Mollohan.  Would any measurement indicate that you are 
making progress on this and do you see us turning a corner? Is 
there light at the end of the tunnel, if you will?
    Ms. Warren.  I think there are some measurements. For 
instance, for drug courts you look at the recidivism rate.
    Mr. Mollohan.  What about the overall trends for youth drug 
use and the early trends that the Chairman mentioned? How are 
we focusing on that? We are asking for additional increases in 
the fiscal year 1999 budgets of DEA and U.S. Attorneys have 
been requested.
    To the extent resources are available here, those requests 
will probably be honored. But youth drug use is one area that 
everybody truly in a bipartisan way can be concerned about.
    Ms. Warren.  Absolutely.
    Mr. Mollohan.  With these increases, how are we attacking 
this aspect of the problem, the use of drugs?
    Ms. Warren.  I think in the ways that I have laid out. I 
think our indicators will be of the effectiveness of those 
programs because the DOJ is an important component, but one 
component in this larger mix.
    As I said, there are other departments involved in the 
federal system, state, and local. Families are involved. 
Communities are involved. It will be the work of all of us 
together that will show some final success, I hope.
    Mr. Mollohan.  Let me ask Ms. Bucella that question.
    Just one of the increases you are asking for is $8.9 
million for 64 additional attorneys. What part of that request 
is the result of the drug problem we are having? Surely there 
are other reasons for that request.
    Ms. Bucella.  Well, those will clearly be able to be of use 
in taking out some of our drug organizations and for narcotics 
prosecutions. If I could address your question about what are 
we doing with our youth in dealing with each of our U.S. 
Attorneys Offices, obviously we have 94 districts. We have 94 
different ways to approach different drug problems.
    Some districts have marijuana problems. Some districts have 
methamphetamine. What we have seen certainly in the last 
several years is an increased effort of the U.S. Attorneys 
Offices and of Assistant United States Attorneys not only 
involved in the prosecution end, but trying to do something 
back in the community.
    Let me give you a couple of examples. We have a Weed and 
Seed Program. Weed and Seed Programs started back in 1991, and 
we had about 17 sites. Basically, it is going in, taking out 
the drug dealers, cleaning up the neighborhood, and giving it 
back to the community, and letting the community take over.
    Just last month I was in Oxnard, California at a Weed and 
Seed site. Not only is it a place where prosecutors take the 
drug dealers out, but we actually have prosecutors that are 
going to be involved in the DEFY Program. It is Drug Education 
For Youth Camp.
    They are camp counselors, basically. They spend some time 
with the young children, as well as with the local police. This 
is a cooperative combined effort. It is law enforcement, the 
cops and the prosecutors, the community leaders, and the 
educators. This is not the be all and end all. I believe it is 
certainly a start in which we have been able to get our 
prosecutors involved, not just for weeding, which we are very, 
I think, pretty good at, but actually the seeding.
    United States Assistant Attorneys pick locations to be 
prosecutors because that is really where they want to live. A 
good indicator of what kind of job they are doing is if they 
are able to go into certain neighborhoods and not be in fear of 
getting mugged or attacked.
    So, that is one area. The Law Enforcement Coordinating 
Committees (LECC) Program is another area where our prosecutors 
with all the state and local community people find out what the 
problems are and try to attack those problems in such a way 
that they take out the largest drug dealer in a surgical way so 
that they get more bang for the buck and they are able to get 
the supplier as opposed to just the people that are 
distributing the drugs locally. They get the supplier out and 
take the drug element out of the community.
    So, there are many different ways. I believe in our 
strategic plan, as certainly the United States Attorneys do. 
This is what you are going to see. This is going to be an 
evolving process. The U.S. Attorneys will be fine tuning it, 
depending on what the needs of their communities are.
    Mr. Mollohan.  Thank you.
    Mr. Rogers.  Mr. Latham.

                  decision on certification of mexico

    Mr. Latham.  Thank you very much, Mr. Chairman. I want to 
welcome all of you here also. I just want to clarify for my own 
information, Mr. Constantine.
    You are saying that you had no input as to the 
certification of Mexico.
    Mr. Constantine.  That is correct, Congressman. I never 
have and hopefully I do not think I ever will be asked to, tell 
people whether another nation should be certified or 
decertified.
    I am an experienced 37-year career law enforcement 
official. I provide people with the facts of what the criminal 
situation looks like and what organizations are responsible for 
drug trafficking. I let other individuals make those decisions 
on certification.

                      methamphetamine use in iowa

    Mr. Latham.  I think the Chairman will remember two weeks 
ago when we had Director Freeh. He had no input either as to 
certification of Mexico. I think that is amazing.
    As you are well aware, the methamphetamine problem in Iowa 
is very serious. This is totally amazing to me. Last year the 
number of methamphetamine-related arrests in Iowa surpassed the 
number of drunk driving arrests.
    Mr. Constantine.  That is correct, in the Des Moines area.
    Mr. Latham.  The number of methamphetamine-related arrests 
surpassed the number of drunk driving arrests. It is America's 
Heartland. First of all, I would like to, I do not know how 
after saying that I can do this, but I really commend you for 
the effort as far as the Tri-State Drug Task Force up in Sioux 
City has really done a tremendous job working with local law 
enforcement.
    Last year, the federal agencies seized out of that task 
force 30 pounds of methamphetamine and made 66 felony arrests. 
The cooperative effort up there I think has really made a 
difference. The learning that law enforcement has been able to 
achieve at all levels, coordination did not give these people a 
place to hide anywhere up there. Of the 66 arrests, 34 of them 
were made on state charges and 32 on federal charges. How do 
you determine whether the state is going to get the case?
    Mr. Constantine.  It will probably be a prosecutor's 
decision. Usually, if we are working, as we do in Iowa, with a 
law enforcement agency, there will be a decision as to what is 
the best jurisdiction to bring that criminal prosecution.
    Where will it be most effective? Where will the sentencing 
structure have the most impact on the traffickers? What you 
have in Iowa, which I am sure you know, is large amounts of 
methamphetamine usage and you have substantial criminal 
organizations that are being directed from Mexico and from 
California who are responsible for most of the distribution 
systems in Iowa.
    Very often a major investigation that begins in California, 
in Mexico, or in Texas, the defendants in Iowa will be a part 
of the conspiracy and will wind up with the federal prosecution 
as the result of their interstate activity.
    Then if the charge is more appropriate to be placed at the 
state level, and there is institutional capacity in the prison 
system, and there is capacity in the prosecutor's office, then 
they will go with the state charge.

                            ketamine problem

    Mr. Latham. Apparently since 1993, you have been collecting 
data on Special K or ketamine. Can you tell me the extent of 
the ketamine problem in the U.S., I guess, and in my part of 
the country?
    What conditions in current law impede DEA and the 
Department of Justice from adding ketamine to the list of 
federally scheduled controlled substances?
    Mr. Constantine.  Just by way of education, ketamine is a 
legally-manufactured substance in the liquid state. We have a 
lot of it that is used mostly in the veterinarian arena. It is 
an anesthetic, tranquilizer drug in that particular state.
    It is also used in medical practice in a much smaller 
proportion with humans. What has happened is that young people 
have found that this drug, can be reduced to the powered form, 
and they are using it like they would use ecstacy, MDMA, LSD, 
or PCP.
    It produces a hallucinogenic state. It is a psychedelic 
response that people have from using the drug. If when you look 
at the numbers of hospital room admissions for cocaine, heroin, 
methamphetamine, and other drugs, the numbers are not as large 
certainly for ketamine. They are really in the single digits 
for a substantial period of time. There is a big jump in 1996 
of individuals who either have been found to have an experience 
that brought them to the attention of a hospital room 
admission.
    I think were 46 such people maybe in 1996. That is 
substantially more than the year before. A number of post-
mortem examinations on people who had expired, there were five 
or six.
    So, it is a legally manufactured thing that creates a 
problem for us in the scheduling control system. We have 
aregulatory responsibility in DEA where we schedule drugs under 
controlled substances.
    It is like many of the processes in the Federal Government. 
It is very elaborate and very long. Sometimes it can take two 
or three years for us ever to reach that particular stage.
    With ketamine, we have looked at it and we are now 
providing all of our information to the Department of Health 
and Human Services where they will do a medical look at it and 
come back to us with a response.
    We can support the scheduling process which will go through 
hearings and fact-finding. That is an elongated process. The 
second area available is for straight legislative scheduling 
which can be done in a much more expedited fashion. Emergency 
scheduling for certain substances is available in the 
regulatory function.
    It does not apply to substances that are legally 
manufactured for a legitimate medical purpose. So, if we were 
to have a requirement to be able to address these usage 
problems and abuse problems, the emergency aspects of it would 
have to include those already either legally manufactured or 
under clinical study. Those are two areas for drug substances 
that we cannot attach emergency scheduling procedures as of 
today.

                            drug derivatives

    Mr. Latham. What about derivatives of designer drugs? Are 
they automatically as a derivative scheduled?
    Mr. Constantine. When you get to the scheduling of drugs 
where people will change certain molecules or something in the 
chemical structure, we have the ability to address that in the 
emergency scheduling and then to look at the information both 
from our own abuse patterns----
    Mr. Latham. What kind of time periods is that?
    Mr. Constantine. I would have to get back to you from our 
diversion people to tell you how quickly we could do that. I 
think in a fairly short period of time when you compare the 
other process.
    Mr. Latham. Would you have any idea what percentage of the 
methamphetamine in Iowa is home grown?
    Mr. Constantine. A very small amount. I would say in Iowa, 
5 percent at the most is home. Now, if you would go over to 
Missouri, you would find a little bit different----
    Mr. Latham. Yes. Why is that?
    Mr. Constantine. I'm from Buffalo, New York. I thought 
everything west of the Mississippi was the Pacific Ocean for 
most of my childhood. I stand corrected. But most of it 
obviously is coming from major distributors out of Mexico and 
California who are bringing the methamphetamine to Iowa for 
distribution.
    Mr. Latham. I am not picking you out here necessarily, but 
I have a lot of questions as to who is actually making up the 
budgets and if the requests are actually what is needed or if 
someone else is doing it.

                    methamphetamine network program

    It says in the testimony that the Administration's request 
is for $24.5 million for the Methamphetamine Network Program. 
How much did you actually request from OMB for the program?
    Mr. Constantine. I do not have the figure with me. That is 
very close, Congressman, to our request. This is the second 
year of substantial efforts in the methamphetamine program.
    Sometimes it gets a little complicated. Let me try it 
briefly to reduce it to where it is easily understood. When we 
have a Southwest Border investigative strategy where the FBI, 
the DEA, and the Criminal Division target organizations that 
are poly-drug distribution systems, it will include 
methamphetamine traffickers as well as cocaine traffickers. 
Additionally, we have doubled the number of people in Iowa over 
the last three years because of this problem.
    All of the money that we spend on these very elaborate 
organized crime investigations benefit the State of Iowa 
because the major traffickers who reside in California or in 
Tijuana are bringing the drugs there. If we can do something 
about their activities, that is all part of it.
    We call it a seamless continuum. It really is. We were able 
to pick that up from these elaborate Title III investigations 
and court-ordered wiretapping.
    Mr. Latham. Very good. In looking at the budget in general, 
maybe we should figure out some kind of user fees that we could 
charge here to pay for this. They have got user fees everywhere 
else. Thank you.
    Mr. Rogers. Thank you. Mr. Dixon.

                       strategy for war on drugs

    Mr. Dixon. Thank you very much, Mr. Chairman. I join you in 
welcoming our three witnesses today. Mr. Constantine is the 
strategy to attempt to win the War on Drugs or contain the War 
on Drugs?
    Mr. Constantine. Let me say, it seems to me that in our 
society today, it is going to be very difficult in the 
foreseeable future to declare victory on the use of drugs. The 
proliferation of precursors in our society, the financial 
motivation, differences in our relationships with other 
countries.
    In the foreseeable future, we cannot prosecute drug dealers 
out of existence because there are too many people standing in 
line. Source country eradication has not worked because from 
what I understand, it merely drives the price up.
    In impoverished countries where farmers are encouraged to 
substitute crops, it just means that persons interested in 
drugs will pay more. Once you close down one highway used to 
bring drugs into the country, another one crops up. We are 
always exploring new ways to get drugs into the country.
    It is very similar to the manufacturing of garments. There 
are people traveling the world always looking for a place. Once 
you close down that Caribbean, there will be something else 
that crops up.
    Education and rehabilitation are very important because if 
we can, and I am not suggesting that we can be totally 
successful, but if we can reduce the demand for any product, we 
find that there is less of that product around.
    Mr. Dixon. Now, I understand that education and treatment 
and rehabilitation have had some modest success. I did not hear 
from my friend, Ms. Warren, an articulation of that success. I 
notice that the White House, the National Drug Control 
Strategy.
    I note that it says Drug Control Strategy. It does not say 
anything about winning this war. It talks about the impact of 
treatment. So, I would like to take my time for you to explore 
the importance of education and rehabilitation in a triad of 
attack on it.
    Mr. Constantine.  Let me answer the first question. I have 
always been uncomfortable with the analogy of the use of the 
words ``War'' on Drugs. I grew up as a young child in World War 
II.
    I know the sacrifices that this country made in human life. 
I can remember my brother had a paper route and he was taking 
me around to houses that had like gold stars on the window and 
him slapping me around to keep my mouth shut and not talk 
because of what had happened at this house.
    I saw people go without certain amounts of food, cars, and 
tremendous sacrifices. If the word ``war'' is an analogy that 
you use, then in essence you have to be willing to make those 
same types of collective sacrifices. I do not see that anyplace 
in this society presently.
    I also am somewhat of an optimist because I started my 
police career in 1960. The world then was much different than 
the world today. So, I know that the world does not have to be 
this way.
    At that point time a number, still too large, but only two 
million people in this entire country had ever used drugs of 
one kind or another. Now 80 million people in this country have 
used illegal substances at one time or another.
    I watched in horror as people philosophized and, I have to 
say, went past that and encouraged young people to use drugs 
because it was part of their liberty. It was a learning 
experience. It would not harm them.
    I knew this thing was going to be a disaster. Most of us 
did, but we were kind of laughed at when we told them that this 
is where we were going. Well, this is where we got to.
    Mr. Dixon.  LSD would be a classic example of that.
    Mr. Constantine.  Marijuana, LSD, cocaine. I mean, this was 
a horror story. So, we have got ourselves, I thought, a 
terrible situation. I do not see any alternative but to make 
dramatic improvements over the next five or ten years.
    I do not think we can take these figures we are looking at 
right now. People should look at more than just the figures. 
There is a doubling in that population that is experimenting 
with drugs.
    What is not there is that there is going to be an explosion 
in the number of teenage people by the year 2005 in this 
country. It will be the largest number of teenagers we have 
ever had in our demographic base.
    If we do not do something about that drug use, we are 
predestined, an entire generation, to tremendous social 
problems. I do think prevention works. I think over the long 
haul, it has to be the ultimate answer for this society.

                      prevention risk of drug use

    I think you start off with as a nation, as leaders, myself 
and others, we have to articulate a very strong disapproval of 
the use of drugs by people in those age brackets.
    I have looked at study after study, Congressman. Where you 
can show a strong disapproval in a social sanctioning of the 
use of drugs, young people perceive a risk to their lives and 
their future of using of those drugs and their usage goes down. 
If we, as a society, decide that we do not articulate that 
disapproval, children do not see the risk. So, if we have TV 
shows, if we have people who proclaim that drugs are just a 
part of an interesting experience in life, it is no mistake to 
me or something that people should not understand that young 
people start using drugs.
    I am very impressed by the Partnership For a Drug Free 
America. There were programs that you funded last year. I do 
not know if you see the value that I see.
    The mere identification of the issue and the threat level 
of the issue communicated in a very sophisticated fashion to a 
wide population I think is worthwhile. If we do not start 
today, I think we are making a mistake.
    If we start today and say, hey, we are going to influence 
our young people that this is not something they should be 
invovled in, hopefully seven or eight years from now we will 
see a result.
    I also can recall a period of time in 1989 and in 1990 when 
I was New York State. I had been in New York State law 
enforcement for 30 years watching violence explode in that 
state and people saying we could not do anything about it. 
Well, the leaders in that city and in that state did do 
something about it. They have dropped the violent crime rate in 
that state by 60 percent to 70 percent, where people said it 
was impossible to do previously.
    So, there are a number of things that I think we can do. 
Our role in law enforcement, I think we can proclaim some 
successes. I think if you look at that level of violence 
everywhere in our society, at least half of it and in the 
cities, probably 70 percent to 75 percent, was violence 
attributed to gangs involved in drug trafficking.

                       reduction in violent crime

    Very active enforcement, the Attorney General's anti-
violent programs, state level enforcement, local law 
enforcement have targeted those violent criminals who were 
involved in drug trafficking.
    If you look around this country, many said they would never 
see it happen. Every year for the last four years, you will see 
the violent crime rate dropping. In New York City, you are 
seeing it dropping to levels that people would not believe.
    I just saw the figures Saturday. They came out for the 
first two months or three months. In 1990, there were 2,200 
murders in that city. Last year there were under 800. So, that 
means 1,400 people have their lives that would not have had 
their lives.
    Those are cumulative numbers that build over years. So, I 
am an optimist that things can be done. I know that my role in 
life as a law enforcement official is to try to bring some 
order to society while prevention experts and familiessolve 
this problem.

               family structure--solution to drug problem

    I also believe that the ultimate institution that will 
solve this problem if they want to is the family structure. 
Absent that, I do not know that we in government can ever solve 
those problems. That is kind of a long answer. There are areas 
where I may not have a lot of expertise.

        success rate versus resources used for combatting drugs

    Mr. Dixon.  Mr. Chairman, if you would just allow me one 
follow-up question to this. In the triad that the Chairman 
talked about, and that is eradication, education 
rehabilitation, and interdiction, how would you measure or 
compare the rate of success with the money spent on 
rehabilitation and education with interdiction and source 
country eradication?
    Mr. Constantine.  It would be almost impossible for me to 
do, but I will tell you exactly what I told people at my Senate 
confirmation hearing when I was not an employee of the Federal 
Government and probably had a little more freedom to say what 
you want from time-to-time.
    The idea of having these three philosophies compete with 
each other, I do not think is in everybody's best interest. 
Rather than trying to find different ways to cut the pie up, I 
think the better way is to get a bigger pie. I think they are 
all related and they are all important to solving this problem. 
If we all agree, and I have to agree because I have six 
children and 11 grandchildren. I have spent my whole life in 
communities, mostly in New York State, seeing the devastation 
of this problem.
    If we are that committed, I do not think we should take 
from one to give to another because I think we will then be 
locked forever into this constant competition which I think is 
unhealthy for resources.
    Mr. Dixon.  Mr. Mollohan points out to me that the pie has 
gotten larger.
    Mr. Constantine.  That is correct.
    You are asking me to compare the efficacy of five or six 
different programs.
    Mr. Dixon.  Let me ask you this. Is the money for 
interdiction versus education equally well-spent as an 
investment?
    Mr. Constantine.  I would say so.
    Mr. Dixon.  Do you think that if we put all of the 
resources that we could muster to interdiction, that we could 
ever close down entirely or 90 percent rate of success in 
closing down borders?
    Mr. Constantine.  No, I do not think so, Congressman.
    Mr. Dixon.  What about the source country eradication 
programs?
    Mr. Constantine.  Do you mean if you took all of the money 
and put to country source eradication? No, sir, I do not. See, 
that is my sense of this. If we took all of the money and put 
it in any of the three areas that we are talking about, that 
would not have an effect. I think they have to be done at the 
same point in time, at the highest level of intensity that the 
government can afford.
    Mr. Dixon.  I see the Chairman is getting nervous. Thank 
you very much.

                   drug trafficking in the caribbean

    Mr. Rogers.  Thank you, Mr. Dixon. We have another series 
of votes coming up in about 15 minutes. So, we will try to 
conclude this by that time, if that is agreeable.
    All of us, I think agree, that prevention efforts here at 
home are worthwhile and they work. We ought to do that. 
Eradication has not worked very well. The thing that was 
working well that has been cut back on is the interdiction of 
drugs coming into the country.
    This is a law enforcement hearing. This is not a hearing on 
how to prevent kids from wanting drugs. I mean, none of us are 
experts in that field. Certainly, I am not. We are here as law 
enforcement people.
    This is a law enforcement hearing on the budget for the 
DEA, the U.S. Attorneys, and the Criminal Division. That is 
what we are going to focus on. That is what this is all about. 
This is where you expertise comes into play. That is what we 
pay you for.
    Now, let us talk about the Caribbean. We have neglected the 
Caribbean for awhile here. Your testimony, Mr. Administrator is 
that we have seen a resurgence of trafficking in the Caribbean. 
Would you mind giving us an overview of that?
    Mr. Constantine.  What has happened, as far as we can see, 
is that when the arrest of the leadership in Cali, Colombia 
took place, which was a very effective stroke, their 
relationships with people in Mexico, the successors was not as 
strong.
    They were looking for a way to get their cocaine into the 
United States without having to deal or to give any large 
payment in drugs or money to the organizations from Mexico.
    These new groups, many of them were North Coast 
traffickers, began to use the Caribbean again with an intent of 
using anyone of those islands, to get the drugs into Puerto 
Rico and then from Puerto Rico into the United States.
    Mr. Rogers.  So, it is a major route.
    Mr. Constantine.  Yes, sir. It is 30 percent or 40 percent 
of the cocaine anyway.

                       funding for the caribbean

    Mr. Rogers.  Over the last two years, this Subcommittee 
provided $85 million, not requested by the Administration, to 
enhance DEA and other Caribbean area drug efforts. We strongly 
believe that intelligence collected and gathered, and 
investigations conducted by DEA agents in source countries like 
Colombia, Peru, Bolivia, and the Caribbean countries such as 
the Bahamas and Puerto Rico, provide the critical information 
needed to track and interdict shipments bound for and even into 
the U.S. I think you would agree with that.
    Mr. Constantine.  Yes, sir.
    Mr. Rogers.  Yet, this is the first year that the 
Administration has requested additional resources for the DEA 
and the Caribbean.
    If this is such a major transit route for drug smugglers, 
why is this the first time they have requested an increase in 
funds? I mean, we, the Congress, have been doing it. Finally, 
after three years, they come back in and say, we want some more 
money.
    Mr. Constantine.  I think part of it was the timing of when 
the arrest took place in Cali and when the traffickers 
revisited the trafficking pattern through the Caribbean. Many 
of our budget requests had been, I think rightfully so, built 
upon our concern with the Southwest Border, as often happens.
    Unfortunately, the traffickers' ability to make decisions 
and to change strategies, too often, are too quick for the 
government. That could be a part of it. Then there was a series 
of hearings that were held. I believe Congressman McCollum and 
others held hearings in Puerto Rico focused more and more on 
the issue. We were able to provide the information. I think 
that resulted in the supplement to last year's budget.
    Mr. Rogers.  Well, I mean we have been furnishing that out 
of this subcommittee for two years.
    Mr. Constantine.  Yes, sir.
    Mr. Rogers.  This is the first time you have requested an 
increase in funds for the Caribbean without us making you spend 
it.
    Mr. Constantine.  That is correct.
    Mr. Rogers.  Yet, the Caribbean route has been blossoming 
now for several years.
    Mr. Constantine.  Since probably early 1996 is when it 
started to become, again, a major factor. I mean it never 
really went away. I think most of our attention, rightfully or 
wrongfully, was directed at these organizations on the 
Southwest Border.

                              INTERDICTION

    Mr. Rogers.  What percentage of intelligence leads which 
DEA gathers and passes along to interdiction agencies are not 
followed up on due to lack of interdiction resources, would you 
say?
    Mr. Constantine.  I cannot give you the exact number. I can 
get back to you with a number and figures. We would work very 
closely with Admiral Kramek and Southcom.
    The ability to deliver interdiction assets on the part of 
the Coast Guard, I can check and see what those figures would 
be. Part of their problem, I believe, right now is that in the 
Caribbean the traffickers are using these very fast, fairly 
small, boats.
    The Coast Guard or Customs can see them on radar tracks. 
They may see them in an aerial surveillance. The ability to 
interdict them and to stop them in some type of engagement on 
the water, I believe, is limited.
    The Coast Guard has advised me of that and we are trying to 
address that now. I know that many times they have been with 
the Admiral and listened to him. I do not mean to speak for 
him.
    There are so many issues that have involved immigration and 
other issues in the Caribbean. It has been difficult for them 
to keep up all of the responsibility that they have.

                            COCA PRODUCTION

    Mr. Rogers.  We will have to rush through here. I may have 
to ask us all to try to keep our questions and answers as brief 
as we can because of the limited time. Since 1992, coca leaf 
grown in Peru, I am told, has increased 12 percent; in Colombia 
81 percent increase. Crop eradication is not working; correct?
    Mr. Constantine.  The coca leaf production and distribution 
to markets in Peru I think has been sharply reduced over the 
last two or three years with the air interdiction policy of the 
Peruvian Government. There has, however, been really a dramatic 
jump in coca leaf production in Colombia.
    Mr. Rogers.  Crop eradication is not working.
    Mr. Constantine.  Well, it does work only if it is part of 
the whole strategy.
    Mr. Rogers.  What I am trying to get at is crop eradication 
is not working very well.
    Mr. Constantine.  A reduction in the total number of 
plants, no, sir. They have not been reduced.
    Mr. Rogers.  Is it true that we could better use those 
monies in interdiction efforts more efficiently?
    Mr. Constantine.  Number one, the eradication issue is a 
State Department funding issue. The interdiction is the Navy, 
the Coast Guard, and Customs. For me to say which one of those 
two would be a more effective expenditure of the money would 
probably be inappropriate.

                      STATUS OF DOJ STRATEGIC PLAN

    Mr. Rogers.  Now, Ms. Warren, back briefly to the report 
strategy that we asked you for in the 1998 bill that you are 
going to give us before March 31st.
    Ms. Warren.  Close to March 31st, Mr. Chairman.
    Mr. Rogers.  Are you progressing well on it?
    Ms. Warren.  I think we are. I think all of the components 
have really thrown their heart and strength into it.
    Mr. Rogers.  Will that lay a plan for the work of the 
Justice agencies to tackle drugs?
    Ms. Warren.  That is what we are aiming towards.

          IMPACT OF NOT UPGRADING TELECOMMUNICATIONS EQUIPMENT

    Mr. Rogers.  Quickly, let me ask you really quickly, CALEA. 
We are trying to get that worked out. Apparently, the Attorney 
General has hit another snag with the phone companies.
    Tell me, Mr. Constantine, if the industry does not upgrade 
its telecommunications equipment, what will be the impact on 
your drug investigations?
    Mr. Constantine.  We will be out of the business of 
arresting major drug traffickers. There is no way that we are 
going to be able to identify, produce evidence, and arrest 
these big organized crime drug traffickers without court-
authorized wire tapping ability.
    If the CALEA situation and the technology are such that 
they are not addressed, we will be in big trouble. We are 
seeing it already in major investigations where our agents do 
five or six-months work, tremendous surveillance, are able to 
provide evidence to a judge who agrees that a court-ordered 
wire tap is appropriate, only to find ourselves so frustrated 
by the technology. That all of that work for all of those 
months by all of those agents has gone for naught and the 
traffickers are able to continue unimpeded.

                       INDICTMENT OF DAVID BOWMAN

    Mr. Rogers.  Now, you have indicted a former DEA budget 
analyst who stole $6 million, David Bowman. Anyone held 
accountable?
    Mr. Constantine.  Well, obviously he has been indicted. He 
started in the fall of 1990 and systematically looted the 
public Treasury in a fraudulent larceny scheme.
    Mr. Rogers.  Have you instituted tighter internal controls 
to prevent that from happening?
    Mr. Constantine.  Well, we did two things. One is we did a 
very elaborate criminal investigation. We went through 
thousands of vouchers. In addition, we are now contracting with 
an outside auditing firm to ensure that every possible 
implication that he would be involved in is closed.
    Mr. Rogers.  Thank you much for your testimony.
    Mr. Constantine.  Thank you.
    Mr. Rogers.  The hearing is adjourned.


[Pages 497 - 506--The official Committee record contains additional material here.]



                                          Thursday, March 26, 1998.

                    STATE AND LOCAL LAW ENFORCEMENT

                               WITNESSES

LAURIE O. ROBINSON, ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE 
    PROGRAMS
JOSEPH E. BRANN, DIRECTOR, OFFICE OF COMMUNITY ORIENTED POLICING 
    SERVICES
SHAY BILCHIK, ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 
    PREVENTION

                Opening Statement of Congressman Rogers

    Mr. Rogers. The Committee will be in order. We are pleased 
to welcome this afternoon Laurie Robinson, the Assistant 
Attorney General for the Office of Justice Programs; Shay 
Bilchik, the Administrator of the Office of Juvenile Justice 
and Delinquency Prevention; and Joseph Brann, the Director of 
the Office of Community Oriented Policing Services, also known 
as the COPS program.
    Your agencies represent the Federal Government's primary 
assistance to State and local law enforcement agencies in their 
fight against crime in our communities. You are responsible for 
administering grants totaling $4.8 billion, an amount that has 
increased 100 percent since 1995. That was a full arsenal of 
programs from adding more police officers, building new 
prisons, addressing domestic violence, and combating and 
preventing juvenile crime.
    There always seems to be an incident that strikes hard in 
all of our hearts as to the destruction that an act of violence 
can create in our communities. The tragic incident two days ago 
in Arkansas has left us all wondering: How does it come to 
this? Children age 11 and 13, opening fire indiscriminately on 
their friends and classmates, now face not only capital murder 
charges, if they can be brought legally, but also the reality 
that they have killed four classmates and a teacher, not to 
mention destroying their own lives and injuring many others. 
How will the families of the victims ever recover from such an 
event?
    But today the Nation is focused on juveniles, partly 
because of this most recent event, but also because we are 
still witnessing unacceptable levels of juvenile violence and 
crime. This crime often goes hand in hand with drug use, which 
still is at unprecedented high levels for our teenagers.
    Casual teenage drug use trends suffered a marked reversal 
over the past 6 years. Drug use among teenagers in virtually 
every childhood age group and virtually every illicit drug has 
increased.
    Obviously money is not the only answer because not only has 
the Federal crime effort substantially increased, but State and 
local governments are also spending more and more all for the 
sake of our struggle to reduce teenage crime.
    We all have ideas about how best to tackle these problems, 
and with the limitations on funding that we face, we will have 
to pool our knowledge, talent, and resources to make sure that 
we are investing in truly effective programs.
    You are the experts on this subject who must look closely 
at State and local needs and recommend strategies for them that 
work and will make a difference. Your leadership is essential 
to addressing the crime and drug problems facing this country, 
and we expect you to give it everything that you have.
    We will continue to support you, as we have over the past 
years, to the best of our ability, to give you the resources 
you need to address the most significant crime problems.
    We will include your written statements in the record. You 
need not read them. If you would like to summarize 5 minutes 
apiece or less, we would be happy to hear you. General 
Robinson, we will let you begin.

        Assistant Attorney General Robinson's Opening Statement

    Ms. Robinson. Mr. Chairman, Mr. Mollohan, thank you so much 
for having us back again this year, and I am very pleased to 
have the chance to talk with you this afternoon not only about 
the challenges that we face together, but also about what I see 
as the progress all of us together are making in helping States 
and local communities combat crime. And I recognize very much, 
Mr. Chairman, that this progress is due in large part to the 
bipartisan support which this Subcommittee has offered to OJP 
to help us in the fight to help America's communities address 
crime.
    As a result of this sustained bipartisan support, we are, 
as you know, continuing to see decreases overall in the crime 
rates across the Nation. Crime rates are now at their lowest 
point in 25 years, and for the second year in a row, both the 
FBI uniform crime reports and our BJS National Crime 
Victimization Survey are showing significant decreases in 
crime.
    But even recognizing this progress, of course, there is 
still clearly a very hard road ahead. As you mentioned, the 
continuing challenges that we face with youth violence, gangs, 
family violence, cyber crime, use of drugs by young people, and 
very tragically, of course, the event in Arkansas this week 
which reflects the kind of school-related violence which still 
occurs far too frequently in this Nation.
    The decreases we are seeing do, in my view, reflect in part 
how much we have learned after 30 years of Federal criminal 
justice assistance about not only what works in controlling 
crime, but what the best role is that we from the Federal level 
should be playing.

                             OJP Objectives

    Over the past year, we have taken a close look at the 
University of Maryland report, which, as you know, was 
commissioned by NIJ in response to the directive in the 1996 
Appropriations Act, and its summary of existing evaluations, 
along with other recent assessments has helped lay out a road 
map for where we should be going and what our role at OJP 
should be. And I want to share with you from that some of my 
observations.
    First, it is clear to me that our approach has got to be 
comprehensive, that we have got to combine and interconnect 
enforcement, prevention, community engagement, and punishment, 
and that no one strategy alone is likely to have a lasting 
impact.
    Second, we know we have got to tailor our assistance tomeet 
the needs of individual communities. So we are listening hard to what 
State and local officials and local criminal justice practitioners have 
to say, and we are shaping our programs to be responsive.
    And, third, we know that a critical role for OJP is to 
aggressively share information with the field about what works, 
and then help States and local communities effectively 
implement those approaches.
    And on the issue of information sharing, I am pleased to 
report that our OJP home page is now getting up to 24,000 hits 
a day, which is much more than I have been able to report to 
you in the past.
    Our 1999 budget request before you, Mr. Chairman, reflects 
these themes and these lessons learned, the notion of 
comprehensive approaches, of meeting the needs of local 
communities, and of focusing on what works. And I want to give 
you a couple of quick examples of that.
    To combat violence against women, we are learning that 
comprehensive approaches that draw on every part of the 
community, every part of the criminal justice system, victim 
advocates and medical professionals, that all of these together 
are needed to protect domestic violence victims and to ensure 
offender accountability.
    So an initiative like the one in Quincy, Massachusetts, 
which includes mandatory arrest, offender sanctions, mandatory 
drug and alcohol abstinence, and victim services, has had real 
impact there in reducing violence against women, and, in fact, 
there has been only one domestic violence-related homicide 
there in 10 years.
    Turning to the second theme, that of meeting the needs of 
local communities, the Weed and Seed program embraces not only 
the comprehensive approach that the Maryland report touted that 
combines enforcement, the weeding side, with prevention, the 
seeding side, but it is a strategy that allows a local 
jurisdiction to tailor the program to meet local needs.
    I have had the chance over the last several years to visit 
about two dozen Weed and Seed sites, and I can tell you that 
every one of them is somewhat different. Every one of them is 
tailored to the local community needs.
    Like in New Orleans, where I was recently, in talking with 
the community police officer who has helped turn around a tough 
public housing site so it is now a peaceful place where kids 
can play.
    Or in Mobile, Alabama, when I was down there last 
September, Mr. Chairman, with you and Mr. Callahan, where the 
Weed and Seed safe haven there is teaching the kids computer 
skills instead of their engaging with gangs and drugs.
    Or in Charleston, South Carolina, where I was last year, 
where I saw young at-risk kids participating in a boxing league 
and getting to know their local police officers.
    And we can tell that this work is paying off. In Seattle's 
Weed and Seed site, for example, we have measurements now that 
violent crime has dropped 54 percent within the site since that 
program was launched, and that compares to a drop of only 38 
percent citywide.
    And in Las Vegas, the Weed and Seed target area saw an 8 
percent drop from 1993 to 1995, while citywide, crime increased 
by 3 percent.

                    links between drug use and crime

    Finally, our budget request focuses on what we know works 
to address crime. We know, as an example, that about 63 percent 
of the people coming into the criminal justice system in this 
country are testing positive for drugs. And we know that study 
after study has confirmed the strong link between drug use and 
crime.
    So it seems to me that we need to use the time that they 
are, in effect, in the clutches of the criminal justice system 
to break the cycle of addiction and crime, to hold them 
accountable, and to force them to stay clean.
    And evaluations tell us that interventions like this can 
and do make a difference. I was out in San Diego earlier this 
year and went to the Donovan State Prison in the desert outside 
San Diego and visited the Amity Drug Treatment program, and I 
saw and talked to violent offenders there who are staying clean 
and whose lives have literally been turned around, even in a 
prison where they told me that any kind of drug was constantly 
available at low cost. But these people are not using drugs, 
and we know it from the drug testing.
    And, importantly, we also have follow-up recidivism data to 
tell us that this kind of approach can work. So as a matter of 
public safety, it seems to me we should actually be demanding 
that offenders go through this kind of regimen.
    So our request for this residential substance abuse 
treatment program for drug treatment in prisons and for the new 
comprehensive drug intervention initiative that could help 
local jurisdictions implement these programs at the pretrial, 
probation, and jail level, I think all of this reflects the 
fact that we do know here what works.
    Mr. Chairman, I could spend the afternoon detailing a 
number of other programs where we have seen great results, but 
I know my time is limited. So, in conclusion, I do appreciate 
the opportunity to be here today, and we look forward to 
working with you as well as our State and local partners in the 
effort to make America's communities safer.
    Thank you very much.
    [The information follows:]


[Pages 511 - 527--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you.
    Mr. Brann.
    Mr. Brann. Thank you, Mr. Chairman.

           COPS Director Joseph E. Brann's Opening Statement

    I do appreciate the opportunity to testify here today and 
to provide you with an update on the accomplishments of the 
Office of Community Oriented Policing Services, the solid 
results that we are seeing in communities that are achieving a 
great deal of success with the aid of our grants, and the 
Administration's budget request to continue the work of this 
office in fiscal year 1999. I, too, want to especially 
acknowledge the Committee for the support that you have shown 
the COPS office and the American law enforcement community in 
particular. I am looking forward to the continuation of our 
mutual efforts to continue addressing the fundamental goal of 
adding 100,000 additional police officers who are engaged in 
community policing across this country.
    The role of the COPS office is to support local community 
policing efforts by providing initial funding for these 
additional officers, to provide for the addition of equipment, 
technology enhancements, training, the creation of 
demonstration centers, and other kinds of regional resources, 
and to meet other needs in ways that are consistent with the 
provisions of the 1994 Crime Act. At this stage, we are 
actually slightly over halfway through our life span of this 
program, but, in fact, we are almost three-quarters of theway 
towards our goal of funding an additional 100,000 officers.
    To date, as of this day, we have funded over 72,000 
additional community policing officers, and about half of those 
officers are already screened, hired, trained, and redeployed 
or active on the streets. COPS has funded officers from our 
major communities across the country, such as New York, Los 
Angeles, and Chicago, to places like Barbourville and Clay 
County, Kentucky, or Vienna and Worthington, West Virginia. At 
this time, more than 87 percent of the American public are 
being served by COPS grantees.
    As a former cop and former police chief, I have to say that 
the COPS program is going to be of continuing value, of lasting 
value, primarily because the officers that we are funding are 
engaged in community policing, and that strategy is, in fact, a 
very tough and extraordinarily effective one. I think that that 
is true largely because it wasn't created here in Washington. 
It wasn't created in some academic institution or at a research 
think tank. It actually came out of the neighborhoods and the 
communities across this country where cops and citizens have 
been willing to invest their time and their energy trying to do 
something different.
    Community policing was developed by cops like myself who 
knew that the traditional, reactive approach that we have 
engaged in to dealing with crime, that we have employed for 
many decades, has been ineffective. I think we have all been 
frustrated by the repeat victimization and the recidivism that 
we have seen as well as our own desire to do something more 
than simply respond to crimes after they have occurred.
    We want to do something to prevent those crimes and to stop 
violence and disorder, and I can say that my 26 years of local 
law enforcement experience, it has convinced me of one thing, 
and that is that community policing works, and it works because 
it is a strategic, relentless, and effective strategy. It is 
resulting in lower crime rates across the country.
    By way of example, the city of Salinas, California, has 
used COPS funding to target gang violence. That police 
department used a COPS Youth Firearms Violence grant to create 
a violence suppression unit. And since the inception of that 
unit in 1995, Salinas has experienced a 14.7 percent drop in 
crime, and robberies with weapons have gone down a full 24 
percent in the past year alone.
    Closer by, Prince George's County has experienced a 
tremendous decrease in crime. Homicides were down 42 percent 
last year to an 11-year low. Rapes have declined by 6 percent 
and are at an 8-year low. And armed robberies there are down 23 
percent to their lowest level in 9 years.
    I think what is particularly remarkable there is that this 
is all happening in a decade in which Prince George's County 
has actually experienced a 12 percent increase in their 
population.
    Community policing has been and is being credited with 
reducing violent crime in our major cities as well. Chicago is 
an example where in 1997 they experienced a drop in crime for 
the sixth year in a row. Los Angeles had a 12 percent drop in 
crime during 1997. But it also applies equally to small 
communities: Owensboro, Kentucky, where police credited their 7 
percent decrease in crime in 1996, and a similar drop in 1997, 
to their community policing activities.
    I think as a result this shows that the investment of COPS 
funds at the local level is clearly making a difference.
    Perhaps the greatest impact can be seen in the communities 
where a COPS grant has meant the difference between having a 
police department and not having one at all. We have provided 
funding for over 200 towns to establish their own police 
forces. These are towns that never had their own police force, 
that now has an officer actually out there on the beat. And we 
are seeing that occur in towns such as Mt. Olivet, Kentucky; 
Fletcher, North Carolina; and Junior, West Virginia.
    So what we are seeing here is COPS grantees in large and 
small jurisdictions, urban, suburban, and rural settings, are 
expanding their crime prevention and problem-solving capacities 
and maximizing their use of resources to better protect these 
communities, these towns, these cities, and the suburbs.

                        1999 cops budget request

    I would now like to turn to the administration's budget 
request for the COPS program for fiscal year 1999. We are 
requesting a total of $1.4 billion from the Violent Crime 
Reduction Trust Fund for the COPS program. We are also 
requesting $20 million for the Police Corps program. That will 
result in a total request of $1.42 billion for fiscal year 
1999, and this appropriation will allow us to fund an 
additional 16,000 officers both through the direct hiring of 
new officers, under the Universal Hiring Program, as well as 
through the redeployment of existing officers through our COPS 
MORE, or Making Officer Redeployment Effective, strategy.
    Due to the continuing and pressing need for law enforcement 
assistance in the Indian country, COPS is requesting $54 
million be made available in grants and cooperative agreements 
for Indian tribes to directly enhance the capabilities of 
tribal law enforcement officers in policing those communities. 
These agencies do face particular challenges and have some very 
limited resource. So if COPS is to address the public safety 
needs of all Americans, we need to provide crucial funding to 
the tribal law enforcement agencies as well.
    Further, we would like to make $1 million available for 
police recruitment efforts in support of the President's hate 
crimes initiative. The police recruitment program will provide 
funding to local non-profits to assist police departments in 
identifying and recruiting minority candidates.
    Funding for both the Indian country and the police 
recruitment initiatives will be derived from available funds 
and will not have an adverse impact on our ability to fund the 
100,000 additional community policing officers by the end of 
fiscal year 2000.
    From the perspective of the management and administration 
of the COPS office, we are requesting $27.9 million and 315 
positions, which is a total of 251 FTE, from our total program 
dollars. That funding level is necessary to process the grant 
applications and the budgets, to approve payments on existing 
grants, and to monitor all the grants that we currently have 
out, as well as the new ones that will be added, and ultimately 
to provide the necessary management support to ensure that the 
goals of the COPS program are being achieved.
    Despite a relatively low level of funding for 
administration and staffing, the COPS staff has truly done a 
superb job of managing more than 20,000 grants to over 
10,000grantees. I think that the level of customer service that we are 
providing is extraordinary.
    Our staff has helped many of these agencies obtain Federal 
aid for the first time ever, and they have ensured that the 
grants are being used effectively and appropriately. Our fiscal 
year 1999 M&A request represents an increase of $7.3 million 
and a staffing level increase of 65 full-time equivalents over 
the 1998 appropriation level.
    In closing, I would like to thank you for the opportunity 
to testify here today, on behalf of the COPS office, as well as 
on behalf of our grantees. I very much appreciate your interest 
in, and your continuing support for, the COPS program. I would 
be more than happy to respond to any questions you might have.
    [The information follows:]


[Pages 531 - 541--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you.
    Mr. Bilchik.

            OJJDP Administrator Bilchik's Opening Statement

    Mr. Bilchik. Thank you, Mr. Chairman and members of the 
Subcommittee. It is my pleasure to be with you today to discuss 
the activities of the Office of Juvenile Justice and 
Delinquency Prevention. Last year, when I appeared before you, 
I described how we were working with States and local 
communities to reduce and prevent juvenile crime and violence. 
And during the past year, I believe that we have been able to 
serve as a meaningful partner to communities across this 
country.
    During the course of today's hearing, I hope to update you 
on our activities, share with you some of the progress we have 
made, and lay out some of the challenges that we still face.
    One year ago, I told you about the FBI's latest uniform 
crime report data showing a 3 percent decline in the overall 
juvenile violent crime arrest rates for crimes such as murder, 
forcible rape, robbery, and aggravated assault. I am pleased 
today to be able to inform you that this decline was followed 
by a decrease of 9 percent.
    Last year, I also shared with you the news of a 14 percent 
decline in the juvenile murder arrest rate. That decline 
continued for a third year in a row with another 14 percent, 
for a total decrease of 31 percent over the past 3 years. The 
juvenile murder arrest rate in this country is now at its 
lowest rate in 10 years.
    While we are encouraged by these declines, we know that 
much more needs to be done. We know that even this lower 
juvenile murder rate is unacceptable as we hear the reports out 
of Jonesboro, Arkansas of children taking the lives of other 
children. We know that while progress is being made in some 
communities, there is still much to be done to lower juvenile 
substance abuse in all communities. And we know that we need to 
target our efforts on the problem of juvenile female offenders, 
a population which has been growing, not decreasing.
    Our ability to do what is needed to achieve dramatic 
reductions in juvenile offending, however, is hampered by 
recent growth in the juvenile population, which is straining 
our already overburdened community resources. Schools, day 
care, after-school programs, courts, social service agencies, 
and other institutions that are supposed to serve children and 
their families and help provide for the public safety, are 
unable to do their job as well as they need to be done.
    I believe, however, that we can effectively address the 
problems of juvenile delinquency, of violence and 
victimization, if we are willing to adopt and invest in a 
balanced and comprehensive approach to the problem.

              FISCAL YEAR 1999 PRESIDENT'S BUDGET REQUEST

    The President's fiscal year 1999 budget request for OJJDP 
of $277.95 million, a $40 million increase over the fiscal year 
1998 level, reflects this balanced, coordinated, and 
comprehensive approach. It provides for prevention, early 
intervention, and graduated sanctioning, while giving the 
communities the flexibility to implement proven strategies that 
are planned and implemented where it counts--at the local 
level.
    It is clear from research, evaluation, and Federal, State, 
and local experience that we have learned a great deal about 
what works in reducing juvenile crime. The President's 1999 
budget request for OJJDP, as outlined in my written testimony, 
supports communities in implementing the full range of activity 
that needs to take place to assist communities in reducing 
juvenile crime. It supports the types of efforts that will 
greatly improve our chances of impacting the juvenile substance 
abuse problem, as they have done in Miami, and of finding 
remarkable success in reducing juvenile homicides, as they have 
achieved in Boston.
    As I have testified as recently as last year, we know what 
works to reduce juvenile crime. We now need to implement those 
programs and strategies at sufficient scale to significantly 
impact juvenile offending rates, which are too high.
    Mr. Chairman, while we may differ in how we approach 
supporting State and local efforts in bringing these effortsto 
scale, I am pleased to sit before you and the Members of the 
Subcommittee today knowing that we do agree that the substantial 
increase in Federal support you have provided in the 1998 budget was 
desperately needed. And I hope that despite the decreases we have seen 
in juvenile crime, we also agree that the Federal Government must 
refuse to treat these issues as yesterday's problem and that we will be 
vigilant each and every year in doing whatever it takes to maintain the 
decreases we have seen over the past 3 years.
    An effective juvenile justice system must implement a 
sound, comprehensive strategy. It must identify and support 
programs that work to further the objectives of that strategy. 
I believe that the programs funded from the appropriation of 
this Subcommittee form a continuum of activity designed to 
address youth violence, delinquency, and the victimization of 
our children exactly in this manner.
    I want to thank the Subcommittee for the support it has 
provided to OJJDP in the past, and I look forward to working 
with you, Mr. Chairman, and the Members of the Committee to 
continue the progress we have made over the past several years.
    I would be pleased to respond now to any questions you may 
have. Thank you.
    [The information follows:]


[Pages 544 - 561--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much.

                  CHAIRMAN ROGERS ON JUVENILE DRUG USE

    Now, Mr. Bilchik, we have a new report card for you on the 
effectiveness of the programs to reduce drug use amongst 
teenagers. We told you last year we were going to do a report 
card every year so that we can sort of keep track and see how 
things are going.
    Turn this chart around where they can see it better.
    Now, while you see some progress in the leveling off of 
drug use by teenagers over the past year, let me point this 
out: In 1997, 42 percent of seniors had used drugs as compared 
to 25 percent in 1991. Experimentation with harder drugs 
amongst seniors--we are talking about seniors in high school--
such as heroin and cocaine, up again last year, up over 75 
percent since 1992, validating the trends of what many health 
practitioners, social scientists, what most of us have feared, 
that the increase in marijuana use that we saw in the past 
years is a gateway.
    And then the next chart. Since 1992, the percentage of 
junior high school students--that is grades 6 through 8--who 
used illicit drugs has almost doubled, from 11 percent to 21 
percent. Cocaine use by 8th graders, up 57 percent since 1992. 
Marijuana use by 8th graders, up 175 percent since 1992.
    That is not your fault. It is the fault of the 
Administration in allowing the flood of drugs coming into the 
country, because they cut out the drug war on the oceans. They 
practically withdrew the interdiction efforts off our shores 
and played back on the source country eradication programs in 
places like Colombia, Bolivia, and others in the effort to try 
to win the war at home, trying to keep people from using drugs, 
which is a laudable goal, as you are showing.
    But the bottom line is the price of drugs have dropped 
through the floor. They are more readily available, therefore, 
there is a bigger supply on the streets and in the dealers' 
hands, and the quality, the purity is up because the 
Administration withdrew the war at sea and offshore.
    And so my quarrel is not with you. You are working as hard 
as you know, and we are giving you plenty of money to work with 
it. The problem is the policy that they had of drawing back on 
the interdiction efforts. Last year, for example, on another 
Subcommittee, the Coast Guard said we have got to have night-
vision radars to see the drug runners at sea up through the 
Caribbean at night when they are running. They don't run during 
the daytime when we are flying over watching for them. They 
wait until the cover of darkness, and here they go and they 
can't see them. Please give us forward-looking infrared radars 
for our C-130 patrol planes in the Caribbean, where the big 
bulk is coming.
    The Administration wouldn't do that. So we found the money, 
part in this Subcommittee, part in the Transportation 
Subcommittee, and we gave them forward-looking radars, FLRs, to 
watch at night, and they were elated.
    Now we see the Administration's budget for the Coast Guard 
this year. They are grounding the equipped C-130s.
    I could go on like this forever and ever. I mean, they are 
shifting the Coast Guard cutters from drug patrolling to 
patrolling for people who are catching salmon illegally.
    Look at the numbers. I mean, it just goes like this.
    I don't really understand that. I cannot fathom any 
sensible person figuring that you can--and I told General 
McCaffrey this. I said, General, do you believe that you can 
win a war on your own turf without taking it to your enemy? And 
he is a nice man. He just has no power or authority or budget. 
He doesn't command the FBI, the DEA, the Coast Guard or anybody 
else. He doesn't command anything. He can talk and he writes a 
beautiful, beautiful book. His charts and diagrams are the 
best. But, you know, if you have got nothing else to do, I 
guess you could get at it, too.
    So I am just preaching at the wrong people here. I know 
that. But please carry the message back down there that you 
can't win this fight by yourselves, and you can't. You are 
being swamped with drugs into the hands of these kids, and we 
are going to continue to see degradation of our youth by hard 
drugs. And as time passes, the older they get, the worse the 
problem gets.
    Now, we provided a new $5 million grant program to your 
office to develop initiatives that would increase the 
perception among teenagers of the risk and harm of drug use. 
What do you expect to see out of that?

                      PERCEIVED RISK AND DRUG USE

    Mr. Bilchik. If I may, Mr. Chairman, distribute a chart so 
I can explain how we are approaching this program.
    Mr. Rogers. You have got your own report.
    Mr. Bilchik. I, actually, do have one I want to share with 
you before we are done. It took me three years, but I learned I 
should bring a chart. [Laughter.]
    And they advised me to bring a big one, so I have a big one 
in the corner I can show you, too.
    Mr. Rogers. I have never seen a student bring his own 
report card. [Laughter.]
    Mr. Bilchik. It is part of the new schooling. You grade 
yourself. You are always your toughest critic is what ends up 
happening.
    But this is actually a chart, the small chart I shared with 
you last year, showing the inverse relationship between the 
perception of risk and then the actual drug usage. Where 
perception of risk goes up, the drug use goes down, and thatis 
what we are trying to do as indicated through the $5 million 
appropriation, with this program.
    We have identified two programs through the work of the 
National Institute of Drug Abuse that are school- and 
community-based, that have achieved exactly that result. One of 
them is the Life Skills Curriculum Program and the other one is 
the Midwestern Drug Abuse Prevention Project.
    They have been demonstrated and shown to be effective in 
achieving significant results in juvenile drug use extended out 
over up to six years in time. They have not only been 
demonstrated in one location, but they have been replicated in 
more than one location. So we know that we can take this 
program and transplant it from one jurisdiction to another.
    We know at the Life Skills Program that we can have it 
taught by the school teacher, we can have it taught by a fellow 
peer, we can have it taught by an outside person coming into 
the school and working with the teacher, and it will get the 
same kind of results.
    So what we have done with the program is to contact the two 
people who have implemented those two programs and worked with 
the center out in Colorado, run by Del Elliott, to help 
replicate those two projects in up to a dozen other communities 
with these funds.
    It will cost us $375,000 per community to do that on a 
broad basis, but with proven results of 40 percent to 50 
percent in some instances of reductions in juvenile drug use, 
that is worth the investment to get those kind of outcomes.
    So that is how we are moving forward with this program. We 
think that it is the kind of replication work that you have 
been looking for and, Congressman Mollohan, that you have 
talked about so eloquently in the past about the scale issue. 
If we do not help bring it to scale, we are not going to 
succeed.
    This will allow us to take these two models and move them 
to at least 12 other communities to be successful in reducing 
drug use.
    So it reflects the best thinking we have in the country 
today on school-based curriculum, increasing risk, and reducing 
drug use, and that is how we are moving forward with the 
program.
    Mr. Rogers. When do you expect the funding to be given to 
communities?
    Mr. Bilchik. We are working with the Center out in 
Colorado. My assumption is, within several months, we will have 
the awards made through the Center. So we are working hand-in-
hand with the Center because they will help with the actual 
training and replicating the programs true to the principles by 
which they are founded to make sure that we are not deviating 
from what made them effective to begin with.
    We are also evaluating to make sure that the process 
followed is identical to the prior programs.
    Mr. Rogers. You are also in charge of administering the 
grants for community coalitions against drug abuse.
    Mr. Bilchik. Yes, Mr. Chairman. Approximately, five weeks 
ago I was contacted by ONDCP and asked whether I would 
administer that program.
    Mr. Rogers. When do you expect those monies to go out to 
the communities?
    Mr. Bilchik. The Federal Register announcement on that 
program will be out within two days. The communities are asked 
to come in within 30 days, and I expect the monies to be 
awarded within a couple of months after that. So by early 
summer they will be awarded.
    Mr. Rogers. Do you plan to distribute that money in small 
amounts to a great number of communities consistent with the 
congressional intent?
    Mr. Bilchik. Yes. It will be approximately 100 to 200 
communities with the first set of $10 million in awards up to 
$100,000. They will vary. Some will be $50,000. Communities 
will come in requesting different amounts of money.

                     ANTI-DRUG ABUSE MEDIA CAMPAIGN

    Mr. Rogers. Last year we provided $195 million for an anti-
drug abuse media campaign, and I understand that is being 
handled by ONDCP. In your opinion, does an adequate 
infrastructure exist to respond to calls for help from either 
parents or kids as a result of that media campaign?
    Mr. Bilchik. I think that the project is learning as they 
go along in terms of the 800 number response, in terms of how 
to have the most adequate response.
    I understand there is an automated system in place at this 
point that can help refer people to other sources of 
information as well, but I do not have specific information 
about the next steps in improving that system.
    Mr. Rogers. Well, the reason I ask that, my information is 
that the 800 number is getting a lot of calls, but there is a 
machine answering it, and it is not very effective.
    The machine, I think, obviously, there is interest out 
there, it is stirring up interest, but I do not think you are 
handling it very well.
    Mr. Bilchik. I think we need to look at how that automated 
response can refer people out, depending upon the area of work 
they are interested in doing, to all of the other sources of 
information that are available, and I believe ONDCP is looking 
at that and re-evaluating that at the present time.
    Mr. Rogers. Is someone here from ONDCP who could respond to 
that?
    Mr. Bilchik. I do not believe so.
    Mr. Rogers. Well, do you agree that the machine answering 
the phone call is not an adequate response?
    Mr. Bilchik. I cannot give you that absolute conclusion 
because I have not seen it myself. I was only relaying what I 
have heard from other people, that they are re-evaluating how 
to get the optimum response from the 800 number. So that tells 
me that they are looking at it and it is not fully adequate at 
the present time.
    Mr. Rogers. I have certainly concluded that it is not 
working and that you need to warm it up and make it effective. 
We are spending $195 million of the taxpayers' dollars, and if 
it is resulting in a phone call and a message from a frustrated 
teenager, and a machine answers the call and nothing ever 
happens, we have wasted the money, but we have also, more 
importantly, wasted the chance to rescue that youngster.
    So I think you are dropping the ball at the end of the 
telephone call.
    Mr. Bilchik. Mr. Chairman, if I could comment further on 
the Coalition Program and elaborate upon why I am so optimistic 
about their program, not just technically moving forward and 
being awarded, but why that was such a wise investment by 
Congress in a bipartisan way with the Administration.
    That brings me to my chart, if I may show you my chart.
    Mr. Rogers. Before we leave, I want to say with this phone 
business a minute here.
    Now, Justice has the role, does it not, in responding to 
those telephone calls?
    Mr. Bilchik. I am not aware of that, Mr. Chairman.
    Ms. Robinson. No, we do not.
    Mr. Rogers. What role does Justice have in relation to the 
anti-drug abuse media campaign?
    Ms. Robinson. ONDCP reached out to a number of different 
departments and agencies across the Government, including the 
Justice Department. OJP, OJJDP, and others were part of that, 
and our staff have worked with them in developing the campaign 
and having input as a number of departments have.
    Mr. Rogers. Well, who is supposed to be answering the 
telephone?
    Mr. Bilchik. I believe the 800 number is supported by 
NCADI, which is a substance abuse organization.
    Mr. Rogers. Who?
    Mr. Bilchik. The abbreviation is NCADI, N-C-A-D-I.
    Mr. Rogers. What role does Justice have in disseminating 
information about drug use to young people and what is 
happening in that respect?
    Mr. Bilchik. There are several things that we have done, 
independently, but in support of the campaign. We have 
conducted two satellite teleconferences that have been 
broadcasted nationally on substance abuse prevention programs 
and intervention programs.
    We have published resource materials for communities, such 
as the one I presented to you last year, that has now been 
distributed to over 40,000 individuals and organizations on how 
mentoring can reduce juvenile substance abuse.
    We have also produced publications on drug identification 
and testing of juvenile offenders as they come into the system, 
to identify whether they have a substance abuse problem, so 
that they can be identified for treatment, and then also how 
probation officers can work more effectively with parents and 
youth who are substance involved.
    All of those are publications that we have produced over 
the past year. And, in fact, one of those publications I have 
with me today is about to be released, which is on the drug 
identification and testing.
    Mr. Rogers. Last year, you pointed out that mentoring 
programs are helpful in addressing problems of drug use among 
juveniles, and yet the new grant structure you have proposed in 
your budget eliminates the mentoring grant program.
    Why and what impact will it have?
    Mr. Bilchik. It is our belief, Mr. Chairman, that with the 
increase to $95 million in the At-Risk Children's Program, that 
it will also support numerous mentoring efforts across the 
country.
    So consolidating the mentoring program into one larger 
prevention and early intervention program we believe that many 
communities will still respond and fund mentoring programs as 
part of their efforts.
    And, in fact, that has happened with our Formula Program. 
Right now we are funding 93 mentoring programs through the 
JUMP-dedicated funding pot. We are funding over 100 mentoring 
programs through the Formula Program, where communities have 
chosen themselves which were the interventions they needed and 
then used mentoring as one of them.
    We feel we have the same results with community local-based 
options with mentoring still being supported greatly across the 
country.

                 Juvenile Drug Demonstration Initiative

    Mr. Rogers. Is the current drug strategy sufficient to 
reduce drug abuse amongst kids? If not, what else can we do?
    Mr. Bilchik. I think the things that you have put in place 
with the $5 million program that will allow me to show that we 
can take these proven strategies and increase their work into a 
dozen other communities, that kind of thing catches fire in 
other communities. When they see it happening, they start 
adopting it themselves.
    When the Coalition Program that you have funded at $10 
million grows to $20 million and then $30 million and then $40 
million, I will be able to show, through administering this for 
ONDCP, that we can get the same results that we got in Miami, 
which, again, brings me back to my chart. [Laughter.]
    Mr. Rogers. I guess we are going to have to look at that. 
[Laughter.]
    I showed you mine. I have got to look at yours. [Laughter.]
    Mr. Bilchik. This chart, Mr. Chairman, affirms what you 
have shown me, and it focuses on high school seniors and the 
trends in annual drug use with, in particular, alcohol, 
nicotine, marijuana, and cocaine, and that is that disturbing 
upward trend.
    I do not want to dwell on this chart because, as you will 
see, I am going to overlay on these charts. So we can go to the 
next one.
    The next one is the result of a coalition in Miami, 
Florida, working as part of a ten-year strategy to reduce 
juvenile drug use. This is their high school seniors in Dade 
County, Florida. This is the toughest population we have to 
work with--seniors in high school. This is what they have 
achieved through sticking with and sustaining the strategy 
through their coalition, the kind of coalitions that you funded 
this past year, that we will see 100 to 200 of them in place by 
the end of this current fiscal year.
    How did they do that? They did it by parent education 
programs, community policing efforts, the Dade County School 
System adopted school-based strategies, like the ones that I 
mentioned earlier, through juvenile justice system 
interventions, through probation and the courts, student and 
peer-led efforts, like a project called Defy It, where peers 
put pressure on other peers not to use drugs through 
incentives, as well as the entire coalition's effort targeting 
marijuana use, in particular, that has spread to others as 
well.
    Now, I have shown you the seniors. John, if you could 
overlay and compare the two. You will see now how Dade County, 
with the work of their coalition, compares to the country as a 
whole.
    In each and every instance, they have achieved downturns, 
where the country is looking at upward trends. They have done 
the same thing for eighth graders across-the-board, not just 
twelfth graders. So the youngest and the oldest, through the 
work of the coalition idea that you have generated through that 
appropriation.
    Now, it is not going to be in one year, and it is not going 
to be in two years. They have done it on rohypnol, when they 
saw the rohypnol problem coming several years ago and they 
targeted it, and now they are seeing the same downturn in 
rohypnol.
    Community coalitions using best practices, sending 
themessages about normative behavior and perception of risk will get 
these results. That is why I am optimistic about what direction you 
have taken and how with the increased expenditures that you have 
planned for that program we can be even more successful. It does not 
stop there. There are other things, individual programs, but those are 
the--I think it is the most significant thing we can look at and shoot 
for in terms of the future for juvenile drug use.
    Mr. Rogers. That is the Drug Free Communities Act.
    Mr. Bilchik. Yes, sir.
    Mr. Rogers. That we passed last year.
    Mr. Bilchik. This past year. This is the first year the 
funding will go into these communities from the Federal 
Government for these programs.
    Mr. Rogers. Well, you have got a nice chart. [Laughter.]
    Mr. Bilchik. We worked all year on it just to make sure we 
did well with it. Thank you.
    Mr. Rogers. We are going to bring your report cards back. 
[Laughter.]

                     Current Request vs. H.R. 1818

    Mr. Mollohan. Mr. Chairman, you have found the right 
community.
    You mentioned your At-Risk Children's Grant Program and 
requesting $95 million for that. How do these initiatives 
compare with last year's H.R. 1818 that did not end up getting 
enacted?
    Mr. Bilchik. 1818 presents the kind of balanced approach 
that we are talking about in this appropriation request, 
looking at formula-supported side for juvenile justice system 
interventions and accountability-based measures, as well as a 
prevention sum of money that could be used and dedicated for 
that prevention/early intervention work. So I think they do 
mirror each other significantly. And that, of course, was the 
bill that had very high bipartisan support in the House.

            Comprehensive Community Approach To Reduce Crime

    Mr. Mollohan. To what extent does the budget request before 
us today reflect the recommendations of the University of 
Maryland Report that came out last year?
    Have you taken it to heart and to what extent is it 
reflected in this budget request?
    Ms. Robinson. Yes, Mr. Mollohan, we have taken a very close 
look at it, as I said in my oral statement and tried to adapt 
many of our programs and requests to reflect that. So, as an 
example, the increased request in the Weed and Seed area from 
$33.5 million up to $40 million reflects the fact that the 
University of Maryland Report gave plaudits to that kind of 
comprehensive community-based approach that focused on a hot 
spot type of area. So that would be one example of it.
    A second example would be our increased requests through a 
number of pieces of legislation, including the juvenile area, 
for set-asides for evaluation and research, the importance of 
building that into programs from the beginning.
    I would, also, point to the requests relating to the Drug 
Testing and Treatment Initiative, something that the Maryland 
Report pointed to as an effort and initiative that works.
    Mr. Mollohan. Which of your programs contribute to this 
anti-drug advertising campaign directed at youngsters?
    Ms. Robinson. The ONDCP campaign?
    Mr. Mollohan. Yes.
    Ms. Robinson. None of our money was transferred to ONDCP, 
but staff in OJJDP and in OJP, generally, who have worked on 
the issues relating to kids and drugs, have participated in the 
working sessions to help put that together.
    Mr. Mollohan. What is your assessment of its effectiveness?
    Ms. Robinson. I think it is too early to say what the 
effectiveness is, but I think one of the things we have learned 
from OJJDP's programs is the need for a comprehensive approach 
that includes community efforts, parents' efforts, school-
based, and also a change in the general message sent broadly to 
kids and to adults.
    It is to the parents as much as to the kids, about what is 
acceptable and what is not. I think the focus in the ads 
addressing parents is likely to be effective, but it has to be 
part of an overall comprehensive approach.
    Mr. Mollohan. Is it?
    Ms. Robinson. I think when you look at the different 
pieces, the Anti-Drug Coalition piece, the kind of prevention 
funding that we are seeking in the President's budget, and a 
number of these things together that, yes, it can be.
    Mr. Bilchik. One other short-term measure that I could add 
is that an initial sampling done of whether in the targeted 
communities the campaign has begun its work, whether they are 
accessing the population; that 97 percent of those surveyed 
have seen or heard the ads on television and radio.
    Now, the outcome of that will be measured later, but the 
threshold is are you reaching people and 97 percent said they 
were aware of the campaign, had heard one of the ads or seen 
one of the ads.
    Mr. Mollohan. Do you have a way of measuring the 
effectiveness of the ads?
    Mr. Bilchik. There are ways to control, to a certain 
degree. It is not as controllable as an experimental design 
evaluation that you might conduct, but you can take a look at 
attitudes pre and post in a community and see whether the ads 
may have impacted; talking to the people about whether they 
have seen the ads, whether it helped changed their attitudes, 
those are the kind of things that you are going to look for 
over time.
    It is the same message they sent with the Miami Coalition. 
Part of their campaign was a media campaign--one element.
    Mr. Mollohan. There must be a way of measuring that 
effectiveness. With all of the advertising in the nation 
competing for ideas in the marketplace, there must be a way of 
measuring its effectiveness. My sense is the ads could be 
tremendously effective if they could change the attitude of 
youngsters with regard to drugs. It would be incredibly 
powerful if the ads could make drugs look unattractive. It is 
important to measure the effectiveness of the advertising 
campaign.
    Mr. Bilchik. I think they will be measuring through 
surveying attitudes and perceptions during the course of the 
campaign.
    Mr. Latham. Will the gentleman yield for just a moment?
    Mr. Mollohan. Sure. I am going to yield to you. Have you 
voted?
    Mr. Latham. Yes, I have.
    Mr. Mollohan. Let me just finish and then I will yield.
    Mr. Latham. I was just going to----
    Mr. Mollohan. Go ahead.
    Mr. Latham. Just on the 12 target cities they also have 
control cities. Sioux City, Iowa, is one of them, and they have 
Duluth, Minnesota, as a control, so that you can measure the 
difference as far as awareness between the control and where 
the program is right now after four months.

                      Grants and Retention of Cops

    Mr. Mollohan. Chief, are we going to put 100,000 officers 
on the beat?
    Mr. Brann. Yes, Mr. Mollohan, we will.
    Mr. Mollohan. When are we going to do it?
    Mr. Brann. By the end of Fiscal Year 2000. We are not only 
on target, we are actually ahead of schedule. I am 
extraordinarily pleased about that.
    Mr. Mollohan. How many do you have in the grant process 
right now? How many do you actually have on the street?
    Mr. Brann. At this stage, as of the announcement that we 
did today, there are actually over 72,000 officers that we have 
announced in terms of grant awards having been announced, given 
out.
    The last count that we did, and we are doing those counts 
three times a year, the last count was as of November. At that 
time, there were 67,000 funded. Of those there were 38,000 that 
had been hired and about 36,000 were actually on the streets. 
There is a lag time from the time of the award to the time of 
hiring, but we are seeing very steady progress.
    Mr. Mollohan. Some communities have had the programs with a 
three-year cycle by now, have they?
    Mr. Brann. Our first grants, the grants that were awarded 
early on are just now starting to come to closure, literally 
this month and next month.
    Mr. Mollohan. What is your experience with retention after 
the grants expire?
    Mr. Brann. We are finding pretty much across-the-board that 
the agencies that we have conducted site visits, monitoring 
visits with, along with sort of an independent assessment that 
is being done by the media, if you will, we are hearing back as 
a result of media coverage around the country various surveys 
that they have done, and consistently we are finding 
extraordinarily high numbers of these agencies indicating that 
they are going to retain the officers; that, in fact, they have 
made plans. They are focused on that. They are well aware of 
the retention requirements.
    We do have a handful of agencies I would say, based upon 
our monitoring efforts, about 5 to 6 percent are indicating 
some problems with retention, and we are working with those 
individual agencies on a case-by-case basis.
    Mr. Mollohan. What are you going to do with agencies that 
are not going to retain the officers?
    Mr. Brann. In some instances, what we are finding is it is 
really being driven by local economics.
    Mr. Mollohan. I did not ask why it was happening. I am 
saying what are you going to do about it?
    Mr. Brann. Again, we will work with those on a case-by-case 
basis. In some instances, if, in fact, we find that there is 
clearly a problem that there was not an intention of retaining 
in the first place, we will use the sanctions that we can bring 
to bear.
    But, frankly, we are finding the vast majority of cases 
that is not the problem or issue. Typically, it is a local 
funding consideration.
    Mr. Mollohan. It is a needs problem.
    Mr. Brann. Exactly. So we are trying to work with them to 
help identify what other available funding sources they might 
turn to.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. I was just going to follow up a little bit on 
that. Not only in small communities--I think it becomes very 
clear that they cannot afford to be in the COPS program in the 
first place. I would be curious, after the five years how many 
cops are you going to have on the street after small towns and 
communities drop those officers after three years and they 
cannot afford it? You are not going to net 100,000 after five 
years.
    Mr. Brann. Congressman Latham, actually I believe that we 
will net 100,000. But if I can address that----
    Mr. Latham. They will not all be on the job after five 
years.
    Mr. Brann. Let me try to address this because the 
recognition was there up front that, first of all, we are not 
going to get to the 100,000 until the final year of this 
program. But part of our approach and strategy has always 
acknowledged that there will be some shrinkage, if you will, 
there will be some agencies that will not be able to retain, 
for a variety of reasons. I think there will also be some where 
we are seeing extraordinary results, and it is a local 
decision. Frankly, it is ultimately going to come down to a 
local determination as to whether or not there is a need to 
continue that on a permanent or a semi-permanent basis.
    So there will be some shrinkage, and we actually have 
always counted on exceeding 100,000 in order to get to the 
point that we will have 100,000 out there. In good conscience, 
I could not sit here and tell you that five and 10 years beyond 
the end of this program that all 100,000 will be out there. But 
I think that the kinds of strategies being implemented vis-a-
vis the community policing efforts, the impact that we are 
seeing on the crime rate across the country, already there are 
some significant declines that we have seen across the board 
here. There is a 14 percent decline in the crime rate 
nationally over the last five to six years.
    Local agencies will have to make a call as to whether or 
not they are going to continue those efforts, the retention 
requirement is there. I think they will do that on a case-by-
case basis, and I think that based upon what we are seeing 
already it will be a good faith effort in all cases.

                   Local Law Enforcement Block Grants

    Mr. Latham. The Justice Department requested the 
continuation of the Local Law Enforcement Block Grants, and 
apparently that was denied by the Administration. I will tell 
you that in a rural area where a lot of communities cannot 
afford the COPS program this is absolutely essential as far as 
we are concerned. I have got a community right now that had 
applied to the COPS program, has been approved and they are in 
the process of voting whether or not they are going to accept 
it because they cannot afford it long term, after looking at 
the liability. And after three years of training they would 
probably have to let the person go afterwards.
    So that is why the local law enforcement block grant has 
been so beneficial to really help those type of communities. 
And especially in an area that has an exploding meth problem, 
it is extremely important to us. I just wondered do you have 
any statement about your request toOMB, and is there any 
rationale for denying that request?
    Ms. Robinson. We have been, I would say, very proud of the 
way BSA has implemented that program. We have gotten grants out 
to 2,700 different communities around the country, I think 
particularly the first year, which was an abbreviated year, in 
record time. Through that project we have reinvented our whole 
grant process within OJP to automate it and get these out 
quickly. And we have seen really tremendous interest from State 
and local jurisdictions in response to it.
    As you know, we did include that in our Justice Department 
request because we see it as a complement to the COPS program, 
and a complement to many of the other pieces of the overall 
budgetary request. OMB's approach on this, as I understand it, 
was one of dollars. There are tough choices to be made when the 
amount of dollars in the pot are limited, and they should be 
directed in other areas.
    Mr. Rogers. You funded fully the COPS program. You did not 
find any shortage of money to fund the COPS program. But you 
did not put a penny in the congressionally funded counterpart 
to COPS which--we funded your COPS program last year. We funded 
the Congressional program last year. So we treated you fair.
    So it comes time for you to write your budget, you drop all 
of ours and keep all of your own. Which means with the shortage 
of monies we had, we have got to find the money for the other 
grant program somewhere, and it is likely either to come out of 
the COPS program or we have got to wipe out all the other good 
stuff which you are doing. What should you have us do?
    Ms. Robinson. Mr. Chairman, you point to obvious problems 
and difficulties here. These were tough choices that had to be 
made, and OMB made other choices here.
    Mr. Rogers. I know that. You cannot just dump it off on us 
and say, what are you going to do about this mess we made? I am 
asking you, what are you going to do about the mess you have 
made? I am talking to you, the Administration. And it is true 
not only in this part of the budget but all the other parts of 
the budget.
    The SBA, for example, the disaster loan program that we 
deal with here. You give us the choice on this Subcommittee of 
raising the interest rates charged to people who have been 
wiped out in disasters and can borrow money nowhere else, who 
have lost everything they have. The Administration says, double 
the interest rates on those people on disaster loans or, 
Congress, you find another $800 million somewhere to fund the 
program.
    The budget is a sham through and through and you ought to 
be ashamed of it.

         COPS Grants vsrsus Local Law Enforcement Block Grants

    Mr. Latham. In your request, I assume you were given 
limitation in your request. How did you break it down?
    Ms. Robinson. How did we break down the----
    Mr. Latham. You included the local law enforcement block 
grant.
    Ms. Robinson. Yes, our request from OJP was larger in total 
than what was in----
    Mr. Latham. Do you know by how much?
    Ms. Robinson. I think probably around $400 million to $500 
million larger.
    Mr. Latham. So basically it all came out of the local law 
enforcement block grant. Even the one larger town, and by 
comparison it is probably not that bad, but Sioux City is about 
80,000 people. They have had 10 officers. They are not going to 
be able to continue with all of them after the three years are 
up.
    Mr. Brann. Congressman Latham, on the COPS side of this. 
First of all, I appreciate Laurie Robinson stepping to the 
forefront here and helping to address the local law enforcement 
block grant issue. We are dealing with two separate pots of 
money, if you will. The issue here I think is how can we move 
forward with these COPS grants and try to assist the local 
agencies?
    As I was indicating earlier, we try to deal with agencies 
on a case-by-case basis and truly provide the highest level of 
customer service that we can. One thing that we are doing that 
may have some benefit here is we are actually developing a 
retention kit for local agencies to help them identify what 
kinds of strategies are being employed by other communities 
around the country to come up with those dollars to retain 
these officers beyond the life of the Federal funding.
    I would just like to offer our staff as a resource here to 
try to work with these local agencies. We will be taking this 
information out to the grantees that we currently have on 
board, to work with them, to try to make sure that they have 
ideas as to other resources they might turn to.
    It is not a perfect solution. Clearly, we are trying to 
adhere to the guidance that this Committee gave us as well, 
which is not to create a permanent entitlement out of this, but 
to find ways to assist local agencies in their efforts to bring 
these officers on board, to make the best use of them and 
retain them at the end of the----

                       Extension of Cops Program

    Mr. Latham. I would think one very good source would be the 
Local Law Enforcement Block Grant, if you were going to try and 
help these communities out. Do you foresee any extension more 
than three years as far as the COPS program?
    Mr. Brann. The fact is this Committee did provide an 
earmark of $100 million this year for us to focus in particular 
on the small communities. What we call the Small Communities 
Grant Program, $100 million for those agencies that fall under 
the 50,000 population that have a need and----
    Mr. Latham. That is not the question. Under the three-year 
COPS program do you see any potential for going to a fourth 
year and a fifth year?
    Mr. Brann. That is what that program specifically does. It 
provides for a fourth year for those agencies. Beyond that----
    Mr. Latham. You are just talking about communities under 
50,000 though.
    Mr. Brann. That is correct. As it stands now, no. Again the 
funding stream, the way this was set up was to be a three-year 
grant program.
    Mr. Latham. And your Attorney General will reinforce that 
also. I got a personal call from her yesterday after I had that 
question. So no, it is not any more than three years, and it 
will not be.

                              Meth Grants

    Last year in this appropriation we had a COPS meth grant 
for Sioux City to coordinate local law enforcement and really 
working the tri-state drug area. Just to give you an idea, all 
of last year they confiscated about 120 pounds of meth. The 
first three months of this year they have already got over 240 
pounds of meth. It is a horrendous problem. The Drug 
Enforcement Administration reported we now have more meth 
arrests in Iowa than we have drunk driving arrests. It is a 
huge problem.
    We got $1.2 million for this coordinated effort for all law 
enforcement in the region. We still do not have the guidelines 
for the grant, and we are six months into it. They were finally 
in Sioux City last week talking to them after I urged the 
Attorney General to take a personal interest.
    It is very discouraging to get the kind of lack of response 
that we have gotten for a crisis that is upon us out there, to 
see the foot-dragging. We could not even get a person assigned 
to get the criteria drafted for the grant until I talked to the 
Attorney General personally. To me, it is just outrageous when 
you have a law on the books and the money there appropriated to 
address this crisis.
    Can you give any response as to what is going on?
    Mr. Brann. Yes, sir. In fact, once the earmarks and 
everything was finalized in November on the appropriations, we 
immediately established meetings with the staff to begin 
discussing those earmarks and determine how to move those 
forward. In turn, I had the staff out of my office contact the 
sponsors behind each of those earmarks, and to work with them 
and the local communities.
    There have been discussions that have been ongoing. There 
was in fact a meeting, I think it was this past Monday our 
staff went to Sioux City to have some discussions with Chief 
Frisby and his staff----
    Mr. Latham. After I talked to the Attorney 
Generalpersonally because you did not have even a person assigned to it 
before then. We did not have a contact person on that grant.
    Mr. Brann. If that is the case, I apologize. But in fact, 
we did have contact people assigned on this. Starting in 
January we actually designated within our office lead staff for 
each of these earmarks to deal with.
    Mr. Latham. Well, I do not know where they were, if they 
had a month vacation. We have not got any criteria yet.
    Mr. Rogers. When can we expect to have these through and 
over with? We earmarked those how many months ago?
    Mr. Brann. November.
    Mr. Rogers. November. It is time they got out there. This 
is a serious problem these folks are having. That is the reason 
we went to the trouble of earmarking, and you are letting the 
money lay there. Now when can we have the money out there? Time 
deadline.
    Mr. Brann. Mr. Chairman, on each of these earmarks we have 
identified timelines. This in fact very much comes back to the 
reprogramming request that we submitted----
    Mr. Rogers. I do not want a long answer. When will you have 
the money in their hands? By what date?
    Mr. Brann. I wish I could give you--in fact I will go back 
and this week I will get you a specific answer on that. But off 
the fly I cannot give you a----
    Mr. Rogers. You have got until May 1st. The money is to be 
in those communities' hands by May 1st or you appear right back 
at this on that date. One way or the other. You have had enough 
time.
    Go ahead.
    Mr. Latham. That pretty much takes care of my problem, Mr. 
Chairman. [Laughter.]
    Mr. Latham. It is really frustrating, to not even have a 
contact person. The Sioux City police are excited. They want to 
go. They have got ideas on what they want to do to coordinate 
the whole region so that we do not give these slimeballs a 
place to hide in the whole region. And to not even have 
somebody that we can talk to is ridiculous.
    Mr. Brann. Again, I apologize for that. My information does 
indicate that we had actually made the contact back in February 
on this. I will need to go back and take a look at this and I 
will get you an answer.
    Mr. Latham. That is all, Mr. Chairman.

                               Cap Needs

    While they are--could you tell me what the U.S. Marshal's 
Office needs in prison space? Apparently there is $25 million 
requested. Is that going to be adequate for the needs?
    Ms. Robinson. Mr. Latham, I am afraid I cannot answer a 
question on the Marshal Service. We can get back to you with 
that information.
    Mr. Latham. Okay.
    [The information follows:]

                  Cooperative Agreement Program (CAP)

    The CAP program allows the government to obtain guaranteed 
long-term bed space for federal and alien detainess in state or 
local facilities that would not otherwise make space available 
for these detainees. Specially, CAP funds help finance new jail 
construction or facility renovation projects in return for the 
contractual guarantee of a number of bed spaces for federal 
use. Generally, CAP funds are awarded where federal detention 
bed space needs are most crucial, based on the current 
detention status and prisoner population projections.
    In FY 1999, CAP funds are requested for both the U.S. 
Marshals Service and the Immigration and Naturalization Service 
(INS). This is the first opportunity for INS to request 
resources through the appropriations process since obtaining 
authorization for a CAP program in FY 1997. Admittedly, the 
requests for resources far outstrip the $25,000,000 request, 
but the Department will work diligently to make the best 
possible use of available resources.
    Should any emergency detention needs arise, we will have to 
consider other funding options for this program.

    Mr. Rogers. Director Brann, I think there is four of those 
COPS meth grants.
    Mr. Brann. Yes, sir.
    Mr. Rogers. We want all those out by May 1st. Is that 
agreeable?
    Mr. Brann. Yes, sir, I will give you an answer as to--if 
there is a problem. But we do have--in fact these all appear to 
be on track, and I will give you a definite date as to when 
they will all be completed.
    Mr. Rogers. You will do what?
    Mr. Brann. I will give you a definite date as to when--
before May 1st.
    Mr. Rogers. Before May 1st.
    Mr. Brann. Yes, sir.
    Mr. Rogers. Under no circumstances will any of them go 
beyond May 1st. I am sure you can work out the details on that.

                    Juvenile Incentive Block Grants

    Now the budget request also eliminates a new $250 million 
block grant program which the Congress enacted in 1998 aimed at 
juvenile crime to be used by States for juvenile prosecutors, 
juvenile courts, juvenile detention facilities, and some 
prevention programs. The budget request proposes to replace 
that block grant with $150 million in discretionary grant 
programs for prosecutors and courts to address juvenile crime.
    What evidence do you have that the Juvenile Crime Block 
Grant that we have already passed will not meet the needs you 
are now requesting new money for? Who wants to answer that?
    Mr. Bilchik. I will take a first stab at it, Mr. Chairman. 
The Administration's position is that we were looking at a 
balanced approach in the funds scheme at a base level in our 
OJJDP appropriation, looking at the at-risk children's program 
at $95 million, the formula program at $89 million, and the 
incentive program which focuses on accountability programs as 
well, as $17 million. And then to lay over that a dedicated 
program of $150 million for prosecutors and courts. Realizing 
that corrections and law enforcement had received substantial 
support, we had heard back from the field that they were 
looking for dedicated court and prosecutor support.
    Our concern on the accountability block grant is, with the 
way it is set up with the 12 funding areas, and we may still 
not see that sufficient amount of money go to the courts and 
prosecutors to do the job they need to do along with 
corrections and law enforcement.
    We are pleased, in terms of the way we can report on the 
accountability incentive block grant. We thought we had abetter 
mix in relation to how we approached it in a budget request. The key 
here is getting the support to these communities, and our immediate 
concern was making sure the courts and prosecutors received that 
support as well.
    Mr. Rogers. Has anything been done to get the block grants 
out?
    Mr. Bilchik. Yes, sir. We immediately contacted 
representatives in the field, States, localities, conducted a 
focus group to get their input on their needs, and sent out 
guidance to the States in February. All States except three 
have indicated an agency to administer the funds, and all of 
the money will be funded by June 30th. It is available today. 
Any State that came in today would be able to get the money by 
June 30th which is the deadline. They cannot come back later 
than June 30th to get the money.
    Mr. Rogers. Has anybody come in to get their money?
    Mr. Bilchik. Not yet, sir. There are certain things that 
have been laid out in the appropriation that they have to do to 
make calculations as to the proportion of money going into each 
local community, so they have some work to do with the way the 
appropriation was laid out. We have sent them out some guidance 
on that, and we have made ourselves available in each and every 
instance to help them work through those calculations so the 
money can get out as fast as possible.

                           Cops More Program

    Mr. Rogers. Now Director Brann, last year we heard from 
many local police agencies that there was a need to augment the 
new officers and equipment in the COPS programs and others to 
address specific crime problems in their communities. We gave 
you the flexibility to use $200 million of unobligated balances 
for discretionary grants to meet certain law enforcement needs, 
and we also provided a statutory change that allowed a greater 
percentage of COPS funding to be used for the COPS MORE 
program, which does provide equipment and technology for police 
agencies.
    Are localities now requesting of you funding for equipment 
and technology and other programs instead of new officers?
    Mr. Brann. The COPS MORE program you are making reference 
to continues to be a very high priority. The COPS MORE program, 
the agencies are in fact quite anxious to start submitting 
their applications on that. The final date, we will actually 
have the COPS MORE 1998 program application completed. It has 
been to OMB for approval and we are awaiting final word on 
that. We expect to have the solicitation on that announced next 
week, the first week of April. The deadline on that one is 
going to be the end of May, at which time we will start 
awarding the 1998 technology grants under the MORE program.
    Mr. Rogers. Is there quite a bit of interest in it?
    Mr. Brann. There continues to be a very high level of 
interest in this.
    Mr. Rogers. Now do you estimate that there will be 
carryover funds available in the COPS program at the end of 
fiscal 1998?
    Mr. Brann. Yes, we continue to project that there will be 
carryover available. Again, I do need to come back to the fact 
that this is tied to the staffing issues, our ability to move 
this funding. I am grateful for the cooperation we have 
received from the staff on that. We did submit the 
reprogramming request, which was provided for in this year's 
appropriation, and I am hopeful that it will be signed.
    Mr. Rogers. Any other changes to the COPS program that you 
would recommend?
    Mr. Brann. The associate attorney general, Ray Fisher and I 
were on the road this past week, and again this was one of the 
major issues we were focusing on, was what the local agencies 
are identifying. We continue to hear especially from the large 
jurisdictions about the need for technology, equipment. The 
earmarks that are currently provided for have also drawn a 
great deal of interest. The school program is an example.
    I would have to say that not just this recent trip but what 
I have heard fairly consistent from around the country is a 
combination of agencies that are desirous of additional 
positions. Those that tend to be better staffed are more 
focused on the technology and equipment kinds of issues. As you 
are aware, the actual Crime Act language precludes us to some 
extent from meeting some of those needs only because these 
agencies do have to show redeployment as a result before we 
could fund them. So we have been as flexible as we possibly can 
with the MORE program to achieve that objective.

                          Police Corps Program

    Mr. Rogers. Now over the past three years we have provided 
$60 million for the Police Corps Program, and I understand that 
$57.8 million of this funding is still not obligated, and yet 
you want $20 million more. You have only spent $2.2 million in 
three years out of $60 million and you want $20 million more 
this year. Why have you not spent those monies, and do you need 
another $20 million for 1999 to lay around again?
    Mr. Brann. The Police Corps Program, you are correct, Mr. 
Chairman, what has been obligated to date is just about $2.2 
million. We have not begun to touch the fiscal year 1998 
appropriations on this front yet. But of the $30 million that 
had been appropriated in the two prior years, based upon the 
discussions with the States and the commitments made to them, 
the committed funds actually total at this stage about $29 
million. Those are not obligated because we actually have to 
wait for those States to come back with the specifics of who it 
is that is going to receive those dollars.
    These are done on a case-by-case basis and every individual 
student actually has to receive a grant. And they identify--
they have identified what their needs are, their total needs. 
But they have, in all cases, not necessarily identified the 
students.
    So I expect that out of this, clearly we have $29 million 
at this stage that we will be obligating as soon as all that 
information is in. That, however, does not mean that we have 
obligated anything out of this year's appropriation.
    Mr. Rogers. Well, there is still going to be $30 million 
sitting there and now you want $20 million. This program has 
not really caught fire, has it?
    Mr. Brann. No. In fact I would have to be honest with you 
and say that the States--this is really dependent upon the 
States coming back based upon the solicitation that we have 
sent out to them. To date we have gotten 17 States to 
participate in the program. We are continuing to encourage the 
other States to apply. But you are correct, it has not 
generated the intense level of interest that I think might have 
been surmised early on.

                  Office of Justice Program Structure

    Mr. Rogers. Ms. Robinson, we have been extremely supportive 
of State and local assistance programs to address crime. 
Funding for OJP grant programs since 1995 has increased by 213 
percent rom $1.1 billion to $3.4 billion. With that growth we 
have all seen the complexity and scope ofOJP's programs 
increase immensely. We have been concerned about instances of 
duplication and overlap that we believe are rooted in your agency's 
structure and then magnified by the growth.
    The report you submitted to the Committee regarding OJP 
coordination, duplication, and overlap issues confirms our 
concerns that there are lost opportunities for responding to 
crime, and tremendous inefficient use of resources as a result 
of the current OJP structure. I could cite many quotes from the 
report.
    ``OJP's current structure creates many obstacles to 
ensuring an integrated approach to the problems of crime facing 
the Nation. Steps to ensure greater effectiveness and 
efficiency in the Justice Department, State, and local crime 
control program could provide more continuity and coordination 
and potentially conserve financial and staff resources. They 
could also provide a management infrastructure to ensure 
greater accountability for the impact of the substantial 
dollars Congress has invested in the program.''
    Further in the report, ``Despite the tremendous amount of 
money that Congress is putting into State and local criminal 
justice, a comprehensive plan for directing funds at key 
problems cannot be effectively implemented when there are a 
host of separate decision-makers who retain the authority to 
steer programs as they choose.''
    As stewards of the taxpayers' money, we are obligated to 
address that kind of problem. I am going to ask you what we 
need to do, short term and long term.
    Ms. Robinson. Mr. Chairman, as you know from the report 
that I submitted to you, this is an issue that has been of 
concern to the Attorney General and to me and many others 
within the leadership structure of the Department. I think 
there are several options that could be pursued here. One 
option is clearly to do nothing except increase the number of 
coordinating working groups, joint conferences, joint 
publications, and the like; an effort which I think we have put 
a great deal of energy into over the past four and-a-half 
years.
    A second option, which could be done on a more short term 
basis, would be to consider the notion of consolidating the 
final grant authority in one decision-maker, giving that 
authority to the Attorney General for delegation down to the 
Assistant Attorney General or however that would be structured.
    A third option, which I believe would be a longer term 
consideration for the Congress, would be to look at the basic 
structure of the program. Right now, as you indicate, there are 
a number of statutorily created separate bureaus within OJP. 
They have, by statute, greatly overlapping subject area 
jurisdiction. In some cases there is a clear niche--e.g. 
development of statistics, research and evaluation. But in the 
programmatic area, there is and remains tremendous overlap.
    About two years ago I hosted a one-day retrospective in 
Washington inviting back all of the past leaders of the LEAA 
and OJP, and it was interesting to me, Mr. Chairman, that from 
every era and from both political parties their recommendation 
was that a unified structure was what was needed down the road 
to ensure that the money is targeted in the best way and really 
presents a comprehensive and unified approach.
    So it seems to me at some point Congress and the 
Administration need to take a harder look at the basic 
structure of OJP and see whether a unified structure for the 
agency would result in a more streamlined and focused program.
    Mr. Rogers. How much money could we save, do you think, if 
we did this?
    Ms. Robinson. The money saved, I suspect, would be somewhat 
minimal on the administration end. Only 2.6 percent of our 
entire request is management and administration. There would be 
savings, however, in my view, because there is duplicate 
structure within the bureaus for areas like publications and 
administration budget and other areas.
    In addition to that though, it seems to me that what it 
does is ensure--let us take an area like courts--to ensure that 
the work across all of the bureaus and offices within OJP is 
focused in a way to leverage it, to ensure that it is going to 
have the greatest impact when it reaches States and local 
communities. That in the end is a cost savings as well.
    Mr. Rogers. Have you compiled or can you get for us the 
legislative changes that would be required in your option 
three, the third option you gave us? We need to know, I need to 
know what particular statutes need to be amended and where and 
how in order to achieve some degree of uniformity, and to avoid 
duplication and overlap.
    Ms. Robinson. I would be happy to work with you and the 
Subcommittee staff on that. I think what we would need to do is 
step back and look at the broad range of statutes that govern 
the OJP operations.
    Mr. Rogers. I would like to have in my hands the 
particular, specific legislative changes that would achieve the 
goal here, and I would like to be able to get that to the 
Judiciary Committee, or the appropriate committee--I assume it 
would be Judiciary--and try to encourage them to do this. So I 
guess what I am saying to you is, I am volunteering my help.
    Ms. Robinson. I appreciate that, Mr. Chairman, and we will 
be happy to work with you.
    Mr. Rogers. I suspect there would be others, around this 
table especially, that would be interested in having you do 
that.
    Ms. Robinson. Thank you.

                       drug treatment initiatives

    Mr. Rogers. Now you are requesting another new initiative, 
$85 million, for drug treatment of prisoners; $72 million for 
the Residential Substance Abuse Treatment Program for State 
prisoners authorized under the Crime Bill, and to allow States 
to use any and all of their State prison grant funds for drug 
treatment instead of prison construction.
    Since States already can obtain substance abuse grants from 
HHS and can use those grant monies on their prisoners, why is 
Justice proposing new programs for drug treatment for State 
prisoners that overlap already what is there?
    Ms. Robinson. Mr. Chairman, the Department is requesting 
this money for two reasons. The first reason is that we know 
the strong link, as I indicated before, between drug use and 
crime. We know from the research that interventions and 
treatment can reduce recidivism and reduce future 
victimization.
    The second reason is that the block grant funding through 
HHS for drug treatment (a) is limited, and (b) does not go 
primarily to criminal justice populations. The great priority 
in the States is not on the criminal justicepopulation. The $85 
million requested here would in fact go to local communities as opposed 
to the residential substance abuse treatment money that would go to 
States for State prison inmates. Local communities are seeing the large 
influx of defendants coming in at the front end, and many of those need 
drug testing and need drug treatment interventions and sanctions to try 
to get them off of drugs.
    So the money in the $85 million pot would be used 
specifically for drug testing and treatment interventions for 
persons on pre-trial release status, on probation, and at the 
stage where they are in jail pre-trial.
    Mr. Rogers. Now in the request you asked for a proposed 
language change which allows State prison construction grant 
money to be used for drug treatment going to prisoners. It is 
somewhat vague, that language is, in that it may be interpreted 
to allow any and all of those funds to be used for treatment. 
If that were so, the $150 million earmarked for the State 
Criminal Alien Assistance Program could effectively be 
eliminated. What was intended by the language?
    Ms. Robinson. Mr. Chairman, it was not our intention to 
eliminate the earmark of $150 million for the SCAAP program. 
Our intention here was to give flexibility to the States for 
the prison-building money there, particularly for 
jurisdictions--Texas and Virginia are two of them as an 
example, that feel they have adequate prison space right now 
but are trying desperately to address the addiction problems 
and needs of inmates within the facilities.
    As you know, last year we required for the first time that 
every State, in order to receive its prison-building money 
starting in the next fiscal year, has to have implemented a 
comprehensive drug testing, treatment, and intervention program 
for everyone within the correctional system. The States view 
this as an important area to work on, but it costs money. They 
have come to us asking whether some of their prison-building 
money, particularly where they have an adequate number of 
cells, could be used for that purpose.
    One thing you might want to consider, Mr. Chairman, if you 
were open to this, is limiting the amount of money, the 
percentage of money they could spend for that purpose.
    Mr. Rogers. We certainly do not want the SCAAP money to be 
used for that purpose.
    Ms. Robinson. That was not the intention.

                state criminal alien assistance program

    Mr. Rogers. I am glad to know that. That helps.
    Now the California members wanted us to inquire as to why 
the 1997 awards have not yet been distributed. What is the 
status?
    Ms. Robinson. The 1997 SCAAP awards should be out within 
the next month. Let me back up and give you a quick chronology 
of where we are and how we got there.
    The guidelines went out last spring for that program, which 
as you may recall, saw some major statutory changes to include 
localities because of the inclusion of misdemeanor offenders in 
the pool. We sent out applications by late spring, and the 
applications were due back to us from the States and localities 
in August. As part of this, as you know, each State, or 
locality needs to do a compilation, of the number of aliens in 
their facilities, the amount of time they spent, and any other 
indicators that can help us in identifying whether the offender 
is legal or illegal.
    We got those tapes back in. They submit disks to us. We got 
those back in to BJA after the deadline in August and we began 
working with INS this fall for the verification tape runs. INS, 
as you may know, has a database of about 14 million individuals 
against which we can run the tapes.
    The process took longer than we thought. We were nearing 
completion in January when the State of Michigan came to us and 
asked us to reopen the process. The Governor's office asked us 
whether--because they had an administrative oversight and had 
failed to apply for the program--we would be willing to reopen 
it so as to include them in the award process.
    After consideration of that we agreed to do that. The 
process was opened for one month in order to give any 
jurisdiction that had an interest an opportunity to apply. We 
received 19 applications in, including Michigan and two other 
States. We are now running those tapes and we expect the awards 
to be out within the month.
    Mr. Rogers. Mr. Latham.

                     cooperative agreement program

    Mr. Latham. I just would clarify my question earlier about 
the U.S. Marshals. It is in the Cooperative Agreement Program, 
you have $25 million in your request.
    Ms. Robinson. Yes.
    Mr. Latham. Was that their request, or how did you--what is 
the justification for $25 million?
    Ms. Robinson. I am sorry I had not understood your question 
before, but yes.
    Mr. Latham. What is the justification? How did you come to 
that?
    Ms. Robinson. The justification there, that is something 
that the Attorney General requested be included in the budget. 
It was in the budget last year as well. It basically is money 
which the Marshals use to reimburse local jails when they are 
holding prisoners in those local jails.
    Mr. Latham. I have got some communities that would like to 
tap into that also. I am just wondering, is that enough? Do you 
have any opinion as to where that number should be?
    Ms. Robinson. That was the number which the Department 
provided to us. We will get back to you on that issue.
    Mr. Latham. That is all, Mr. Chairman.

                       domestic violence programs

    Mr. Rogers. Now it is our understanding, Ms. Robinson, that 
Legal Services Corporation and their grantees can obtain money 
for domestic violence programs for clients that they represent 
that fall within that category under both the Violence Against 
Women Act, the STOP program, and civil legal assistance set-
asides. LSC though has requested money for its own domestic 
violence initiatives. Are you coordinating with them to ensure 
that they and their grantees are able to access VAWA monies 
that you administer?
    Ms. Robinson. Yes, Mr. Chairman. We have been working very 
closely with the Legal Services Corporation. We have had a 
number of meetings with them and their local offices would 
certainly be eligible grantees under the Civil Legal Assistance 
program.
    By the way, we are very excited about that program. We 
thank you for including that in the budget. In the months since 
the appropriation passed we have been doing a good deal of 
outreach to the criminal justice community, domestic violence 
victim services providers, and others out there, as well as bar 
associations and law schools. As I say, there is tremendous 
interest in that program.
    I think there are some differences in the focus of what we 
would do vis-a-vis what I think Legal Services ordinarily does. 
For example, in our grant program we are going to bestressing 
from applicants' collaborative ventures reaching out to work with 
domestic violence victim advocates, to reach out to bar associations, 
and to try to leverage some of the volunteer manpower from bars or from 
law school legal clinics in a way that I think ordinarily the LSC local 
offices may not.
    Mr. Rogers. That is good. But there are no obstacles to 
them successfully obtaining violence funds that you control?
    Ms. Robinson. They are certainly eligible applicants, yes.
    Mr. Rogers. That is good. Thank you.
    Mr. Latham, anything further?
    Mr. Latham. No.
    Mr. Rogers. Thank you all very much for your testimony. I 
think it is good to have the three of you here at the same time 
because we get a better perspective on the larger terrain. 
Anything further any of you would like to add?
    Mr. Brann. Mr. Chairman, I would like to bring one thing to 
your attention. My staff is more efficient than I have given 
them credit for. I would like to let Mr. Latham know that the 
tri-state meth program was in fact obligated last Friday on the 
20th. There was a special condition, there was an issue 
regarding a road----
    Mr. Latham. Which we have never requested. But they were 
there last Monday. They told them what they could not use the 
money for, but they have not told them what they can use it 
for. There is no criteria yet that we have been advised.
    Mr. Brann. I will follow up on this. But the information 
that I have is it was actually obligated last Friday, but I 
will make sure that those issues get resolved. I just wanted to 
get that on the record.
    Mr. Rogers. Thank you very much. Meeting is adjourned.
           Questions Submitted by Representative David Skaggs
                      $75,000 cap on hiring grants
    Question. What effect does this restriction [the $75,000] have on 
the flexibility of the DOJ to grant funds in higher cost areas?
    Answer. We are aware that the $75,000 cap does pose concerns for 
grantees and potential applicants that have higher salary and benefits 
costs. As you know, COPS grants fund up to 75 percent of the costs of 
hiring officers up to $75,000 over three years. Many communities, 
however, have officer costs that exceed $100,000 over three years. 
These communities end up paying more than 25 percent of the costs. 
Lifting the cap will allow these communities to make greater use of 
COPS hiring grants and it will also give the COPS Office greater 
flexibility in meeting the needs of America's law enforcement agencies.
    Question. Is the $75,000 cap necessary to allow DOJ to reach the 
goal of 100,000 additional officers?
    Answer. We are committed to fulfilling the mission of the COPS 
program to add 100,000 community policing officers to the streets. We 
would not propose lifting the cap if we felt it would hinder our 
ability to reach the 100,000 officer goal.
    Question. What changes are necessary to allow DOJ to give more COPS 
grants in higher cost areas?
    Answer. The Administration has submitted a reprogramming request to 
the committee to allow COPS to lift the $75,000 cap on grants. Approval 
of this request will make it possible for COPS to better serve 
communities with higher officer costs by assuring that all grantees 
receive a full 75 percent of their officer costs.
                                           Tuesday, March 31, 1998.

                 IMMIGRATION AND NATURALIZATION SERVICE

                                WITNESS

DORIS MEISSNER, COMMISSIONER
    Mr. Rogers.  The Committee will come to order.
    We welcome this morning Doris Meissner, the Commissioner of 
the Immigration and Naturalization Service who will testify on 
the fiscal year 1999 budget request for the Immigration and 
Naturalization Service.
    You are requesting almost $4.2 billion for the INS in 1999, 
an increase of $392 million; 10-percent over the amount that 
the Congress provided in 1998. This Subcommittee has provided 
INS with its largest increases in history over the past three 
years to address the problem of illegal immigration.
    INS' budget has grown at a rate greater than any Federal 
law enforcement agency during this time; from $2 billion in 
1995 to $3.8 billion in 1998; an 83-percent increase.
    The Nation now has more immigration law enforcement 
officials than FBI, DEA, or Bureau of Prisons. Yet, we still 
have some of the same problems we had two years ago, and for 
that matter, ten years ago.
    The illegal alien population residing in this country is 
still the same; over 5 million and it is growing at a similar 
or a greater rate than in the past, despite a 94-percent 
increase in enforcement resources.
    Intending immigrants legitimately seeking green cards, 
asylum, and naturalizations still face inefficiency, antiquated 
processes, tremendous delays, and poor service forbenefits 
which they are directly charged through INS fees.
    This is despite a 150-percent increase in resources for INS 
service activities over the last three years. I have come to a 
point where I believe we are probably asking too much of any 
one agency and too much of you, Madam Commissioner, to manage 
the overwhelming responsibilities of our immigration system 
with an agency that is entrenched with inefficiency and 
ineptitude.
    The ship you have been trying to turn the last four years, 
I am afraid is so covered with barnacles that it will not 
respond. We worked together in the past with you to try to give 
you the resources that you need to address our most pressing 
priorities.
    I think we now must look together at ways to restore 
credibility to our immigration system and look beyond just 
trying to save an agency. That should be how can we fulfill 
this terribly important mission that has been given to this 
agency which has not been carried?
    At this point, we will insert your written statement in the 
record. You are invited to summarize as you would like in your 
opening statement.
    Ms. Meissner.  Thank you.
    Thank you, Mr. Chairman and Members of this Subcommittee 
for the opportunity to discuss the President's fiscal year 1999 
budget request for the Immigration and Naturalization Service.
    Let me start by thanking you for the support that you have 
given us over the last several years. The new resources that 
you have just detailed are producing significant and concrete 
results at a time in which the immigration challenges facing 
the Federal Government have never been greater.
    Social, political, and economic changes in the last several 
years have put tremendous enforcement pressures on our borders 
and created record level demands for immigration services.
    Nonetheless, we have made important differences in 
communities around the country like in Brownsville, Texas where 
Operation Rio Grande is credited with helping to restore order 
and commerce in the downtown area.
    In Storm Lake, Iowa where our efforts to identify illegal 
workers in meat packing plants have helped return $11 an hour 
jobs to American workers.
    In New York City where we worked with Federal and Local law 
enforcement officials to obtain nearly 20 felony smuggling 
convictions in the exploitation of dozens of hearing and speech 
impaired Mexicans who were being held in virtual slavery.
    These accomplishments are not an accident. Last fiscal year 
we set many tough performance goals and we have met them. We 
set a goal of continuing to deter border crossers in San Diego. 
Apprehensions there last year reached a 17- year low.
    We set a goal of removing 93,000 illegal aliens with 
criminal records or without standing removal orders. We topped 
our goal by 20,000; having removed 113,000 criminals or 
removable aliens.
    We set a goal of hiring and training more than 5,000 people 
and we did. We set a goal of focusing our work site enforcement 
efforts on bigger cases and those with criminal violations.
    We exceeded those goals in completion of criminal cases by 
29-percent and administrative cases by 25-percent. We set a 
goal to reduce the back-log of asylum cases and to keep current 
on new case receipts.
    Last year, we processed nearly 140,000 asylum cases, which 
is a 160-percent increase over 1994. We significantly cut our 
case backlog for the first time in three years. So, the year 
was a productive one, not just from the standpoint of how we 
met specific performance goals, but for a number of other 
reasons as well.
    We made a key internal change by bringing in an entirely 
new team of senior managers to head the Agency; a new Deputy 
Commissioner, a new Executive Associate Commissioner for Field 
Operations, three new Regional Directors, and a new Chief of 
the Border Patrol.
    We began enforcing a complex sweeping new law that gives 
significant new authority to the INS. In implementing the 
Illegal Reform and Immigrant Responsibility Act, we have 
retrained half of our staff, writing and implementing more than 
60 regulations and creating 70 new forms.
    We also began putting into place a new infrastructure for 
the Naturalization Program. When I appeared before you last 
April, the Naturalization Program was in critical condition.
    The number of citizenship applications had tripled. Our 
system was simply not equipped to handle the crush. No one 
voiced greater concern about the lapses in reliability and 
credibility than did you, Mr. Chairman.
    In response, we established organization within INS 
Headquarters to focus solely on naturalization. By streamlining 
the chain of command, we have restored accountability and made 
significant progress toward building a Citizenship Program that 
is both customer oriented and secure.
    We instituted stringent new quality assurance procedures, 
including requiring verified FBI fingerprint checks for every 
naturalization applicant. A December audit by KPMG Pete Marwick 
has validated that these new procedures are working and that 
this is a system in which Congress and the public can have 
confidence.
    A year ago, more than half of the citizenship fingerprint 
cards prepared by outside providers were being rejected by the 
FBI as unreadable. That created unnecessary delays for 
applicants and raised concerns about the integrity of the 
process.
    Since the termination of the Designated Fingerprint 
Services Program four months ago, at your direction, we have 
completely revamped the fingerprinting process, bringing it in-
house by creating 120 of our own centers and adding new 
technology to prevent data entry mistakes and reduce delays.
    The result, today, the fingerprint rejection rate is under 
2-percent. A year ago, the majority of citizenship applications 
were being mailed to our over-burdened district offices for 
pre-processing; a system which contributed to delays and 
inefficiency.
    By mid-April, all naturalization applications will be 
mailed directly to our four highly automated service centers, 
freeing up personnel in our districts to focus on adjudicating 
the applications.
    Once INS did lack the resources it needed to do our job. 
Now, we are proving that when we are given the resources, we 
can do the job. We are not all that we can be. We are not all 
that we are going to be, but we certainly are not what we once 
were.
    We clearly recognize that we can do better and that wemust. 
Sticking with the status quo is simply not an option. Mr. Chairman, you 
have expressed your frustration that the INS does not seem to be 
changing fast enough.
    As the person in charge of leading this fast growing 
Agency, I can honestly tell you that I share that frustration. 
You asked the Attorney General and me to look at the proposal 
that the Commission on Immigration Reform put forward to 
improve the management of the Federal Immigration System and to 
report back to you with our recommendations.
    The Attorney General and I have treated your request as a 
real opportunity for INS. The Administration has seized upon it 
as well. In recent months, several organizations and 
individuals have also put forward proposals for restructuring 
INS.
    At the President's direction, the White House Domestic 
Policy Council reviewed the Commission's proposal and others, 
working with OMB, consulting with various Executive Branch 
agencies, and immigration experts outside the Government to 
evaluate reform ideas.
    What is most striking about the various reform proposals 
are not the differences, but the similarities. When you get 
down to it, we all share a similar goal, which is a more 
efficient, effective immigration system. Based on its review, 
the Administration determined that the Commission and others 
had correctly diagnosed many of INS' long-standing problems.
    With that in mind, we are seeking to improve 
accountability, consistency, and professionalism by 
fundamentally restructuring the INS. Working with the 
Department of Justice, INS hired a leading management 
consulting firm to provide an independent assessment and to 
help INS design a better structure.
    Our proposal untangles INS' overlapping and frequently 
confusing structure and replaces it with two clear chains of 
command. One chain would accomplish our enforcement mission. 
The other would provide services to legal immigrants and their 
families.
    The proposal calls for changing the existing field 
structure of regions and districts and creating new 
jurisdictions tailored to meet local service and enforcement 
needs.
    Finally, it establishes a shared support operation to serve 
as the administrative and technological backbone upon which the 
enforcement and service operations depend.
    On the enforcement side, our new frame work would lead to 
improved results by ensuring that priorities are shared and 
that day-to-day operations are closely coordinated among each 
enforcement discipline.
    We would achieve this by establishing new jurisdictions 
around the country called enforcement areas. The enforcement 
areas would oversee all enforcement related functions in their 
geographical area, including the Border Patrol, investigations, 
inspections, detention, and deportation.
    On the service side, our goal is to create an organization 
geared toward providing consistent and high quality service at 
every INS Office nationwide. There should be no advantage or 
disadvantage for individual applicants dealing with this agency 
based on where they live.
    We plan to establish neighborhood-based customer services 
offices across the country, providing an array of services from 
fingerprinting to interviewing.
    These offices would be staffed by service oriented 
professionals and their Directors would be held accountable for 
meeting nationally established standards for timely processing 
and courteous service.
    By retaining both of these functions within a single 
agency, the Reform Plan would ensure that both enforcement and 
service operations are appropriately coordinated and supported 
by Headquarters.
    To ensure the necessary coordination and integration, and 
to promote efficiency, we would establish a shared support 
operation that would serve as the administrative and 
technological backbone for both the enforcement and service 
chains of command of the agency.
    The new structural frame work also offers benefits to INS 
staff. For the first time, clear career paths would be 
established for enforcement and service personnel, allowing the 
Agency to attract, promote, and retain the best qualified 
employees.
    As for the cost of this proposal, we believe it would be 
minimal. For example, since we are responding to heightened 
demands in enforcement and service already, we have requested 
substantial resources in fiscal year 1999 for office space, 
construction of additional facilities, as well as new staff.
    The cost of the restructuring proposal could be absorbed 
within this and future growth. Those resources would provide 
the necessary foundation for implementing the structure we are 
proposing.
    We believe that we are giving you a cost-effective common 
sense approach that will maximize the return on investment that 
the Congress and the public have made in this Agency. For 
fiscal year 1999, we are seeking a total of $4.2 billion and 
31,499 positions.
    This number represents a $390 million increase in funding 
over this year's spending level and adds more than 2,600 
positions. The details of that request are in the long 
statement which is submitted for the record.
    With this money, we will continue to produce results and 
build on the progress that we have made in the last several 
years. We will do what you and what the American peopleexpect 
of us, uphold our Nation's tradition as a Nation of immigrants and a 
Nation of laws.
    Thank you very much.
    [The statement of Ms. Meissner follows:]


[Pages 590 - 624--The official Committee record contains additional material here.]



                           ins reorganization

    Mr. Rogers.  Thank you, Commissioner.
    Now, in the appropriations for the current year, we, as you 
mentioned, directed that the Attorney General review the 
Commission on Immigration Reform, the so-called Barbara Jordan 
Commission's Recommendations, on reorganizing our Nation's 
efforts at stopping illegal immigration and giving intended 
immigrants proper service, as well as enforcing our laws.
    We set a date of April 1st, which is of course tomorrow. 
Late last week, the White House Legislative Office briefed my 
staff with representatives from OMB and INS on the 
Administration's proposal.
    No one from main Justice was invited to attend, even though 
the Attorney General was the one we looked to, to conduct the 
review and submit the report. She and her people were not 
there. It was the White House people.
    I am told that in preparing this plan that you are 
mentioning today, that the review process of that plan and the 
review process of the Barbara Jordan Commission was dominated, 
not by you, the experts in the field, nor by Justice, whom we 
asked to report to the Congress, but it was dominated by the 
White House.
    Justice's role was negligible. Even worse, it seems likely 
that Booze Allen, who was hired by you to ``independently'' 
develop restructuring options, was told only to consider 
keeping the INS in tact. That, that was the overriding 
consideration.
    There is no evidence that any serious attempt was made to 
evaluate the Barbara Jordan's Commission proposal or 
Representative Reyes' proposal to create a separate enforcement 
agency within Justice.
    So, here we are. This is another papered-over 
reorganization attempt. We have had 50,000 of these of INS over 
the last several years. I mean since you have been here, you 
have reorganized how many times?
    Before you were here, the last Commissioner reorganized and 
so on and so forth back ad infinitum. I know you are well-
intentioned and I know you are trying the best you can. I have 
reluctantly, over 15 years now, after that period of time come 
to the conclusion that the mission that we have given--that 
Congress gave the Agency--is a contradictory, self-destructive 
mission.
    I do not think you or anyone else, I do not think the best 
manager in the work, of which you may be the one or among 
those, could manage this process. I do not think it is 
manageable.
    I have studied the Barbara Jordan Commission Report and 
have concluded that it is about the only way that we can manage 
this mission. I am sad that you apparently did not pay much 
attention to that Commission, a group of high-minded citizens 
who know a lot about this subject, who spent two years or more 
studying how best to deal with the problem and they have no axe 
to grind.
    Tell us why you did not consider or why somebody did not 
consider the Barbara Jordan Commission findings? I know you 
did, but you were dictated to by the White House. Why did they 
not consider Barbara Jordan's findings?
    Ms. Meissner.  Mr. Chairman, let me try to clarify this 
process of what has been taking place. First, I think it is 
very important that I make clear that the Justice Department 
and the Immigration Service have worked very closely on this 
assignment that you have given us.
    That has included many people in the Justice Department and 
in the INS, as well as the Attorney General personally and 
myself personally. We have, I think, spent as much time on this 
issue and on the proposal that we have put forward as any 
single thing that I can recall in my time in the Agency.
    We have, as you know, in addition to the internal efforts 
that were made, made a serious commitment to work closely with 
a leading consulting firm, Booz, Allen, and Hamilton.
    That has been a very intensive effort. That is an effort 
and a contract for which the technical management was actually 
provided by the Justice Department, by people in the Justice 
Management Division.
    Mr. Colgate and I have personally devoted a great deal of 
time to this. So, what has happened has really been a parallel 
effort. At the same time that the Justice Department and the 
Immigration Service were looking at what we believed would be 
the best way to proceed, there was an Administration-wide 
effort taking place to review the Commission's proposals.
    That is simply because the Commission spoke to not simply 
the Justice Department, but it spoke to several other agencies 
of the Federal Government, the State Department, and the Labor 
Department.
    The Administration received those recommendations with 
serious statements in the fall to review them. Indeed, that is 
what occurred. The President asked the Domestic Policy Council 
to lead that review.
    That was an inter-Agency review by the very nature of the 
subject. The INS and the Justice Department participated in 
that review, but several other agencies participated in that 
review as well.
    The ultimate recommendation and decision that was reached 
from the standpoint of the Administration was that the 
Commission's proposals were not the best way to go at this 
time. They would be protracted. They would likely be costly. 
That instead, the best way to proceed would be with a 
fundamental restructuring of the Immigration Service so that we 
could best take advantage of the interaction and theinter-
connectivity that exist between our enforcement and our service 
missions.
    People often see our enforcement and our service missions 
as contradictory, as you have explained. In fact, we believe 
that when you look closely at them, they are mutually 
reenforcing responsibilities.
    When you are giving benefits you have to be every bit as 
concerned about the legal immigrant receiving those benefits as 
you need to be concerned about the potential for fraud and 
abuse and misuse of those benefit programs.
    Similarly, when you are doing enforcement, deporting aliens 
from the Country, for instance, it is extremely important to 
recognize whether the person has a legal benefit or eligibility 
to remain in the Country and be certain that, that process is 
carried out with all of the information available.
    So, what we have come to now is a proposal that is a 
fundamental restructuring of the Agency. It is not a 
reorganization that is like any prior. I did one reorganization 
in 1994 when I first arrived.
    This is a different way of doing business. It establishes 
two separate chains of command. The objective is 
accountability. The objective is improved performance overall.
    The objective is to reduce spans of control so that there 
is a greater focus on the variety of responsibilities that we 
have.
    It is consistent with the next step of the growth that, as 
you very properly recounted, has been extraordinarily ambitious 
to manage. It will, I believe, in the next several years get us 
to where we need to be.
    Mr. Rogers.  How long will it take you to implement the 
plan?
    Ms. Meissner.  The preliminary estimates that we have are 
for a three-year time frame. That is ambitious. This is a 
fundamental reform. It must be done properly.
    Mr. Rogers.  So, you are saying three years.
    Ms. Meissner.  But we would have a series of gains as we go 
along the way. It would not be something that waits for three 
years. It would begin in the year beginning now.
    Mr. Rogers.  For 15 years, I have sat here and listened to 
Commissioner after Commissioner reorganize INS. I mean, we have 
had, I will bet you, 15 reorganizations since I have been on 
this Subcommittee.
    Each one was well-intentioned, holding out the promise that 
we would finally solve the problem and have an effective Agency 
carrying out the missions for the Nation and for intended 
immigrants the way it should, all of which have not only 
failed, but exacerbated the problem.
    This Agency comes here with a good deal of lack of 
credibility. We could go on all day at reciting the short 
comings.
    Citizenship U.S.A., where you naturalized thousands of 
convicted felons, all in the name of intending to gain voters 
in November; granting the Nation's most precious gift, 
citizenship, by violating the law to do so, by the tens of 
thousands.
    That was the straw that broke the camel's back. Then you 
deceived Congress itself, the Agency officials had, visiting 
the Miami District Office where they were lied to by high 
ranking officials of INS who have not been disciplined.
    There are over 600 investigations of fraud and public 
corruption by INS officials, even as late as last week. There 
are over 5 million illegal aliens still in the country. No 
improvement in that situation since 1986; almost 12 years ago.
    There are questions by the Inspector General of the 
Department and the GAO, whether the Border Patrol strategy has 
made an impact. There are ineffective strategies for removing 
aliens in the Interior.
    We have had a catastrophic break down of the fingerprinting 
system, which we made you fix. You have had fraud in the 
testing system; bribery of testing officials.
    We could go on the rest of the day. I am tired of it. There 
is no way you can fix this Agency. I wish the White House would 
have listened to those people, well-intentioned citizens, the 
Barbara Jordan Commission, and followed those broad 
recommendations and done what needs to be done.
    That is to assign the visa process back to the State 
Department so that we have one Agency from A to Z monitoring 
the visas, and who is overstaying and who is not. You cannot 
tell me today how many overstays there are in this Country 
today.
    No one can because two agencies deal with it. State deals 
with it in the origin country. They hand it off to you over 
here. Neither of you have any accountability about who is here 
and who is not. That is intolerable.
    The Commission recommended that the Department of Labor 
enforce the labor laws in this Country where illegal aliens are 
being employed by domestic employers. Probably most 
importantly, Congressman Reyes, former Border Patrol Agent 
says, that the Border Patrol Team is absolutely a Chinese fire 
drill.
    We have got DEA down there doing one thing. You have got 
Customs agents doing another. You have got FBI doing another. 
You have got Border Patrol doing another and the Department of 
Labor people doing something else. It is, number one, not 
working.
    Number two, it is ineffective. Three, it is so simple to 
cure. Congressman Reyes proposes, and I think he is right, that 
we have a single Border Patrol Agency that does the work of all 
of these requirements that our laws require with the power to 
do all, not just a tiny fraction of the whole.
    You have completely ignored it. The White House has. They 
are the same people that infiltrated your regional offices to 
make fraudulent the Citizenship U.S.A. process in 1996.
    I see, again, the White House fingerprints all over this 
process. I am just going to tell you, it ain't going to work 
again. Do you want to respond?
    Ms. Meissner.  Let me try to be very clear about the 
seriousness with which the Attorney General and I have 
addressed the issue of the structure of the INS.
    We have looked at the Commission proposal. We have looked 
at our own Agency. We have looked at the other proposals that 
are there.
    We have looked at what we believe we share with you as 
goals, which are accountability, improved performance, 
effective return on investment for the dollars that you and we 
have advocated be put into this Agency.
    We have come up with a proposal that addresses those goals. 
We believe that it is a proposal that is workable, that can be 
done. It is consistent with the growth that we have 
experienced. It is consistent with establishing and building on 
professionalism to be accountable, to be moreeffective in our 
customer service, to have an enforcement program that effectively 
deters illegal immigration.
    If we had believed that the Commission's proposal was the 
best way and the most workable way to achieve those goals, we 
would have endorsed that. We believe the Commission provided a 
very, very important catalyst to a discussion that might not 
otherwise have taken place.
    Their goals are similar to the goals that we are working 
toward. We have put forward a plan that we believe will get us 
there sooner and more effectively, and that will leverage 
build-on, take the best advantage of the interaction that must 
exist between enforcement and service in order to have an 
immigration system that works effectively.
    The White House's involvement in this is the involvement of 
being the lead in convening an inter-Agency review that 
involved other departments than the Department of Justice and 
the Immigration Service.
    It was a companion piece and a parallel piece. What I would 
hope is that you would give us the opportunity in a setting 
where we can go through the organization charts, work through 
what the career path implications of this would be, lay out for 
you the more detailed planning that we are presently providing 
in order to try to be convincing.
    Mr. Rogers.  Madam Commissioner, this Agency does not even 
respond to your directives. You send out orders that are 
absolutely ignored. This Agency has its own encrusted 
bureaucracy that no one tells how to operate.
    These autocrats out there in this organization, you will 
have to admit, does not respond to your present-day directives. 
I do not know how you would expect them to respond to radically 
changing their stature. They just will not do it.
    The bottom line is, even if we approved your reorganization 
plan and funded it, it could not be implemented. They will not 
respond to it.
    Ms. Meissner.  First of all, where responsiveness and 
accountability is concerned, I certainly have experienced 
serious frustrations in achieving that. So, I am very well-
aware of the encrusted nature of some of the----
    Mr. Rogers.  If you cannot discipline a member of your 
organization that lies to Congress in the Miami Office, how can 
you ever think about reorganizing an Agency from top to bottom?
    Ms. Meissner.  Well, because what this plan does is break 
apart the current structure and the range of authority that the 
key field managers currently carry.
    What this proposal does is eliminate the district offices. 
It eliminates the current regions. It replaces them with two 
separate chains of command; one for enforcement and one for 
immigrant services.
    Mr. Rogers.  I understand that. You have said that before. 
I am just saying to you, how can you tell us that----
    Ms. Meissner.  By redistributing the authorities of the 
people that currently hold too broad of authority and too broad 
of a span of control. It narrows the spans of control, and 
focuses the authority, and creates accountability of chains of 
command that are manageable.
    Mr. Rogers.  I think you are trying to rearrange the 
furniture on the deck of the Titanic, to coin a phrase. Mr. 
Mollohan.
    Mr. Mollohan.  Mr. Chairman, congratulations are in order. 
I see Kentucky did very well, as usual. So, congratulations 
from this side of the aisle.
    Mr. Rogers.  Thank you. What did you think about our guard?
    Mr. Mollohan.  He was terrific. He was just great, Mr. 
Chairman. West Virginia came close. They did very well. It 
would have been great if we were in the finals.
    Mr. Rogers.  It would have been.
    Mr. Mollohan.  Yes.
    Commissioner, welcome to the hearing.
    Ms. Meissner.  Good morning.

                              ident system

    Mr. Mollohan.  I join the Chairman in welcoming you.
    We have, in the past, talked a lot about your 
identification system, IDENT. I would like to talk about it a 
little bit here at this hearing. INS spent about $65 million 
one way or another in developing it and funding it.
    I am not sure how the development breaks out in that. Why 
do you not start out by telling us. How much money have you 
spent on development of the IDENT System?
    Ms. Meissner.  My understanding is that the total cost of 
the IDENT System today has been $65 million.
    Mr. Mollohan.  On development?
    Ms. Meissner.  In total. That includes development.
    Mr. Mollohan.  I was asking you to break out development.
    Ms. Meissner.  I would have to get that number for the 
record.
    Mr. Mollohan.  Well, it is probably maybe upwards of half 
of that; maybe not quite that much. I am not sure.
    Does somebody have that number?
    [Negative response from the audience.]
    Ms. Meissner.  We will have to get it for you.
    Mr. Mollohan.  Okay.
    [The information follows:]

                        IDENT Development Costs

    From October 1994 (FY 1995) to the end of FY 1997, the 
Immigration and Naturalization Service spent $6.7 million on 
IDENT development.

    Mr. Mollohan.  When did you start on this IDENT System; how 
long ago?
    Ms. Meissner.  We actually began to deploy it----
    Mr. Mollohan.  No, no. When did you start developing it? 
When did you conceive it and start developing it?
    Ms. Meissner.  In about 1994. It actually was an outgrowth 
of a system that we used during the Cuban/Haitian influx to 
keep track of people and create identity cards in Guantanamo.
    Mr. Mollohan.  That is a similar timeframe that another 
organization in the Department of Justice, the FBI, was 
developing an IAFIS identification system, was it not?
    Ms. Meissner.  I believe that the IAFIS pre-dates it, but 
they certainly have been taking place during that time period.
    Mr. Mollohan.  In parallel; right?
    Ms. Meissner.  That is correct; in parallel and compatibly.
    Mr. Mollohan.  I am surprised you used that word, 
``compatible'' because that is an issue I would like to get to. 
The point I want to make here is indeed, they were developed in 
parallel; were they not?
    There was not a lot of communication and coordination 
taking advantage of the IAFIS System as IDENT was conceivedand 
developed; was there?
    Ms. Meissner.  The Justice Department reviews all of our 
automation planning and development just as it reviews the 
FBI's. One of the major objectives that we have to answer to is 
that systems be able to talk to each other.
    Mr. Mollohan.  I did not ask what one of the systems was. I 
am very pleased for you to elaborate on your answers, but the 
fact is that there was not a lot of coordination between the 
two systems; the standards for development, the standards for 
the identification techniques. There was not coordination 
between the IDENT and the IAFIS System; was there?
    Ms. Meissner.  Well, I believe that there was.
    Mr. Mollohan.  Describe that coordination to me. You have a 
completely different standard for establishing your data bases. 
If you were coordinated, then you consciously decided not to 
develop the same standards for your data base collection.
    Ms. Meissner.  Well, if what you are referring to is that 
they are different systems; that IAFIS is a system that 
captures all ten fingerprints and IDENT is a system that 
captures two fingerprints, that is correct.
    Mr. Mollohan.  What I am really referring to is the fact 
that you are developing a $65 million system and it is going to 
cost you more money than that because you are going to have to, 
at the end of the day, spend a lot of money integrating and 
coordinating the IAFIS and IDENT Systems. I would hope that you 
would.
    You have done that and the FBI has spent several hundred 
million dollars developing IAFIS. The fact is that the IDENT 
System, because you did specifically tailor it to the perceived 
needs of the INS, is unable to communicate with the IAFIS 
System. Is that not correct?
    Ms. Meissner.  It can communicate with the IAFIS System.
    Mr. Mollohan. It cannot communicate with the IAFIS System. 
You use a two-print system.
    Ms. Meissner.  Correct.
    Mr. Mollohan.  And you do not send that information to the 
FBI.
    Ms. Meissner.  Okay. That is correct.
    Mr. Mollohan.  So, how could you communicate with them?
    Ms. Meissner.  When the IAFIS is operative, which it is 
not, IAFIS is not a functioning system at the present time.
    Mr. Mollohan.  Well, neither is IDENT, I would point out. I 
will get to the IG's Report here in just a moment. But they are 
systems in the making. So, it would make sense to do them in 
parallel. You are developing conceptually a different system. 
It is a two fingerprint system, which you do not enter into the 
IAFIS data base.
    Ms. Meissner.  Okay. That is correct. It has a different 
purpose.
    Mr. Mollohan.  Therefore, you cannot communicate with that 
IAFIS data base, law enforcement across the Nation, or with any 
of the State data bases. You could not communicate with any of 
the State data bases. Is that not correct?
    Ms. Meissner.  IDENT is not a criminal history----
    Mr. Mollohan.  I know, ma'am. My question is, is that a yes 
or a no answer? Then I really would be pleased for you to 
elaborate on that answer. You cannot communicate with any of 
the State data bases. Is that a misstatement?
    Ms. Meissner.  Through IDENT, I believe that is correct.
    Mr. Mollohan.  I almost guarantee it is correct. I am not 
an expert, so I would be subject to correction there, but I 
think the answer is no you cannot. You cannot communicate.
    So, you are spending $65 million. You are processing a lot 
of illegal aliens that come across the border. You are very 
imperfectly, according to the recently released IG Report, 
collecting those two fingerprints into an IDENT System that is 
not useful for law enforcement.
    It seems strange to me for an agency to do that in the same 
department as the FBI, a sister agency. I am curious. Why would 
you do that? Why would you develop a system when this concern 
has been expressed, and expressed, and expressed.
    It is increasingly becoming a concern of the law 
enforcement agencies that do use the standard protocol of ten 
rolled fingerprints. You have a two-print system. Some of them 
are flat. Some of them are rolled. They are very imperfectly 
taken.
    Ms. Meissner.  Could I try?
    Mr. Mollohan.  I am inviting you to respond.
    Ms. Meissner.  I really am trying to be responsive.
    Mr. Mollohan.  I am inviting you to be responsive, please.
    Ms. Meissner.  The purpose of the IDENT System is a 
different purpose of the IAFIS System. The IAFIS System has 
been operational and we have been deploying it since, I 
believe, 1995.
    It is, as you say, two index fingers. Its original purpose 
has been at the border in order to determine recidivists coming 
across the border so that we could, first of all, know whether 
we were encountering criminals that we had previously 
encountered, and also for broad data gathering purposes and 
analysis on the border. But most specifically to be able to----
    Mr. Mollohan.  It is to identify past illegal aliens.
    Ms. Meissner.  And to be able to know quickly whether the 
people that we are booking are smugglers, first-time crossers, 
have committed crimes, have come from other criminal data 
bases, et cetera. Now, in addition----
    Mr. Mollohan. You cannot do that, Madam Commissioner, 
respectfully.
    Ms. Meissner.  The IDENT data base has a criminal 
population in it.
    Mr. Mollohan.  Oh, okay. So, you mean if it is in the IDENT 
data base.
    Ms. Meissner.  That is right.
    Mr. Mollohan.  Is that not a very narrow view of all of 
this? Why would we continue to give you millions and millions 
of dollars to develop a program in parallel without 
interception with the IAFIS System?
    Why would you not be thinking in those terms when we invite 
you to think in those terms? It is not only Members of 
Congress, but it is serious law enforcement people who are 
concerned about this.
    Ms. Meissner.  I think actually that it is fair to say that 
one of the reasons that this is now being thought about and 
discussed is because of the successes of the IDENT System. When 
the IDENT System was first put together, it was able to be 
mobilized rather quickly. The IAFIS System wasnot going to 
available on an automated basis until fiscal year 1999.
    Mr. Mollohan.  I would submit to you that the IAFIS System 
is as far or further along than the IDENT System. Have you read 
the IG Report?
    Ms. Meissner.  The IAFIS System is not available on a quick 
response basis as an automated system at the present time.
    Mr. Mollohan.  Indeed it is not, but it can very soon be. 
Your IDENT System that you are developing in parallel is not 
either. One-third of the aliens apprehended along the border 
where the IDENT System was installed were not being checked, 
according to the IG Report.
    The report found serious deficiencies in the IDENT data 
base used to store fingerprints and records of deported 
criminal aliens. Sixty-percent of the fingerprints and records 
of aliens in these categories were not entered into the data 
base.
    And if they were, they could not be picked up by law 
enforcement who use ten fingerprint systems. Virtually no 
controls were in place to ensure the quality of data. IDENT's 
potential for helping develop coherent prosecution strategies 
for dealing with aliens who repeatedly cross the border 
illegally has not been fully realized. Communications and 
infrastructure problems have delayed the installation of IDENT 
work stations.
    Those are IG concerns. I assume you will correct all of 
these problems, because this is a system in development. So, I 
can understand all of that, except when you go to the point of 
kind of implying here that we need to stand up IDENT quickly. 
So, we stood it up quickly.
    Indeed, you have not stood it up quickly. Maybe you have 
stood it up as quickly as one could in a complicated 
information system, but it is not standing up any more quickly 
than IAFIS, and certainly not with the quality of the 
technology.
    But all of that aside, my concern is more fundamental. At 
the end of the day, this system is structurally flawed. It is, 
as you say, developed for INS purposes. It is a very narrow 
view for you to come to the Committee and ask for millions, and 
millions of dollars when IDENT is not even going to be useful 
in overall criminal law enforcement.
    Ms. Meissner.  Let me try again. Because we have tried and 
are committed to systems that can interface and share 
information with other law enforcement systems, both Federal, 
State, and Local, that is critical.
    Moreover, the question that has been raised, that you have 
raised about whether or not we should be gathering ten prints 
instead of two prints through the IDENT process is one that we 
now are looking at, as you know, with the FBI, with the Justice 
Department leadership.
    The FBI just has come back, as a matter of fact, from 
visiting the border and understanding and seeing the IDENT 
System in use on the border. The feedback that we have from 
them is that they understand and endorse the merits of IDENT as 
it exist.
    They also want us to look at the potential for gathering 
ten prints for the purposes of broader law enforcement. We are 
now working to put a feasibility pilot effort into place.
    This probably will take place in Arizona, as a matter of 
fact, over the next month or two in order to determine indeed 
whether we can gather ten prints. We very much see ourselves 
working in concert with the FBI on this.
    It is also the case, as you have said, that we did move 
quickly with IDENT, as quickly as we could, at relatively low 
cost as compared to the IAFIS System, and with results much 
more quickly than would have been available to us by going with 
a ten-print system that would have relied on IAFIS which was 
not operational in an automated environment.
    Mr. Mollohan.  I think a careful review would show that the 
benefits were marginal in terms of bringing it on-line. I am 
glad you did not mention that we do not have enough people to 
take ten prints or enough time to take prints because with the 
amount of money that this Chairman has put into this bill and 
the amount of people that you are bringing on-line would argue 
against that.
    I will continue to be concerned about this. I would invite 
the Department of Justice to look at the amount of money they 
are wasting developing two systems that cannot even 
communicate, and the bad example they are setting for the rest 
of law enforcement.
    What a powerful system we could have if we really would 
move with an example of integration. Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Kolbe.
    Mr. Kolbe.  Thank you, Mr. Chairman.
    I join with the Chairman and Mr. Mollohan in congratulating 
Kentucky on its victory. Arizona did not want to hog it a 
second year in a row.
    Mr. Rogers.  You denied us a championship last year.
    Mr. Kolbe.  We wanted to share it with you this year.
    Based on the hearing so far, I would guess that 
Commissioner Meissner would rather be in San Antonio this 
morning celebrating with Arkansas.
    Commissioner, thank you very much. I share a lot of the 
concerns that have been expressed by the Members that have gone 
before me about the operations and functioning of INS, but my 
questions are going to be a little narrower and a little bit 
more specific.

               nogales, arizona border patrol checkpoint

    I have only one, though that I want to get on the record as 
a parochial one dealing with an issue that we have had in my 
district. Last year's supplemental appropriation bill, 
prohibited INS from using funds to build a permanent check 
point in the interstate leading from Nogales.
    It directed you instead to implement a roving check point 
system which I have experienced several times as I have driven 
around the district. So, I know they are there. Can you tell me 
specifically the status of that permanent check point?
    I am particularly interested in knowing whether you have 
any plans to try to resurrect the idea of a permanent check 
point?
    Ms. Meissner.  The language was very clear. That is what we 
are working with. We are doing, as you say, roving check points 
on, I believe, five or six different major arteries. I think 
the one that you are principally concerned with is the road 
leading directly out of Nogales to Tucson. I think that is I-
19.
    So, those check points are relocated every five to six 
weeks. We operate them intermittently, but as much as we 
possibly can. We are actually doing a study right now of those 
check points, vis-a-vis, the traffic and changes that we see at 
the border.
    We believe there is a direct relationship between pressure 
on the border and the check points. We will continue to operate 
them as temporary facilities. We are not sending you any plans 
on a permanent one.
    Mr. Kolbe.  Okay. That is what I wanted to hear because 
that language would have been in the supplemental 
appropriation. It was not permanent law. I wanted to be clear 
that you are not so that I will not need to have to deal with 
this again.
    Ms. Meissner.  I am unaware of any plan to do a permanent 
check point at the present time.
    Mr. Kolbe.  I appreciate you telling me.
    Ms. Meissner.  Is there something I can give you as a 
follow-up to that?
    Mr. Kolbe.  You just said, I am not aware of any plans.
    Ms. Meissner.  Let me try to verify that there are no 
plans. As I say, we have been quite engaged with those issues 
along the border and knowing your concerns about it, knowing 
the local community's concerns.
    I have been there and listened to the community on this. I 
think I would be aware if there was a permanent check point 
plan moving forward.
    [The information follows:]

                      Roving Checkpoint in Arizona

    The Immigration and Naturalization Service has no plan to 
build a permanent Border Patrol traffic checkpoint in the 
Tucson Border Patrol Sector.

                 douglas arizona border patrol station

    Mr. Kolbe.  Just before the hearing, you and I had a little 
discussion about the construction at Douglas. I had earlier 
talked to you about the concern that I had, having visited 
there recently. That they are just being overwhelmed, that 
facility which was built only three or four years ago.
    It was just utterly overwhelmed by the numbers of people 
that are there. Would you just share with us for the record 
what the plans for that facility are?
    Ms. Meissner.  Yes, certainly. I actually visited that 
station myself a little while ago. It is a very nice station. 
It is totally outgrown now by the staffing that we have there. 
You are correct.
    We do have a new Border Patrol station for Douglas in our 
planning. It is funded this year and next year. It is a three-
year project. Construction will be in fiscal year 2000. This 
year, we are doing the environment study and the site 
preparation.
    Next year is the design. It will be in a contiguous area to 
the current station just to the west of where the current 
station exists.
    It will be able to accommodate 300 agents and support 
staff. Right now we have just under 200; about 180, 190 agents. 
This should give us the size station that we need.

                       new border crossing cards

    Mr. Kolbe.  Thank you. Let me turn to a larger issue, but 
one that also has tremendous impact in the border communities. 
That is of the concern that I just cannot tell you how deep 
this concern is held about the new border crossing cards and 
the transition of moving the adjudication of these cards from 
INS to the State Department.
    We will just call these for a simple term laser visa. Now, 
the law says that you are to begin tomorrow. That the State 
Department is to begin the adjudication of these. You will 
continue to actually prepare the cards.
    As of October 1st, the transition is supposed to be 
complete, including the replacement of all of the existing 
cards. Everybody from the State Department and INS has told us 
that that is not realistic.
    Would you tell us:
    (a) where we are with regard to the program as it begins 
tomorrow for the issuance of new cards,
    (b) what the plan is for the replacement of the cards, and
    (c) if you cannot meet that time table, what INS and the 
State Department plans to do with Congress to change that.
    Ms. Meissner.  Okay. The new border crossing card, laser 
visa, excuse me, that is to be issued beginning tomorrow with a 
biometric is starting to be issued out of applications filed in 
Juarez. That is the first site.
    The cards themselves will be delayed by a few weeks, but 
only by a few weeks. That should only be a problem for people 
in Juarez. Everybody else along the border can continue to use 
their current card or the temporary B1, B2 visa that the State 
Department is issuing.
    The reason for the delay of a few weeks has to do with the 
State Department's passport mast head, that laser mast head, 
that has to be put on the border crossing card that we issue.
    Mr. Kolbe.  What happened. This is a new thing that I had 
not heard about this delay.
    Ms. Meissner.  I actually mentioned this to you.
    Mr. Kolbe.  I am sorry. I forgot it or I missed it. What is 
the delay there?
    Ms. Meissner.  It is a set of software changes that are 
being made in the actual production of the card. It will be 
just a few weeks and we will be issuing the laser visa. Now, 
that puts us into production for the laser visa, as I say, very 
shortly.
    The replacement, everybody agrees, as you say, that the 
October 1st replacing of existing cards----
    Mr. Kolbe.  What is the estimate of how many we need to 
replace?
    Ms. Meissner.  We believe that there are about 5.5 million. 
That is the State Department and our best estimate of the 
outstanding border crossing cards.
    Mr. Kolbe.  How many new ones do you believe you will be 
issuing each year?
    Ms. Meissner.  About 800,000 each year.
    Mr. Kolbe.  About 800,000 new ones?
    Ms. Meissner.  Yes, 800,000 new ones.
    Mr. Kolbe.  Those are not replacement. Those are new ones?
    Ms. Meissner.  Those are not replacements.
    Mr. Kolbe.  Those are new ones. You will have no trouble 
meeting the 800,000.
    Ms. Meissner.  We can meet the 800,000. That is correct.
    Mr. Kolbe.  Now, the replacement of the 5.5 million?
    Ms. Meissner.  The replacement will be about 5.5 million. 
Nobody knows the total number. That is our best estimate.
    Mr. Kolbe.  The time table?
    Ms. Meissner.  We want to show the Congress that we can 
issue the new border crossing cards. We will be able to show 
that to you. As I say, that will begin in a few weeks. We will 
be able to meet the 800,000 per year.
    As to the replacement 5.5 million, I believe that everybody 
agrees that, that is unrealistic. We will ask the Congress to 
change that date of October 1st. We will formally make that 
request when we have been able to demonstrate to you that we 
are issuing what we----
    Mr. Kolbe.  Does the Administration have a time table for 
asking for that?
    Ms. Meissner.  I have already spoken with various Members 
of Congress. We have not sent a formal proposal forward. We 
will do so very quickly.
    That 5.5 million replacement, we will recommend to have 
that take place on a rolling basis so that now, with a 10-year 
expiration date on the border crossing card, on the laser visa, 
we will be constantly both issuing new cards and replacing 
existing cards as the expiration dates come due.
    That is a much better system because it does not, 10 years 
from now, create another huge bubble where everybody has to, 
you know, run to ramparts. So, we can, I believe, manage this 
process if we go on a rolling schedule for replacement cards.
    Mr. Kolbe. You expect you will bring that proposal to 
Congress in the next few weeks to make these changes? It would 
require legislation, is that not right?
    Ms. Meissner.  It would require legislation. That is 
correct. I would offer that, that possibly could be handled in 
an appropriation.
    Mr. Kolbe.  So, in sufficient time obviously before October 
1st.
    Ms. Meissner.  The October 1st time.

                       departure control systems

    Mr. Kolbe.  Let me turn to Section 110, the entry/exit 
system. The Chairman talked about the frustration we have about 
not being able to know people who come in and whether they over 
stay their visas.
    That certainly was the intent of Section 110. It clearly 
appears to be flawed because, if we develop a system that 
tracks documents in and out of the Country, it does not 
necessarily mean that the person is the same individual being 
tracked in and out of the Country.
    This is particularly a problem when you get to border 
crossing where people cross multiple times a day and use their 
visas very, very frequently when you are talking about land 
crossing.
    You have a plan now to use a simulated feasibility of the 
mandated entry/exit system. How will that be done? When will 
that take place? Where will it be done?
    Ms. Meissner.  An entry/exit system is very important. It 
is an issue that the Chairman has been interested in for a long 
time and something that this Country needs. Could I just say 
something about airports, vis-a-vis land border ports because 
they are very different environments and very different 
challenges.
    Mr. Kolbe.  Yes.
    Ms. Meissner.  Where airport entry/exit control is 
concerned, we have, we believe, shown and are comfortable with 
a very good automated entry/exit method that is presently in 
use.
    We began it in Pittsburgh working with U.S. Airways. It 
involves an automated entry/exit form that the airlines now 
give you when you get your boarding pass.
    That is being expanded to ten airports this fiscal year. We 
are beginning now to work not only with U.S. Airways, but also 
with Continental and with Northwest. It works off of a 
technology booking that the airlines presently have.
    Frankly our limitations at this point are airline 
limitations in terms of their automation, no longer the 
Government's, the INS' automation. So, the entry/exit system 
for airports is underway.
    That can be mobilized quite effectively. We have with that 
the design and operation of a new data system overall that 
captures the records which we will be able to use. It will 
answer the question of overstays.
    This is extremely important because a great part of the 
resident illegal population is indeed visa overstays; people 
who have come through airports. So, this is a major improvement 
and step forward in being able to address that population.
    Mr. Kolbe.  That is not a widely-known fact. Is it not true 
that about 60-percent of those who are in the Country illegally 
are visa over stays?
    Ms. Meissner.  We believe 40- to 50-percent.
    Mr. Kolbe.  Forty- to 50-percent.
    Ms. Meissner.  So, it is very substantial.
    Mr. Kolbe.  Go ahead.
    Ms. Meissner.  Many of those people do arrive with legal 
documents which we would have no way or very little way of 
curtailing. So, this entry/exit control is responsive to that 
and deals with that.
    Now, on the land borders, as you know, it is an entirely 
different environment; a great number of different 
infrastructure situations and needs. The real question of how 
do you create entry/exit regulation controls, mechanisms with 
the incredible volumes that you are dealing with?
    What we are going to do in order to determine what kind of 
proposal to make is, as you say, a simulation. We have data for 
years that we have used in order to determine what the proper 
staffing levels of those land border ports ought to be.
    So, the data that we have collected over the years that 
deals with volumes of traffic is now going to be put into a 
simulation environment and run with a variety of technologies 
in order to determine how we actually could do entry/exit 
control without interrupting traffic and commerce. We are going 
to be doing that. In fact, we are working out the time lines 
right now. We will be actually sending a report on that to 
Congressman Smith tomorrow. That report is due.
    I do not know right now what the actual time frame is.It is 
soon. I will share that with you as soon as we have it.
    [The information follows:]

                           Entry/Exit System

    Attached is a chart reflecting the timeline for the 
collection of data, and creation of an assimilation environment 
to run with a variety of technolgies with regard to developing 
an entry/exit system for land border ports. The results of this 
effort will help us determine how we can best conduct entry/
exit at land border ports without interrupting traffic and 
commerce.


[Pages 640 - 641--The official Committee record contains additional material here.]



                     year 2000 software conversion

    Mr. Kolbe.  Mr. Chairman, the last question is about the 
year 2000 computer problem. It is very important for your 
agency with visas and immigration documents that have dates of 
birth and so forth on them and visas that are going to extend 
past the year 2000.
    Where are you on that? Are you fully compliant? How much 
attention are you giving to this issue?
    Ms. Meissner.  We are giving a lot of attention to this 
issue.
    Mr. Kolbe.  How about you, personally?
    Ms. Meissner.  I have been personally briefed on this 
issue; not only I, but my executive staff. We will be briefed 
on a regular basis.
    Our planning is on course and current. We expect that all 
of the conversion that we need to make for the 2000 deadline 
will actually be done by December of 1998; in other words, the 
end of this year so that it will be running for a year before 
the clock turns.
    Mr. Kolbe.  What grade has OMB given you?
    Ms. Meissner.  I do not know what grade OMB has given us. I 
think it has given the Department a grade of C-minus.
    Mr. Kolbe.  That is not good.

                         visa overstay problem

    Mr. Rogers.  Do I understand, Madam Commissioner, that you 
say--what percent of the resident illegal aliens are the result 
of overstaying visas?
    Ms. Meissner.  Our best estimates are 40- to 50- percent.
    Mr. Rogers.  So, somewhere around 2 million to 2.5 million 
or so.
    Ms. Meissner.  Correct.
    Mr. Rogers.  Of the total 5 million, roughly, illegal 
immigrants are here because we have no way to know when he has 
overstayed one's visa or where one is so we can remove him from 
the country because he is illegally here.
    Ms. Meissner.  That is the importance of the entry/exit and 
of the automated system that backs it up.
    Mr. Rogers.  That is something that I have been working on 
for 15 years on this Subcommittee is getting the State 
Department and the INS to mesh their data so that when State 
grants a visa overseas and passes that person off to you when 
they come to this country, that one or both knows when that 
person's time is up, where he is going to be or have him report 
to a certain place so that we can then let him go back home 
because his visa no longer is effective.
    Ms. Meissner.  That is now happening because of your work.
    Mr. Rogers.  I remember getting together Secretary of State 
Baker and Secretary Thornburg, I guess, the Attorney General. I 
mean this is ancient times we are talking about here; in the 
same room, the Secretary of State and the Attorney General, on 
this very problem, 12, 13, or whatever years ago.
    I thought we had it right on the verge of solution. It fell 
apart. INS says it is the State Department's fault. The State 
Department says, oh, that is INS' fault.
    Ms. Meissner.  You know, Mr. Chairman----
    Mr. Rogers.  I am throwing up my hands and saying, I am 
going to have one agency that does this.
    Ms. Meissner.  I wish you would take just an hour to come 
to our building. Actually, we could bring the equipment here. 
It is portable. I had this demonstrated to me last week, the 
entry/exit automated system that is now in use and that we are 
expanding to the ten airports this year.
    It is fabulous. We could bring the equipment up here. We 
could put it in your office. We could show it to the Committee. 
It is happening. I would like to have you see it because you 
really have been the father of this.
    Mr. Rogers.  We have seen no reduction in the number of 
illegal aliens since 1986. We have seen nothing lately.
    Ms. Meissner.  Well, the system is now operational that 
gives us the tools to respond to that.
    Mr. Rogers.  Well, we will talk. Mr. Skaggs.
    Mr. Skaggs.  Thank you, Mr. Chairman.
    Good morning. I am sorry I had another Committee meeting 
that kept me from hearing your opening statement. I am sure 
these hearings are the high point of your year.

                   ins accomplishments during fy 1997

    I am interested in a couple of particular things, but 
wanted first to invite you to speak somewhat informally and 
expansively, if you wish, about what you have gotten done in 
the last year.
    Ms. Meissner.  We have done a great deal this last year. We 
have hired more than 5,000 people in order to keep up with our 
attrition and our new growth in the budget.
    We have reached a 17-year low in apprehensions in San 
Diego, the most heavily trafficked corridor across the entire 
southwest border for decades.
    We have launched Operation Rio Grande, which is the major 
Texas/New Mexico Border Patrol deterrence effort that deals 
with the final major part of our comprehensive southwest border 
strategy.
    We have met the deadlines, by and large, in all of the 
requirements of the new immigration law that has called for 
training of more than half of our work force, writing scores of 
new regulations, and creating new forms.
    We have launched a variety of new automation initiatives, 
such as the one that I was just discussing with the Chairman. 
We have continued to push forward on verification for employers 
for their ability to hire people legally in the work force.
    We have removed record numbers of criminal and 
deportablealiens from the United States.
    We have put the fixes into place for a naturalization 
system that has integrity, that is customer oriented, and that 
the public can have confidence in. We have had that certified 
by an audit, as of last December, that the procedures are sound 
and that they are working.
    We have put into place, as of today, 120 new or co-located 
fingerprint centers in the course of less than six months so 
that people can be properly finger printed for naturalization.
    We have done a lot of work.

                              H-1B PROGRAM

    Mr. Skaggs.  Thank you. Let me ask you a couple of things 
about, is it the H1B Program?
    Ms. Meissner.  Yes.
    Mr. Skaggs.  I do not know if I have the correct 
designation. There was a piece I read about last week or the 
week before calling into question what we believe to be the 
accuracy of data justifying allowances under that visa program.
    If that issue hasn't already been discussed, I am just 
interested in your take on that, and what level of confidence 
we have in the underlying information that then justifies that 
visa program.
    Ms. Meissner.  I think your question arises from some 
difficulties that did exist last year with the accuracy of the 
data; whether we were double counting, whether the people were 
being counted or the visa was being counted. Some visas have 
more than one person on them.
    I believe that has been now corrected and that we are 
receiving the data now on a real time basis and we will be 
accurate.
    Mr. Skaggs.  I am not sure we are talking about the same 
thing. I was referring to a report that questioned whether we 
have the demand or the unmet need for some of these critical 
skill areas that then drives the granting of visas, or whether 
that is being exaggerated.
    It really comes out of all that we read about the tight 
employment situation in the country, particularly in 
information technology fields.
    Ms. Meissner.  Yes, that is a different question. I was 
talking about the actual issuance of the H1B visas. That is a 
very broad question about tight labor markets, about demand in 
potentially shortage industries; whether it is widespread, 
whether it is only in certain parts of the Country.
    Fundamentally, we rely on the Labor Department for that 
data. We rely on the judgments that the Labor Department makes.
    Mr. Skaggs.  So, you do not evaluate that data yourself?
    Ms. Meissner.  We do not evaluate it independently. We rely 
on it. We use it. We obviously are a part of formulating the 
Administration's position in response to those issues, but we 
are not the lead.

             status of regulations affecting foreign nurses

    Mr. Skaggs.  On one parochial item, we have been in 
correspondence with INS on behalf of a constituent who is 
awaiting the issuance of regulations having to do in 
particular, I think, with bringing in or certifying foreign 
nurses for immigration purposes.
    I am advised that some of this has to do with pending 
regulations that are about to be published. I do not want to 
take up my time here with an answer on that, but if you would 
please take a look at it and see if you can expedite things.
    Ms. Meissner.  I will do that.
    [The information follows:]

                            Visas for Nurses

    Section 343 of the Illegal Immigration Reform and Immigrant 
Responsibility Act (IIRIRA) of 1996 establishes a new ground of 
inadmissibility for aliens seeking admission to the United 
States to engage in a health care occupation (other than 
physicians) who are not in possession of a certificate issued 
by the Commission on Graduates of Foreign Nursing Schools 
(CGFNS), or other equivalent entity, verifying the alien's 
education, training, license and experience are comparable with 
that required of an American health care worker. The 
certificate must also verify that the alien has the appropriate 
level of competence in written and oral English. Section 343 of 
IIRIRA became effective upon IIRIRA's date of enactment, 
September 30, 1996.
    The statute requires consultation between the Attorney 
General and the Secretary of Health and Human Services (HHS) 
and between HHS and the Secretary of Education.
    After consultation with HHS and the other affected 
administrative agencies, the INS drafted an implementing 
regulation. The regulation is in the Administration's review 
process and, upon clearance, will be published in the Federal 
Register.
    During the development phase of the implementing 
regulation, the INS and the Secretary of State are exercising 
authority under the immigration laws to waive this ground of 
inadmissibility for aliens seeking temporary entry to the 
United States to engage in a health care occupation. No such 
waiver authority exists for aliens seeking permanent 
immigration to engage in a health care occupation.

                     alien terrorist removal court

    Mr. Skaggs.  The implementation of the 1996 act you 
mention, at least the first case that I am aware of that has 
gotten press attention, is the secret proceedings involving the 
deportation of the six, I think it is six, Iraqis that are out 
on the West Coast, and Mr. Woolsey's involvement there.
    Are you familiar with that case at all? Is that even secret 
from you?
    Ms. Meissner.  It is actually secret information. If there 
is information that we can provide, I will be happy to gather 
it and get it to you.
    Mr. Skaggs.  I do not want to get into what is classified, 
but I do want to ask, and I do not know, how many other cases 
have arisen so far under the provisions of that law for secret 
deportation proceedings? Is this the only one that you are 
aware of?
    Ms. Meissner.  There have been some other cases, but 
obviously they are all quite unique. This is a sparingly used 
provision.
    Mr. Skaggs.  Many of us were concerned that while the 
motivation for that provision of the law was a good one, that 
we were nonetheless inviting a serious change in due process 
standards in this area by authorizing these kinds of 
proceedings. I am wondering if we have enough experience yet to 
provide critical information one way or the other abouthow this 
is working and whether people's rights are being jeopardized?
    Ms. Meissner. I think it is too early. We are still very 
much in the beginning stages of this. We have been extremely 
careful and cautious with these provisions for the obvious 
reasons.
    I think we do need to have some more experience with it to 
really have a view of whether there are serious rights 
concerns. I will take your comment as an invitation to provide 
those views when we feel sound in doing so.
    Mr. Skaggs. If you will also take this invitation to 
provide for the record just a listing of those cases in which 
those provisions have been used so far.
    Ms. Meissner. We will do that.
    [The information follows:]

              Removal of Iraqis Using ``Secret'' Evidence

    In the fall of 1996, approximately 6,500 Iraqi nationals, 
including former U.S. Government employees, voluntary agency 
workers, and oppositionists who were members of either the 
Iraqi National Congress or the Iraqi National Accord, two 
opposition groups engaged in efforts to undermine the regime of 
Saddam Hussein, were evacuated from Northern Iraq, through 
Turkey, to Guam. The purpose of the emergency evacuation was to 
remove them from harm's way and provide them an opportunity to 
seek refugee protection. They were afforded that opportunity on 
Guam, where nearly all of the evacuees were granted asylum in 
the United States.
    On Guam, all of the evacuees were interviewed by a team of 
asylum officers from the Immigration and Naturalization Service 
(INS). Additionally, agents of the Federal Bureau of 
Investigation (FBI) conducted security-screening interviews of 
all of the evacuees as potential risks to national security, 
and it recommended that these persons not be admitted to the 
United States.
    As a result of these concerns, the government decided to 
bring these 25 evacuees to the continental United States and 
place them in formal exclusion proceedings, where they would 
have the opportunity to enlist the assistance of counsel and 
present their applications for asylum to an immigration judge. 
In 13 of those cases, the immigration court granted asylum, and 
those applicants have been released from detention. Of the 
remaining 12 applicants, 10 have been denied by immigration 
judges (7 on national security grounds and 3 on credibility 
grounds), and all of them have appealed those decisions or have 
time remaining to file an appeal. The remaining 2 cases are 
still pending before the immigration judges. In total, the 
government presented classified evidence to oppose applications 
for relief from removal in 9 of these cases.
    The United States Supreme Court has long held that the INS 
may use classified information to oppose an alien's 
discretionary applications for relief from deportation. See Jay 
v. Boyd, 351 U.S. 345 (1956); see also United States ex rel. 
Dolenz v. Shaughnessy, 206 F.2d 392, 395 (2d Cir. 1953); Ali v. 
Reno, 829 F.Supp. 1415 (S.D.N.Y. 1993), aff'd 22 F.3d 442 (2d 
Cir. 1994). the regulation relevant to the government's use of 
classified information in the Iraqi cases is 8 CFR 
240.33(c)(4). The proceedings against the Iraqis were not 
brought under the provision of the Antiterrorism and Effective 
Death Penalty Act, which created the Alien Terrorist Removal 
Court (ATRC). The government has instituted no removal cases in 
the ATRC thus far.

                    INTERIOR ENFORCEMENT INITIATIVE

    Mr. Skaggs. Finally, Commissioner, you are requesting some 
significant additional resources for interior enforcement, $80 
million, I think, and that is on top of increases over the last 
few years.
    Can you give me a sense of both what is being accomplished 
and what the significant gaps still are in your view on the 
non-border part of your enforcement efforts?
    Ms. Meissner. What we are looking to do must involve both 
the border and serious disincentives in the interior. The 
critical effort in the interior has to be the proper meshing of 
enforcement that removes people who are improperly here, 
sanctions employers, and holds them accountable for who they 
hire, deals with smuggling and abusive practices, as well as 
fraudulent documents.
    So, that is what we are looking to do. We believe we are 
now being sufficiently effective on the border that we need to 
concentrate increasingly on this kind of coordination and 
targeting in the interior of a country.
    We want to be able to deal far more effectively with the 
smuggling routes. That is an issue that I think you are 
familiar with in Colorado.
    It is an issue that I have spoken about with Congressman 
Latham that he deals with in Iowa. What is happening is that 
the smugglers are shifting their operations and working in 
different ways in order to try to avoid us and get past the 
border. It is so much more difficult to get past the border.
    So, we see larger loads. We see much more recklessness on 
the part of the smugglers. We are beginning to get enough good 
information to see the linkages in the organizations between 
the border and destinations, particularly employment 
destinations.
    We made our first big case in Georgia, actually, where we 
were able to link an employer with the smuggler, with the 
source operation in Mexico. That all came about because of an 
arrest that we made at the border of a smuggler and we were 
able to track back the occupants of the vehicle and so on.
    Sometimes when vehicles in the Mid-west are let go, it is 
because we are trying to get to the organization itself, rather 
than just that smuggling vehicle and go to the source of these 
organizations.
    We do need more resources in order to be able to do that. 
We need it in order to be able to respond more effectively to 
State and local law enforcement when they intercept.
    We need it in order to be able to buttress our efforts to 
make the big cases that represent the organized traffic here, 
both in terms of employers and in terms of bad documents. We 
are formulating the strategy to do that. It is our commitment 
to put that kind of a systemic effortinto place linking the 
border with the interior.
    Mr. Skaggs.  I think that is real important. I am glad to 
know where it stands on your priority list. Let me just close 
by saying my case work staff wanted to extend their kudos to 
the Congressional Relations people in the Lincoln Processing 
Center.
    Ms. Meissner.  Thank you. I will pass that on to them. They 
will be pleased to hear that.
    Mr. Rogers.  Mr. Latham.
    Mr. Latham.  Thank you very much, Mr. Chairman.
    Welcome. You are fortunate the Chairman is in such a good 
mood today with the big victory last night for Kentucky.
    Ms. Meissner.  I had an inside interest in who would win.

                           CITIZENSHIP U.S.A.

    Mr. Latham.  Yes. I am sure you did. Just looking back, 
last year I had brought up some questions, you know, with the 
Citizenship U.S.A. Project back in 1996. Apparently, there were 
180,000 people naturalization without any background check.
    The testimony was that there were 71,000 that had an FBI 
record by your own estimates. Normally, there are about 18 
percent of people who have felony records who would not be 
given citizenship of the 180,000. So, that would be over 30,000 
felons that we gave citizenship to.
    You had talked about the efforts that were ongoing as far 
as finding these people and revoking their citizenship. I would 
just like to hear where you are.
    Ms. Meissner.  The revocation program is in operation. We 
have actually centralized it so that all of our attorneys that 
are working on revocation are here in Washington. We are 
tracking it very closely.
    We have about 6,000, a little more than 6,000, revocations 
that we are looking at, at the present time. We have issued 
notices to revoke close to one-third of those people.
    We are working very systematically against a two-year 
deadline because we need to serve notices within two years of 
when the naturalization was granted in order to do it through 
an administrative process.
    We need to review all of these cases. The legal review of 
these cases has to be very thorough because the cases that are 
subject to revocation may not all lead to revocation, depending 
on whether people can provide evidence that indeed their case 
had been dismissed or there was some other reason that we were 
not aware.
    Mr. Rogers.  Just answer the question please. We are 
running short of time. The question is simple. Answer the 
question simply.
    Ms. Meissner.  Six thousand-plus revocations are being 
looked at and about one-third of them have had notices issued.
    Mr. Latham.  So, out of the 71,000, you have been able to 
find 6,000. The Attorney General testified, I think, that there 
were 6,000 that had their citizenship revoked out of the 
30,000-some that were convicted felons.
    Mr. Rogers.  How many have been deported?
    Ms. Meissner.  Very few have been deported to-date.
    Mr. Rogers.  The answer is zero.
    Ms. Meissner.  I believe that there are a few.
    Mr. Rogers.  There are none. Can anybody dispute that?
    Ms. Meissner.  Well, let me check.
    [The information follows:]

   Deportation of Those Improperly Naturalized During Citizenship USA

    As of April 1, 1998, a total of 2,535 cases have been 
finally reviewed by the Office of General Counsel for possible 
revocation of naturalization. Eight-hundred forty-one of these 
have been determined to be not legally sufficient to initiate 
revocation; 1,694 of these have been determined to be legally 
sufficient to initiate revocation. Of the 1,694 cases, 209 have 
been flagged for possible removal based on the existence of a 
possible removable offense. In the remaining cases, although 
these individuals are amenable to revocation of naturalization, 
they do not appear to be subject to removal.
    Because an administrative revocation case can be initiated 
only within 2 years of the date of naturalization, the Service 
is currently focusing on the timely issuance of notices of 
intent to revoke naturalization. As of April 1, we have issued 
final decisions revoking naturalization in 13 cases, and a 
notice to appear has been issued in one of these cases. Only 
when the majority of these cases have been issued, no later 
than October of this year, will we be able to focus our 
attention on this critical follow-up action, including 
initiating removal proceedings.

    Mr. Rogers.  My information is not a single person, maybe 
one, was deported because he volunteered to go. But no one has 
been deported who was granted illegally citizenship two years 
ago.

                       TRI-STATE DRUG TASK FORCE

    Mr. Latham.  Still, I think if the general public were 
aware of what had happened, there would be tremendous outrage. 
Going back, also, and we have visited I know. I appreciate very 
much you coming up to my office and visiting with me on the 
Tri-State Drug Task Force.
    Can you just tell me, for the record, when we will have the 
second agent in place in Sioux City so we can have one 
designated as the law says to the Tri-State Drug Task Force and 
another one doing general business?
    Ms. Meissner.  We are advertising for that position. We 
actually would think that, that person can be in place sometime 
this summer. I will verify that for you. At the present time, 
we are in the recruiting process for that position.
    Mr. Latham.  Okay.
    [The information follows:]

                    Second Agent in Sioux City, Iowa

    A selection has been made for the second agent position in 
Sioux City, IA. The individual should be on board in two to 
three months.

             DEPUTIZATION OF LOCAL LAW ENFORCEMENT OFFICERS

    Mr. Latham.  As far as the amendment I had in 1996 
regarding the INS working with local law enforcement to help 
them, train them, and to have an agreement so that they could 
detain illegal aliens and transport them, I know you have the 
situation going on with Salt Lake City.
    Are you going to have to have a Memorandum of Understanding 
with each of the communities or each law enforcement entity? If 
communities comply with your standards, will there be a broad 
Memorandum of Understanding? Or are they each going to have to 
go through this process?
    Ms. Meissner.  The short answer to that is no. The more 
full answer is that the first Memorandum of Understanding with 
Salt Lake City obviously will serve as a template for one 
approach to this.
    We expect actually that we will probably have several 
different approaches. So, there may be a couple of different 
kinds of Memorandums of Understanding, depending on what 
services and what delegations would actually take place.
    We certainly do not envision a de novo negotiation of a 
different kind of an MOU with every entity around the Country; 
absolutely not. That is one of the reasons we are piloting it 
and trying to work out what the typical circumstances would be.
    Mr. Latham.  You know that as we have discussed--I did it 
because of the murder of a young man. His grandmother is 
continually calling me. I do not know if you got in touch with 
her.
    Ms. Meissner.  Actually, I have written to her. I signed 
that letter yesterday. I hope that she is reassured by that.
    Mr. Latham.  What about the video conferencing 
interrogation services for law enforcement? When are you going 
to be able to offer that all over?
    Ms. Meissner.  That is one of the ways that we see 
ourselves doing delegations of authority. We are working out 
right now what the cost for that program would be in other 
places and what kind of delegation of authority it would 
require. I think we will be in a position to be talking with 
locals about that.
    Mr. Latham.  Do you have a date for that?
    Ms. Meissner.  I hope within the coming six months.

                 DRUG TRAFFICKING IN THE UPPER MIDWEST

    Mr. Latham.  As you are well-aware with the tremendous 
amount of drug trafficking going on in the upper Midwest and 
the direct link between our border to the south with my region 
up there, this is a huge issue.
    Just this Sunday in church, there was a drug enforcement 
agent that goes to the same church. This is his biggest problem 
right now. It really is.
    Ms. Meissner.  That is exactly right. The methamphetamine 
in the upper Midwest is a serious, serious issue.
    Mr. Latham.  But being able to have some authority, to have 
the video conferencing interrogation would be a great help 
right now. So, thank you, Mr. Chairman.
    Mr. Rogers.  Thank you, Mr. Latham.

                       ENTRY/EXIT CONTROL SYSTEM

    Now, back to the exit/entry control system that you have 
mentioned. That is something we have been working on for years.
    In 1998, we provide $12.9 million to expand the departure 
management initiatives; $10.4 million more than was requested. 
Now, you are requesting another $19.5 million for 1999.
    Section 110 of the 1996 Immigration Bill requires that on 
October 1st of this year, an automated entry and exit control 
system would be developed that will:
    (1) collect a record of departure for every alien departing 
the United States and match the records of departure with that 
person's arrival record;
    (2) enable the Attorney General to identify, through on-
line searching procedures, lawfully admitted non-immigrants who 
over stay their visas; and
    (3) integrate that information into appropriate data bases 
of INS and the State Department at ports of entry and Consular 
Offices for purposes of approving future visas and entry into 
the U.S.
    Now, I think you have said that next year you are going to 
have that in place at ten of the U.S. airports.
    Ms. Meissner.  This year; this fiscal year.
    Mr. Rogers.  When?
    Ms. Meissner.  By the end of the fiscal year.
    Mr. Rogers.  In ten airports?
    Ms. Meissner.  Yes.
    Mr. Rogers.  Any of the other ports? Just the ten airports?
    Ms. Meissner.  That is correct. And also the data system 
that is required to support that from the standpoint of being 
the repository of the entry/exit information.
    Mr. Rogers.  Now, give us some idea of what kind of 
significance that is. There are a lot of airports. There are 
hundreds of ports of entry. How important is it that you be at 
these airports? What percent of the total load will you carry 
there?
    Ms. Meissner.  I will have to provide that to you 
separately. I do not have that with me.
    Mr. Rogers.  Is it significant?
    Ms. Meissner.  These are significant airports. I mean they 
are Detroit, Philadelphia, Pittsburgh. They are flights that 
are coming with three airlines, U.S. Airways, Northwest, and 
Continental. Those are the airlines that are cooperating with 
us at the present time. We can provide that to you. They are 
substantial travel loads.
    Mr. Rogers.  Do you have any idea what percentage of the 
total visitors would be covered by those ten?
    Ms. Meissner.  I would have to get that to you. J.F.K., for 
instance, is included; these airlines at J.F.K. So, that is one 
of the major airports.
    [The information follows:]

 Percent of Traffic Coming Into U.S. Through 10 Airports Scheduled to 
                Operate the Entry/Exit System This Year

    In FY 1997, 36 percent of the total passenger traffic 
through all air ports-of-entry came through the ports-of-entry 
scheduled for deployment of the Automated I-94 System in FY 
1998.

      Number of Airports With Entry/Exit System Currently in Place

    Philadelphia received the Automated I-94 System in FY 1997. 
The airports scheduled to be outfitted in FY 1998 are:
    Pittsburgh, Detroit, JFK Terminal-1, Shannon Preinspection, 
Minneapolis St. Paul, Charlotte, Honolulu, San Francisco, 
Seattle, Houston, and Newark.
    A total of 12 airports should be outfitted by the end of FY 
1998.

    Mr. Rogers.  According to your statement, you say that last 
year 320 million people visited the Country illegally and that 
you conducted 500 million inspections at your ports of entry. 
Will the three airlines at the ten airports be 10-percent of 
that total?
    Ms. Meissner.  As I say, I will have to provide that for 
you. I think that what we are saying is that we are moving this 
project forward as quickly as we can, obviously consistent with 
funding and with the airlines. The major issue at this point 
actually is the airlines' ability to do this in their automated 
environment.
    Mr. Rogers.  Yes, but we ordered it done by October 1, 1998 
everywhere, not just ten airports, not three airlines. We said 
everywhere; all ports of entry. We gave you the money.
    In fact, we gave you $10.4 million more than you requested. 
You all apparently requested the minuscule amount of money for 
it. We loaded you up with money to get it done. Here you are 
not able to do it.
    Ms. Meissner.  We are spending the full amount that is 
allocated for it. That is what the result will be. As I say, 
the automated system that is the structure to support it so 
that the data actually can be used and tracked properly is also 
a part of the project.
    Mr. Rogers.  Well, if overstays are accounting for roughly 
half of all the illegal aliens still in the country, this 
project could have the same significance as the border patrol.
    Ms. Meissner.  It is extremely significant.
    Mr. Rogers.  I mean this was a minuscule amount of money 
compared to what we spend on protecting the borders with the 
Border Patrol. This could be very, very cost effective; could 
it not be?
    Ms. Meissner.  We agree. We agree. We believe that the 
technology that we are using bears that out. It is a very 
straightforward technology. The airlines can use it. It is now 
workable.
    Mr. Rogers.  Is the State Department cooperating?
    Ms. Meissner.  Absolutely.
    Mr. Rogers.  Fully?
    Ms. Meissner.  Absolutely. I have no complaints whatsoever. 
We are working very well with the State Department.
    Mr. Rogers.  Both of you say that and have said it for 15 
years, but nothing ever happens.
    Ms. Meissner.  We now have tangible palpable things to show 
for it.
    Mr. Rogers.  Well, you got ten airports, three airlines at 
ten airports, maybe. It is not there yet. How many do you have 
right now?
    Ms. Meissner.  I believe we have four right now.
    Mr. Rogers.  Four.
    Ms. Meissner.  I will have to check that, but I believe it 
is four.
    Mr. Rogers.  Four what?
    Ms. Meissner.  Airports.

                           citizenship u.s.a.

    Mr. Rogers.  Now, I want to get back briefly to Citizenship 
U.S.A. In fiscal year 1996 you granted citizenship to almost 
1.1 million people and 263,000 of those people were granted 
citizenship without having a full criminal history check.
    As it turns out, 77,000 of those had criminal history 
records with the FBI of which nearly 17,250 had at least one 
felony arrest and 26,200 had one or more misdemeanors. So far, 
you have determined that at least 932 should not have received 
citizenship.
    You have issued notifications to revoke their citizenship. 
Though, I am told not one has yet been denaturalized. There are 
5,000 cases still under investigation. Another 125,000 cases 
had unreadable fingerprint cards.
    So that fingerprint checks could not be done. And 61,000 
cases contain no evidence of any fingerprint check at all by 
the FBI. Then following that is another long history of errors.
    Now, while over 6,000 cases have been referred to the INS 
for denaturalization proceedings, we are told that not all of 
those cases will be or can be pursued. In other words, some of 
those mistakes can never be corrected.
    In over 186,000 cases since no fingerprint checks were made 
prior to naturalization, we will never know how many of those 
persons had criminal records. We can never correct those 
mistakes.
    A few months ago KPMG found that 90.8 percent of the random 
sample cases reviewed contained at least one processing error. 
Most had more. Therefore, in 90 percent of the cases, the INS 
file alone does not contain evidence that the naturalization 
was proper.
    If you project that finding, that sample, for the entire 
1.1 million Citizenship U.S.A. cases, 920,733 cases would have 
had insufficient documentation to support a proper decision.
    They also found that 38,845 cases can be projected to have 
been presumptively ineligible to receive naturalization. That 
is not just processing errors, but probably disqualifying 
problems; almost 39,000, and seemingly most of those felons.
    The Attorney General referred to the mistakes that occurred 
in Citizenship U.S.A. as a ``catastrophe''. Do you agree with 
that characterization?
    Ms. Meissner.  The Citizenship Program had very serious 
deficiencies.
    Mr. Rogers.  Was it a ``catastrophe'', as the Attorney 
General says?
    Ms. Meissner.  There were serious errors.
    Mr. Rogers.  Was she correct?
    Ms. Meissner.  I would not disagree with the Attorney 
General. She is my boss.
    Mr. Rogers.  So, when she says it is a ``catastrophe'', you 
cannot disagree; can you?
    Ms. Meissner.  I wish it had not happened the way it 
happened.
    Mr. Rogers.  You cannot disagree; can you?
    Ms. Meissner.  I cannot disagree.
    Mr. Rogers.  Has anyone been held accountable for this 
catastrophe?
    Ms. Meissner.  We have held the entire Agency accountable.
    Mr. Rogers.  Any single person been held accountable, 
brought to bear, brought to justice on this catastrophe?
    Ms. Meissner.  Well, I think this was, as we discussed last 
year, there were major deficiencies in the citizenship process. 
They were deficiencies that had existed for many years. They 
are deficiencies which have been overcome.
    Mr. Rogers.  Now, I want to dispute that.
    In normal times, I am told that the normal numbers of 
naturalizations are about one-third or so of what you did that 
one year. Is that right?
    Ms. Meissner.  Typically, we had been doing about 300,000 
per year.
    Mr. Rogers.  Well, it is about a fourth then. And in 1996, 
you did 1.1 million or more.
    Ms. Meissner.  About a million.
    Mr. Rogers.  Which has either tripled or quadrupled what 
you normally do and that happened to be the election year.
    We know from the e-mail that the Vice President sent his 
Chief of Staff in fact to the major cities, Chicago, Detroit, 
and so on, where most of these took place, and over-rode INS 
field offices to waive the requirement that they check and see 
if people had a criminal history in order to get people 
enrolled on the voting books and gave U.S. citizenship as the 
prize.
    Has a single person been held accountable for what the 
Attorney General has called a ``catastrophe'' and what most of 
us would have more harsh words for, selling U.S. citizenship 
for a vote?
    Has any person been held accountable?
    Ms. Meissner.  I have to dispute what you have said about 
over riding judgments made on criminals.
    Nobody changed procedures.
    Mr. Rogers.  No, but they were told that the policy, not 
law, but the policy of INS was to get a criminal check before 
granting citizenship. That was INS policy. Do you agree with 
that?
    Ms. Meissner.  INS policy was to wait for a set period of 
time to hear from the FBI. If we had not heard from the FBI, we 
proceeded. That was the major flaw in the system.
    We have corrected that by calling for a 100-percent 
fingerprint check. In other words, we now do not proceed 
without a response from the FBI in 100-percent of the cases.
    Mr. Rogers.  Was a single person held accountable?
    Ms. Meissner.  The entire system needed to be redesigned 
and revamped. We have done that.
    Mr. Rogers.  Only when the Congress changed the law.
    Ms. Meissner.  We revamped the system prior to the Congress 
acting.
    Mr. Rogers.  What used to be a policy of the Department, 
which you violated and we said, no. We are going to make that 
the law. If you violate it this time, there are penalties 
because you refuse to prosecute or hold anybody responsible for 
a vast catastrophic evasion of our laws when you granted tens 
of thousands of convicted felons citizenship in this country 
for political purposes.
    Ms. Meissner.  I really must dispute that. We did not grant 
tens of thousands of convicted felons citizenship. The audits 
have all now been completed. The numbers are very clear. They 
have been provided. I can provide them again for the record. 
That is not what happened. The system was changed.
    Mr. Rogers.  You do not know whether--there is 186,000 of 
these people where no fingerprint checks were made and you do 
not know whether or not they were convicted felons or not. That 
procedure was waived. The requirement that the FBI search the 
person's record for criminal violations was waived.
    For 186,000 we do not know. We will never know. K.P.M.G. 
projected, as I have told you, that almost 39,000, based on 
their sample, would have been presumptively ineligible.
    Meaning that they had a disqualifying feature of some sort; 
whether it be felony conviction or what have you. Yes, I can 
say there are tens of thousands and probably more convicted 
felons were granted citizenship.
    You cannot tell me whether or not they were. That is the 
problem.
    Ms. Meissner.  What has come out of the audit is 369 cases 
of clear convictions and 6,000 cases where there is likely a 
disqualifying conviction.
    Mr. Rogers.  Those are just the ones you can verify. What 
K.P.M.G. is saying is there is almost 200,000 of those that you 
have no idea because the records do not exist.
    Ms. Meissner.  We clearly did not handle those properly. 
Subsequently, they have been put through an FBI name check. We 
have sampled. We know that the universe here is far smaller 
than what has been represented to be the case.
    We are following up on those cases. The critical issue is 
that the system has been entirely revamped and redesigned.
    Mr. Rogers.  Only when the Congress moved in to make it the 
law of the land.
    Ms. Meissner.  The redesign was done administratively and 
can be done administratively. It is being implemented 
administratively, which is to say that there is a 100- percent 
check of fingerprints and a whole more reliable way of handling 
the fingerprints, submitting them to the FBI and getting 
answers from the FBI for them.
    More over, we have an entirely new leadership team in place 
at the INS. Nobody that was involved in Citizenship U.S.A. is 
any longer involved in the Citizenship Program. There is from 
our Deputy Commissioner on through the senior chain of command 
in the field, a new group of players.
    We are implementing a redesigned naturalization process 
that has integrity.

           reorganization of federal border control functions

    Mr. Rogers.  Now, over the years, there have been numerous 
initiatives merging functions occurring at theborder to an 
existing agency or into a new agency.
    These initiatives would incorporate functions now performed 
by Customs, by INS, by the Department of Agriculture into one 
entity to better coordinate all border functions.
    In 1993, a panel of former and current Government officials 
operating under the auspices of the GAO and the National 
Academy of Public Administration called for the end of dual 
management structure for border inspections.
    That panel strongly endorsed the creation of a single 
independent agency that would combine the functions of INS and 
Customs; not Agriculture. A subsequent report from the House 
Committee on Government Operations recommended that, that plan 
be given serious consideration.
    Congressman Reyes, as you know a former Border Patrol 
Agent, has a bill which would create a separate enforcement 
agency within the Department of Justice just with border 
control powers.
    When you were preparing your recommendations for a 
reorganization, did you or the Administration give any 
consideration at all to the concept of a single border 
management agency?
    Ms. Meissner.  A single border management agency has been 
talked about frequently over the years. We did discuss it 
briefly, but we did not do detailed analysis. The idea has 
simply failed so many times when it has been proposed that we 
did not think that it was the way to go.
    What we do, and what is----
    Mr. Rogers.  Let me ask you why? Why was it rejected? I 
gather it was rejected and probably not even considered. My 
guess is the politicals at the White House wrote this plan, 
dictated it to you, and you are defending it.
    Why would they have rejected a single border control 
agency?
    Ms. Meissner.  You know, you can slice this issue a variety 
of ways. If you go the border management agency route, you are 
dealing with several Cabinet level agencies and all of the 
difficulties that are involved with trying to merge agencies 
that have now different histories, different traditions.
    Then you detach them from the interior of the Country in 
terms of effective enforcement. So, you have to recreate their 
linkages. We decided that it was much better to go the route of 
linking the immigration functions at the border with the 
immigration functions in the interior of the country in order 
to get a more effective immigration enforcement effort that 
deals with the Border Patrol, with the ports of entry, with 
employers, with removal of aliens from the Country, with the 
series of issues that we have been talking about here because 
we believe that is the best way to get effective performance 
and effective cooperation and coordination between immigration 
enforcement entities.

                         reorganization of ins

    Mr. Rogers.  Well, it seems to me that what happened when 
you were submitting your reorganization plan, you were made to 
submit a plan by this body. So, you had to do something. The 
Attorney General had to do something.
    She was not a part of this process, I gather. So, when push 
came to shove, the White House looked at ways to justify saving 
the INS as an entity, knowing it was under assault on the Hill.
    So, you have come up with a reorganization plan hoping to 
salve the wounds of some of us who think the Agency does not 
need to exist. So, this is your offering at the altar. I do not 
think there was any serious study given to how we ought to 
properly deal with the problem the Country faces.
    What was looked at was how can we save this Agency and the 
entities that are already encrusted in that Agency? I really do 
not think there was much serious thought given to it. At what 
point was Booz Allen told to help develop a recommendation to 
restructure the INS without moving any of its functions to a 
new or existing agency?
    Ms. Meissner.  I will answer that question, but I want to 
back-up and correct what I think is a misunderstanding.
    Mr. Rogers.  Yes.
    Ms. Meissner.  The Attorney General was actively involved 
in this effort as were senior people in the Justice Department. 
The Immigration Service has been intensively involved in this 
effort.
    I said in my opening statement that we took your 
requirement in the appropriations language as an opportunity. 
We have not resisted this. We have indeed taken it as an 
opportunity to look at what we think the best response for an 
effectively operating immediate system would be.
    We did look at the Commission's proposal. We did look at 
ideas in the past that have been floated where border 
management is concerned. We believe that the enforcement and 
the service missions of the Immigration Service work 
cooperatively.
    That they indeed are two sides of the same coin and that 
the very effectiveness and accountability that you are looking 
for is far more achievable in one agency than by splitting 
apart.
    If you split to several agencies, you dilute 
accountability. If you maintain one organization that is 
responsible for carrying out the immigration mission, you fix 
accountability. We do that by separating chains of command so 
that it is more manageable and so that there are professional 
skills on both the immigration and on the enforcement side that 
are more effectively developed.
    We brought Booz Allen into the picture at the end oflast 
year, exactly because we were taking this proposition very seriously. 
We would not have spent the money. We would not have spent the time to 
go to an outside consulting firm if we were not trying to put together 
a viable proposal that would be responsive to the Committee and that 
would be responsive to the needs that we, ourselves, have struggled to 
try to meet.
    The Booz Allen effort did look at the Commission's work. It 
did look at other proposals that have been made in the past. 
The Booz Allen team arrived in its own thinking at the view 
that a separation of these functions within the Immigration 
Service was the proper way to go because that was the most cost 
effective way to capitalize on the incredible investments that 
have been made in this Agency over the last three to four 
years.
    So, this is a proposal that is responsive. It is a proposal 
that indeed involved the Attorney General personally and the 
Justice Department working in concert with INS. It is a 
proposal that will more quickly and most effectively provide 
the accountability, the performance, and the professionalism 
that we are all seeking.
    Mr. Rogers.  I would like to have a copy of all of the 
options that you reviewed and the pros and cons of each.
    Ms. Meissner.  We can provide that.
    [The information follows:]


[Pages 658 - 670--The official Committee record contains additional material here.]



    Mr. Rogers.  Did you look at two different agencies within 
Justice to achieve on the one hand enforcement and on the other 
hand service matters?
    Ms. Meissner.  We did.
    Mr. Rogers.  What was the conclusion there?
    Ms. Meissner.  Our conclusion was that it made more sense 
separated, but within one organization in order to get the 
interaction and the most effective use of the data systems and 
the shared infrastructure that both sides of the House depend 
on in order to be effective.
    Mr. Rogers.  But is not there at least a tacit 
understanding that within INS there are two conflicting roles. 
One, enforcement of laws that in effect punish people for 
violating our Nation's laws, illegal immigration and the like, 
and on the other hand, the granting of rights and privileges, 
the visa, and even citizenship granting.
    How can you justify, how can you resolve this inherent 
conflict that an immigrant must feel at one point or the other 
that they are getting fairly treated when the same person is 
deciding whether to give them rights and at the same time 
punish them for something else?
    How can we tell that person that they are getting a fair 
shake here?
    Ms. Meissner.  That is one of the two or three core 
questions that we asked ourselves and that we believe this 
proposal answers. What this proposal does is fundamentally set 
up two separate organizations within INS. It sets up an 
organization for the enforcement of the laws. It sets up a 
separate organization or a separate chain of command for the 
granting of benefits under the law.
    It calls for two separate career paths within the 
Immigration Service. So that indeed the same person will not be 
doing both. Different people will be doing those respective 
jobs. That is something that we believe it is time to do.
    There has been a mixed identity. There has been a 
confusion, not only among the people who come to us, but within 
our own work force as to what their primary responsibility is.
    What this structure does is clarify that. It says that you 
give benefits or you do law enforcement. It creates 
opportunities for people to advance with those skills. Those 
are separate skills.
    It also takes advantage of the fact that they both need to 
use the same alien file. They both need to use the same 
repository of information in order to determine what to do.
    Mr. Rogers.  But the crux question though is assuming along 
these two different chains, some decisions are going to be 
appealed up the ladder until they get to the same place and 
that is the Commissioner.
    Ms. Meissner.  The Commissioner or Deputy Commissioner.
    Mr. Rogers.  Here you are. Essentially, that immigrant 
says, well, the same person can punish me or give me rights, 
give me services. It is the Commissioner. This is one Agency we 
are talking about.
    That is what I am getting at. There is an inherent conflict 
within having this all in one agency is what I am driving at, 
even though you may have two separate chains of command, it 
eventually winds up on your desk or could.
    How do you resolve that?
    Ms. Meissner.  I think that it does come back to what we 
think immigration is all about. Immigration is both about 
upholding the law and it is about serving legal immigrants and 
granting them benefits.
    Those two have strong connections between the two of them. 
Take the naturalization example. Naturalization is the ultimate 
benefit that we grant. Yet, what did it founder on in 
Citizenship U.S.A.?
    It foundered on improper use of law enforcement 
information. That connection between granting a benefit, but 
granting it properly, similarly enforcing the law, but giving 
and assuring the rights of people to be certain that they do or 
do not belong in the Country.
    Those connections are implicit in our immigration law. We 
believe that they are better carried out in one agency than in 
two agencies, if only because of the shared information that is 
crucial to have in one place in order for each of those 
functions to be making decisions accurately.
    Mr. Rogers.  And therein is the conflict.
    Ms. Meissner.  It does not need to be a conflict.
    Mr. Rogers.  An immigrant or a non-citizen in order to get 
certain benefits or services has to share certain information 
with you. That person, though, cannot be assured that, that 
same information will not be given to the enforcement side of 
the coin and it comes back at them with the penalties under the 
law.
    It just seems to me that it is almost like violating our 
notion of being convicted out of your own mouth; a violation of 
the Fifth Amendment type thing.
    Ms. Meissner.  The Government still has to have information 
on the alien. That information has to be kept in one 
repository. In order for it to be available for enforcement 
decisions or for benefit decisions, it still is the same 
person.
    Mr. Rogers.  Well, 245(i) is a good example. In order for a 
person to gain the advantages of it, he or she had to admit 
they were here illegally. The same person would make the 
decision--would be armed with the information that, that person 
was volunteering in order to gain something back could have 
been prosecuted. So, 245(i) is the most recent exampleI can 
think of where a conflict is concerned.
    Ms. Meissner.  I do not think anybody would want to have a 
situation where the Government knew that somebody was here 
illegally and that law enforcement would not have access to 
that information.
    I mean, you want to know, you have to know the information 
about an alien in order to determine whether they are 
deportable or whether they are eligible for a benefit.
    Mr. Rogers.  Now, in the enforcement chain of command, it 
appears that port directors, detention managers, 
investigations, and removal managers all report to a new 
position, ``an Enforcement Area Director,'' who reports to the 
Associate Commissioner of Enforcement at Headquarters up here.
    The Border Patrol's final reporting chain is the Border 
Patrol Chief at Headquarters. The question is, what is the 
justification for giving the Border Patrol different treatment 
in the chain of command?
    Ms. Meissner.  Well, this is a confusion that I think 
occurred in a staff briefing last week. Let me start where you 
started. The plan calls for the Border Patrol chief, ports of 
entry, the investigations manager, and the detention manager, 
all of those entities which are all part of an integrated 
enforcement effort, all to report to an Enforcement Area 
Director.
    So, the Border Patrol is not any different from the 
director of a port of entry, or the head of the investigators, 
or the head of detention. The idea is to divide the County into 
enforcement areas that give us a basis for linking the border 
with the interior.
    We think of the border both as the Border Patrol and as the 
port of entry because both of those things have to be working 
effectively in order to deter illegal entry as well as to allow 
for legal entry.
    We want that Enforcement Area Director to be able to manage 
the resources in the area that he or she is responsible for 
both the border resources and the interior resources in a way 
that creates the best enforcement.
    That Area Director and the recommendation right now is that 
we look at a minimum of six enforcement areas around the 
Country that we still need to determine whether that is the 
proper sizing for this. Those Area Directors would report to a 
head of Enforcement Operations here in Headquarters.
    Mr. Rogers.  So, you are saying between 6 and 12 areas.
    Ms. Meissner.  Booz Allen has recommended between 6 and 12. 
That needs to be further refined, but that is the 
recommendation.
    Mr. Rogers.  That is not very precise.
    Ms. Meissner.  Well, I said six because that is the work 
load analysis that we have done so far. The effort here is to 
try to determine what really is an enforcement area if you 
think of the border linked with the interior.
    That is the crucial coordination that we need to achieve 
now, particularly with the resources that have gone to the 
border and the effectiveness that we are showing at the border.
    Mr. Rogers.  The Commission recommended a single uniformed 
enforcement officer. Was that considered?
    Ms. Meissner.  We did consider that.
    Mr. Rogers.  And?
    Ms. Meissner.  We decided that, that was too big a jump to 
make right now. That the most important thing was to define our 
enforcement occupations and get our current enforcement 
occupations working together in a coordinated fashion and 
develop an enforcement career path.
    Mr. Rogers.  So, this is not a very radical reorganization.
    Ms. Meissner.  This is a fundamental restructuring. It is a 
fundamental reform. It is not a reorganization. It is a 
restructuring. It is a rethinking of the way in which we do our 
business, the way in which we deliver service, the way in which 
we focus our enforcement efforts.
    Mr. Rogers.  You have had numerous problems in maintaining 
your detention facilities and monitoring those facilities that 
you contract with, with private companies. Did you consider 
moving the INS detention function to another agency?
    Ms. Meissner.  The issue of INS detention has been 
addressed in the context of another analysis which I think you 
are very familiar with. That was the Committee's request of the 
Justice Department to look at detention that the Immigration 
Service does, that the Marshals do, and that the Bureau of 
Prisons does.
    The outcome of that analysis has been--I think it has 
already been provided to the Committee, but it calls for INS to 
retain a considerable amount of the detention that we presently 
have. So, we have abided by that.
    Mr. Rogers.  That is not a radical change, then; is it? In 
fact, I do not see much you are changing except you are 
reorganizing some boxes on the organization chart; the same 
people; same problems; same short-comings.
    Ms. Meissner.  Well, I think it is far more than that. It 
is eliminating our district offices. It is eliminating our 
regional offices. It is setting up an entirely new chain of 
command, one devoted to enforcement, one devoted to to 
Immigration Services. It is establishing career paths so that 
service-providing occupations will no longer move through the 
enforcement ranks. The enforcement personnel will no longer be 
providing adjudications. It is a far tighter system for 
accountability. It is a major restructuring. It is fundamental 
reform.
    Mr. Rogers.  Now, I want to know about the cost. What would 
the plan cost in terms of the annual budget? Does your 1999 
budget request reflect this plan?
    Ms. Meissner.  Our 1999 budget request, as you know, is a 
very sizeable growth request. We believe that the cost of this 
restructuring can be absorbed in the continual growth that we 
expect will occur.
    Although we have not done precise calculations and will be 
doing them, we foresee being able to incorporate the costs in 
continued growth.
    Mr. Rogers.  But you have got new field officers. You have 
got new pay provisions. You have got all sorts of, you say, 
substantial--what was your word, ``fundamental?''
    Ms. Meissner.  Fundamental reform.
    Mr. Rogers.  Nothing, we know, ever comes cheap with INS. 
Surely, this is going to cost us a lot more than we are paying 
now.
    Ms. Meissner.  Well, first off, there are many things in 
this proposal that are cost neutral. I mean achieving the 
accountability that we are talking about here, setting up 
different reporting lines, grouping occupations in different 
ways. Those are not items that require additional funding.
    We do have substantial facilities and construction amounts 
in our budget. We have substantial growth inpersonnel in our 
budget. We believe that within the boundaries of that continued growth, 
we will be able to make the adjustments that this proposal calls for.

                   ins' interior enforcement strategy

    Mr. Rogers.  Now, our Conference Report in 1998 required 
you to provide to us by tomorrow, April 1st, a revised strategy 
for the interior enforcement. Can you tell us about that?
    Ms. Meissner.  We have been working very hard on that. We 
are now either in receipt of or will be within the next day or 
two of an analysis that we have worked with a contractor to 
help provide. We will be working out the operational strategy 
for how we implement that in the coming months.
    This is along the lines of what I described when Mr. Skaggs 
was talking about the interior. This is an effort to----
    Mr. Rogers.  You are going to have this tomorrow; are you 
not? This is ordered by tomorrow.
    Ms. Meissner.  I will have to check on that. I assume that 
if we have a deadline that we are being responsive to the 
deadline.
    Mr. Rogers.  Well, tomorrow is the deadline.
    Ms. Meissner.  That is correct.
    Mr. Rogers.  I think you would know whether or not you have 
it. Will we have it?
    Ms. Meissner.  Can I turn around and ask the question?
    Mr. Rogers.  Please.
    Ms. Meissner.  All right.
    [Pause.]
    Ms. Meissner.  The analytic work that we have contracted 
for to be responsive to the April 1st deadline is coming into 
us on April 1st. That means that we are not able to be 
responsive to the Committee by April 1st.
    This apparently has been discussed at a staff level. So, we 
will be tardy in providing you with what you have asked for, 
but it is our objective to be able to provide it by the end of 
the fiscal year.
    Mr. Rogers.  It is not just this Committee you are to be 
responsive to. This was ordered by the U.S. Congress.
    Ms. Meissner.  Then to the Congress; I apologize.
    Mr. Rogers.  It was to be submitted by April 1st. What is 
the problem?
    Ms. Meissner.  I will have to learn more about it.
    Mr. Rogers.  Well, you must know what your strategy is 
because you have asked for an $80 million figure in the 1999 
budget for interior.
    Ms. Meissner.  Broadly, we know that what we are trying to 
accomplish here is a much closer coordination and resource 
allocations that deal with smuggling, with fraudulent 
documents, with removals and with work site enforcement, 
particularly where abuse of employers and employers that are 
connected to smugglers.
    We are beginning or we have that work underway already. We 
have been able to demonstrate it in a number of indictments and 
prosecutions that are underway. So, in broad outline, we are 
doing the interior enforcement that we are forecasting in this 
study and that the Congress has asked from us.
    The detailed work that follows it, where we need to move 
resources, where in the country we should be putting new 
resources, what the proper relationship is in size between our 
numbers of investigators, our transportation routes for 
removal, that level of detail is what we are trying to work out 
in the strategy and in the documentation that we will be 
providing to you.
    Mr. Rogers.  How tardy will you be?
    Ms. Meissner.  I believe by the end of the fiscal year. I 
will make every effort for it to be here sooner than that.
    Mr. Rogers.  Let me get this straight.
    Ms. Meissner.  In other words, that would be six months 
late.
    Mr. Rogers.  Six months? You were ordered to do this by 
April 1st. Surely, you went through the interior enforcement 
aspects of INS as you thought about your reorganization plan 
because it is a hefty portion of your budget; one of the most 
important functions of the INS. Was this not considered as you 
went through your reorganization?
    Ms. Meissner.  Absolutely. In fact, this restructuring 
proposal is premised on the kind of interior enforcement 
strategy that I have just described to you. What I cannot be 
responsive on by April 1st is a detailed plan for what targets 
we are setting and what accomplishments we intend to achieve.
    Mr. Rogers.  Well, here we are dealing with, as of early 
March, you still had 78 vacancies in your investigations 
programs. Those have existed since 1996. We provided the money 
and you have not hired them.
    On removals, you say in your testimony that you had removed 
a record 112,000 aliens in 1997, but the number of illegal 
immigrants residing in the U.S. is growing by 300,000 per year. 
The number of outstanding deportation orders is over 220,000; 
up 14-percent from last year.
    The Institutional Hearing Program resulted in 14,800 of the 
removals in 1997. That is only 13-percent of the removals, even 
though we have provided almost 700 positions and over $80 
million for that program.
    We can go on and on and on. This is a major portion of what 
we are asking that this Agency do. Your 1999 budget request 
includes two initiatives for responding to State and locals' 
request for assistance when they encounter or arrest suspect 
illegal aliens; $10 million for anti-smuggling units; $3 
million for Community Enforcement Teams.
    INS is currently able to respond to only 30-percent of 
State and local requests for assistance. I could go on and on. 
We are not about to wait six months for that report. We would 
not even dream of it.
    You have had until April 1st. If you put your crash program 
on this thing, when can we have the report? I am not about to 
wait six months. The Congress ordered this April 1st, tomorrow, 
and I want the answers.
    We have got to make decisions on your budget request soon 
as we mark-up this bill. I am not about to make those decisions 
without knowing what you are talking about on enforcement 
procedures.
    Ms. Meissner.  Well, we know a great deal of what we are 
talking about in our enforcement procedures.
    Mr. Rogers.  I do not.
    Ms. Meissner.  I will get you something so that we can be 
talking about it with you far sooner than what I have just 
stated, if you would let me have a chance though to discuss it 
with staff. I will get back to you tomorrow on when we will 
have something for you. It will be soon.
    Mr. Rogers.  It is due tomorrow. It is due tomorrow.
    Ms. Meissner.  Okay. I will----
    Mr. Rogers.  You have known this for how long?
    Ms. Meissner.  Clearly since the appropriation has passed.
    Mr. Rogers.  Since July. You have known this all that time. 
I am so frustrated with--I have no problem with all of the 
other agencies we deal with, believe me, on this Subcommittee 
and we have a bunch.
    This INS is absolutely the most frustrating, I know I am 
preaching to the choir here. You share that of the some degree. 
It is the most frustrating agency that we have. They simply do 
not believe the Congress or anybody else is their boss or has 
the right to expect any kind of reports out of them.
    I am here to tell you, that report better be here tomorrow 
on the due date. I am looking for a chance to crack a whip. I 
cannot wait. Believe me, a whip will be cracked.
    This Agency will either go out of business or blend into 
the American Governmental scene. They will be responsive to the 
people of this country like every other agency is or they will 
cease to exist. How much stronger can I say that? I mean it 
fully.
    That report will be here tomorrow. You have had much too 
long to get it here and we want it. Is that clear?
    Ms. Meissner.  I hear you.
    Mr. Rogers.  Is it clear?
    Ms. Meissner.  It is clear.
    Mr. Rogers.  Will it be done?
    Ms. Meissner.  I will bend every effort to get it done.
    Mr. Rogers.  I want the names of those responsible for 
getting it here or failing to get it here. If it is not here 
tomorrow, I want the names and serial numbers of those who 
failed to do what we ordered them to do.
    Now, if you will not crack the whip, believe me, I will. 
Get me their names. There are things that we can do in this 
bill such as say that no funds of this bill shall be used for 
the purpose of paying John Doe his salary.
    If it takes that, believe me I will do it for every single 
employee of the Agency that does not respond to your and our 
requests and demands. This Agency will obey the law. It will 
respond to the will of the people like every other Government 
agency that we have or it will cease to exist. Believe me.
    I have a number of things to submit that you can answer for 
the record.
    Otherwise, if you have nothing further, we will stand 
adjourned.
    Ms. Meissner.  I will be in touch with you tomorrow. Thank 
you.


[Pages 678 - 690--The official Committee record contains additional material here.]



                                          Thursday, March 12, 1998.

              BUREAU OF PRISONS, D.C. CORRECTIONS TRUSTEE

                               WITNESSES

KATHLEEN M. HAWK, DIRECTOR
JOHN CLARK, D.C. CORRECTIONS TRUSTEE
MIKE ROPER, CONTROLLER
    Mr. Rogers. The committee will come to order.
    This morning, we welcome to the subcommittee the Director 
of Bureau of Prisons, Dr. Kathleen Hawk, and the Corrections 
Trustee for the District of Columbia, John Clark, to discuss 
the fiscal year 1999 budget request for the Federal prison 
system and the challenge both of you share in transitioning the 
sentenced felon population of the District of Columbia in the 
custody of the Federal Government.
    For fiscal year 1999, the Bureau of Prisons is requesting a 
total budget of $3.5 billion, which includes $300 million for 
the construction of new prisons to expand prison capacity for 
the D.C. inmates.
    The Corrections Trustee budget request totals $185 million 
and will be handled as part of the D.C. appropriations bill. 
However, a portion of this funding will be used to support 
Bureau of Prisons' costs related to the housing of D.C. 
inmates, and ensuring the requirements of your office on that 
will be very critical to the orderly transitioning of these 
prisons.
    While the subcommittee has substantially increased funding 
for the Federal prison system over the past years, including 
almost $500 million since 1995, I believe we can say our 
investment is paying off. Serious crime fell 3 percent last 
year. It has dropped for the fifth consecutive year, and I 
would attribute this decline, in part, to yourefforts to keep 
the criminals off the street.
    As you take on the additional population of the District of 
Columbia, we should not ignore the requirements to maintain the 
growth of the Federal prison system so that there will be space 
to continue to lock up violent criminals for longer periods of 
time.
    We appreciate both of you being here today. We will include 
your written testimony in the record, and we would be delighted 
to hear your summary of your statement.
    Director Hawk, you can begin.

               Bureau of Prisons Director Opening Remarks

    Ms. Hawk. Thank you, Mr. Chairman. Good morning. I am very 
pleased to appear before you today to discuss the 1999 budget 
request for the Bureau of Prisons, but let me begin by thanking 
you, Chairman Rogers and Congressman Mollohan and the other 
members of the committee, for the wonderful support that you 
have given to the Bureau of Prisons over the years.
    You have recognized the continuous growth and the 
challenging nature of our inmate population and provided the 
resources necessary for us to carry out our responsibilities.
    Appearing with me today from the Bureau of Prisons is Kevin 
Rooney, who is just behind me here, our Assistant Director for 
Administration. I am also pleased to be appearing today with 
John Clark, the D.C. Corrections Trustee. He and I will work 
and continue to work very closely together to ensure a very 
successful transition.
    Our 1999 request, as you noted, Mr. Chairman, totals close 
to $3.5 billion, and it amounts to 35,254 positions. It focuses 
on adding prison beds to keep pace with our own inmate 
population growth and also the capacity requirements of 
absorbing the D.C. inmates.
    With the resources that Congress has already provided, we 
have made substantial progress in adding capacity and keeping 
pace with overcrowding, and we must continue adding capacity as 
our population continues to grow.
    As of March 5, 1998, our population was 115,835 inmates. 
That includes nearly 11 percent that are housed in privately 
managed prisons, contract facilities, and other alternative 
confinement. By the year 2003, we project nearly 154,000 
inmates in our custody. It is a growth of about one-third over 
our current inmate population.
    The 1999 request includes an increase of $2.8 million to 
activate a 200-bed expansion in our prison in Loretto, 
Pennsylvania, and the increase of $300 million that you 
reference, Mr. Chairman, to construct the new capacity to 
absorb the D.C. felons.
    In 1998, through reimbursement from the D.C. Corrections 
Trustee, we have adequate resources to construct two new 
prisons. These can be built at existing Bureau of Prisons' 
sites in order to most quickly generate the capacity to house 
the D.C. felons.
    In addition, 1998 funding from the D.C. Corrections Trustee 
will be used for site acquisition and planning of four 
additional prisons. The 1999 request provides the funds to 
construct three of those prisons and partial funding for the 
fourth. In total, we plan to build six new facilities to absorb 
the D.C. population.
    We have begun or are obtaining additional technical 
information to begin the environmental impact statement for 
sites in Kentucky, West Virginia, South Carolina, and 
Pennsylvania, and we plan to finish each EIS related to D.C. 
capacity this year, before the end of the calendar year.
    Mr. Chairman, the 1999 request includes only the increases 
that we believe necessary to address the major challenges we 
face and provide the funding increases necessary to add the 
inmate capacity to meet the requirements of law.
    I would like to thank you again, Mr. Chairman and members 
of the subcommittee, for your continued support. This concludes 
my prepared comments, and I would be very happy to take any 
questions you may have.
    [The information follows:]


[Pages 693 - 703--The official Committee record contains additional material here.]



    Mr. Rogers. All right. Mr. Clark.

       District of Columbia Corrections Trustee Opening Statement

    Mr. Clark. Good morning, Mr. Chairman and members of the 
committee. I am pleased to have my first opportunity to appear 
before you as a Corrections Trustee for the District of 
Columbia, and it is certainly an honor and a pleasure to appear 
here with Director Hawk of the Bureau of Prisons with whom we 
work so closely on the Lorton transition process.
    As you know, our office was created by the National Capital 
Revitalization Act of 1997 and came into existence in October 
of last year. The primary responsibilities of our office are 
three-fold. The first major area is the financial, primarily 
the oversight of all aspects of the District of Columbia 
Department of Corrections operations.
    Our second responsibility is to facilitate the closure of 
the Lorton complex and the transfer of the sentenced felons 
from the District to the Federal Bureau of Prisons by 2001.
    Our third responsibility is to assist the DOC in its own 
reformation and long-term stabilization.
    Mr. Chairman, progress has been made in the transition. The 
total number of prisoners in facilities directly operated by 
the DOC, including Lorton and the D.C. Jail, has been 
significantly reduced in the past year by transfers to the 
Bureau of Prisons and the contract facilities.
    At the Lorton complex itself, one facility was closed in 
September and two are scheduled to be closed within the coming 
year. In the five facilities currently operated at Lorton, the 
overall count is 4,200, down from about 6,000, a year ago.
    However, to be clear, planning for the next steps of the 
closure in 1999 presents an unusual challenge because the 
closure pace depends on the DOC's ability to secure suitable 
contract beds outside the system. With the assistance of our 
office, the District is working diligently with several 
jurisdictions.
    We are hopeful of a favorable outcome to these negotiations 
in the near future.
    Mr. Chairman, it has been my experience that the most 
difficult aspect of the transition process is the impact on the 
3,100 employees of the Department. The Lorton closure will mean 
the number of staff will be reduced to under 1,000 by 2001.
    There is ample evidence that the staff is dispirited and 
confused, and that attrition of the work force has increased. 
In this regard, the Department with the cooperation of our 
office is taking a number of steps. An interagency task force 
is working aggressively to provide resources to assist staff 
who are facing separation. The Bureau of Prisons has been very 
active and accommodating in this process.
    Further, the financial authority and the elected leaders 
who formed the District's management reform team have agreedto 
a significant pay raise for DOC employees, a concept which this office 
supports, especially since the salaries of the employees have 
essentially remained flat over the last several years.
    The Department of Corrections continues to be confronted 
with major challenges in its downsizing to a local corrections 
agency. A major concern of our office is that the Department 
does not have adequate systems of control and accountability at 
the operational level which would assure that policies are 
carried out as written, or that the performance of contractors 
is closely monitored by DOC staff. Our request provides for 
funds targeted to the development of such a system of internal 
controls.
    The successful long-term reformation of the Department 
requires such a resource. Another major concern of ours is the 
high cost of operations of the Department compared to other 
jurisdictions.
    In summary, the 1999 request of $185 million will meet the 
requirements of the Revitalization Act in assisting the 
District of Columbia in housing sentenced felons who have not 
been transferred to the Bureau of Prisons. This request 
provides for the transfer in 1999 of over 1,500 DOC felons 
outside the Department.
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to answer any questions you or other members of the 
committee might have.
    [The information follows:]


[Pages 706 - 716--The official Committee record contains additional material here.]



                        transfer of d.c. inmates

    Mr. Rogers. Thank you very much, and thank you both for 
being here. It is good to see you.
    Let me say at the outset that I consider the Bureau of 
Prisons to be a stellar Federal agency. I do not know of a 
better agency that I deal with that has impressed me more with 
your management of the system. The Bureau of Prisons is the 
best-run Federal agency that I have been acquainted with. I do 
not say that lightly. I think you run an excellent agency.
    Ms. Hawk. Thank you, Mr. Chairman.
    Mr. Rogers. Now, of course, you have got this big challenge 
that we are all trying to work together on, and that is to 
absorb some 7,200 D.C. inmates into the Federal system. Of 
course, as you say, you started that transfer, and you are 
currently incarcerating about 600 of those prisoners?
    Ms. Hawk. Yes, Mr. Chairman.
    Mr. Rogers. If you do not mind, give us a little bit more 
about your plan for both 1998 and 1999 for the transfer of 
these additional inmates. What steps are you taking to be sure 
that this is going to go smoothly?
    Ms. Hawk. The monies we will be receiving in 1998, which is 
the reimbursement through the Trustee's Office, will be to 
start construction on two prisons. I believe both were sought 
in terms of being penitentiaries, although we are deciding now 
it may be better to go with one penitentiary and one medium-
security institution with the 1998 monies, and we are 
initiating site and planning work for four additional 
facilities, as I referenced.
    In addition to that, we are required by the Revitalization 
Act to privatize 2,000 of the D.C. inmates by the end of 1999. 
So we are very aggressively moving forward on all the work that 
is necessary to put forward that contract.
    Our determination was to privatize the minimum- and low-
security male population, to privatize the Youth Rehabilitation 
Act inmates, both male and female, and to privatize the 
females, and that comes up to a total of about 2,400 inmates. 
So we feel that we will be able to privatize the 2,000 from 
that population very easily.
    We have already gone out with the RFP, the request for 
bids, and we are anticipating having the bids in by, I believe 
it is, around the 1st of April of this year. So we are right on 
target, barring any unexpected delay, in terms of being able to 
fully privatize the 2,000 inmates that we are required to do by 
1999.
    Our plan, as I indicated, also, was to complete the 
environmental impact work on all of the sites that we are 
anticipating to potentially serve our needs for the new prisons 
that will help us absorb the D.C. population. We are hoping to 
complete those by the end of this calendar year, and as long as 
we can do that and stay on target, and everything suggests we 
can, we should be able to get all of the prisons up and 
running, or most of them up and running, by the 2001 deadline, 
the end of 2001, which is when we are required to have all of 
the D.C. inmates in our population. So we have a very tight 
requirement on us.
    We had originally asked for a 2003 requirement, and that is 
what had been negotiated with many of the committees, but at 
the last moment, and I am not quite sure how it happened, the 
2003 got changed to 2001, which really constrains us and makes 
speed very critical for us. So we are hoping to move as quickly 
as possible, and we are moving as quickly as possible to get 
those up and running by 2001.

           transfer of d.c. corrections department employees

    Mr. Rogers. Mr. Clark, tell us how you are working with BOP 
to accomplish this smooth transfer.
    Mr. Clark. Well, we are working very closely with the 
Bureau of Prisons and the Department of Corrections. We have 
set up regular meetings with both of those agencies. I have a 
small staff of only about seven that we have come up to at this 
point, but there are several issues.
    We are working very closely to the personnel issue to try 
to find ways that the staff can transition those who would want 
to transition, as the Act provides, to the Bureau of Prisons. 
So we have set up a priority consideration programtask force of 
Bureau of Prison staffers, Department of Correction staffers, folks 
from the Office of Personnel Management are working with us on that, 
and several District of Columbia agencies.
    Our primary concern initially is what is going to happen to 
the 2000 staff who are going to be separated. So, as I say, we 
have been working closely with the Bureau of Prisons on that.
    Mr. Rogers. What is going to happen?
    Mr. Clark. Well, Director Hawk, is actually going beyond--I 
do not presume to speak for her, but the program that she has 
outlined goes actually beyond somewhat the requirement--well, 
let me put it another way. She is being very open to taking 
into her system employees of the Department of Corrections who 
meet the qualifications of the Bureau of Prisons and who desire 
to go to work for the Bureau of Prisons.
    Now, one of the issues in that regard is that there are 
obviously no Federal prisons in the local area. So that, any of 
the Department employees who would want to go to work for the 
Bureau of Prisons would have to move around the country.
    We did a survey in conjunction with the Bureau of Prisons 
of the staff, and a surprising number indicated a willingness 
to transfer to the Bureau of Prisons. So, as time goes by and 
in the near future as RIFs occur within the Department, there 
will be an opportunity for those employees to go to the Bureau 
of Prisons.
    In the alternative, there are also opportunities that we 
are developing with other Federal agencies. We are working 
closely with the Office of Personnel Management to provide a 
career transition center at the Lorton complex and access the 
one that is open on North Capitol in the downtown area. So I 
think there are a number of opportunities that will be 
available to employees who would be downsized.

                transferring d.c. prisoners and funding

    Mr. Rogers. How are you identifying which prisoners are to 
be transferred each year, and how many?
    Mr. Clark. Well, the prisoners, as Director Hawk 
referenced, who would be going to the Bureau of Prisons in the 
short run are primarily female prisoners and the lower-security 
prisoners. They do not have a capacity, as you are well aware, 
at this time to take the higher-security prisoners.
    The prisoners who have been transferred at this point to 
other contract facilities have been some higher-security 
prisoners. This is a determination, up until now, that has been 
made by the Department of Corrections more so than my office, 
and, again, to be clear, I am not running the Department of 
Corrections on a day-to-day basis. Director Moore is still the 
operational head of the Department of Corrections. My role is 
more one of coordination and oversight of her Department.
    So, at this point, most of the higher-security prisoners 
are remaining within the Department of Corrections facilities 
pending either new contracts or the ability in a couple of 
years for the Bureau of Prisons to absorb them.
    Mr. Rogers. Now, what portion of your $185-million budget 
request will actually be used to reimburse BOP for housing 
prisoners?
    Mr. Clark. The portion that would be used to reimburse the 
Bureau of Prisons, we estimate in 1999 to be about $14 to 
$17.25 million. That will depend, however, on the pace of the 
transfers. We are keeping very close tabs with the Bureau of 
Prisons on the actual number of transfers, but our estimation 
is that the average population that would be within the Bureau 
of Prisons, the average new population next year would be about 
750 on a daily basis, and that would equate to about $14 to 
$17.25 million.
    Mr. Rogers. Why is it more prudent to include these monies 
under your budget than directly under BOP's?
    Mr. Clark. Well, I think part of the logic and rationale on 
that is the difficulty in determining the numbers that will 
actually occur, that will actually be transferred, which will 
depend, again, on availability of beds within the Bureau of 
Prisons.
    So that, I guess the logic is that the amount of money to 
be spent on the 7,000 inmates would be included in my budget, 
and then, to the extent that they go into the Bureau of 
Prisons, I would reimburse them, and to the extent that some of 
them would stay within the District, I would reimburse the 
District.
    Mr. Rogers. Do you get any good cooperation out of the D.C. 
Department of Corrections and the D.C. Government? Be frank.
    Mr. Clark. We cooperate closely on a number of matters. I 
meet with Director Moore every week. There are some issues of 
disagreement, but, in many ways, they are cooperative, and some 
other ways, as I say, we just do not see eye to eye on some 
issues.
    Mr. Rogers. Like what?
    Mr. Clark. Well, one of the issues is, quite frankly, the 
degree of funding for the Federal portion of the payment for 
the Department of Corrections for the current and the coming 
year.
    Mr. Rogers. They want more?
    Mr. Clark. Yes, sir.
    Mr. Rogers. How much more are they wanting?
    Mr. Clark. Well, depending on the analysis, somewhere 
between $25 and $50 million for this year. They feel the 
District has been shorted, and about $30 to $40 million for 
1999.
    Mr. Rogers. Because of what? What is their argument?
    Mr. Clark. Well, this is a complicated answer, sir. There 
are several disputed categories.
    First of all, let me say I stand behind the $185 million as 
a fair and accurate and adequate amount, and that was arrived 
at after consultation with the Chief Financial Officer of the 
District and his office and the Department of Corrections. It 
provides amounts well above the national average for funding 
prisoners in other systems around the country. It provides 
about $28,000 per year, per inmate. So I feel it is adequate, 
but there are several areas, to respond to your question, that 
are disputed.
    One is the area of external indirect costs, costs that are 
not part of the Department of Corrections, but are attributable 
to the central government of the District, in the amount of 
about $25 million that they would be requesting.
    The external indirect costs fall into several categories. 
Interest and depreciation on buildings account for about two-
thirds. Again, these are not correctional buildings. These are 
other buildings in the District.
    Some costs related to the City Administrator's Office, the 
Chief Financial Officer's Office, personnel processing, 
worker's compensation, issues like that.
    It is my understanding, and I have talked to a number 
ofpeople who were involved in the run-up to the passage of the 
Revitalization Act, that these issues were raised in discussions 
between the City and the Administration, and it was not agreed that 
they would be reimbursed, and it was not my understanding that that was 
the intention of Congress, but, quite frankly, sir, it is going to be a 
continuing issue on the part of the District until it is resolved and 
made clear what the intention of Congress may be. So that is the first 
issue, this $25 million of external indirect cost.
    There is also a dispute as to the method of counting 
prisoners who would be a Federal responsibility. The Act is 
somewhat vague in this regard, but our read, the Trustee's 
Office read, is that it essentially would be the Federal 
responsibility to reimburse the District for those prisoners 
who in the future would be transferred into the direct care and 
custody of the Bureau of Prisons, and our role is an interim 
measure.
    On the other hand, the District's assertion would be that 
everyone who is sentenced, even if they are not serving that 
sentence at the present time, even if they are in the jail or 
another facility, pursuant to other charges, would be a Federal 
responsibility, and there are hundreds of inmates in this 
category, and at $20,000-some a year, this amounts to a fairly 
significant dispute.
    A third area would be the issue of economies in the system 
that we feel could be had. As the count is downsized, as the 
count under their direct control has been reduced from 10,000 
to about 6,000 now, there are economies both in staffing and in 
other costs that we feel could be had. So there is some 
disagreement there, and several other areas, but there are 
significant disagreements between the District and our office.
    Mr. Rogers. The $185 million that you have requested of us, 
that will not be impacted by any changes that may come as a 
result of your negotiations with D.C.?
    Mr. Clark. We do not intend to change--at this point, we do 
not intend to change our request.

                     future growth of d.c. inmates

    Mr. Rogers. I am glad to hear that.
    Director Hawk, we have been focussing sort of on the 
current D.C. inmate population, around 7,200 inmates. I assume 
that the D.C. population, inmate population, will continue to 
grow. What will you do to absorb the future growth of inmates 
out of D.C.?
    Ms. Hawk. In terms of the capacity requirements, the 
request that we are anticipating for 1999 and 2000 would 
actually require more capacity than is currently needed to 
house the D.C. inmates, but there is still a question mark as 
to what that number is ultimately going to be. There are still 
sentencing changes being considered by the Sentencing 
Commission that was created by the Revitalization Act and 
because of the work that still needs to be done by the Council, 
we are not real, real sure what the ultimate population of D.C. 
will be in the upcoming years. If we find we do not need the 
full monies for construction, then we will certainly make that 
known when the time comes.
    We anticipate the growth of the D.C. population beyond that 
point to be probably at similar increments to our own growth 
and population over the out-years. As I indicated earlier, we 
are anticipating the entire population of the Bureau of Prisons 
to continue to grow to approximately 150,000 inmates, which 
will include D.C. and its projected growth by approximately 
2003.
    So, with our projections to date, we are projecting numbers 
that we feel are accurate and that our request each year, 
forthcoming, will match what we project those population 
numbers to be.
    Mr. Rogers. Mr. Mollohan.

                    role of d.c. corrections trustee

    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Hawk and Mr. Clark, I join the Chairman in welcoming 
you to the hearing today.
    Mr. Clark. Thank you.
    Mr. Mollohan. Mr. Clark, what is your charge?
    Mr. Clark. My charge, first of all, is in the financial 
area to provide oversight to all the operations of the 
Department of Corrections, financial oversight which actually 
gets into a degree of oversight of all of their operations.
    It is also to receive the funds allocated by Congress and 
to pass them on to the District and to oversee the way those 
funds are spent. So the first major area, the way I would 
interpret my charge, is this financial area.
    Second is to facilitate the transfer of the prisoners, the 
closure of Lorton, and the issue that I mentioned as far as the 
staff and trying to help them through this process.
    The third part of my charge--well, and I might say in that 
second area--in fact, in all of these areas, quite frankly, I 
have been cast in the role of an agent of change, which is 
frequently not a pleasant or easy role, and I wind up, in that 
role, sometimes having to be a painful prod to help people to 
move forward and get beyond a level of inertia.
    The third area beyond the financial and the transition is 
to, in my estimation, provide assistance to the Department of 
Corrections in its own reformation and rebuilding.
    Mr. Rogers. Will the gentleman yield?
    Mr. Mollohan. Yes, sir.
    Mr. Rogers. Did I understand him to say that the difference 
between a pat on the back and a kick in the rump is about 6 
inches? [Laughter.]
    Mr. Clark. I find myself in both----
    Mr. Mollohan. The answer to that is yes, just to help you 
out.
    Mr. Clark. Thank you, sir. I will take all the help I can 
get.

         classification of d.c. prisoners in private facilities

    Mr. Mollohan. That is kind of the way it goes.
    I am sure the distance is traveled frequently.
    Mr. Clark, I understand there are approximately 1,700 D.C. 
prisoners under contract in Ohio. Is that correct?
    Mr. Clark. Yes, sir.
    Mr. Mollohan. What is the security level of classification 
for those inmates? Low? Medium? Minimum? High?
    Mr. Clark. Quite frankly, sir, I think you have a mixture 
of inmate classifications, and this is a subject of an ongoing 
lawsuit in Federal court in Northern Ohio as to this very issue 
of the classification of the inmates. I think it is generally 
agreed that there is a mixture of inmates between the high-
medium and maximum level as----
    Mr. Mollohan. Wait a minute. I am sorry. Medium?
    Mr. Clark. In the Department of Corrections----
    Mr. Mollohan. Wait, wait.
    Mr. Clark. Sorry, sir.
    Mr. Mollohan. Answer the question.
    Mr. Clark. Medium-high, and maximum.
    Mr. Mollohan. Medium, high-medium.
    Mr. Clark. ``Medium, high-medium,'' which is a term 
usedwithin the Department of Corrections. They have a different 
classification system than you would have been used to dealing with the 
Federal Bureau of Prisons, and then they have a maximum security level 
which would be the rough equivalent of high security in the Federal 
Bureau of Prisons.
    Mr. Mollohan. Maximum would be high.
    Mr. Clark. Medium--these do not equate directly.
    Mr. Mollohan. Okay, but I just want to get them down.
    Mr. Clark. Right.
    Mr. Mollohan. Medium high-medium. What is the next one?
    Mr. Clark. Maximum.
    Mr. Mollohan. Oh, and then to maximum.
    Mr. Clark. Yes.
    Mr. Mollohan. There is nothing in between high-medium and 
maximum.
    Mr. Clark. No. And they do not have any equivalent to the 
Bureau of Prisons' ``low.'' So that, many of the prisons who in 
the Bureau of Prisons would be classified as low security would 
fall into medium security in the Department of Corrections 
classification.
    Mr. Mollohan. So medium is the lowest classification in the 
Department of Corrections?
    Mr. Clark. Above minimum. There is a minimum security 
level, similar to the Bureau of Prisons, but, to my knowledge, 
they do not have minimum security prisoners in Ohio.
    Mr. Mollohan. Okay, I think the record is clear.
    Mr. Clark. Okay.
    Mr. Mollohan. I am sure by now you are familiar with the 
Bureau of Prisons classification system.
    Mr. Clark. Yes, sir.
    Mr. Mollohan. Applying that standard, how many inmates at 
the Youngstown facility would be medium and high security 
inmates?
    Mr. Clark. That is a subject of great dispute right now, 
sir, and----
    Mr. Mollohan. Do you have an assessment of it yourself?
    Mr. Clark. I would say that almost--well over half would be 
medium or high security in the Bureau of Prisons.
    Mr. Mollohan. Are other inmates besides the D.C.-sentenced 
felons housed at the Youngstown facility?
    Mr. Clark. No, sir. It is exclusively devoted to the D.C. 
inmates.

              Murders of Prisoners At the Private Facility

    Mr. Mollohan. I understand two inmates were recently 
murdered at the Youngstown facility, one yesterday. Can you 
explain the circumstances of those murders?
    Mr. Clark. First of all, could I make one thing clear? This 
contract is not a contract that was entered into after the 
Revitalization Act and was not an action to which our office 
was a party. This occurred about a year ago.
    Mr. Mollohan. I know that, and I think it is good for you 
to make the record clear----
    Mr. Clark. But as far as----
    Mr. Mollohan [continuing]. We are getting information.
    Mr. Clark. Yes, sir, and I have visited Ohio. In fact, I 
had three staff in Ohio at the facility when the murder 
occurred, when the most recent murder occurred yesterday. The 
information on the most recent murder is at this point 
preliminary, and there is obviously an ongoing criminal 
investigation there, but from what we know about the most 
recent murder, there are some troubling aspects in that it 
occurred in the most secure area in the institution. It 
occurred in a segregation unit where there is ample staffing, 
where inmates should be under total control, and there is some 
indication that these were prisoners who should have been 
separated from each other.
    So there is a number of troubling aspects at least from the 
initial information that we have, but I would hate to speculate 
too much until there is more substantial information.
    The previous murder was in a general population unit. It 
occurred early on a Sunday morning when one inmate apparently 
went to the cell of two other inmates, and they closed the door 
and he was brutally stabbed.
    There have been a series of other stabbings at the 
facility, well over a dozen apparently. The facility has been 
locked down several times, more recently. So it is a troubled 
institution.
    I might say, as a former warden and after 23 years or more 
at this point in corrections, you go through troubled periods 
in institutions. Things happen. Bad things happen sometimes in 
institutions. It certainly would have been my experience in the 
Bureau of Prisons.
    Why those things happened is an issue, but, more important, 
how those difficult days, those difficult periods are handled 
is also a test. So----
    Mr. Mollohan. The press account suggests that the inmate 
who was stabbed and killed yesterday was shackled. Is that 
correct? Was he being escorted by a guard?
    Mr. Clark. It is my understanding that there were a group 
of inmates returning from a recreation yard, possibly five 
inmates who were all shackled, and the prisoner who was the 
assailant was being returned to his cell and was taken out of 
the shackles, and it was at that point that the assault 
occurred.
    Mr. Mollohan. Were guards present at that time?
    Mr. Clark. Yes.
    Mr. Mollohan. It is my understanding that approximately 72 
percent of the D.C.-sentenced felon population, or about 5,184 
inmates, are considered medium or high security inmates by the 
Bureau of Prisons. Do you agree with that assessment?
    Mr. Clark. I do not think the Bureau of Prisons has had a 
chance to classify or to review the files and classify most of 
the prisoners. They have done a random sample. I am not sure 
what their conclusions are on that, but there is a significant 
number who are medium and high.
    Mr. Mollohan. Director Hawk, the D.C. Revitalization Act 
requires the Bureau of Prisons to privatize 50 percent of the 
D.C.-sentenced felon population by September 30, 2003.
    Ms. Hawk. Fifty percent by 2003.

                  Security Levels in Private Facilites

    Mr. Mollohan. In looking at the numbers and percentages of 
inmates that the Bureau of Prisons considers to be of medium 
and high security classification level, I find no way of 
avoiding placing medium and high security D.C. felons into 
private facilities if that law remains operative.
    The law is specific in that D.C.-sentenced felons are to be 
placed in private facilities. Given the specific instruction, 
it appears that we simply are transporting much of the Lorton 
population elsewhere intact if we carry out that directive.
    You have spoken to us in the past about the management 
challenges associated with that population and why it 
isimportant to break up the D.C. population. As I said, though, the law 
specifically states that 50 percent of D.C.-sentenced felons must be 
privatized. What are your concerns about this approach?
    Ms. Hawk. We are concerned about the privatizing of the 50 
percent because our experience to date has been that the 
private corrections companies have not yet demonstrated the 
ability to safely operate medium and high security 
institutions.
    Now, one of the problems here is a problem of semantics 
that Mr. Clark referenced. When I say medium security inmates, 
I am talking about ``medium security'' as classified by the 
Bureau of Prisons' classification standard. We have a five-
tiered system: minimum, low, medium, high, and super max or 
administrative max.
    Most State systems, as D.C., do not have a low security. 
They have minimum-medium, high, and max. Most of the private 
companies use that same classification system of minimum-
medium.
    So the private companies will say yes, we do run medium 
security institutions, but, to date, our experience has been 
their medium security matches our low security. So, when we 
talk medium and the private companies talk medium, we are 
really talking apples and oranges. We are talking two different 
classification structures.
    So it is my experience and our evaluation to date that the 
private companies do not have a track record operating 
institutions to house our classification of medium-high 
security inmates.
    I believe Congress also shared some of that concern 
because, in addition to requiring the 50-percent privatization 
by 2003, they also directed a study to be done. The study is to 
be directed by the Attorney General to evaluate the feasibility 
of privatizing all security levels, including medium and high. 
Also, Congress has tasked us with evaluating a 5-year pilot 
study, actually, of evaluating the privatization of our Taft 
Federal Correctional Institution that just opened in December 
of this past year.
    So, although the 50-percent requirement stands in the law, 
there are also these studies that Congress has directed us to 
do that, I think, will allow for a fair answer to the question 
of what privatization is ready to absorb.
    My concern, I think my responsibility in the Bureau of 
Prisons, is to ensure that public safety is assured. I mean, 
that is our absolute responsibility, and we take that 
responsibility very seriously, as well as the safety of the 
staff working in those institutions and the inmates who are 
placed in our custody. That is why you hear me repeatedly in 
the Bureau of Prisons being very conservative about moving too 
fast at placing higher security inmates in institutions that 
have not yet demonstrated the ability to provide the kind of 
security necessary to ensure public safety, the safety of 
staff, and the safety of the inmates placed in that custody.
    Mr. Mollohan. Is that 50-percent privatization requirement 
in any way contingent upon the outcome of those studies?
    Ms. Hawk. It is not specifically stated as such, although 
since the 50-percent requirement and the requirement of the 
one-year study to be done by the Attorney General are stated in 
the same Revitalization Act, I would assume that there is a 
nexus between the two, but it is not specifically said that the 
one is required for the other.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Taylor?

                  Federal Assumption of DC Corrections

    Mr. Taylor. Mr. Mollohan, I noticed the suspects in the 
stabbing--one had been convicted twice for murder in D.C. He 
also had stabbed a prison guard in 1995, stabbed a Youngstown 
inmate in July, and assaulted another prison guard in October.
    Now, in D.C. where you get about 2 weeks for murder, the 
first murder, you are going to get--you know, you are up to 3 
months. The second murder, you will get in trouble. Now, he may 
have to go 90 days or more.
    As Chairman of the D.C. Appropriations Committee, we tried 
to do things about it, and until this Congress gets serious 
about D.C.--and we are spilling over into your operation 
something that would be unpleasant for the entire country, but 
I would like to ask a couple of questions.
    Given the facts that have been brought up in your statement 
and Mr. Mollohan's statement, do you think that the--is this 
Act good for the Federal Government, or is it good for D.C.? If 
you had to pick one that came out ahead, which would you pick?
    Ms. Hawk. In terms of the entire Revitalization Act?
    Mr. Taylor. Yes.
    Ms. Hawk. Well, I am on record----
    Mr. Taylor. And the prison portion of it.
    Ms. Hawk. Yes, sir.
    I am on record for the years preceding this Act passing of 
saying that the Federal Government should not absorb the D.C. 
population because there, for a while, I believed very much 
that with proper resources and oversight that D.C. could manage 
its own population effectively. But I came to the realization 
finally, about a year ago, that I did not think that was going 
to happen, especially with all the many problems the entire 
D.C. Government was facing.
    As a prison administrator, I support the idea of the 
Federal Government absorbing the portion of the D.C. 
Corrections that kind of matches what a State would absorb for 
a city. So absorbing the DC sentenced felons into the Federal 
Prison System, I think, is an appropriate decision to serve 
both D.C. and to serve the needs of the Federal Government.

                      Impact of Revitalization Act

    Mr. Taylor. What would you say the plan's impact is going 
to be on your agency's workload, the guards in the system, the 
communities that are going to be impacted? Do not sugar-coat it 
with optimism, but what are people going to have to expect in 
the coming years, and actually less than that?
    Ms. Hawk. I believe that given sufficient resources, 
sufficient new capacity, and operating resources in the out 
years commensurate with the number of inmates required to be 
held by absorbing the D.C. population, I believe that we are 
going to be able to transition them relatively well.
    The Bureau of Prisons has tripled in size since the mid-
1980's. So regarding growth and responding to growth 
effectively in large numbers of populations, I believe we have 
already demonstrated quite well that the Bureau of Prisons is 
very capable of doing that.
    Mr. Taylor. We have your testimony this year. What would be 
the growth of the resources that you think would be adequate 
looking ahead with an estimate? Is that going to be pretty 
significant?
    Ms. Hawk. Well, we are anticipating the 7,000 more D.C. 
inmates at a cost for us of about $20,000 per year, per inmate, 
and then we are projecting, as I indicated earlier, that by 
2003, we will have increased another 31,000 inmates, not 
counting the D.C. population. So that is a growth of 38,000 
more inmates by 2003, and I do not have the math here, but if 
you would simply multiply that with an inflation factor 
probably 22,000 or 23,000 by 2003, that would basically present 
to you what the growth in our budget request would be annually 
in the out-years.
    Mr. Taylor. Is that adequate, do you think?
    Ms. Hawk. I think it would be very adequate, as long as we 
can receive the operating expenses, incrementally increasing as 
our population goes up. The Congress has been very good to us, 
heretofore, in ensuring that we have the resources we need to 
manage our population, I think we will be fine.
    Mr. Taylor. Is the time estimate reasonable?
    Ms. Hawk. The time is tight. We had originally--the 
administration had originally put forward the date of 2003 
because it takes a few years to build a facility once the money 
is obtained and the site is determined, and that is true 
whether it is private sector or public sector. Both of us agree 
that it takes 3 years from the time you have thesite identified 
to build a new facility.
    The change, though, from 2003 in the final Revitalization 
Act to 2001, is going to be real tight for us. If we stay on 
target right now and we are able to meet all the timelines 
without any unanticipated delays, we will be ready by the end 
of 2001 as required by the law to absorb the increase.
    Mr. Taylor. Mr. Chairman, thank you.
    Mr. Rogers. Thank you.
    Mr. Dixon. Mr. Chairman, I have not voted yet. I would be 
pleased to be passed on this first round.
    Mr. Rogers. We have two votes, by the way.
    Mr. Latham. I have not voted either.
    Mr. Rogers. Well, we have, I think, plenty of time to have 
one round here. We have 6 minutes, if you would like to start.
    Mr. Dixon. I would pass on the first round, Mr. Chairman.
    Mr. Rogers. Okay.

                     Health Care Costs for Inmates

    Mr. Latham. I would be interested, I guess, in health care 
being provided by the Bureau. How much does the Bureau spend as 
far as health care in total and per inmate? Do you have those 
numbers?
    Ms. Hawk. Our cost per inmate is roughly $3,400 per year. I 
would like to note that that is a decrease in our per capita 
over the last few years. We have been doing a number of 
initiatives to bring the cost of health care down in the Bureau 
of Prisons, even though medical inflation is increasing at the 
rate of 3 to 7 percent. Our per capita for medical has gone 
down almost 2 percent during the past year. So, obviously, some 
of our initiatives are working very well.
    Mr. Latham. Do you expect that to continue as far as you 
are planning?
    Ms. Hawk. Yes, we do.
    Mr. Latham. Good.
    Ms. Hawk. Even though our population is becoming sicker 
with infectious diseases and just the quality of health care 
that many of our inmates bring to date.
    Mr. Latham. You had a pilot program, I think, starting in 
1996 down in the Beaumont, Texas, complex.
    Ms. Hawk. Yes.
    Mr. Latham. Do you have any preliminary results or anything 
to see if that has helped to reduce the health care cost?
    Ms. Hawk. We are really still in the middle of analyzing 
the pilot. So far, the pilot is going well. As in any pilot or 
new situation, there have been some adjustments made on both 
sides to ensure that adequate medical care is being provided 
and the quality of the medical care meets the community 
standard, which is a standard that we try to adhere to, and so 
far, the pilot is going well.
    We are optimistic that there are going to be some lessons 
learned for us. We are already watching very carefully, some 
lessons to be learned for us, in looking at our own health care 
costs to make sure that we are providing adequate health care 
at the lowest cost possible. So far, the pilot is going well. 
It is just a little early yet to----
    Mr. Latham. When will you have definitive results?
    Ms. Hawk. I am not sure what the timeline is, sir, but I 
will get back and get that to you.
    [The information follows:]

                      Health Care Pilot--Time Line

    Congress has directed the Bureau of Prisons (BOP) to 
undertake a health care privatization demonstration project 
based on a competitive procurement covering a representative 
sample of the Federal Prison population, i.e., at least one 
Federal correctional complex. The project is to run for a 
minimum of three years.
    The BOP proposes the following reporting schedule for the 
Beaumont health care privatization project:
    August 1998: a status report that outlines progress to 
date, including an update on numbers and types of inmates at 
each facility, accreditation progress, and an evaluation plan 
that outlines how the Bureau intends to evaluate the health 
care services.
    August 1999: update on progress toward complete activation 
and medical referrals, numbers of inmates and medical severity 
profiles, preliminary report on monitoring effort.
    August 2000: a descriptive analysis of offenders treated at 
the health care facilities in Beaumont and Taft, comparing 
those offenders with offenders treated in other BOP facilities 
and providing preliminary data as to these comparisons.
    August 2001: preliminary results from survey of all state 
correctional health care programs, including public and private 
efforts, update on progress toward final evaluation report.
    December 2002: a final report on the health care 
privatization efforts at the Beaumont Complex and the minimum 
and low security facilities at Taft and a final report on the 
5-year demonstration project at the two Taft facilities.

    Mr. Latham. Are States going the same way on that, as far 
as privatization?
    Ms. Hawk. There really is a little bit of everything being 
done across the country.
    Mr. Latham. You have not looked at the State programs, 
though, as far as to see how they work?
    Ms. Hawk. Many of them are very different.
    Mr. Latham. If they have complied?
    Ms. Hawk. Some have tried privatization, and it has not 
worked for them. We had tried privatization in the past, and it 
did not work for us, but there are a lot of new initiatives, I 
think, being put forward by private companies.
    What happened to us in the past was we found that, 
initially--and that is why we want the pilot to go on for afew 
years to really make sure we have a good analysis--privatization of 
health care was initially very cost effective. They came in with very 
good bids, but then once we would become dependent upon that and have 
no other health care available, you could watch the prices begin to 
increase dramatically. They reached the point very quickly of being 
cost prohibitive.
    Now, I do not know if that is what is going to be happening 
in today's initiatives. So we would like to watch this pilot 
over a few years to make sure that costs stay consistent.

                          use of generic drugs

    Mr. Latham. Just very briefly, regarding drugs, is there a 
Bureau policy as far as using generic equivalents?
    Ms. Hawk. We are involved in a pharmacy formulary that is 
very cost effective. It is one of the things we have done over 
the last several years to bring our costs down where they are 
able to use the lowest cost, but equally effective medications, 
and we are able to tap into an entity that buys them in large 
quantities. Then, we only receive that which we absolutely need 
on an as-needed basis or biweekly. We are getting the drugs 
that we need for that week. So it has really saved us a 
tremendous amount of money in terms of buying the drugs 
ourselves, risking of going past expiration dates, risking 
having drugs sitting there that we really did not necessarily 
need right now. Really, the pharmacy formulary has served us 
very, very well to bring the costs down.
    Mr. Latham. Very good.
    Thank you, Mr. Chairman.

            Death of BOP correctional officer of Lompoc, CA

    Mr. Rogers. Director Hawk, last year we talked about the 
tragic death of a BOP correctional officer at Lompoc, 
California, and we gave you additional money for construction 
upgrades there. Has there been any improvement in the potential 
for violence at Lompoc?
    Ms. Hawk. The construction is still ongoing there, but we 
are quite certain that it is going to have a very good effect 
in terms of making that facility more secure.
    The Lompoc penitentiary really was never built to be a 
penitentiary back when it was originally created, and it had to 
be upgraded because our high security needs were so severe. 
That has been several years ago that we kind of upgraded it, 
even though it had not been built to be a high.
    For long-range planning, our hope is to come back to this 
committee in future years requesting funds for a new 
penitentiary on the West Coast, and then we could convert the 
current penitentiary at Lompoc to a medium security 
institution, which we feel is much more commensurate with what 
its original design was intended to be. The staff there has 
just done an extraordinary job after the horrible tragedy of 
Scott Williams' death. They really have increased their own 
vigilance where they have put in a lot of cameras and other 
kinds of things to increase security.
    We have dropped the population there a little bit to make 
it more manageable, and so far, things have been going very 
well at that institution.

                             managing gangs

    Mr. Rogers. In the past, you have mentioned emerging gangs 
in your system.
    Ms. Hawk. Yes, sir.
    Mr. Rogers. What kind of gang problems do you see, and how 
do you manage them?
    Ms. Hawk. Gangs are a very serious problem for just about 
any correctional system in this country because all of us, for 
the most part, have our share of gangs.
    The gangs in the Federal Prison System have been 
proliferating at a dramatic rate. It used to be we would get 
the old prison gangs, the Aryan Brotherhood, some of those more 
traditional prison gangs.
    What we are getting now is more and more of the street 
gangs, the Crips and the Bloods, all the crews in D.C., and all 
of those smaller gangs that are very violent, very aggressive. 
Since the Federal Government has been focusing more and more of 
its prosecutorial resources on bringing in the large drug-
traffickers who are touching the large amounts of violence and 
everything in our communities, we are getting more and more of 
these violent street gangs into our prisons, and they are 
getting more membership inside the prison. And it is these 
many, many street gangs that are becoming the gang problem in 
our institutions.
    We have a plan afoot right now, and we hope to activate it 
by January of next year. We are going to totally restructure 
the way in which we approach gangs, and really try to--a term 
that we use is ``cut off the head of the snake,'' in that we 
will be able to peel off all of the gang leaders, segregate 
them in a special way, and then be able to touch those inmates 
who are simply the followers, with the leaders removed, being 
able to bring them more in line with the expectations of 
behavior in the Bureau of Prisons.
    That is an initiative that we have been working on now for 
over a year. It is a major change in the way we designate 
inmates and the way we manage inmates, and it is a change that 
you cannot do piecemeal. We have to have the plan laid out very 
clearly and be ready to move in, in a full sweep to affect all 
the gangs in the system.
    Heretofore, we have had actually a few hundred gang 
members, gang leaders, locked up in special housing or 
segregation because of their misconduct, because of some of the 
homicides and serious assaults that have been going on in our 
institutions. Rather than dealing with it on an institution-by-
institution basis, as we are doing now, we believe this new 
system of just taking the leadership across all gangs, across 
the entire system, placing them in separate facilities, until 
they renounce their gang membership and renounce their gang 
leadership will have a calming effect on all the rest of the 
population and provide a much safer environment for the staff 
and inmates in those facilities.
    Mr. Rogers. Have you reason to believe it is working?
    Ms. Hawk. Well, we are not there yet. We are still 
planning.
    The long-term systemic sweep is not really going to begin 
until about January. What we have been doing to this point is 
pulling off the leaders, institution by institution, and that 
is already having an effect on the safety in some of those 
institutions. What we need is the grand plan, but it is going 
to change the way we restructure every one of our facilities. 
So we wanted to make sure we have the plan clearly together 
before we go in and implement it, which we are hoping around 
January of next year.

                     intelligence gathering effort

    Mr. Rogers. In the fiscal 1998 budget, we gave you $1.4 
million to expand your intelligence-gathering effort 
capabilities on inmates.
    Ms. Hawk. Yes.
    Mr. Rogers. How are you using that funding, if you cantell 
us?
    Ms. Hawk. The intent for that funding was really an 
initiative that goes across the Department of Justice. What we 
find is that we have our Metropolitan Correctional Centers in 
the large cities, in New York, in Los Angeles, in Chicago, San 
Diego, and Miami, where we house the U.S. Marshal's pretrial 
inmates, those coming straight off the street that have not 
been sentenced yet, and what we find is there is a tremendous 
amount of intelligence among law enforcement, both State and 
Federal, about what is happening in that inner-city area or in 
the extended communities outside of the inner-city area. We are 
a ripe source of information because we are housing all of 
these pretrial inmates that are oftentimes the leaders, movers 
and shakers of some of these drug cartels and drug initiatives.
    So, the intent of these new positions is to be able to 
place someone who is 100-percent focused on simply gathering 
that intelligence, working with local, State and Federal law 
enforcement, to make maximum benefit of all the intelligence 
that is known in that area about any of the crime going on. 
Drug-trafficking is a major portion of it, and so is the 
violence that flows from the trafficking. So we believe it is 
really going to enhance law enforcement by making us a more 
intimate part of that collection of intelligence and have a 
good impact.
    Mr. Rogers. We would be interested in keeping up with you 
on gangs.
    Ms. Hawk. Yes, sir.

                funding for growth of prison population

    Mr. Rogers. That could have very serious consequences.
    I have been on this subcommittee for 15 years, and during 
that time, I have seen over $5 billion given to construct more 
prison beds in the Federal system. In fact, according to our 
numbers, you have added over 59,000 prison beds, but the 
population has risen to meet that number.
    Your 1999 budget request for new prison construction is 
solely to handle the additional D.C. population, and, yet, the 
Federal general population is still suffering from 
overcrowding, also growing at very significant rates.
    Is the request that you made sufficient to handle your 
current problem of overcrowding in population growth, outside 
the D.C. problem?
    Ms. Hawk. It is sufficient for now, Mr. Chairman. If we did 
not have the D.C. problem coming in and the need for new 
construction this year or next year, we probably would have 
come in with some request for construction other than the D.C. 
facilities. As you know, we are still behind the curve in 
overcrowding.
    System-wide, we are 20 percent over capacity, but it is 
most frightening in our medium and high security institutions 
which are still roughly 50 percent over capacity, but we try to 
be reasonable in our request and we know the limited money that 
is available to us. It is not an endless pot of money, and we 
try to be very reasonable in terms of what we came forward with 
this year. Once we address the capacity needs of absorbing the 
D.C. population, that is not going to be the end in terms of 
our projections of capacity needs. So we envision in the out-
years probably coming back to this committee again, Mr. 
Chairman, requesting new capacity just to help us absorb the 
increase that is still coming, separate from the D.C. 
population.
    Mr. Rogers. Did you ask OMB for more construction money 
than you were given?
    Ms. Hawk. There were discussions in the Department in terms 
of what was reasonable and what our needs were and what we 
could hold off on for a later year.
    The reality is we anticipated there will be some beds in 
these D.C. institutions that we are asking for that will help 
us absorb some of our growth because our prisons are roughly 
1,500 inmates, or 1,000 inmates in size, and when you project 
out how many we need to absorb the D.C. population, there are 
going to be some beds left for some of our own growth. So our 
feeling was that we will be okay. We will be okay with what we 
are asking for in this year, but in the out-years, we will be 
back, probably seeking more funds.
    Mr. Rogers. Did you ask OMB for more money than they 
allowed?
    Ms. Hawk. I know there were discussions of what the needs 
were, but I do not believe we made a specific request for 
anything more in the appeal process.

        Attorney General's study of federal detention management

    Mr. Rogers. In our report accompanying the 1997 
appropriations bill, we directed the Attorney General to 
conduct a review of Federal detention and incarceration at the 
BOP, U.S. Marshals Service, and the Immigration and 
Naturalization Service (INS). The Attorney General was to 
``evaluate the performance of these agencies and develop 
recommendations to consolidate management of their operations, 
where possible,'' on November 15, 1997. Do you know where we 
stand on that report?
    Ms. Hawk. I know a tremendous amount of work has been going 
on. We and the Marshals and INS have been working very 
carefully with the staff in the Justice Management Division 
working on this.
    I am not 100 percent sure where the final report is right 
now.

                   long-term criminal alien detainees

    Mr. Rogers. In your statement, you mentioned that criminal 
aliens represent 28 percent of your total population, and that 
you anticipate the transfer of nearly 2,000 long-term non-
releasable criminal aliens now in INS custody to BOP.
    At the INS El Centro service detention facility which 
houses 658 aliens, there have been three incidents this year, 
many involving long-term criminal detainees. The most recent 
one was 2 days ago, Tuesday, where about 170 detainees smashed 
lights, kicked guards, struck them with bricks--I am sorry--
with sticks before using mattresses to barricade themselves in 
the facility.
    In your opinion, is INS adequately equipped to handle long-
term criminal detainees?
    Ms. Hawk. I think INS has been doing a very commendable job 
maintaining this very difficult population because they 
basically have no idea what the future is going to hold for 
them because they are not serving a sentence anymore. So they 
do not really fit the definition of a sentenced population or 
the kind of inmates the Bureau of Prisons should hold, but 
their home country will not receive them back, and we are not 
going to release them into this country. So they are kind of in 
a limbo status.
    They do, though, pose just as you suggest in the El Centro 
situation, a real challenge to INS because they have a limited 
number of secure beds, and they contract out most of these 
individuals to local jails or to private companies. That is 
why, as I noted in my comments, it is the long-term plan with 
the Department of Justice for us in the Bureau of Prisons to be 
able to absorb these inmates, even though theyare not sentenced 
felons, even though they are not traditionally what our Bureau of 
Prisons should house. They are really detainees who are serving time 
simply because their home country will not take them back. We are not 
going to release them into this country. So they are kind of in that 
limbo status. It is the long-term plan for us to hold them for INS 
simply because we believe we will be able to house them more safely and 
securely.
    The problem is, sir, we do not have the capacity to hold 
them just yet. So the plan is once we have adequate capacity at 
medium and high security to start absorbing those inmates into 
our system, we will do that.
    I do not have a specific date and the Department of Justice 
is not citing a specific date of when we are going to be able 
to do that. It will totally depend upon when our capacity will 
allow us to do that.
    We have several facilities, as you know, Mr. Chairman, that 
have already been funded by this committee that will be opening 
up for us, separate from the D.C. facilities, but opening up in 
the next few years, and we are hoping that will provide some of 
the capacity we will need to take in some of these long-termers 
that INS is holding.
    Mr. Rogers. Give us some idea of a timetable for that.
    Ms. Hawk. I believe the date we are saying to the 
Department is roughly 2002, 2004. When I look and see when our 
new capacity is going to be built that has already been funded, 
we have numerous institutions coming on between 2000 and 2003.
    Mr. Rogers. Well, these incidents, as you know, this 
Committee funds the INS as well, and we just cannot have this 
kind of incident continuing. I mean, it is becoming a chronic 
problem that we have got to deal with, and that is the reason 
we asked in the report last year for the study, and we have 
heard nothing yet. We are going to have to move on this.
    We will tell INS and the Attorney General the same thing. 
We have, in fact, but she will probably hear it in a more 
shrill voice than before. So I just think we have to move on 
getting these long-term criminal detainees out of inadequate 
facilities into where we can take care of them safely, for 
their own sake, as well as the other population.
    Ms. Hawk. Well, I know there is a very serious work going 
on in terms of the study. As I said, we have been very much 
involved, and it ends up being a very complicated process. We 
wanted to make sure it is very thoroughly studied, evaluated, 
and then brought forward to this committee. So I know there is 
a lot of work going on with it. I just do not know the status 
of it at this point in time.
    Mr. Rogers. Can you get back to us and let us know when 
that report is going to be available?
    Ms. Hawk. Absolutely. We can certainly do that.
    Mike, did you want to talk to that at all?
    Mr. Roper. Mike Roper, Controller.
    The report is sitting within our policy office. It is in 
the Deputy Attorney General's office, awaiting the Attorney 
General's office for signature. The hope is, it should be up 
here within the next week to 10 days, the first phase of the 
report.
    There was a second phase of the report that is looking at 
the cost of the consolidation of the major parts of the 
detention capacity. That probably will not be ready for about 
another month or so.
    Mr. Rogers. Well, a week from today is the 19th. Is that 
agreeable?
    Mr. Roper. We will carry that message back. That is the 
date the swallows will come back to Capistrano.
    Mr. Rogers. I am sorry. I did not hear that.
    Mr. Roper. The 19th of March, I believe, is the day. I will 
remember it in that term.
    Mr. Rogers. Well, in addition to the swallows returning to 
Capistrano, may the report filter onto our desk. [Laughter.]
    [The information follows:]

            Status of the Detention and Incarceration Study

    Phase I of the Department's Detention and Incarceration 
Study was submitted to Congress on March 19, 1998. The phase II 
report, which is currently being reviewed by the Department, 
examines the costs and benefits of a range of options to 
determine whether major consolidation of all detention 
functions into one or two components is warranted. The 
Department expects to transmit the phase II report to the 
Committee in May.

    Mr. Rogers. Mr. Dixon.

                        revitalization timeline

    Mr. Dixon. Thank you very much, Mr. Chairman.
    I guess I am searching for a chronology here first. Then I 
would like to go to how much corrections really costs in total 
Federal and District funding. Then I would like to go to some 
other matters that have been called to our attention.
    Director Hawk, in your view, there is now no inconsistency 
in the 2003 and 2001 language in that revitalization bill, as I 
understand you said. You were leaning toward 2001.
    Ms. Hawk. Yes, sir.
    Mr. Dixon. Now, as I understood the language, it said that 
you had to reach 50 percent privatization by the year 2003.
    Ms. Hawk. Yes, sir.
    Mr. Dixon. On the other hand, the Department of Corrections 
would have jurisdiction until 2001.
    Ms. Hawk. Yes, sir.
    Mr. Dixon. I do not see any inconsistency. Is there?
    Ms. Hawk. I do not see a real inconsistency in that either. 
No, sir.
    Mr. Dixon. Has it been an issue?
    Ms. Hawk. You mean in terms of the difference in the dates? 
No. We just wish both dates were 2003, but other than that----
    Mr. Dixon. With cleaner language, but there is 
noinconsistency?
    Ms. Hawk. No.
    Mr. Dixon. Now, refresh my memory. When Congressman Moran 
sat on this panel, he directed the Federal Bureau of Prisons to 
conduct a study as it related to the Bureau of Prisons taking 
over the correctional facilities of the District, primarily 
Lorton. is that correct?
    Ms. Hawk. Well, there were actually two studies that were 
requested. One was directed by Congressman Moran, and it 
specifically said what would need to happen for the District of 
Columbia Department of Corrections to function like the Federal 
Bureau of Prisons, and we assumed that meant absorbing our 
policies and classification systems and all of that.
    Mr. Dixon. What has happened to that?
    Ms. Hawk. That study was completed a few years ago.
    Mr. Dixon. Okay.
    Ms. Hawk. The second study that was requested was much 
broader, and it talked about what kinds of options would be 
available to D.C. in order to ensure that it could be run 
safely, cost effectively, and all the things we would all hope 
for in any prison system.
    That study was completed about a year ago. It was funded by 
the Bureau of Prisons. We tasked the National Institute of 
Corrections, which is our arm that deals with State and local 
issues, and then they subcontracted with NCCD, the National 
Commission on Crime and Delinquency, to do the study.
    They came forward with about five different options. It 
involves us fully taking over the system, us taking over the 
high security inmates, and D.C. keeping others. There are five 
different options, and it kind of flowed from that study--the 
final Revitalization Act--and kind of narrowed in on which 
option that the Government wanted to go with.
    Mr. Dixon. So this mess has really been all directed by 
Congress?
    Ms. Hawk. I would not say the mess has been, but I think 
the fix has been directed by Congress.
    Mr. Dixon. The fix has been directed by Congress.
    Ms. Hawk. Yes, sir.

               budget for d.c. department of corrections

    Mr. Dixon. Trustee?
    Mr. Clark. Yes, sir.
    Mr. Dixon. If I understand your request, it is for 385, is 
it?
    Mr. Clark. No, sir. 185.
    Mr. Dixon. 185. I am sorry.
    How much, if any, is in the D.C. budget, do you know, for 
the Department of Corrections?
    Mr. Clark. The total request for next year, it is my 
understanding--and I have sat in on the budget hearing before 
the City Council last week--that their request is slightly over 
$250 million, which would cover not only the sentenced felons, 
but also their cost of housing pretrial prisoners and 
misdemeanors.
    Mr. Dixon. $250 million?
    Mr. Clark. Correct. Maybe 252, but in that range.
    Mr. Dixon. Included in that is a payment to the Federal 
Bureau of Prisons of some $36 million?
    Mr. Clark. No, sir. I do not think there is any 
anticipation that any payment will be made from the District to 
the Federal Bureau of Prisons next year.
    In previous years, the Bureau of Prisons was reimbursed for 
the number--
    Mr. Dixon. I understand that.
    Mr. Clark. Right.
    Mr. Dixon. But it is your understanding that you are not 
requesting any reimbursement in the--
    Mr. Clark. I am requesting funds in my budget that would 
reimburse the Bureau of Prisons to the extent--
    Mr. Dixon. Well, Mr. Taylor should not anticipate a line 
item in the D.C. budget that says payment to the Bureau of 
Prisons?
    Mr. Clark. No, sir.
    Mr. Dixon. Now, I noticed in this morning's paper--and the 
staff brought it to my attention. I was not going to mention 
it, but I read it and then they thought it was important. Ms. 
Norton, at least according to the Post this morning in a 
paragraph or two, has sent a letter to the President requesting 
another $94.7 million, and this clip says that Ms. Norton says 
that the Federal Government has to agree to take over the cost 
from incarcerating D.C. felons, and that the City should not 
bear the cost of erroneous projections. Do you know what she 
means?
    Mr. Clark. I have seen the article, sir, and I did see a 
copy of her press release. Yes.
    Mr. Dixon. Do you know what this is all about?
    Mr. Clark. Oh, yes, sir, and I think you may have been out 
voting or not here when the issue came up previously, but there 
are several disputed areas. I did reaffirm that my----
    Mr. Dixon. Several disputed areas between the Trustees and 
the District?
    Mr. Clark. Yes, sir.
    Mr. Dixon. And so her idea of settling it is to ask for 
more money from the President? That resolves the dispute?
    Mr. Clark. That is my understanding. Yes, sir.
    Mr. Dixon. What is the issue in Congress?
    Mr. Clark. There are several areas. One, the primary area 
that involves at least $25 million is what is termed by the 
District, ``external indirect cost,'' not cost of running the 
Department of Corrections, but in addition to the $250 million 
in their budget, another $25 million for payment of interest, 
for depreciation on buildings. Those two amounts are about two-
thirds of the $25 million, and there are payments--or there is 
an assertion that there should be a reimbursement for other 
central costs to the government, including the City Manager's 
office or City Administrator's office, to some extent, the 
personnel processing costs of the central government, those 
types of costs. So there is that one figure, which this current 
year they estimate to be close to 25 and another 25 million 
next year. That is the biggest disputed issue, and it is my 
understanding that this was an issue that was brought up in 
some detail in the run-up to the passage of the Revitalization 
Act in discussions between the District and the administration, 
and it was not agreed that this would be part of the funding. 
It is also my understanding that that was not anticipated in 
the 1998 appropriation to the Trustee that those costs would be 
funded. So that is the biggest----
    Mr. Dixon. So, basically, they cannot get you to agree to 
this. The District is trying to appeal to the President.
    Mr. Clark. Apparently. Apparently.
    There are several other areas that include lesser amounts, 
including my assertion that there should be some significant 
reduction in their operating costs, as the number of prisoners 
in their direct control is reduced.
    Mr. Dixon. Mr. Chairman, I have a lot more questions, but I 
do not want to be harsh on the time.

            responsibility for prisoners in private facility

    Who in your opinion is legally responsible for the 
prisoners of D.C. when they are housed in a private 
institution? Is there an agreement with CCA as to who has legal 
responsibility for that? What do you mean by that? Where would 
I file a cause of action for wrongful death? Is it still the 
District? Is it the Trustee? Is there any agreement?
    Mr. Clark. Hopefully, certainly it is not the Trustee.
    I do not think that the District or any jurisdiction which 
contracts out its prisoners thereby loses responsibility for 
the safe custody of those prisoners.
    Mr. Dixon. Unless there was some agreement.
    Mr. Clark. Even there, no matter what the agreement is, I 
am sure the courts would not necessarily honor that agreement 
if a cause of action was brought if the contracting----
    Mr. Dixon. What do you mean by an agreement? To carry some 
kind of insurance clause?
    Mr. Clark. Sure. Frequently, there is an indemnification 
clause that is included in the contract, but----
    Mr. Dixon. Is there such a clause in this contract, the 
District's contract with the Ohio facility?
    Mr. Clark. I do not think so, no.
    Mr. Dixon. So the District is still legally responsible?
    Mr. Clark. I think both the District and CCA in this case 
bear some legal responsibility, and I think part of the 
responsibility of any jurisdiction that is contracting out beds 
is to do close and meaningful oversight and monitoring of those 
contracts. If that is not occurring, then that would speak to 
the liability of the jurisdiction.
    Mr. Dixon. Do you feel that the Trustee has now assumed 
that responsibility for the District?
    Mr. Clark. No, sir.
    Mr. Dixon. I noticed that you said at the time of this most 
recent occurrence, we have had three employees on site there.
    Mr. Clark. I did.
    Mr. Dixon. Does the District have people on site that are 
monitoring the conduct and the operation?
    Mr. Clark. Not on a full-time basis, and that is an issue 
that has been raised within the City government.
    They, in fact, have contracted out to another private firm 
to do the oversight of the facility up there, which is an 
approach that I have some problem with.
    Mr. Dixon. The District has contracted that responsibility 
to a private firm?
    Mr. Clark. Yes, sir.
    Mr. Dixon. Do you have any responsibility to sign off on 
that contract?
    Mr. Clark. No, sir.
    If I could just continue----
    Mr. Dixon. Sure.
    Mr. Clark [continuing]. I feel I do have a responsibility. 
My role, as I tried to articulate earlier, is not to run the 
day-to-day operations or be responsible for hiring, firing, or 
making operational decisions, but to do oversight of the manner 
in which the Department of Corrections is doing that.
    Director Moore is still the Director of the Department of 
Corrections.
    Mr. Dixon. But I guess I am asking you, what authority you 
presently have. Now, they have contracted out their 
responsibility to monitor, and as I understand, you have 
objected to that or had some reservations about it, but it was 
done, anyway. Is that correct?
    Mr. Clark. Well, it was done previous to my tenure, and 
they are moving in the direction of taking back that 
responsibility themselves. They have a plan to put an on-site 
monitor there. They have advertised for that position. At this 
point, they are not there yet, but that is their plan, and that 
is what we have encouraged them to do, to take a more active, 
direct responsibility by the Department rather than contracting 
this out to another private firm, but our responsibility, 
again, is not to enter into these contracts and not to 
necessarily approve of them, but to do oversight, to call to 
their attention where we feel there are significant problems.
    I had staff on site both to be looking at the quality of 
the management by the private firm, as well as to look at the 
manner in which the other firm was doing oversight of the 
contract.
    Mr. Dixon. Now, as I understand it--and I think Mr. 
Mollohan indicated--the judge in Ohio has put a bar on any more 
prisoners being transferred to that facility.
    Mr. Clark. Yes, sir, for 90 days.
    Mr. Dixon. For 90 days.
    Will you be responsible now for the transfer of other 
prisoners to other facilities, or will that be the District?
    Mr. Clark. No, sir. I do not bear responsibility for those 
day-to-day operational decisions in the Department. That is the 
responsibility of the Department of the District.
    Mr. Dixon. I am trying to get to what your responsibility 
is.
    Mr. Clark. Yes, sir.
    Mr. Dixon. As I understood it, there were things that 
happened prior to your arrival on the scene, and that you had 
no responsibility for those decisions.
    Now what responsibility do you have for the Department of 
Corrections actions? Is it just to advise?
    Mr. Clark. The law, as passed, gives me responsibility to 
do oversight and monitoring of the financial operations of the 
District. It does not give me operational responsibility on a 
day-to-day basis.
    Mr. Dixon. No. Do you have the authority to stop an action 
by the Department of Corrections if you think it is financially 
or otherwise imprudent?
    Mr. Clark. I am not sure. I think that a case could be made 
for that. We have not gotten to that point. That is why I need 
a good attorney. [Laughter.]
     It is new ground. Our whole office is obviously new 
ground, and we are trying to sort out some of these issues, to 
be frank.

                        privatization--gao study

    Mr. Dixon. Director Hawk, I understand that there are 
several reports out that criticize the privatization process in 
that basically, in the long run, it is not safe. The California 
Correctional Peace Officers Association wrote me concerning, I 
guess, a Federal facility in California.
    First of all, are there some studies that you are familiar 
with dealing on the subject of privatization?
    Ms. Hawk. There are some studies that have been done, and 
perhaps the one you are referencing or was referenced by 
California was the General Accounting Office's actualanalysis, 
done just a few years ago, that took a lot of the studies that had been 
done around the country and did some investigating themselves and found 
that at that point in time there was kind of a wash in terms of whether 
there was actually savings or not savings in privatization.
    Some States have experienced some savings. Other States had 
experienced the cost was greater, and so they found that, in 
general, there was not a guaranteed cost savings.
    I think that if any system is going into privatization just 
to save money, they are probably making a wrong decision. There 
are a lot of considerations that go into making the decision of 
whether to privatize.
    We have roughly 11 percent of our population in non-Bureau 
of Prisons facilities. We have been using privatization for 
many, many years, but we carefully select which entities we 
feel will best serve the Government, which populations will 
best serve the Government, which are most cost effective for 
us, which are the best all the way around in terms of which 
populations to privatize and which to not.
    I think if those decisions are made very prudently, then 
privatization has a clear role, a positive role in corrections 
in this country.
    I think when sometimes those decisions get made for perhaps 
the wrong reasons, whether it is because they believe they are 
going to save money, but they have not done the analysis yet or 
they are moving too rapidly and have not really tested the 
water in terms of what the correctional companies are really 
ready to take on in terms of higher security inmates and get 
into issues of public safety. That is where some decisions get 
made that can have some negative impacts in terms of public 
safety and cost.

       placement of classified prisoners in private institutions

    Mr. Dixon. Mr. Mollohan was asking about classification. 
What classification of prisoners of the Federal Government are 
placed in private----
    Ms. Hawk. The Federal Government places minimum and low, 
but as I said earlier, many States do not have a low 
classification. So we place minimum and low, not medium and 
high, and we will also place detention, which is kind of a 
mixture of the short-term, pretrial status of not really 
knowing for sure what is going to occur to them in sentencing.
    Mr. Dixon. Now, if you can, can you give a parallel of what 
classification of prisoner in the D.C. system is going, on your 
scale?
    Ms. Hawk. We have estimated so far--we really are in the 
process now of going in and trying to reclassify the entire 
7,000 inmates by our standards. So we will know precisely, but 
we went in about a year ago and did a random sampling, you 
know, statistically correct, but did a random sampling and 
determined that roughly 70 percent of the D.C.-sentenced felons 
are medium and high, which would leave 30 percent--would be in 
the minimum and low categories.
    In the Revitalization Act, we are required to privatize 
2,000 of the D.C. inmates by the end of 1999, and we feel that 
we can comfortably privatize the minimum and low security males 
and females in that 2,000 and not have to get into yet 
considering privatizing the medium and high security inmates 
where we get a little nervous in terms of public safety.
    Mr. Dixon. But I am asking at the present time, those 
prisoners that have been transferred, where would they fall on 
your classifications schedule?
    Ms. Hawk. I think probably Mr. Clark could answer that 
better than I. I think it is probably a mixture right now of 
medium and high.
    Mr. Clark. In the Bureau of Prisons classification scale, 
with which I am very familiar, the preponderance of the inmates 
in Ohio--and I assume you are talking about the Ohio inmates--
--
    Mr. Dixon. Yes.
    Mr. Clark [continuing]. Would be medium--low to medium, 
with some in a high security. Again, this is a matter of 
dispute, and we have not gone in and had an opportunity to 
view----
    Mr. Dixon. If I could just, Mr. Rogers, finish, please.
    Who is it a matter of dispute with?
    Mr. Clark. Well, no one has gone in and looked--well, no, 
it is a matter of dispute between the plaintiffs in the lawsuit 
in Ohio and the Department of Corrections and the CCA on the 
other hand. We have not gone in----
    Mr. Dixon. Setting that aside, what is your opinion of the 
classification of the prisoners that are being transferred from 
D.C. to Ohio?
    Mr. Clark. Well, I think the majority of them in the Bureau 
of Prisons would fall into medium or high security.
    Mr. Dixon. As I understand it, under your Federal rules, 
you would not be transferring those prisoners into private 
institutions?
    Ms. Hawk. That is basically the practice, yes. We would 
not.
    Mr. Dixon. Now, have you made a recommendation that those 
prisoners not be transferred because they are above the 
threshold of the Federal standard?
    Mr. Clark. No, I have not, sir. Again, this occurred 
previous to my coming into this position.
    Quite frankly, the District has very few alternatives. The 
Bureau of Prisons has alternatives where to put these higher 
security prisoners. Until there is a capacity within the Bureau 
of Prisons in several years to take these prisoners in, there 
is not a capacity at Lorton. There is nowhere else at this 
point--there is no other option. So it was kind of a forced 
fit.
    The facility in Ohio is a very well-built facility. I 
toured there, very strongly built. The issues are more with the 
operation, the significant degree of idleness that is there and 
so on, but if I had my druthers, I would recommend that they 
pull them out, but they do not have any other setting to move 
those prisoners to.
    Mr. Dixon. One final question, Mr. Chairman.
    Is there a private facility that has been established to 
handle this kind of prisoner, this medium-to-high risk?
    Mr. Clark. To my knowledge----
    Mr. Dixon. In other words, does D.C. have an alternative 
where they could go to a private organization that 
specializes----
    Mr. Clark. No, sir.
    Mr. Dixon [continuing]. In, say, administrative--the 
highest----
    Mr. Clark. To my knowledge, there is very little experience 
in the private companies in dealing with this type of inmate. 
This is one of the first tests of that capacity.
    Mr. Dixon. So would you say a combination of an increase in 
the prison population and the way that the law is written that 
D.C. at this point in time has little alternative as it relates 
to the classification of prisoners they send?
    Mr. Clark. That is a fair assessment, although, actually, 
their population has not increased. Their population has 
actually decreased in the last several yearsoverall. If it had 
increased, I hesitate to imagine the problems we would be facing today.
    Mr. Dixon. Until the year 2001, the District will still 
have jurisdiction over their Department of Corrections and will 
supervise the transfer of prisoners?
    Mr. Clark. Well, I see it as a gradual process. Between now 
and then, there will be a gradual outflow from the Department. 
So the size of the Department will continue to decrease between 
now and 2001. It will not be that we magically hit 2001 and 
something happens. We all agree with that, but at that point, 
yes, they--or up until that point, they would have the 
responsibility for a significant number of felons.

                    authority of corrections trustee

    Mr. Dixon. One final question. In this transitional period 
and based on the financial position, the financial 
responsibility position, there is always kind of a rub as to 
who has the authority. My question to you is: Is it clear that 
you have the authority that you need to implement these goals 
in your time frames, or are you being more of a diplomat here 
urging? Do you have the authority to do what Congress has 
mandated? Do you think you have the clear authority to get this 
job done?
    Mr. Clark. At this point, I think so, sir. I would hate to 
go beyond that.
    We are working closely with the Department----
    Mr. Dixon. Would that change tomorrow, you did not have the 
authority? I mean, either you have the authority or you do not 
have it.
    Mr. Clark. No. I do not think so. That is a difficult 
issue.
    We are dealing with a troubled system. It has been a 
troubled system for a long time. Everyone acknowledges that, 
and I think we are making progress with that.
    Mr. Dixon. That is not my question either.
    Mr. Clark. Yes, sir.
    Mr. Dixon. I mean, I think you are doing a wonderful job, 
but the question is, do you have the authority to reach the 
goal mandated by the Congress, not the persuasive authority, 
and maybe you are doing a good job in bringing this along, but 
do you have enough authority to do the job. Your initial answer 
is at this moment, you either have the authority to do it or 
you do not have the authority to do it. Maybe you are being 
persuasive. Do you have the authority to do what is required?
    Mr. Clark. My analysis at this point is that I do, sir.
    The alternative to give the Trustee, I guess, total 
operational authority has--whereas, it may have some upsides, 
it also has some downsides in terms of----
    Mr. Dixon. Particularly for you if you had it?
    Mr. Clark. Well, in terms of the responsiveness of the 
agency to someone who had been imposed on them at this point. I 
can see----
    Mr. Dixon. That is a structural problem here. As I said, we 
are going through that problem in another committee on this 
whole issue, but you feel comfortable you have the authority?
    Mr. Clark. At this point, yes, sir.
    Mr. Dixon. Thank you, Mr. Chairman.

              reduction of health care costs--telemedicine

    Mr. Rogers. Madam Director, we asked you to look at ways to 
reduce the health care costs in Corrections.
    Ms. Hawk. Yes, sir.
    Mr. Rogers. I understand you are doing some projects. Could 
you describe those for us?
    Ms. Hawk. Yes, Mr. Chairman. As I indicated, we have 
actually had a decrease in our health care per capita in the 
last year, although medical inflation is going up at a rate of 
6 to 7 percent a year. Our medical costs went down almost 2 
percent in the last year. We envision it continuing to go down 
as we initiate a number of new ways of doing business and some 
creative ways of doing business that are going to bring our 
costs down.
    Some of it involves simply restructuring our staff and 
relying--we traditionally have relied very heavily on 
physicians and physician assistants to be our primary care-
givers in health care, 24 hours a day in our institutions. We 
are finding that restructuring some of that staffing and using 
different staff, RNs, LPNs, and EMTs, on especially the 
midnight shifts and evening shifts, we are seeing significant 
savings.
    Another area that we are pursuing very aggressively is 
telemedicine. We have been doing a pilot for the last 18 
months. It has just come to an end, actually, this month, and 
we anticipate the report very soon.
    We have initiated telemedicine pilots at two 
penitentiaries, Lewisburg and Allenwood, Pennsylvania, and our 
medical facility in Lexington, Kentucky. They are working in 
conjunction with the VA Hospital in Lexington, Kentucky. 
Although we do not have the final report, we had the study done 
by an outside consultant, Abt Associates, and they will 
complete the report very soon. We are very optimistic that we 
are going to see some significant savings there and look to 
spread that across to other institutions.
    I mentioned, in reference to Mr. Latham's question earlier, 
our pharmacy formulary. We have gone to a totally different way 
of purchasing medications and supplies, tapping into larger 
bulk purchases which enable us to cut the costs significantly. 
We are doing more sharing of services across institutions that 
are geographically, relatively close together. There are just a 
number of things that we are doing where we are finding a 
significant savings in cost.
    Mr. Rogers. I would think if the telemedicine mechanically 
works that you could save enormous amounts of transportation 
costs.
    Ms. Hawk. That is the other benefit, transportation costs 
and public safety. That is why we tried the pilots initially at 
penitentiaries, because some of these individuals, we really do 
not like taking out into the community for a medical evaluation 
or diagnosis or whatever. So you have the cost savings, plus 
the additional savings in public safety, and as long as it is 
cost effective, which is the bottom-line analysis in terms of 
working with some of the providers, as long as it is cost 
effective, I think we are going to reap many benefits from 
telemedicine.
    Mr. Rogers. We are interested in knowing as quickly as you 
receive the reports what it looks like.
    Ms. Hawk. Yes, sir.
    [The information follows:]

                      Report on Telemedicine Study

    We anticipate receiving the first draft of the results of 
the telemedicine study from the private contractor, Abt 
Associates, Inc., Cambridge, Massachusetts by the end of April, 
1998. Once the report has been reviewed and put in final form, 
it will be transmitted to the Committee.

    Mr. Rogers. It is something that we would like to encourage 
if it is cost effective, and it sounds like it has to be. It 
would certainly be safer and less expensive to use telemedicine 
than transporting the prisoner under guard for a day to a 
doctor's office a long way outside of prison grounds and 
finding out in the end that it was a malingering problem in the 
first place.
    Ms. Hawk. Yes, sir.
    We had piloted it back a few years ago and tested it out, 
and at that time, the equipment was very expensive. There were 
not many hospital providers willing to really get involved in 
it.
    So an earlier time, it was not cost effective, but the 
technology has advanced. The whole acceptance, I think, of 
medical providers of telemedicine has advanced dramatically. So 
we think now is truly the time that we are going to find 
significant savings.
    Mr. Rogers. Well, as you have indicated, hospitals are 
doing this routinely now----
    Ms. Hawk. Yes.
    Mr. Rogers [continuing]. In the medical offices, and I am 
told that the Navy does practically--well, a good portion of 
their worldwide medicine from aircraft carriers and other ships 
directly to Bethesda Naval Hospital routinely.
    Well, we encourage you in that regard.
    Ms. Hawk. Yes, sir.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.

                 oversight of private facility in ohio

    Mr. Clark, do you know the respective classifications of 
the victim and the perpetrator in the Youngstown murder?
    Mr. Clark. From yesterday, sir?
    Mr. Mollohan. Yesterday, yes.
    Mr. Clark. No. I have no knowledge of that.
    Mr. Mollohan. What is the name of the private firm that is 
running that facility?
    Mr. Clark. The Corrections Corporation of America owns and 
runs the facility.
    Mr. Mollohan. They built it?
    Mr. Clark. Yes, sir.
    Mr. Mollohan. What is the name of the private firm that is 
oversighting that facility?
    Mr. Clark. Pulitzer Bogard. It is a consulting firm.
    Mr. Mollohan. Can you tell us something about the 
consulting oversight firm?
    Mr. Clark. It is a small firm that has been providing 
consultation to the District for several years. They have some 
expertise on the one side in facilities and architecture, and 
then they have some other folks who have some experience in 
prison management.
    Mr. Mollohan. What is the scope of their oversight 
responsibility?
    Mr. Clark. They have a contract with the District, in my 
understanding, to provide the full oversight of all aspects of 
management, security, health services, food operations, and so 
on, and to provide reports to the District and to go into the 
institution and see that the recommendations that they have 
made are followed up on.
    Mr. Mollohan. In other words, the District has hired them 
to do an assessment. What is the name of the company?
    Mr. Clark. Corrections Corporation of America.
    Mr. Mollohan. They are responsible for the operation of 
that facility.
    Mr. Clark. That facility and the correctional treatment 
facility in Southeast D.C.
    Mr. Mollohan. Have you, in the context of your 
responsibilities here, had an opportunity to review any of the 
reports that the oversight company have given the District with 
regard to the operation of that facility by the Corrections 
Corporation of America?
    Mr. Clark. I have asked for those reports. I have only been 
provided with a couple of those reports recently.
    As I mentioned earlier, I have concerns with the adequacy 
of the oversight and the adequacy of the follow-up on the 
oversight.
    Mr. Mollohan. First of all, you are having difficulty 
getting copies of the reports from the oversight company to the 
District?
    Mr. Clark. Well, I mean, to be frank, I had not gotten----
    Mr. Mollohan. Can I say something about that?
    Mr. Clark. Let me put it this way.
    Mr. Mollohan. I suggest you be frank.
    Mr. Clark. Yes, sir.
    Mr. Mollohan. Have you had trouble getting the reports? 
Have you requested them?
    Mr. Clark. I requested the reports in the fall, and I got 
the initial report shortly after I had come into office, and I 
had visited there. I got a report.
    I had not gone back and requested any reports until----
    Mr. Mollohan. What did you request?
    Mr. Clark. Any reports that had been done.
    Mr. Mollohan. Any and all reports that had been done?
    Mr. Clark. Yes. And I received----
    Mr. Mollohan. And you did not----
    Mr. Clark. No, I received--at that point, I received one 
report that had been done. I had not gone back until recently. 
With all the other things that I was involved with, I had not 
asked for any follow-up reports.
    I recently asked for any and all additional reports that 
had been done, and it took a little while to get those reports. 
I wanted our staff, before they went out there, to have access 
to those reports. They did receive them several days before 
they left.
    Mr. Mollohan. Your testimony is that you have received all 
of the reports?
    Mr. Clark. I do not know if I have received all of them. I 
have received several reports.
    Mr. Mollohan. Are you going to find out whether you 
received them or not?
    Mr. Clark. Yes, sir.
    Mr. Mollohan. Would you let the Committee know the answer 
to that question?
    Mr. Clark. Yes, sir, I will.
    Mr. Mollohan. And would you make available to the 
Committee, upon request, any and all those reports that you 
receive?
    Mr. Clark. Certainly. Yes, sir.
    Mr. Mollohan. In regard to these incidents, do you know if 
the Bureau of Prisons, particularly given this new association, 
has been called upon to assist in these investigations in any 
way?
    Mr. Clark. No, sir. To my knowledge, they have not been 
called upon, except that I did recommend after the more 
recent--after the killings that the Department undertake 
something akin to what the Bureau of Prisons would do in terms 
of an after-action report to send a team in to look, and I know 
that they have requested at least some guidance from the Bureau 
of Prisons in terms of the way the Bureau of Prisons would go 
about that, and that has only been within the last day or two.
    Mr. Mollohan. Director Hawk, has the Bureau of Prisons been 
asked to assist in an investigation of anyof the incidents?
    Ms. Hawk. To the best of my knowledge, we have not been 
asked to assist with any of the investigations at all.
    I do believe, as Mr. Clark indicated, that D.C. staff did 
ask our staff how we go about doing a review when we do one, 
but they did not ask for our assistance in performing the 
review.

                           construction costs

    Mr. Mollohan. There has been a lot of discussion about the 
cost of construction. Could you give us an estimate of how much 
the cost of operating these new facilities is going to be, and 
what your press is going to look like in the future with regard 
to operations?
    Ms. Hawk. Operating costs for us vary across the different 
security levels, as you know. Our average annual per-capita per 
inmate to include overhead and total cost from the Bureau of 
Prisons, except for construction, runs approximately just under 
$22,000. The reality is that is a reduction in our per-capita.
    Just as in health care, we have been initiating a number of 
things to bring our costs down. We have also been initiating 
things to bring our costs down across our full spectrum of 
institutions, and we realize that in the reduction of costs 
this past year, which I think is especially noteworthy in that 
our overcrowding has come down during that time. Obviously, the 
way to reduce your cost is to crowd up your institutions and to 
put as many inmates in as you possibly can. So, when your 
crowding is high, your costs should be lower. However, we are 
managing to achieve a reduction in per-capita costs, at the 
same time, we are bringing our crowding levels down, which 
suggest some very different ways of approaching our 
institutions.
    If you look just at the six institutions we are asking for 
in terms of the increase of the D.C. population, we are talking 
about an overall increase of roughly $175 to $200 million per 
year for the six institutions combined. So, once they are up 
and running, that is the kind of money we would be seeking for 
operational funds.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Dixon, do you have anything further?
    Mr. Dixon. Just one.
    Were you on board at--the facility in Southeast Washington, 
I assume, is the facility that was built with Federal money?
    Mr. Clark. The correctional treatment facility that is 
attached to the jail, sir. That is the only facility that I am 
aware of, myself. Yes, sir.
    Mr. Dixon. It was sold by the District. Is that the one?
    Mr. Clark. Yes, sir.
    Mr. Dixon. And then leased back?
    Mr. Clark. Yes, sir.
    Mr. Dixon. Right. Were you on board when that occurred?
    Mr. Clark. No, sir.
    Mr. Dixon. You came at an opportune time, after all of the 
incidents.
    Now there is a lease-back arrangement?
    Mr. Clark. Yes, sir, for about $2.6 million a year.
    Mr. Dixon. Right. And the District was able to get some 
cash out of it. That was the----
    Mr. Clark. $52 million.
    Mr. Dixon. $52 million.
    Mr. Clark. It contributed to their $185-million surplus 
this year.
    Mr. Dixon. Then they are outlaying 2.6 in rent, so to 
speak.
    Mr. Clark. Yes, sir.
    Mr. Dixon. Then they have contracted out the supervision of 
that?
    Mr. Clark. Partially. They have one staff on site, but they 
also have contracted with this consulting agency to do most of 
the oversight. They, in turn, have subcontracted some of the 
oversight. For instance, the medical oversight of the facility 
is done by a doctor that they have so contracted.
    Mr. Dixon. What is the cost of that going to be to the 
District, the total package, per year?
    Mr. Clark. The----
    Mr. Dixon. I mean, the 2.6 is part of it, but the 
contracting out, the supervision of the private contractor is 
another part of it, and then there is medical and all the other 
stuff. What do you estimate it is going to be?
    Mr. Clark. Well, the total--I just do not have that figure, 
but the cost per day, per inmate there, including the 
oversight, the medical and so on, in the District's 
estimation--and I have no reason to disagree--is about $85 a 
day----
    Mr. Dixon. But that does not----
    Mr. Clark [continuing]. Which is fairly steep.
    Mr. Dixon. Yes, but what is it going to be annually? That 
is what I am trying to get here. How many prisoners are there?
    Mr. Clark. There are about 800 prisoners there.
    Mr. Dixon. So it did help them in their cash flow?
    Mr. Clark. It helped them in their cash flow.
    Mr. Dixon. They sold the property that was given to them, 
basically.
    Mr. Clark. Yes, sir.
    Mr. Dixon. They had a money problem.
    Mr. Clark. Yes, sir.
    Mr. Dixon. And then they are paying for services from the 
new owner of the facility.
    Mr. Clark. Exactly, yes.
    I believe the figure is somewhere around $25 million a 
year, but I do not have it at my fingertips, but I will 
certainly get back to you with that.
    Mr. Dixon. Right. $25 million, you think is----
    Mr. Clark. I am quite sure that their estimated cost per 
inmate, per day, is about $85 to $90, including everything, 
including----
    Mr. Dixon. Supervision, medical, the whole----
    Mr. Clark. The outside medical costs, everything, it is 
about $85 to $88 a day.
    Mr. Dixon. Thank you, Mr. Chairman.
    Mr. Rogers. Madam Director, at the conclusion of the last 
session, our office space out here was completely cluttered. 
Our staff was working day and night, 24 hours a day and 7 days 
a week, and the place was an absolute mess.
    I had ordered the place cleaned up and neatened up some. 
They have made some progress, but, in the process of cleaning 
up out there, they found an old book on construction of Federal 
prisons in 1949, almost 50 years ago, and I am going to present 
that to you this morning, so that you can see what we have 
learned from the past.
    It is also--stay with us, Julian.
    Mr. Dixon. Oh, yes. I am not leaving, Mr. Chairman.
    Mr. Rogers. It is also a memento of the fact that that 
office has not been cleaned up in 50 years. [Laughter.]
    There is no telling what else we will find out there, but 
it is interesting to note that in this book that the annual 
average pre-World War II cost of housing and care of an inmate 
was $4,100, and we are hoping that you can get back to that. 
[Laughter.]
    Ms. Hawk. We will sincerely try, sir.
    Mr. Rogers. So we have given you the manual on how it is 
done.
    Ms. Hawk. Okay.
    Mr. Rogers. I sincerely want to commend you for your 
efforts for keeping down the costs of running the Federal 
prison system. It is exorbitantly high, but it could be a lot 
higher. So you have done a wonderful job.
    Ms. Hawk. Thank you, Mr. Chairman.
    Mr. Rogers. So I want to present this to you, and we will 
do that as soon as the meeting closes down.
    If there is nothing further, we will adjourn the meeting.



[Pages 749 - 756--The official Committee record contains additional material here.]














                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bilchik, Shay....................................................   507
Brann, J. E......................................................   507
Bucella, D. A....................................................   387
Clark, John......................................................   691
Constantine, T. A................................................   387
Freeh, L. J......................................................   295
Hawk, K. M.......................................................   691
Meissner, Doris..................................................   585
Reno, Attorney General Janet.....................................     1
Robinson, L. O...................................................   507
Roper, Mike......................................................   691
Warren, M. L.....................................................   387














                               I N D E X

                              ----------                              
                                                                   Page
Attorney General.................................................     1
    Antitrust Division Increase..................................   225
    Asset Forfeiture Fund........................................   234
    Biography, Attorney General Janet Reno.......................    23
    Budget:
        Request..................................................     6
        Summary..................................................    24
    Bureau of Prisons, Budget Request............................    21
    CALEA.......................................209, 254, 255, 276, 285
    Campaign Financing...........................................   250
    Census, 2000.................................................   240
    Community Oriented Policing Service (COPS):
        Budget Request...........................................     3
        Initiative, new..........................................
          231, 233...............................................
        Police Officers Hired....................................
          226, 227...............................................
    Community Prosecution Program................................     9
    Community Relations Service..................................   236
    Computer Investigations and Infrastructure Threat Assessment 
      Center (CITAC).............................................   264
    Crime:
        Combat, Technology.......................................    10
        Hate.....................................................    18
        Indian Country...........................................    16
    Cybercrime Initiative........................................ 4, 11
    Defensive Civil Litigation...................................    19
    Discrimination:
        Federal Law Enforcement Officers.........................   292
        Police Departments.......................................   294
    District of Columbia Correctional Facilities:
        Funding..................................................   280
        Location.................................................   280
        Privatization, Plans.....................................   281
    Drugs:
        Initiative...............................................   228
        Trafficking.............................................. 4, 12
        Treatment, Prisoners.....................................   251
        War on...................................................   250
    Encryption Policy............................................   225
    Extradition, Mexico..........................................   287
    False Claims Act.................................242, 253, 268, 270
    Fingerprint Identification System IDENT/IAFIS.........214, 220, 260
    Forfeiture Issue, USDA-Justice Department..................235, 288
    Health Care Fraud Investigations.............................   267
    Immigration and Naturalization Service:
        Accomplishments..........................................   220
        Agents...................................................   262
        Budget Request...........................................
          5, 15, 21..............................................
        Citizenship, Revocation..................................   224
        Immigration Investigation................................
          218, 221, 243..........................................
    Independent Counsel:
        Act, Reauthorization.....................................   230
        Funding..................................................   249
        Investigation, Interior Secretary Bruce Babbitt..........
          217, 219, 278..........................................
    Indian Country:
        Crime....................................................    16
        Law Enforcement Initiative...............................
          240, 278...............................................
    Industrial Espionage.........................................   241
    Infrastructure Needs......................................5, 11, 19
    Inspector General, Office of the.............................   236
    Judicial Vacancies...........................................   291
    Juvenile Justice Programs...............................9, 229, 252
    Legal Services Corporation.................................237, 239
    Methamphetamine..............................................   233
    Mexico Extradition...........................................   287
    Narrowband Communications...................................20, 277
    National Crime Information Center (NCIC) 2000 Initiative.....   263
    National Infrastructure Protection Center (NIPC).............   264
    Palestinian Terrorism........................................   283
    Prosecutors Grant Program....................................     3
    Radiation Exposure Compensation..............................   290
    Questions for the Record.....................................   264
    Statement:
        Formal, Reno, Janet......................................     6
        Opening, Reno, Janet.....................................     2
    Telecommunications Carrier Compliance........................    20
    U.S. Marshals, Budget Request................................    21
    Violent Crime:
        Gangs....................................................     8
        Violence Against Women...................................  3, 9
    Winstar......................................................   274
    Youth Violence...............................................  3, 7
Federal Bureau of Investigation (FBI)............................   295
    Attrition Trend Chart........................................   349
    Biography, FBI Director, Louis J. Freeh......................   323
    Bombing Cases................................................   357
    Budget:
        Overview.................................................   297
        Summary..................................................   308
        Request for Field Agents.................................   342
    CALEA..................................300, 328, 339, 355, 358, 384
    Chairman's Opening Remarks...................................   295
    Challenges Facing the FBI..................................296, 303
    Civil Rights Enforcement.....................................   317
    Communications...............................................   321
    Conclusion...................................................   322
    Coordination with the Department of Defense..................   336
    Counterterrorism and Cybercrime:
        CITA Squads..............................................   310
        Computer Networks........................................   309
        Crime Enhancement........................................   298
        Cooperative Efforts......................................   385
        Strategy.................................................   351
    Criminal Enterprises.........................................   306
    Encryption...................................................   306
        Technology...............................................   338
    Espionage and Intelligence Activities........................   304
    Explosives Detention Taggant Capability Funding..............   334
    Explosives Research and Development..........................   333
    FBI Academy:
        Construction.............................................   319
        Improvements.............................................   300
    FBI Laboratory...............................................   337
    FBI/DEA Cooperative Efforts..................................   363
    FBI/INS Fingerprint Coordination.............................   327
    Hate Crimes................................................300, 317
    IAFIS-INS IDENT Duplication..................................   331
        Status...................................................   347
    Independent Counsel:
        Estimated Costs..........................................   343
        Impact of Staffing.......................................   340
        Investigations, CAMPCON..................................   345
        Positions, CAMPCON.......................................   345
        Staffing.................................................   327
    Indian Country Law Enforcement:
        Enhancement..............................................   299
        Protection of Victims....................................   315
    Information Sharing:
        OCIS.....................................................   299
        Initiative...............................................   346
        TECS Database............................................   313
    INS Electronic Fingerprint...................................   328
    International Training.......................................   353
    Legal Attaches...............................................   352
    Mexico Certification.........................................   335
        Recertification..........................................   383
        Staffing.................................................   352
    Misuse of FBI files..........................................   324
    Murder of American Citizens in Israel........................   380
    Narrowband Radio...........................................300, 321
    National Instant Background Check System:
        NCIC 2000................................................   333
        On-Line, Federal funding.................................   361
        Technical Conference.....................................   365
    National Guard Response Team.................................   383
    NCIC 2000....................................................   347
    NIPC.........................................................   347
    Outreach to the Technology Industry..........................   336
    Personnel System, FBI........................................   347
    Safe Trails Task Force.......................................   379
    Southwest Border Initiative:
        Coordination.............................................   336
        Initiative...............................................   335
        Mexican Narcotics........................................   382
    Statement, Freeh, Louis J:
        Formal...................................................   302
        Opening..................................................   296
    Strategic Management Focus:
        Budget Compliance........................................   307
    Technology Industry..........................................   336
    Telecommunications Carrier Compliance........................   320
    Terrorist Threats............................................   304
    Weapons of Mass Destruction..................................   305
        State and Local Preparedness.............................   313
Drug Enforcement Programs........................................   387
    Criminal Division:
        Activities:
            Caribbean Initiative.................................   460
            Federal Capital Cases................................   466
            Geographic Targeting Order...........................   463
            Heroin Strategy......................................   461
            International Efforts................................   468
            Marijuana............................................   462
            National Methamphetamine Strategy....................   460
            Southwest Border Initiative..........................   459
        Biography, Warren, May Lee...............................   475
        Budget Request...........................................
          443, 470...............................................
        Drug Control Strategic Plan, DOJ.........................
          441, 445, 495..........................................
        Drug, Problem............................................   476
        Drugs, War on............................................   483
        Drugs, Youth.............................................   485
        Mexico:
            Certification........................................   478
            Extraditions.........................................   477
            Government...........................................   480
        Organized Crime Drug Enforcement Task Force..............
          442, 452...............................................
        Statement:
            Formal...............................................   444
            Opening..............................................   441
    Drug Enforcement Administration:
        Agents, Mexico...........................................   482
        ARCOS-2..................................................   499
        Bi-National Task Forces..................................   481
        Biography:
            Constantine, Thomas A, DEA Administrator.............   419
            Marshall, Donnie R...................................   420
            Whetstone, James M...................................   421
        Budget:
            Request..............................................   413
            Strategies...........................................   389
        Caribbean:
            Funding..............................................   494
            Trafficking..........................................   493
        Certification, Mexico....................................   487
        Decertification, Colombia................................   483
        Drug Abuse Warning Network...............................   407
        Drug Diversion Control:
            ARCOS-2..............................................   499
            Control Fee Account..................................   497
            Positions, 1998......................................   500
        Drug-Related costs.......................................   394
        Drugs:
            Coca Production......................................   495
            Derivatives..........................................   489
            Heroin...............................................
              390, 395, 405......................................
            Ketamine.............................................   488
            Methamphetamine......................................
              390, 395, 407, 487, 489............................
            Prevention...........................................   491
            Solution, Family Structure...........................   492
            Strategy, War on.....................................   490
            Success Rate.........................................   492
            Trafficking..........................................
              390, 393, 398, 403, 493............................
        Indictment, Bowman David.................................   496
        Interdiction Operations:
            LIMELIGHT............................................
              397, 401...........................................
            META.................................................   408
            Mobile Enforcement Teams (MET).......................   410
            Organized Crime Enforcement Strategy.................   400
            RECIPROCITY..........................................
              397, 401...........................................
            Resources............................................   495
        Statement:
            Formal...............................................   392
            Opening..............................................   388
        Task Force Operations....................................   501
        Telecommunications, Impact of no Upgrade.................   496
        Questions for the Record.................................   497
    U.S. Attorneys:
        Biography, Bucella, Donna A..............................   437
        Budget Request...........................................
          422, 427...............................................
        Civil Defensive Litigation...............................
          423, 432...............................................
        Crime:
            Computer.............................................   431
            Indian Country, Violent..............................   430
        D.C., Resources for Criminal Activity....................   504
        Drug Strategy............................................   423
        Drugs, Youth.............................................   485
        Narcotics................................................   428
        Statement:
            Formal...............................................   424
            Opening..............................................   422
        Questions for the Record.................................   497
State and Local Law Enforcement..................................   507
    Community Oriented Policing Services (COPS)..................   528
        Biography, Director COPS, Joseph E. Brann................   541
        Budget Request, FY 1999..................................
          529, 538...............................................
        Community Policing.......................................   534
        COPS MORE Program........................................   577
        COPS Office..............................................   532
        COPS Program, Extension..................................   573
        Grants...................................................   570
        Grants, Meth.............................................   574
        Local Law Enforcement Block Grant Program................   572
        Versus COPS Grants.......................................   573
        New Cops, Retention of...................................   570
        Police Corps Program.....................................   578
        Statement, Joseph E. Brann, Director:
            Formal...............................................   531
            Opening..............................................   528
        Witnesses, Introduction of...............................   507
    Office of Justice Programs...................................   507
        Biography:
            Bilchik, Shay........................................   561
            Robinson, Laurie.....................................   527
        Block Grants, Juvenile Incentive.........................   576
        Chairman's Opening Remarks...............................   507
        Community-Based Prosecution, Weed and Seed...............   520
        Cooperative Agreement Program (CAP)......................
          575, 582...............................................
        Crime Rates, Decline.....................................   513
        Domestic Violence Programs...............................
          516, 583...............................................
        Drugs:
            Drug Treatment Initiatives...........................   581
            Drug Use and Crime...................................   510
            Drug Use and Crime, Breaking the Cycle...............   518
            Drug Use and Juveniles...............................   562
            Drug Use, Perceived Risk.............................   563
        Focus, What Works........................................   515
        Gangs and Youth Violence.................................   521
        Inititiatives:
            Drug Treatment.......................................   581
            Juvenile Drug Demonstration..........................   567
        Juvenile Justice & Delinquency Prevention:
            Anti-Drug Abuse Media Campaign.......................   565
            Budget Request, FY 1999..............................   542
            Budget Summary, FY 1999..............................   546
            Children-at-Risk Program.............................   568
            Juvenile Drug Demonstration Initiative...............   567
            Juvenile Drug Use....................................   562
            Juvenile Incentive Block Grants......................   576
            Missing & Exploited Children Programs................   549
            New Directions.......................................   557
            New Programs, 1998 Appropriation.....................   550
            Statistical Updates..................................   545
        Local Law Enforcement Block Grant Program................   572
            COPS Grants, Versus..................................   573
        Maryland Report on Crime Program.........................   568
        Media and Drugs:
            Anti-Drug Abuse Campaign.............................   565
        MORE Program, COPS.......................................   577
        Objectives, OJP..........................................   508
        Office of Justice Program Structure (OJP)................   579
        Programs, Other..........................................   524
        Questions for the Record.................................   584
            Cap on Hiring Grants, $75,000........................   584
        State Criminal Alien Assistance Program..................   582
        Statement, Laurie Robinson, AAG:
            Formal...............................................   511
            Opening..............................................   508
        Statement, Shay Bilchik, Administrator, Office of 
          Juvenile Justice and Delinquency Prevention:
            Formal...............................................   544
            Opening..............................................   542
        Structure, OJP...........................................   579
        Technology...............................................   523
        Violence, Domestic.......................................   516
        Weed and Seed, Community-Based Prosecution...............   520
        What Works, Focusing on..................................   515
        Witnesses, Introduction of...............................   507
        Youth Violence, Gangs....................................   521
Immigration and Naturalization Services (INS)....................   585
    Accomplishments............................................586, 643
    Agents, Number of Border Patrol..............................   682
    Anti-Smuggling, Anti-Terrorism and Overseas Deterrence.......   601
    Biography, INS Commissioner, Doris Meissner..................   624
    Border Enforcement.........................................592, 685
    Border Management Strategy...................................   611
    Border Patrol Station, Douglas, Arizona......................   635
    Border Security............................................682, 689
    Budget:
        Request..................................................
          585, 609...............................................
        Summary..................................................
          589, 623...............................................
    Checkpoint, Nogales, Arizona.................................   634
    Citizenship U.S.A.:
        Approvals, Erroneous.....................................
          647, 652...............................................
        Deportation of Improperly Naturalized....................   648
        Naturalization Improvements..............................
          587, 603, 672..........................................
    Congressional Relations and Public Affairs, Offices of.......   680
    Crossing Cards, New Border...................................   636
    Departure Control Systems:...................................
        Airports, Participating..................................   651
        Airports, Traffic into...................................   651
        Arrival/Departure Formulation............................   640
        Entry/Exit System........................................
          637, 650...............................................
    Deputization, Law Enforcement Officers.......................   649
    Detention Policy.............................................   678
    Drug Task Force, Tri-State...................................   648
    Drug Trafficking, Upper Midwest..............................   649
    IDENT System:
        Border Enforcement.......................................   685
        Compatibility............................................   632
        Development..............................................   630
        Illegal Crossings........................................   684
    Illegal Aliens, Removal of.................................595, 685
    Infrastructure, Institutional Improvement....................   618
    INSpect......................................................   606
    Interior Enforcement Initiative.............599, 614, 646, 673, 674
    Iraqis, Removal of...........................................   646
    Law Enforcement Communities, Cooperation with................   602
    Naturalization Backlog, New York.............................   689
    Personnel..................................................679, 680
    Questions for the Record.....................................   678
    Reorganization:
        Federal Border Control...................................   655
        INS......................................................
          607, 625, 655, 658.....................................
    Statement:
        Formal...................................................   590
        Opening..................................................   586
    Technology:
        Green Cards..............................................   681
        Improvements.............................................   597
        Year 2000 Conversion.....................................   642
    Terrorist Removal............................................   645
    Visa:
        H-1B Program.............................................   644
        Nurses...................................................   644
        Overstay Problem.........................................   642
        Processing Times.........................................   686
Bureau of Prisions, District of Columbia (D.C.) Corrections 
  Trustee........................................................   691
    Alien Detainees..............................................   733
    Authority of D.C. Corrections Trustee........................   742
    Biography:
        BOP Director, Kathleen M. Hawk...........................   702
        D.C. Corrections Trustee, John L. Clark..................   716
    Classification of D.C. Prisoners...........................722, 725
    Construction Costs...........................................   746
    D.C. Corrections Budget......................................   736
    D.C. Corrections Transfer:
        Employees................................................   718
        Funding..................................................   718
        Prisoners................................................
          717, 718...............................................
    D.C. Department of Corrections, Status.......................   708
        Work in Progress.........................................   710
    D.C. Revitalization Act......................................   695
    Death of Correctional Officer................................   729
    Detention Management Study.................................732, 734
    Federal Assumption of D.C. Corrections.......................   725
    Gangs........................................................   730
    Growth of Inmates:
        District of Columbia.....................................   721
        Federal..................................................   731
    Health Care:
        Costs for Inmates........................................
          727, 752, 755..........................................
        Generic Drugs............................................
          729, 756...............................................
        Pilot Program............................................
          728, 754...............................................
        Telemedicine.............................................
          743, 744...............................................
    Initiatives:
        1999 Budget..............................................   713
    Inmate Population Growth/Projections.........................   697
    Intelligence Gathering Effort................................   731
    Overcrowding, Progress in Reducing...........................   699
    Private Facilities:
        Classification...........................................   722
        Murders of Prisoners.....................................   723
        Oversight of Ohio Facility...............................   744
        Responsibilities for Prisoners...........................   737
        Security Levels..........................................   724
    Privatization:
        GAO Study................................................
          739, 759...............................................
        Placement of Classified Prisoners........................   740
        Privatization............................................   700
    Questions for the Record.....................................   749
        Drug Formulary...........................................   756
        Health Care Privatization Project........................   754
        Health Care Services of Inmates..........................   752
        Health Services Costs....................................   755
        National Capital Revitalization and Self-Government 
          Improvement Act of 1997................................   749
        Privatization of Correctional Facilities.................   750
    Revitalization Act:
        Impact...................................................
          726, 749...............................................
        Timeline.................................................   734
    Role of D.C. Corrections Trustee.............................   721
    Statement, John L. Clark:
        Formal...................................................   706
        Opening..................................................   704
    Statement, Kathleen Hawk:
        Formal...................................................   693
        Opening..................................................   691
    Witnesses, Introduction of...................................   691

                                <all>
</pre></body></html>
